<html>
<title> - DEPARTMENTS OF TRANSPORTATION, AND HOUSING AND URBAN DEVELOPMENT, AND RELATED AGENCIES APPROPRIATIONS FOR 2011</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
 DEPARTMENTS OF TRANSPORTATION, AND HOUSING AND URBAN DEVELOPMENT, AND 
                RELATED AGENCIES APPROPRIATIONS FOR 2011
_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED ELEVENTH CONGRESS
                             SECOND SESSION
                                ________
   SUBCOMMITTEE ON THE DEPARTMENTS OF TRANSPORTATION, AND HOUSING AND 
         URBAN DEVELOPMENT, AND RELATED AGENCIES APPROPRIATIONS
                 JOHN W. OLVER, Massachusetts, Chairman
 ED PASTOR, Arizona                      TOM LATHAM, Iowa
 CIRO RODRIGUEZ, Texas                   FRANK R. WOLF, Virginia
 MARCY KAPTUR, Ohio                      JOHN R. CARTER, Texas
 DAVID E. PRICE, North Carolina          STEVEN C. LaTOURETTE, Ohio
 LUCILLE ROYBAL-ALLARD, California
 MARION BERRY, Arkansas
 CAROLYN C. KILPATRICK, Michigan   

 NOTE: Under Committee Rules, Mr. Obey, as Chairman of the Full 
Committee, and Mr. Lewis, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
            Kate Hallahan, David Napoliello, Laura Hogshead,
                    Sylvia Garcia, and Eve Goldsher,
                           Subcommittee Staff

                                ________

                                 PART 4
                                                                   Page
 Department of Transportation.....................................    1
 Strengthening Intermodal Connections and Improving Freight 
Mobility..........................................................  265
 Strengthening Intermodal Connections and Fiscal Year 2011 Budget 
Requests..........................................................  345
 Federal Aviation Administration Fiscal Year 2011 Budget..........  531
 Maintaining a Safe and Viable Aviation System: Priorities From 
Aviation Stakeholders.............................................  609
 Intercity and Commuter Passenger Rail, and AMTRAK................  669
 National Highway Traffic Safety Administration...................  727

                                ________

         Printed for the use of the Committee on Appropriations






















PART 4--TRANSPORTATION, AND HOUSING AND URBAN DEVELOPMENT, AND RELATED 
                           AGENCIES FOR 2011
                                                                      




















 DEPARTMENTS OF TRANSPORTATION, AND HOUSING AND URBAN DEVELOPMENT, AND 
                RELATED AGENCIES APPROPRIATIONS FOR 2011
_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED ELEVENTH CONGRESS
                             SECOND SESSION

                                ________

   SUBCOMMITTEE ON THE DEPARTMENTS OF TRANSPORTATION, AND HOUSING AND 
         URBAN DEVELOPMENT, AND RELATED AGENCIES APPROPRIATIONS
                 JOHN W. OLVER, Massachusetts, Chairman
 ED PASTOR, Arizona                     TOM LATHAM, Iowa
 CIRO RODRIGUEZ, Texas                  FRANK R. WOLF, Virginia
 MARCY KAPTUR, Ohio                     JOHN R. CARTER, Texas
 DAVID E. PRICE, North Carolina         STEVEN C. LaTOURETTE, Ohio
 LUCILLE ROYBAL-ALLARD, California
 MARION BERRY, Arkansas
 CAROLYN C. KILPATRICK, Michigan    


 NOTE: Under Committee Rules, Mr. Obey, as Chairman of the Full 
Committee, and Mr. Lewis, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
            Kate Hallahan, David Napoliello, Laura Hogshead,
                    Sylvia Garcia, and Eve Goldsher,
                           Subcommittee Staff

                                ________

                                 PART 4
                                                                   Page
 Department of Transportation.....................................    1
 Strengthening Intermodal Connections and Improving Freight 
Mobility..........................................................  265
 Strengthening Intermodal Connections and Fiscal Year 2011 Budget 
Requests..........................................................  345
 Federal Aviation Administration Fiscal Year 2011 Budget..........  531
 Maintaining a Safe and Viable Aviation System: Priorities From 
Aviation Stakeholders.............................................  609
 Intercity and Commuter Passenger Rail, and AMTRAK................  669
 National Highway Traffic Safety Administration...................  727

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

62-352 PDF                       WASHINGTON : 2010 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 





















                      COMMITTEE ON APPROPRIATIONS

                   DAVID R. OBEY, Wisconsin, Chairman

 NORMAN D. DICKS, Washington               JERRY LEWIS, California
 ALAN B. MOLLOHAN, West Virginia           C. W. BILL YOUNG, Florida
 MARCY KAPTUR, Ohio                        HAROLD ROGERS, Kentucky
 PETER J. VISCLOSKY, Indiana               FRANK R. WOLF, Virginia
 NITA M. LOWEY, New York                   JACK KINGSTON, Georgia
 JOSE E. SERRANO, New York                 RODNEY P. FRELINGHUYSEN, New   
 ROSA L. DeLAURO, Connecticut                Jersey
 JAMES P. MORAN, Virginia                  TODD TIAHRT, Kansas
 JOHN W. OLVER, Massachusetts              ZACH WAMP, Tennessee
 ED PASTOR, Arizona                        TOM LATHAM, Iowa
 DAVID E. PRICE, North Carolina            ROBERT B. ADERHOLT, Alabama
 CHET EDWARDS, Texas                       JO ANN EMERSON, Missouri
 PATRICK J. KENNEDY, Rhode Island          KAY GRANGER, Texas
 MAURICE D. HINCHEY, New York              MICHAEL K. SIMPSON, Idaho
 LUCILLE ROYBAL-ALLARD, California         JOHN ABNEY CULBERSON, Texas
 SAM FARR, California                      MARK STEVEN KIRK, Illinois
 JESSE L. JACKSON, Jr., Illinois           ANDER CRENSHAW, Florida
 CAROLYN C. KILPATRICK, Michigan           DENNIS R. REHBERG, Montana
 ALLEN BOYD, Florida                       JOHN R. CARTER, Texas
 CHAKA FATTAH, Pennsylvania                RODNEY ALEXANDER, Louisiana
 STEVEN R. ROTHMAN, New Jersey             KEN CALVERT, California
 SANFORD D. BISHOP, Jr., Georgia           JO BONNER, Alabama
 MARION BERRY, Arkansas                    STEVEN C. LaTOURETTE, Ohio
 BARBARA LEE, California                   TOM COLE, Oklahoma
 ADAM SCHIFF, California
 MICHAEL HONDA, California
 BETTY McCOLLUM, Minnesota
 STEVE ISRAEL, New York
 TIM RYAN, Ohio
 C.A. ``DUTCH'' RUPPERSBERGER, 
   Maryland
 BEN CHANDLER, Kentucky
 DEBBIE WASSERMAN SCHULTZ, Florida
 CIRO RODRIGUEZ, Texas
 LINCOLN DAVIS, Tennessee
 JOHN T. SALAZAR, Colorado
 PATRICK J. MURPHY, Pennsylvania    

                 Beverly Pheto, Clerk and Staff Director

                                  (ii)


 DEPARTMENTS OF TRANSPORTATION, AND HOUSING AND URBAN DEVELOPMENT, AND 
                RELATED AGENCIES APPROPRIATIONS FOR 2011

                              ----------                              

                                       Wednesday, February 3, 2010.

INVESTMENTS IN TRANSPORTATION IMPROVEMENTS: THE FISCAL YEAR 2011 BUDGET 
              REQUEST FOR THE DEPARTMENT OF TRANSPORTATION

                               WITNESSES

HON. RAY LaHOOD, SECRETARY, DEPARTMENT OF TRANSPORTATION
CHRISTOPHER BERTRAM, ASSISTANT SECRETARY FOR BUDGET AND PROGRAMS AND 
    CHIEF FINANCIAL OFFICER, DEPARTMENT OF TRANSPORTATION

                    Chairman Olver's Opening Remarks

    Mr. Olver. The appointed time having got past us slightly, 
the hearing will be in order.
    We have as our guest today Cabinet Secretary Ray LaHood 
from the Department of Transportation.
    Welcome, Mr. Secretary.
    Secretary LaHood. Thank you.
    Mr. Olver. Welcome to the subcommittee. You have known of 
the committee's workings before. We are very happy to have you 
back again.
    I want to thank you for coming before us to explain the 
President's 2011 budget submission and the request from the 
Department of Transportation. You have been on the job now just 
over a year, and nearly your entire leadership team is in 
place. During this time, the Department has taken a number of 
successful steps forward to transform and modernize the 
transportation system. In particular, the Recovery Act provided 
you with an opportunity to rebuild faltering infrastructure and 
to lay the foundation for transformative new initiatives and to 
create tens of thousands of new jobs.
    However, this transformation has been hindered by some of 
the same complications that we faced last year; namely, a lack 
of progress on the long-term surface and aviation 
authorizations and the continued insolvency of the Highway 
Trust Fund.
    It is my understanding that the Department embarked on a 
surface transportation reauthorization outreach tour as a first 
step in developing the administration's reauthorization 
proposals. Given the national and long-term impacts and changes 
the authorization and financing structure will have, I believe 
the administration must exert great leadership in this area, 
and I will look forward to seeing the product of your tour.
    The President's budget has two important and complex goals; 
namely, reducing our national debt and sustaining an 
environment for continued economic growth that produces good-
paying jobs for the American people. The subcommittee's 
challenge will be to produce a bill that is fiscally 
responsible and yet doesn't stifle the momentum that was 
created from the critically important infrastructure 
investments that were made last year and that will continue to 
be made this year.
    The 2011 budget proposal before us requests a total of $78 
billion, roughly. I hope that is the largest difference we 
have--I think your testimony suggests it is $79 billion, but we 
will not quibble about the one--for the agencies and programs 
within the Department of Transportation. That includes a modest 
increase of roughly $2 billion, a 2\1/2\ percent increase from 
fiscal year 2010.
    The Department of Transportation's budget request proposes 
some significant new initiatives. In particular, I am very 
pleased to see the inclusion of $527 million for the Livable 
Communities Initiative. As you and Secretary Donovan testified 
before this subcommittee last year, transportation and housing 
are inextricably linked but for too long have been treated as 
separate spheres.
    I look forward to hearing more about the Department's plans 
to improve coordination with EPA and HUD and, as importantly, 
within DOT's own agencies; namely, Federal Highway and Federal 
Transit.
    Additionally, I am interested to hear more details about 
the $4 billion National Infrastructure Innovation and Finance 
Fund, which appears to be a hybrid between the infrastructure 
bank proposal from last year and the TIGER grant application 
program, which was established in the Recovery Act. The demand 
for TIGER grants has emphasized the immense need for 
transportation investments that improve the movement of 
passengers and freight among multiple transportation modes.
    Within aviation, I am pleased that the budget request 
continues the administration's commitment to the FAA's Next 
Generation Air Transportation System, better simply known as 
NextGen. This program is vital to our efforts to accommodate 
growth in air traffic and to reduce delays by increasing the 
efficiency of the management of our air space.
    Finally, the Department must remain vigilant when it comes 
to the agency's core safety mission. The last time highway 
fatalities dropped below 40,000 was in 1992, which coincides 
with the last time this country faced a serious economic 
crisis. However, as the country's economy started to recover in 
the mid to late 1990s, Americans returned to their vehicles, 
and we saw significant growth in vehicle miles traveled, and 
unfortunately, we also saw a steady year-by-year increase in 
the number of highway fatalities. Today, the latest figures 
from NHTSA show that highway fatalities in 2008 were slightly 
above 37,000, which is the lowest level since 1961.
    Americans are driving less during our current economic 
downturn. As the economy recovers and people travel more, DOT 
will need to remain focused on continued safety improvements 
across our transportation network. In particular, the recent 
transit tragedies here in the Washington area and in other 
parts of the country certainly underscore the need for Federal 
oversight and minimum safety standards.
    Mr. Secretary, we all know that we are entering a tough 
budget year. The fact remains that our infrastructure needs are 
great. Many roads, bridges, and airports require basic repair 
and maintenance. Many communities are stifled by congestion and 
are in need of additional highway and transit capacity, and we 
must continue to support alternative solutions, such as high-
speed rail, that have the potential to transform transportation 
networks.
    Last year, I expressed my sincere hope that, under your 
leadership, we could break out of the historical practice of 
transportation silos and focus on comprehensive approaches that 
reduce congestion, improve mobility, increase affordability, 
and reduce environmental impacts through safe and efficient 
transportation system. In the last year, you have taken 
significant steps in that direction. I look forward to working 
with you to maintain that progress through the fiscal 2011 
budget.
    Now, before you have your chance, I will turn this over to 
my ranking member, Mr. Latham from Iowa.

                Ranking Member Latham's Opening Remarks

    Mr. Latham. Thank you very much, Mr. Chairman. I look 
forward to the hearings this year. We have got a lot of work to 
do, obviously.
    Mr. Secretary, welcome on this very snowy day. It is also a 
pleasure to see you here at the subcommittee. I am going to 
keep my remarks to a minimum because we have a mere 2 hours to 
cover the $79 billion you have requested for fiscal year 2011 
and to inquire about plans for the almost $76 billion you 
received just a few weeks ago. The fiscal year 2010 provides 
some oversight on the $67 billion that the Department received 
in fiscal year 2009, plus about $48 billion received under the 
stimulus bill. That is about $270 billion, or $2.25 billion per 
minute. So I guess we had better talk fast and get underway as 
far as to doing some oversight.
    So, last year, we were facing bankruptcy in the Highway 
Trust Fund, a lack of authorizations for the surface and 
aviation programs and a bleak economic and employment situation 
across the country. We seem to have a bit of deja vu as we have 
all the same obstacles, and now we have a disturbing level of 
national debt which we are all concerned about. I think we were 
all hoping that some of the issues were going to be resolved 
last year. Our States do not need another short-term repaving, 
heavy, quote, ``stimulus bill,'' and these short-term 
extensions do not allow States to do the planning and executing 
of the need for a real highway construction and maintenance 
program.
    I think we need a real bill. I think it would be helpful, 
and it would get the ball rolling if the administration would 
put forth a bill on paper to bring forth to the Congress. I do 
not think we really need more listening sessions. We have all 
heard from our constituents at home and in the States.
    So as we embark on a new budget cycle, we look forward to 
working with you and the Department. I have had the pleasure of 
meeting with a number of your administrators and assistant 
secretaries, which I appreciate very, very much, and I am sure 
we will be able to have a good dialogue and will be able to 
resolve many of these issues.
    Because we have such a short time with you today and a lot 
of ground to cover--I know the chairman is working on a 
schedule on a number of different topics this year--I would 
like to make sure, and maybe have a commitment from you, that 
we have the appropriate person from the Department as witnesses 
as we look at these different proposals that are out there so 
that we can do our homework. If we get that commitment from 
you, I think it is very important to do the kind of oversight 
that we need.
    Secretary LaHood. You have it.
    Mr. Latham. So with that, thank you very much, my good 
friend, Mr. LaHood.
    I yield back, Mr. Chairman.
    Mr. Olver. Thank you, Mr. Latham.
    Mr. Secretary, the floor is yours. As usual, your complete 
written statement will go into the record, but the floor is 
yours.

                     Mr. LaHood's Opening Statement

    Secretary LaHood. Thank you, Mr. Chairman.
    I am delighted to be joined here by the assistant secretary 
for budgets and chief financial officer, Chris Bertram. Chris 
has worked very hard with OMB in putting our budget together.
    I am delighted to be here, and I thank you for the 
opportunity to discuss the fiscal year 2011 budget request.
    I have traveled to more than 30 States, 65 cities last 
year, and I have seen firsthand how much our citizens depend on 
a safe, modern, and reliable transportation system to access 
jobs, health care, and other essential services.
    The President's request for this year totaled $79 billion, 
a $2 billion increase over fiscal year 2010 levels. These 
resources will support the President's and DOT's top 
transportation priorities for safety on the roads and in the 
air, making communities livable and sustainable and modernizing 
our infrastructure. Safety is our number one priority at DOT.
    Our leadership campaigns against the perils of distracted 
driving, which kills thousands of Americans every year. It has 
been very effective. It is critical we continue to lead the 
charge. That is why we are seeking $50 million for the National 
Highway Traffic Safety Administration to develop an incentive-
based grant program, encouraging more States to pass laws 
prohibiting the unsafe use of phones and texting while driving. 
The President is also asking for 66 additional personnel 
assigned to the highway and vehicle safety issues at NHTSA.
    In the area of transit safety, we are seeking $30 million 
to establish a new transit safety oversight program within the 
Federal Transit Administration. This program will carry out a 
comprehensive safety oversight strategy by establishing common 
safety standards nationwide, as envisioned in the 
administration's transit safety bill. This is an important step 
forward for rail transit and industry, which has suffered 
recent accidents in Washington, D.C., Boston and San Francisco. 
This is unacceptable, and we must put strong remedies in place 
as soon as possible. I am urging Congress to pass this 
legislation this year. Transportation must not only be safe but 
also contribute to livable and sustainable communities.
    Chairman Olver, Mr. Latham, and committee members, thanks 
for your leadership and this committee's focus on livable 
communities over the years.
    The President's plan provides record level investments to 
make our communities more livable. Specifically, we are seeking 
$527 million for livable communities, which will help us build 
on the tremendous successes we have achieved through our 
sustainable partnerships with HUD and EPA. Together, we are 
helping States and local governments make smarter investments 
in their transportation, energy, and housing infrastructure 
with better outcomes for our citizens. Our groundbreaking 
infrastructure in high-speed passenger rail, which has 
generated tremendous excitement around the country, will go a 
long way to enhance livability in many communities. Our budget 
seeks $1 billion to continue the $5 billion 5-year pledge 
Congress made in this year's budget.
    I want to thank you, Mr. Chairman, Mr. Latham and the 
committee, for your commitment and leadership on high-speed 
rail so far. The $2.5 billion your committee provided the 
Department for high-speed rail grants last year, combined with 
$8 billion, which we announced last week, brings us closer to 
ushering in a new era for passenger rail service in this 
country.
    Going forward, we must find new ways to finance 
infrastructure. We have requested $4 billion to establish a new 
infrastructure innovation finance fund. These first-year funds 
would be used to invest in multi-modal transportation projects 
of regional and national significance. Our cross-cutting, 
outcomes-based approach to funding will enable us to move away 
from the silo mentality that has long hindered our ability to 
respond to local and regional needs.
    On reauthorization, the President proposes to continue 
current spending levels with $42.1 billion for highways and 
bridges and $10.8 billion for transit. This request includes 
$150 million to enable the Washington Metropolitan Area Transit 
Authority to address much needed safety-related infrastructure 
improvements.
    Turning to aviation, the President's plan includes $1 
billion for NextGen, the program to modernize our air traffic 
control system. That is a $275 million, or a 32 percent, 
increase over fiscal 2010 levels. These funds are essential for 
transitioning from a ground-based radar surveillance system to 
more accurate satellite-based system. This system is already in 
use in the Gulf of Mexico, and we look forward to building on 
our success in this area.
    Finally, we are seeking $30 million to make more long-term, 
long overdue investments/improvements in the U.S. Merchant 
Marine Academy. This has been a goal of mine from the very 
beginning. I want to make the Merchant Marine Academy the jewel 
that the other academies are. We have wonderful, wonderful 
students there, over 900. They work very hard, and we want to 
make sure the facilities are there for them to accomplish their 
academic goals. We just completed a blue ribbon report, which 
we will be happy to give to the committee. The report outlines 
in great detail the infrastructure improvements that are needed 
at the Merchant Marine Academy.
    I look forward to your questions.
    [The statement of Secretary LaHood follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                          LIVABLE COMMUNITIES

    Mr. Olver. Thank you, Mr. Secretary.
    We will follow the procedure of each of us, in turn, having 
5 minutes per round of questioning. Hopefully, in the 2 hours, 
now an hour and 40 minutes, we will be able to do at least a 
couple of rounds right down the line.
    So with that, Mr. Secretary, your budget request includes, 
as I have mentioned and you have reiterated, $527 million for 
the Livable Communities program to support initiatives that 
increase transportation choice and that integrate housing and 
land use into transportation decisions. I am pleased to see 
that you are working closely with HUD and with the EPA and 
others, I understand at least. Maybe you can say more about 
this effort.
    I am curious. What actually is your concept of how the $527 
million that you are asking for here, which is a new item, an 
important item--how that is to be deployed over the period of 
the fiscal year for which we are working?
    Secretary LaHood. Well, since last year, we have had a 
working group within the three agencies of staff that has 
worked together to develop plans for the use of this money. We 
also have traveled around the country, and have looked at 
places in the country where governors and mayors have put 
together plans for not only livable communities but livable 
neighborhoods.
    When I was in Congresswoman Roybal-Allard's area, I saw the 
kind of transportation system that goes through neighborhoods 
from downtown Los Angeles and connects people to grocery 
stores, drug stores, and good housing. That is the kind of 
approach that we are really looking at in terms of where people 
want to live. Some people may want to bike to work. When I was 
in Portland, Oregon, I drove to the streetcar event. I saw over 
100 people biking to work that day.
    Look, there are all forms of transportation that Americans 
are considering in order to get out of their cars. We know 
people are always going to have cars. We know they are always 
going to want to use their automobiles, but we also know that 
people want to get out of congestion. They want different forms 
of transportation, whether it is bus, light rail, walking, 
biking paths, or other opportunities. So, we are working with 
HUD to make sure that there is housing availability.
    We were in Dubuque, Iowa, and saw what they were doing in 
the millworks area. They had an area of downtown where IBM 
decided to come in with 1,500 new employees, take over an old 
downtown department store, and relocate these 1,500 employees. 
The mayor and the community leaders decided to take this old 
millwork area and completely redevelop it. They are going to 
need some transit. They are going to need some forms of 
transportation. Some people will be able to walk to work.
    These are the kinds of innovative approaches, combining our 
resources with HUD, with EPA, that will really create the kind 
of neighborhoods and communities where people can attract 
business, attract jobs, and create the kind of housing stock 
and transportation forms that people really want.
    Mr. Olver. Do you anticipate a joint NOFA for the funds 
here from the three departments which have a role in this 
initiative?
    Secretary LaHood. Yes. I think we will begin looking at 
things that have worked around the country and then make 
similar opportunities available for communities that want to 
attract new jobs, attract new business, and really create 
different forms of transportation.
    Mr. Olver. I have to comment, Mr. Secretary, on your 
finding of the 100 bicyclists that you saw. There were probably 
a few thousand using bicycles in the Portland area. If you go 
to Copenhagen--some people here may have been to Copenhagen 
very recently. Mine was a little longer ago. I very carefully 
checked into how they were dealing with their complex 
transportation system in that roughly 2 million metropolitan 
area. About a half a million come in by bicycles. About a half 
a million come in by cars in their daily use. About a half a 
million come in by bus and subway types--light rail and rail 
systems. So there are ways that this can work very, very well.
    Secretary LaHood. Right.
    Mr. Olver. We have very clear examples.
    Secretary LaHood. Let me just say that when I was in 
Detroit with Congresswoman Kilpatrick we had a meeting with a 
number of her stakeholders. They want to get into this idea of 
creating more options with transit and bus, and so forth. They 
have just elected a new mayor there, and thanks to Ms. 
Kilpatrick's leadership, again, our livable community will fit 
into the kind of things that your folks have been talking about 
there.
    Mr. Olver. Thank you, Mr. Secretary.
    Mr. Latham.

                         TOYOTA RECALL RESPONSE

    Mr. Latham. Thank you very much, Mr. Chairman.
    One issue that has come before us, obviously recently, is 
the situation with Toyota. I just am curious if you could tell 
us what the Department is doing, NHTSA.
    Are you equipped to investigate and to find out what 
happened? Is there a computer problem or do we know exactly 
what is going on?
    Secretary LaHood. We know, as a result of our 
investigation, that Toyota now has determined the fix for the 
pedal problem that has caused the uncontrolled acceleration, 
but we also had complaints about the electronics. We will be 
investigating the electronic components that are in these cars 
to make sure that they are safe. If they are not, we will have 
Toyota begin to take a look at that, and so--we are in 
discussions with Toyota every day about these safety issues 
with their automobiles.
    The reason they are where they are today is because of our 
investigations and our meetings with them. The fact that our 
acting NHTSA Administrator went to Japan and met with the 
Toyota officials and told them, in no uncertain terms: You need 
to get on this. You have got a problem. You need to fix it. 
Find the fix.
    As a result of that meeting, they have begun to take 
seriously the fact that they have some serious problems. They 
believe they have found the fix. It is not up to NHTSA to tell 
them that they have found it. It is up to us to tell them if we 
think that their solution is not correct. Now we will be doing 
investigations and studying the electronic part of it.
    Let me tell you why we do this. Every year NHTSA gets 
30,000 complaints, and what we do is we categorize them. We 
look at them carefully. We have had some complaints about the 
electronics in these automobiles, and that is the reason that 
we are going to look into it.
    Mr. Latham. Are you getting full cooperation from Toyota?
    Secretary LaHood. Absolutely.
    Mr. Latham. Okay. Is there any recommendation from the 
Department or something--we are both from the Midwest.
    Secretary LaHood. Right.
    Mr. Latham. You know, as you get on slick roads or 
whatever, your car starts pulling through on ice whenever you 
slip it into neutral. I mean is there any kind of discussion 
about putting out some--if someone gets into a situation where 
the pedal does stick that just putting it in neutral and maybe 
applying the brakes would--you know, why can't we publicly tell 
people how to respond if they get into a situation?
    Secretary LaHood. Yes. I think that guidance has been put 
out. I have seen that where they have recommended that or to 
disengage the engine.
    Mr. Latham. Then you might lose your braking power if you 
turn the engine off.
    Secretary LaHood. We need to fix the problem so people do 
not have to worry about disengaging the engine or slamming 
their brakes or putting it in neutral. That is really our goal.
    Mr. Latham. No. I agree.
    Secretary LaHood. My advice is, if anybody owns one of 
these vehicles, stop driving it. Take it to the Toyota dealer, 
because they believe they have the fix for it.
    Mr. Latham. Okay. I appreciate it, and we will follow up 
with you on that, obviously. It is a tremendous safety issue 
for some folks.
    Getting back to the reauthorization, the current surface 
program expires on February 28. That is 17 business days and 
about 10 legislative business days from now. Is there a plan 
within the administration for an extension?

                           HIGHWAY TRUST FUND

    Secretary LaHood. We continue to ask Congress to pass an 
18-month extension. We are prepared to find the money for that, 
and we believe that that gives us the time to work with 
Congress. We think the $48 billion that we had starting a year 
ago has been well spent. It has put thousands of people to 
work. It has resurfaced roads and bridges. We are encouraging, 
and the President, obviously, encouraged in the State of the 
Union for the Congress to pass a jobs bill.
    It is not that the President does not want a robust, 
comprehensive transportation bill. It is trying to find the 
$400 billion to $500 billion to pay for it. That is the 
dilemma. I talk to Chairman Oberstar about this at least once a 
week. The 18 months really gives us the time to do that. As we 
finish out this portion of our economic recovery, and if the 
Congress passes another jobs bill, we will have an opportunity 
to continue to make progress on these projects around the 
country.
    Mr. Latham. I mentioned in my opening statement about--is 
the administration going to put a bill forward to discuss--I 
know, last year, quote, the ``discussion'' was going on just 
about every day at the White House that this is on the people's 
agenda. There was a real urgency. Obviously, we are not there 
yet. Is there going to be a proposal from the administration?
    Secretary LaHood. Well, we are working on some principles, 
and we will continue to work with the T&I Committee on these 
principles. We are not in much disagreement with what the 
chairman has written.
    Mr. Latham. Apparently, my time is up. Thank you very much.
    Secretary LaHood. Thank you.

                           NEW STARTS PROGRAM

    Mr. Olver. We will proceed in the order that members of the 
subcommittee came into the hearing room.
    So, with that, Mr. Price.
    Mr. Price. Thank you, Mr. Chairman.
    Mr. Secretary, let me add my word of welcome. We are all 
scrutinizing the budget you sent up, and a couple of things 
caught my attention right away, very favorably.
    The Department's continued commitment to livable 
communities and high-speed rail development. Robust requests in 
these two areas represent sound investments, I think. I 
appreciate your leadership in prioritizing these items, 
particularly given the constrained fiscal environment in which 
we are operating.
    As you well know, the high-speed rail request builds upon 
the funding that the President requested and that Congress 
provided in the Recovery Act. Believe me, I was pleased to 
welcome our EPA Administrator, Lisa Jackson, to Durham, North 
Carolina last week to announce a major Recovery Act award to 
North Carolina for further work on the Raleigh to Charlotte leg 
of the southeast high-speed rail corridor. We have been laying 
the groundwork for this for about 20 years, ever since the 
corridor was designated in ISTEA, but it has been slow 
progress. It is kind of one grade crossing at a time, it has 
seemed. So there really has not been a substantial Federal 
revenue stream.
    We have now changed that, and we feel like our own 
investments, our efforts in building up this route, have been 
rewarded. We are well-positioned now to make use of the Federal 
funds to finish the job, basically to get that Raleigh to 
Charlotte corridor where it needs to be, at 90 mile-an-hour 
speeds, something just over 2 hours of travel time between 
those two points. So we look forward to making this a reality.
    In the time I have here, let me turn to another item, which 
is the New Starts program. This is another area where you have 
brought vision and perspective to the Department. I was happy 
to see the announcement last week that the Department would 
alter criteria the previous administration had applied to this 
program. It would alter the criteria, broaden the criteria, 
that are used to evaluate new starts and small starts of 
transit projects.
    Rather than emphasizing only those projects that meet a 
limited cost-effectiveness or meet a minimum requirement for 
decreased vehicle miles traveled or increased ridership, the 
Department will instead put greater emphasis on other criteria, 
such as land use, environmental benefits, and economic 
development more broadly.
    As one who argued that the prior policy was a penny wise 
and a pound foolish, I applaud you for taking this step. 
However, I think we are all aware that this new flexibility is 
still going to apply to a finite resource and that the 
competition is going to be quite intense, maybe even more 
intense. So it is still very important for States and cities to 
understand these criteria and how they can address them. I know 
there is an effort with OMB to measure and quantify project 
benefits such as economic development and environmental 
benefits. I think we need to make sure that these measurements 
or any others that we apply are as straightforward as possible 
and are related in the real world to the kind of development we 
want to incentivize and reward and that we can undertake.
    So I wonder if you could provide any further clarification 
this morning regarding these new criteria, the new 
measurements, any other insight about the features you are 
going to be looking for, projects that would fare best under 
these new criteria. What is the timeline for rulemaking on the 
new criteria?
    Secretary LaHood. Well, thank you for that. I mean you have 
said it about as well as I could say it.
    The common complaint I heard during the time that I was 
being considered by the Senate--every Senator said to me, Why 
does it take 12 years to get a new start? Because, you know, we 
go back and forth on the economic aspect of it without looking 
at other criteria. So we made a decision that we need to look 
at a whole comprehensive set of issues. There will be good 
competition for this, but that is good because what we will get 
is a lot of good, creative opportunities, and it will allow 
communities all over the country to compete for dollars for 
good projects, whether it be light rail or bus or inner city 
passenger rail or whatever, and to do it in a way that reflects 
the values of the community, in terms of livability, in terms 
of environmental opportunities. We believe these forms of 
transportation and these projects will get a lot of cars off 
the road and will get people out of their automobiles and will 
create some opportunities in communities.
    So I mean you have sort of restated what we are going to be 
looking at. We are looking at a lot of different criteria, and 
we think this enhances lots of people's opportunities around 
the country and in a much shorter period of time, that it will 
not take 12 years.
    Mr. Price. Can you give us some indication of how you are 
going to firm these up, though, so that communities know what 
they are dealing with? Also, as to the explicit rulemaking that 
you will undertake, what is the timeline on that?
    Secretary LaHood. Well, we are getting started with it 
right now. We want to implement this very quickly so that, when 
our budget is approved by Congress, we can begin as quickly as 
we possibly can. You outlined what the criteria are, and the 
changes we have made. It is all very accurate, and it is just a 
matter now of implementing it as quickly as possible.
    Mr. Price. Thank you.
    Thank you, Mr. Chairman.
    Mr. Olver. Mr. LaTourette.

                        TIGER GRANT ANNOUNCEMENT

    Mr. LaTourette. Thank you.
    Mr. Secretary, it is great to see you. You are doing a 
great job. Just one housekeeping matter:
    The last word we had on the TIGER grant announcements was 
February 17. Has anything changed on that?
    Secretary LaHood. Yes. The statutory requirement that was 
in the bill is February 17. It will probably be a day or two 
before that.

                              RAIL SAFETY

    Mr. LaTourette. I appreciate that.
    I want to thank you on behalf of the State of Ohio for the 
$400 million for our rail project that is going to accomplish 
many of the things that you have talked about.
    In 2008, I was still on the T&I Committee, and was one of 
the authors of the Rail Safety Improvement Act of 2008. In that 
act it statutorily mandates Positive Train Control, over which 
I am a big advocate. It also indicates that, as a baseline for 
the routes and the mileage and where PTC has to be implemented, 
it is going to be effective--they are supposed to look at the 
map and project out to December 31 of 2015. The FRA announced 
its final rulemaking on January 15. Despite being cognizant of 
that, they are using the 2008 map, and my friends in the rail 
industry tell me that that may lead to over 8,000 miles on 
which there are not TIH traffic, no passenger traffic, being 
subject to Positive Train Control.
    My question to you is: Why?
    Secretary LaHood. You know what, Mr. LaTourette? I will 
have to get back to you on that. I will ask our FRA 
Administrator to visit with you about this. I do not know.

                           HIGHWAY TRUST FUND

    Mr. LaTourette. I would appreciate your looking into it.
    Now, to the Highway Trust Fund, I wrote down that you 
indicated that there is going to be $42 billion, basically, for 
the surface transportation section and $10 billion for transit. 
The Highway Trust Fund does not generate $52 billion. So I 
believe that the budget proposal calls for borrowing--I guess 
``borrowing'' is the right word, but taking--$20 billion from 
the general fund to fill the shortfall. Further, it is my 
understanding that by taking that money you are also going to 
reduce the contract authority from $54 billion to $9.5 billion, 
which I know has to be disconcerting to Mr. Oberstar.
    Just an editorial comment, the problem with the stimulus 
bill was that it had some great stuff, but Oberstar would tell 
you that over half the jobs which the administration is taking 
credit for creating came from 8 percent of the funding, and it 
was the stuff under your control. The other 92 percent of the 
funding created the other half of the jobs. The jobs bill that 
has currently passed the House and is being considered by the 
Senate, in my opinion, repeats the same mistake. It has got 25 
percent funding for things that will actually create jobs.
    You know, in the construction trades 30 percent of the 
people are out of work. It is not 10 percent. It is 30 percent. 
With no disrespect to the leadership from California, some 
folks from California get in there and they have all kinds of 
things that have nothing to do with job creation, which gets to 
the 6-year reauthorization. When Mr. Oberstar was working last 
year feverishly to figure out a way to get this done and 
despite a horrendous whipping effort by my leadership against a 
3-month extension, we got 85 Republicans to vote for the 
extension--84 against--on the belief that we needed a 6-year 
plan.
    I have to tell you that, even though I have the greatest 
respect for you and the President of the United States, kicking 
this can down the road to March 2011 is irresponsible. This has 
to be worked out. This is not a problem where, all of a sudden, 
some light bulb is going to go on after listening for 18 
months. We knew it when we passed SAFETEA-LU that we were going 
to have this problem.
    I am telling you, as I have told Mr. Oberstar, that we will 
bring Republicans to the table. I get that the Democrats are 
scared because of some of the election results. They do not 
want to have a tax increase on top of the other things that are 
going on around here, but the fact of the matter is it is time 
for leadership on this issue, and it is irresponsible, in my 
opinion, to not deal with this.
    I mean I saw you. Early in your tenure, you made some 
observation about vehicle miles traveled, and I got the feeling 
you were summoned down to the White House pretty quickly after 
that, and you stopped talking about things like that, but it 
has got to be done. My question is:
    If we can do this in a bipartisan way, will you help us 
down there?
    Secretary LaHood. The administration is for an 18-month 
extension. We are going to work with Congress on that, and we 
believe that is the best path forward.
    I can show you many places around the country where our 
economic recovery money put a lot of people to work. A year ago 
a lot of those people were on unemployment, didn't have jobs. 
Throughout the summer and fall and even into the winter, they 
continuously worked on these projects, and will continue for 
the next 6 months.
    Mr. LaTourette. Despite my fondness for you, I respectfully 
disagree. When you look at the jobs that were created, even in 
the construction sector, they were ``make work.'' You moved up 
repaving projects that were programmed for 3 years from now. 
People worked for a few weeks, and then they were out of work 
again. The unemployment rate in the construction trades is 30 
percent. We need a 6-year bill. We do not need an 18-month 
bill.
    I thank you.
    Mr. Olver. Ms. Roybal-Allard.

               AIRLINE DRUG AND ALCOHOL ABUSE PREVENTION

    Ms. Roybal-Allard. Welcome, Mr. Secretary.
    You mentioned earlier your visit to Los Angeles. I want, 
once again, to thank you for being there and for touring the 
Metro Gold Line Light Rail, which began revenue operations 1 
month earlier than scheduled, which adds to the very positive 
record that it has of being completed, you know, on time and on 
budget without the loss of any time injury, even though the 
construction team amassed a safety record of more than 3 
millwork hours. So, as you know and as you noted, we are very 
proud of that project, and we look forward to continuing to 
work in strong partnership with you as Los Angeles continues to 
expand its rail network.
    Secretary LaHood. It is a great project. It really is. You 
know, I know you all worked hard on it, and really, it is a 
magnificent project for the people.
    Ms. Roybal-Allard. Well, we worked very, very hard also to 
make sure that the community was involved in that project, so I 
think the results were very positive.
    Secretary LaHood. You sure did. Everywhere I go, I talk 
about that project, how you really put a lot of different 
neighborhoods together with affordable housing and stores. You 
know, it is a magnificent project.
    Ms. Roybal-Allard. Thank you.
    In the fiscal year 2010 Transportation appropriations bill, 
it includes $1.37 million in funding for the Human Intervention 
and Motivation Study, which is a comprehensive education and 
training program for alcohol and drug abuse prevention in the 
airline industry. As you know, it was originally a substance 
abuse prevention program only for pilots. However, in 2010 I 
was very pleased that, at my request, Congress increased the 
funding for this very critical health and safety program to 
include a program directly for flight attendants.
    Can you give us an update on the status of the implementing 
of these two programs?
    Secretary LaHood. I expect to be releasing this very soon. 
It is being reviewed by my office, and we are about ready to 
release it.
    Ms. Roybal-Allard. Okay. Great. Will it be this month?
    Secretary LaHood. Well, it will be soon.

                              RAIL SAFETY

    Ms. Roybal-Allard. Okay. Hopefully, this month.
    Last week, the National Transportation Safety Board held a 
hearing on the September 2008 Metrolink collision near Los 
Angeles in which 25 people were killed. At that hearing, the 
board adopted recommendations that requested the Federal 
Railroad Administration to require the installation of cameras 
inside all controlling locomotive cabs in order to verify that 
train crews are operating in compliance with safety rules and 
operating procedures.
    In response to the NTSB recommendation, what are the 
Department's plans to promulgate these new regulations to 
require cameras inside locomotives? What resources do you 
expect the DOT or the FRA will need in carrying out these 
recommendations? How will you ensure the safety and also 
protect employees' privacy?
    Secretary LaHood. We are looking at the NTSB 
recommendations, and this goes to our number one goal at the 
Department, safety is uppermost in our minds in all forms of 
transportation. We will take very seriously the 
recommendations. I hope Congress will take very seriously the 
idea that we are pushing a transit safety bill that we think is 
critical for our agency. The law prohibits us from getting 
involved in these kinds of safety activities with transit 
programs. We think we need that kind of involvement, the way 
that the FRA has it over rail.
    So we are going to review the recommendations. That is the 
answer to the question. This will be a priority, and we will 
look for ways to make these systems safe.
    Ms. Roybal-Allard. As you are well aware, hundreds of 
transportation agencies around the Nation are facing enormous 
deficits at this time. Specifically, the shortfalls are often 
in operating funds, which leads to layoffs at transit agencies 
at the exact time when we are trying to stem the loss of good-
paying jobs in America.
    In Los Angeles County, home to 10 million residents, the 
Los Angeles Metropolitan Transportation Authority is facing a 
shortfall of at least $250 million in operating funds at the 
end of fiscal year 2011. We can only imagine what a $250 
million operating shortfall could mean for Metro, its riders 
and its employees.
    What are your views on giving some flexibility to the use 
of Federal funds, at least during this time of crisis, for 
operating costs for transit agencies? Is there something that 
you and the administration are willing to consider to address 
that?
    Secretary LaHood. Well, as you know, when you all passed 
the omnibus, you included a provision that allowed for up to 10 
percent of the transit funds to be used for operating. I, like 
you, believe that it is incumbent upon us to try to be helpful 
to these transit systems. One of the ways we can be helpful is 
to allow some of the funds to be used for operation. It is kind 
of silly to be providing funds to buy buses or whatever, and 
then you do not have the people to drive them or to operate the 
system. So we think it is a good use of some of the money to be 
used for operations.
    Ms. Roybal-Allard. Okay. That is good.
    Mr. Olver. Thank you.
    Mr. Carter.

                         ENVIRONMENTAL STUDIES

    Mr. Carter. Thank you, Mr. Chairman.
    Welcome, Mr. Secretary. It is two times in one week. Glad 
to see you.
    Secretary LaHood. Yes, sir.
    Mr. Carter. Recently, in my office, I have had a parade of 
people come in on projects that were part of the stimulus and 
were supposed to be shovel-ready and ready to go, but they bump 
up against environmental studies. I mean, for a half a dozen 
different highways, people have come in and said, We are ready 
to go, but we can't get the environmental study done. FISH is 
behind. They have a deadline that they have to meet; but in 
reality they hold back, knowing they are overwhelmed, and so we 
cannot get this stuff to FISH and out of FISH.
    Then once you come out of FISH with an environmental study, 
then the environmentalists take you to court. By the time you 
get through that process, you have got to go have another 
environmental study by FISH. It is a circular process that 
seems to be delaying the construction of highways, at least in 
our part of the world, and, from what I understand, around the 
country.
    So I want to throw out something that has been brought up 
to me, and I would like to have your comment on it, which is if 
we could go to binding arbitration rather than going to the 
courthouse to resolve these issues once environmental studies 
have been done and then the challenge to those environmental 
studies at the courthouse, which I am sure you are aware, can 
take years to resolve. Rather, let us set up a binding 
arbitration situation to resolve these things so we can build 
highways instead of bump up constantly against, some would call 
radical environmentalists. I would like to have a comment on 
this.
    Secretary LaHood. Look, Mr. Carter. If you want to do that, 
you are going to have to do it legislatively.
    I mean one of the things that we have to abide by and 
certainly under the economic recovery, which your folks are 
complaining about not receiving enough of the funds--part of 
that legislation said that we have to follow the regular 
guidelines for constructing roads or resurfacing. Part of that 
is environmental impact statements which many of the States had 
completed on a lot of these projects, and obviously some did 
not. If you want to seek that kind of remedy, my suggestion is 
that it is going to have to be done legislatively.
    Mr. Carter. Mr. Secretary, I understand it has to be done 
legislatively. I have asked for your comment on binding 
arbitration. If we could get a binding arbitration statute 
written, I would like your comment on whether you think that is 
a good idea or whether you would oppose it.
    Secretary LaHood. I have not thought enough about it, but, 
you know, I will think about it, and will give you an opinion. 
Off the top of my head, I would rather not say something that I 
might not know enough about. Let me think about it, and I will 
get back to you.
    Mr. Carter. Well, I would like to hear from you about what 
you feel about it, because I intend to have some other people 
join me in sponsoring that type of legislation.
    Secretary LaHood. Sure. Okay.

                            HIGH-SPEED RAIL

    Mr. Carter. One more question if I still have time, Mr. 
Chairman.
    You have just announced $8 billion worth of high-speed 
rail. Most of this high-speed rail is at a 110 mile-an-hour 
maximum. Is there still any interest in the Department to the 
150-plus-speed trains?
    Secretary LaHood. Yes, sir.
    We allocated money to 13 regions around the country. In 
some of those regions, and certainly in some parts of 
California and other regions, the trains will go faster than 
110. It is a matter of using some of the resources to fix up 
freight rail lines and Amtrak lines, but we envision that on 
some of these corridors trains will be going faster than 110.
    Mr. Carter. But most of the high-speed rail projects you 
envision going on existing tracking?
    Secretary LaHood. That is correct.
    I think all of the proposals that we received were a 
collaboration between the freight rail and Amtrak. Some will 
build some new infrastructure, but the lion's share of it will 
use existing track either through the freights or through 
Amtrak.
    Mr. Carter. Is there any money available for high-speed 
rail studies to be done?
    Secretary LaHood. Absolutely. We will be announcing some 
study money very soon. That was not a part of the $8 billion, 
but we do have some money that we will be making available very 
soon for studies.
    Mr. Carter. The only reason I ask is that a recent study by 
a French rail company rated that the cost of the revenue stream 
would be best on that proposal that we have laid out from 
Texas, which I am sure you are aware of.
    Secretary LaHood. Okay. Yes.
    Mr. Carter. We are excited about trying to get that project 
going.
    Secretary LaHood. Yes, we will be making those study 
allocations very soon.
    Mr. Carter. Well, thank you, Mr. Secretary. I appreciate 
your comments.
    Secretary LaHood. Thank you.
    Mr. Olver. Thank you.
    Mr. Berry.

                             AIRLINE SAFETY

    Mr. Berry. Thank you, Mr. Chairman.
    Thank you for being here, Mr. Secretary, and for the job 
you are doing.
    This may be public information, and I just had not picked 
up on it, but we have heard a lot lately about the commuter 
airlines and their safety records, their lack of maintenance, 
their violations of rules and regulations, and that sort of 
thing.
    Could you just tell us--I would be surprised if you have 
not paid attention to that. I am sure you have.
    Secretary LaHood. Airline safety is a very, very important 
priority for us, and we pay a lot of attention to it every day.
    After the Colgan Air crash, Randy Babbitt, our FAA 
Administrator, traveled the country and held 12 safety summits, 
inviting people from the aviation industry to come in and talk 
about the training of pilots on commuter airlines, fatigue and 
pay issues. We had made some very strong recommendations to the 
airlines on this even before the NTSB report came out 
yesterday. We also are right in the middle of a rulemaking, 
which will require airlines to do certain things in terms of 
training, in terms of pay, in terms of schedules, and those 
kinds of things. That is our job, to pay attention to these 
things.
    So we are on this. We know that there is great concern 
after the Colgan Air. I met with the families on two different 
occasions, so I know the heartache that they are going through. 
It is a very tragic accident, but since that time we have taken 
a number of steps voluntarily--before anybody told us to--to 
get on top of this, and we will have a rulemaking very soon on 
this.
    Mr. Berry. Thank you, Mr. Secretary.
    Secretary LaHood. Thank you.
    Mr. Olver. Ms. Kilpatrick.

                              TIGER GRANTS

    Ms. Kilpatrick. Thank you, Mr. Chairman.
    Mr. Secretary, good to see you again.
    Secretary LaHood. You, too.
    Ms. Kilpatrick. As you stated earlier, thank you for coming 
to Michigan several times and to my district a couple of times 
as well.
    Secretary LaHood. Thank you.
    Ms. Kilpatrick. Michigan is the epicenter of much of the 
economic stress that we find ourselves in, so your coming has 
been absolutely marvelous. Thank you very much.
    Secretary LaHood. Thank you.
    Ms. Kilpatrick. A year ago, you and Secretary Donovan sat 
at that table and talked about rebuilding communities and all 
of that. I want to say that, in Michigan, we have been very 
happy with the support we have gotten.
    The recent Neighborhood Stabilization Program that came out 
was announced a couple of weeks ago. Twelve cities, as you 
know, came together in Michigan, and are now doing all of those 
things that you asked us to do. So thank you for that.
    The chairman mentioned the TIGER grants earlier, and I know 
they are out. I know you are getting close to making a 
decision. What is the status of the TIGER grants?
    Secretary LaHood. The statutory requirement is that we make 
the decisions on or before February 17. We will be close to 
that date, and we are working with the White House on the 
rollout of those.
    Let me just say that your leadership in Detroit, 
particularly at the meetings that we have had and since then, 
has been extraordinary, and I want you to know we are going to 
continue to work with you, the staff, the stakeholders. Our 
transit people are in Detroit in the next few days, meeting 
with the mayor and others, to figure out the kind of things 
that you all want to do there. So there will be some good 
activity and some good planning that will continue as a result 
of the meetings that we had when we were there last year.
    Ms. Kilpatrick. Thank you very much.
    Secretary LaHood. On or before the 17th, probably closer to 
the 17th, you will be hearing the news about the TIGER grants.

                             AIRLINE SAFETY

    Ms. Kilpatrick. Okay.
    On Christmas, a gentleman--a young fellow--brought a bomb 
on a flight that was about to land in Detroit. I am also on 
National Defense, and we have had some briefings on that side. 
As aviation manager in this instance, how close are we? I mean 
that gentleman was not on any watch list. He is from a wealthy 
family. Is there any update on that? Is there anything you can 
tell us?
    Secretary LaHood. Well, not really. Those kinds of 
activities are done more through Homeland Security. I mean our 
job at FAA is to work with airports, to work with airlines. 
Obviously, TSA is under the jurisdiction of Homeland Security. 
We work a lot with Homeland Security, but I am going to say 
this:
    Flying is safe. I can tell you right now there are 
thousands of people in the air all over this country and all 
over the world. Flying is safe. Are there things we need to do? 
There are things we need to do. We are going to look at the 
NTSB recommendations, but we are also going to continue to stay 
on top of these things because we know safety is most 
important. Thousands of people board airplanes every day and 
get to their destinations safely, and that is something that I 
want people to know--thanks, in part, to the fact that there 
are people looking out after their safety, whether it is 
through TSA, whether it is through the work that we do with 
airlines or whether it is through the airlines themselves.
    Ms. Kilpatrick. We appreciate, for those of us who fly 
twice a week, hearing you say that airline flying is safe. That 
is very important to us.
    Secretary LaHood. Right.

                            HIGH-SPEED RAIL

    Ms. Kilpatrick. My other part, as has been said earlier 
today, is the high-speed rail corridor. $2.5 billion last year 
was appropriated, and I know you recently announced the $1 
billion that came out. Our State got a little of that. There 
was the $8 billion recently and now the $1 billion that is in 
the bill. That is 9 new billion dollars.
    Secretary LaHood. Right.
    Ms. Kilpatrick. I hear your requests were way higher than 
the amount of money that we have available.
    How does that $9 billion fare today as we come back for 
another bite at the apple, all of our States?
    Secretary LaHood. Well, what we are going to do now--now 
that we have announced the $8 billion, thanks to your 
committee, we have $2.5 billion in our appropriation bill. We 
are hearing from people right now, and we hope to continue to 
work throughout the next several months to get that money out 
the door, particularly for those communities that felt that 
they were disadvantaged because they didn't get as much as they 
wanted, or States that didn't get as much as they wanted. Very 
immediately, we are going to be announcing some study money 
that some States need to do.
    We take seriously this high-speed passenger rail and that 
America is getting into the high-speed passenger rail business. 
We take seriously the fact that this subcommittee added $2.5 
billion in our appropriation bill. The President is requesting 
$1 billion in his budget.
    Secretary LaHood. So we are on our way. High-speed rail is 
coming to America. I have had two conversations with the 
Governor of Michigan since these announcements. We are going to 
work with Michigan on this, and they will be a good path 
forward, I would think.
    Ms. Kilpatrick. Thank you for your support. And I just want 
to say before my time ends, you are way better in that chair 
this year than last year. What a difference a year makes. You 
have always been smart and enthusiastic, but I commend you on 
your knowledge of transportation.
    Secretary LaHood. Thank you.
    Mr. Olver. Mr. Rodriguez.
    Mr. Rodriguez. Thank you very much. And it is probably due 
to the fact that you have been out, as you indicated earlier, 
throughout the country listening to our constituents----
    Secretary LaHood. It is the fact that I came to San 
Antonio.
    Mr. Rodriguez. That is right. Let me also thank you for 
coming to San Antonio and for also reaching out throughout the 
country.
    We understand how our situation is in terms of 
transportation and the lack of it and the fact that we are 
looking at other forms of transportation. And I know you heard 
in San Antonio about Port San Antonio and the importance of 
freight, not only air but rail freight, coming into San Antonio 
and the importance of that and how critical that is to us as 
well as the high speed between San Antonio and Austin and 
Dallas and how critical and got a chance to hear from our mayor 
as they plan towards a future.
    And I gather that is the same situation throughout the 
country. We know we don't have sufficient resources out there; 
and I am hoping that there is an attempt by yourself and the 
administration as we look at--if it happens or doesn't happen--
a new stimulus package or an effort through the jobs, trying to 
put these resources in transportation and infrastructure that 
that--and I ask you to comment on that if possible.
    But I also would want you to comment on the importance of 
safety on rail. I have a lot of small communities where those 
trains are going through where you used to have one train a 
week and now we have one or two a day and how critical it is to 
put the resources there, you know, not only in rail safety 
improvements, and I would also ask you to comment on that.
    Secretary LaHood. Safety is our number one priority at DOT 
in all modes of transportation. We have paid a lot of attention 
particularly to what happened in California with the train 
wreck, what has happened here in Washington, D.C., where some 
people were killed on the Metro system. That is the reason we 
put forth this transit safety bill that we are asking all of 
you to pass, so we can really get into the oversight 
opportunity on these transit systems around America, which we 
have been prohibited from doing by law. Somebody needs to 
provide the oversight. That is the reason we put forth this 
bill. We really encourage you--this steps up and shows that 
safety is a priority on the rail.
    The positive train control rule that we have out is another 
example of how safety is a priority certainly on the rails. 
Also the work that we have done with our FAA Administrator 
stepping up with the 12 safety summits, and the recommendations 
that he made after the Colgan Air. Immediately after the 
helicopter hit the small plane over the Hudson, the two air 
traffic controllers were dismissed. We took direct action 
against the pilots who overflew Minneapolis by 150 miles.
    Look, we are not going to sit around on our hands waiting 
for somebody else to do these things. When we see violations, 
we will step up and take action.
    We need your help on this transit safety bill, though.
    Mr. Rodriguez. You will get it.
    Let me also ask you to follow up on--I know that some of us 
feel very strongly that if there is any form of stimulus that 
it be utilized for infrastructure and for transportation 
purposes.
    Secretary LaHood. We still have to complete the work that 
was started with the first stimulus money. We are just about 
ready to obligate all of that money, and we were obviously 
pleased that the President asked Congress to pass another jobs 
bill which would provide us substantial dollars that we can 
continue the progress that we are making in putting people to 
work.

                             MOTOR CARRIERS

    Mr. Rodriguez. Let me ask you a question as it deals with 
the border as we talk about Port San Antonio for air and rail. 
We have a good number of 18 wheelers come through there coming 
from Mexico, coming and going, and the importance of making 
sure the safety requirements of being licensed and all that and 
the resources that are being put in that area. Can you 
elaborate on that?
    Secretary LaHood. Every truck that comes across is subject 
to very, very tough safety standards. Our people are there 
checking these trucks and making sure that the drivers of the 
trucks have the proper licenses, that the vehicles are safe. 
Even though the Mexican truck program was suspended, we still 
are doing our work in checking these trucks that come across 
the border.
    Mr. Rodriguez. And that becomes really important that we 
continue to do that----
    Secretary LaHood. We will.
    Mr. Rodriguez. And the resources are there.
    Once again, thank you.
    Secretary LaHood. Thank you.
    Mr. Olver. Mr. Pastor.

                            HIGH SPEED RAIL

    Mr. Pastor. Good morning, Mr. Secretary.
    Secretary LaHood. Good morning.
    Mr. Pastor. First of all, I want to thank you for the 
excellent job you are doing and also personally for the 
hospitality that you have always expended to me. Thank you.
    Secretary LaHood. Thank you.
    Mr. Pastor. As you know, the 20 miles of the light rail 
that we have constructed has been in operation for 1 year; and 
probably the reports that you are getting is that it has been a 
success. The ridership has succeeded all expectations, and I 
think we finally have persuaded the naysayers that it is a good 
investment. And I tell you today we are in preparation to 
extend the line east. Mesa is asking for an extension. From the 
downtown area in Phoenix, we are looking to extend it west and 
south; and we think that the south extension and the west 
extension will get to the people that will probably need the 
transportation because of their socioeconomic levels.
    So we continue to work with the FTA, and I have to tell you 
region nine is--is a great partner with us and we thank you for 
your cooperation.
    Hopefully, February 17th I will have a chance to call you 
and thank you for the people mover. As you know, that is high 
on our list for the TIGER grants, and hopefully we can get that 
accomplished. As you know, when that region continued the 
project, that one has met the environmental impact statement. 
People are working; and with the additional grant, that will 
add more employment.
    What I wanted to talk to you a little bit about is, first 
of all, thank you for the Livable Communities. The chairman, I 
guess, 2 years ago, 2\1/2\ years ago, maybe 3 years ago, 
started this initiative; and it is one that we all support. But 
every community is different; and in the Phoenix metro area, 
Maricopa County, we have these 20 miles; and even within the 20 
miles there are differences.
    So I guess that I would ask, as you provide money for the 
planning and the studies, there are areas that have been 
studied and have been looked at, but in order to make them 
livable, we need to provide incentive grants to communities so 
that the actual--whether it be the small business that is going 
to create jobs along with the affordable housing becomes a 
reality. In today's time, as you know, with the economy, that 
type of grant given to the authority, the various authorities, 
might be able to make this a reality.
    So I don't know right now--I know you are going to create 
the office, but hopefully as this is being created that even 
within one light rail line there are different economic 
situations and opportunities so that there is flexibility so 
that working with the communities we can achieve.
    I will give you an example of what just occurred in 
Phoenix. There was a large apartment complex privately owned 
that went belly up, and working with HUD we were able to have 
the city of Phoenix pick it up through all the tax credits and 
all the rules. Well, that particular apartment unit is less 
than a half mile from the light rail. So with that hopefully 
affordable housing and use of light rail will increase. And it 
is projects like that that we have an interest in, that we are 
looking for that flexibility so that we can maximize the 
investment, especially where you have a light rail existing 
that will create the jobs and create the businesses and also 
make a livable community. So I make that request.
    Secretary LaHood. First of all, to your comment about your 
light rail, if you build it, they will come; and that is a 
great example of it. I was there, when that system got started, 
and I know that it is exceeding the ridership that anybody 
thought. It is because people really like these kind of 
systems. They are comfortable. They are affordable. They 
deliver people where they want to go.
    And on the Livable Community issue, we will certainly work 
with your folks to try to fashion things that make sense for 
the neighborhood or for the community.
    Mr. Pastor. Can I also echo what Congresswoman Roybal-
Allard said? Because of the economic status situation at the 
State of Arizona and the metro areas, Phoenix and other cities, 
the use of Federal money to continue to be used for operation--
--
    Secretary LaHood. The operating.
    Mr. Pastor. It is a great relief. So if you can continue 
that, we would greatly appreciate it.
    Secretary LaHood. I think Congress will continue it. It is 
important right now when ridership is down and it is hard to 
operate these transit systems.
    Mr. Olver. Thank you.
    Secretary LaHood. Thank you.
    Mr. Olver. Ms. Kaptur, you are up. I will take you at this 
point or you can wait for a couple of people to catch your 
breath.
    Ms. Kaptur. I am good.
    Mr. Olver. Okay, you are good. Ms. Kaptur.

                         SAINT LAWRENCE SEAWAY

    Ms. Kaptur. Thank you very much, Mr. Chairman; and welcome, 
Mr. Secretary.
    Secretary LaHood. Good morning.
    Ms. Kaptur. Great to see you again. I apologize I couldn't 
be here earlier. I had a committee conflict.
    I wanted to say that I thoroughly enjoyed the time that we 
spent together last year in Messina, New York, at the St. 
Lawrence Seaway's 50th anniversary. For you to take that 
trouble in your first year to go up there was really 
commendable.
    You were at the time very supportive of the long-term 
infrastructure improvements for the Seaway and that the 
administration was going to be supportive of those programs. 
You know that the St. Lawrence Seaway is important not just to 
the region but to the maritime ports of the Great Lakes that 
depend on international water-borne commerce, including my home 
port of Toledo, Ohio.
    In reviewing your fiscal year 2011 budget request, however, 
and the 10-year asset renewal program, I note that it is not 
funded at a level necessary to ensure on-time completion of the 
projects along the Seaway. In fact, the fiscal year 2010 
President's budget included an outyear estimate for fiscal year 
2011 of $18.482 million to complete 25 asset renewal program 
projects. However, the Seaway's fiscal year 2011 submission we 
received earlier this week only includes $15.7 million for 20 
projects. So there appears to be a gap there, and I have three 
questions.
    Why did the administration reduce the Seaway's asset 
renewal program budget by almost $2.8 million or 15 percent? 
Number two, will this reduction require additional years to be 
added to the program? And, finally, what assurances can you 
make that similar reductions in subsequent years will not be 
made to this program?
    I would be interested in your general comments and then the 
specifics as your staff gives you the numbers.
    Secretary LaHood. My general comment is you know that we 
have a commitment at DOT to the St. Lawrence Seaway. It is very 
important. I am going to let my assistant secretary, if you 
don't mind----
    Ms. Kaptur. Fine.
    Secretary LaHood [continuing]. Chris Bertram answer the 
specifics, but I want you to know we are committed to the St. 
Lawrence Seaway. It is very important.
    Ms. Kaptur. Thank you. I know you are.
    Mr. Bertram. Congresswoman, the request is $15.6 million, 
which would complete the 3-year structural rehabilitation of 
the bridge that goes over to Canada as well as upgrading the 
Seaway locks and the miter gate at the Eisenhower lock. This is 
what the St. Lawrence Seaway tells us they need for what they 
can actually accomplish in fiscal year 2011.
    We continually monitor where they are on their capital 
program and assess what they can actually spend and obligate in 
a given year. As you know, their construction season is 
actually somewhat constrained up there because of the weather, 
but we believe that the $15.6 million is enough for their needs 
for 2011.
    Ms. Kaptur. So you are saying that the President's budget, 
the 2010 budget, included an outyear estimate for 2011 of 
$18.482 million for 25 projects. Your budget is only covering 
20 projects at 15 point--you said 6? Because the number I had 
was 15.7 million.
    Mr. Bertram. We have 15.6, but we can----
    Ms. Kaptur. And you are saying that the Seaway Authority 
said they don't need the additional funds in 2011? They can't 
spend them?
    Mr. Bertram. Right. They told us that that is the funding 
levels they need for the projects they can undertake in 2011.
    Ms. Kaptur. So when the Department of Transportation 
submitted its budget to OMB, that is what the Seaway 
administration asked for, the Seaway Authority, or did OMB cut 
it?
    Mr. Bertram. I would have to review what we sent to them. I 
don't recollect right now what the Seaway Authority asked for 
from OMB.
    Ms. Kaptur. I would be very interested in any detail that 
your office could provide on which projects were anticipated in 
the prior budget and what has happened with your 2011 budget 
request.
    Secretary LaHood. We will do it.
    Mr. Bertram. We will do that.

                            HIGH SPEED RAIL

    Ms. Kaptur. Okay. And then, speaking parochially--I am 
looking at Mr. LaTourette down the table there. He and I anchor 
both ends of Ohio, and I am sure you must have asked about 
high-speed rail in your questioning. Of course, the first 
projects that have been identified by the administration will 
really not go into the northern corridor of Ohio. They are 
focused on a crosshatch across the State. Did you cover that, 
Steve, in your questioning?
    Mr. LaTourette. I did not. I thanked the Secretary for the 
400 million bucks for the DCC corridor, as I call it, the 
Dayton, Cincinnati, and Columbus.
    Ms. Kaptur. Yes. Where we really need the administration's 
help, if I can just take an extra minute, is in the higher-
speed corridor that would be Pittsburgh, Cleveland, Toledo, 
Chicago, which has to go through Indiana. For some reason--and 
I just place this on the record--the State of Indiana was not 
able to provide a match for planning in the northern part of 
Indiana, and that has really put on hold our ability to move 
that high-speed rail corridor. They claim they didn't have the 
match. Perhaps the Secretary could get to the bottom of this 
and figure out----
    You know, as a Buckeye, I feel I want to work with the 
Hoosiers, but, you know, they have got to come to the table 
here. And perhaps the Secretary could play a role in that so 
that the higher-speed corridor could get the same attention as 
the corridor that will go in Ohio's situation from Cleveland to 
Columbus to Cincinnati, but the more traveled corridor will be 
the Pittsburgh-Cleveland-Toledo-Chicago corridor, and we can't 
do it without Indiana coming to the table.
    Secretary LaHood. Look, I would say that Indiana is 
interested in this project. We are going to be making some 
planning grant awards here very soon, and we will be working 
with Indiana on this.
    Part of the dilemma in some of these States is the 
legislature was not able to pass the match money. That was true 
in about three or four States around the country. I don't think 
it is for a lack of leadership on the part of Governor Daniels, 
but maybe the timing wasn't right. But we are on top of this. 
We know it is important.
    I will also tell you that the reason the three Cs was 
funded was because of the strong support from the Governor and 
from the Ohio delegation.
    Ms. Kaptur. We understand that. We know what that is all 
about.

                          INFRASTRUCTURE FUND

    Mr. Olver. Thank you.
    We will start the second round and continue in the same 
vein here.
    Mr. Secretary, you have proposed here--one of your big 
initiatives is the National Infrastructure Innovation and 
Finance Fund. I think we have started calling it NIIFF. I am 
not sure that is the proper terminology or not. But, anyway, 
this appears, as I mentioned, to be combining the proposal for 
last year's infrastructure fund, which was proposed at that 
time for $5 billion, and we moved some of that money around to 
do a bunch of other things, including the $2\1/2\ billion for 
HSIPR and the money for TIGER that went into the '10 bill and 
such.
    The high demand for the TIGER program has clearly been 
established by the response to that set of funding 
opportunities, and it certainly demonstrates a great need for 
investment in the infrastructure, especially projects that 
improve the movement of passengers and freight among multiple 
modes of--which include ports and rail and transit and air and 
highways.
    Now, when--last year, we never got legislation for an 
infrastructure bank. And it is not unauthorized. It is a major 
item. Do you have a sense of when we will get a proposal, a 
legislative proposal, for the infrastructure bank as you have 
proposed this year? Am I correct that it is sort of a hybrid 
between last year's infrastructure and the TIGER program?
    Secretary LaHood. Okay. Well, I am not going to refer to it 
as the NIIFF, because I don't particularly like that term. I 
don't think it reflects the value of the program. But I will 
refer to it as the infrastructure fund, and we will be 
proposing authorization language very soon. And we envision 
this--and when you see the authorization language--as an 
opportunity to fund multi-modal projects that include highway 
transit, rail, ports, and maritime.
    Mr. Olver. Does it particularly include components or 
incorporate lessons that you have learned from the process of 
going through the TIGER grant process, which is not quite 
complete? All of us want to be able to call you to say thank 
you for whatever it is that you have done at that time. That 
certainly is true. But are lessons that you learned in that 
process already being----
    Secretary LaHood. We received a lot of very creative 
proposals from around the country, almost all of them multi-
modal, and we have seen that there is a lot of creative 
thinking, a lot of creative juices flowing, a lot of creative 
proposals. We think that what we would propose in an 
authorization bill is multi-modal, taken from some of the 
creative things that we have seen come in from around the 
country under TIGER.
    Mr. Olver. When people respond to a notice of funding 
availability, the responses that you get depend very much on 
the capacity on the part of the folks who were making those 
applications. Some have very great needs and not very great 
capacity, and others have a great deal of capacity to put 
forward--and maybe have even stronger needs if they have that 
capacity. Do you have any thought about how one takes into 
account that there are places that have great need but not so 
much in the way of capacity to accomplish that, to help them?
    Secretary LaHood. Well, we have traveled around the country 
enough, and we have relationships with enough of these 
stakeholders to know, who these people are, what their capacity 
is, and how they can really utilize the money. Our people work 
with stakeholders day in and day out. We have developed lots of 
relationships as a result of TIGER and the proposals we have 
received, and our people are pretty good at making judgments 
about this, I think.
    Mr. Olver. But I am sort of asking are we also being good 
at helping them with technical assistance if----
    Secretary LaHood. Absolutely.
    Mr. Olver [continuing]. There is a strong need that is 
identified by----
    Secretary LaHood. It is one of the ways that we have really 
broken down the silos, too. We have got transit people working 
with rail people working with highway people because these 
multi-modal proposals that we have received really have allowed 
us to get all of our people working together, reviewing these, 
talking about them, and trying to give some good technical 
assistance to people.
    Mr. Olver. Thank you.
    Mr. Latham.

                            REAUTHORIZATION

    Mr. Latham. Thank you, Mr. Chairman.
    If you hear everyone's questions, we are talking about new 
initiatives and the tremendous demand obviously that there is 
for dollars to go towards infrastructure, whether it be high-
speed rail or highways, whatever. But I think one of the 
biggest problems we have--and Mr. LaTourette really focused in 
on it--is the fact that there is no certainty out there because 
we do not have a reauthorization.
    We are looking at your own solvency tables for the highway 
trust fund, and June 4 of this year it will go below $4 
billion. You have to go into the cash management plan at that 
point.
    By August 20th, we go in the negative. I assume that there 
will need to be another infusion of general funds into the 
trust fund to keep that operational. I would like to know just 
how much will you need? I know last year in your testimony that 
what was be going to be asked for was going to be offset. That 
was an assurance we were given. It didn't happen. But how much 
will we need to make up the difference in the trust fund and 
what do we tell our States when they can't plan more than 6 
months down the road? That is a problem. There is no long-term 
planning because there is no certainty out there for the States 
today.
    Secretary LaHood. I am going to have Chris give you the 
figures, and then I will tell you about the other part.
    Mr. Bertram. Yes, sir. The highway trust fund will require 
$9 billion to stay solvent through the end of this fiscal year. 
$8 billion would be for highways and $1 billion for mass 
transit. That is our current estimate. We provide the Congress 
weekly updates of the status of the trust fund and as we get 
closer to the summer we will probably have a more precise 
estimate of what that figure is.
    Secretary LaHood. Our highway people are in communication 
with the States all the time, in terms of what their plans are. 
So it is not as if we are not providing technical assistance 
and it is not as if they don't know at some point Congress is 
going to pass, a transportation bill. There are no secrets in 
these States about what they want to do, and we are talking 
with them and we are working with them. Some of the stimulus 
money has been used to fund things that they would have maybe 
ordinarily done under an authorization.
    Mr. Latham. I think the problem is they don't know--they 
probably believe that we will keep the commitment we have at 
the current baseline levels. But the fact of the matter is, if 
we are talking about a $400 or $500 billion reauthorization to 
dramatically increase, they cannot plan for any of that today 
because the money is not authorized. There is no plan.
    You know, I have got the table of how we are going to go 
into the negative and $8 billion for highways, another billion 
for mass transit coming out of the general funds, which we are 
going to have to borrow to do that. We have all the requests 
here from everybody for more and more of these projects. I 
mean, we are at a point that there has got to be some certainty 
out there, and I think that you would be able to--it is not 
just the States but local communities would be able to plan if, 
in fact, we had certainty, but I don't see any effort really to 
do that. I mean, we are kicking the ball down the field again.
    I don't know if there is a question in that, Ray.
    Secretary LaHood. It didn't sound like it.
    Mr. Latham. But it is very frustrating to the people that 
come into my office every day and want to know what is going 
on. I don't see anything moving.
    I mean, last year when I started talking about that and 
mentioned it, I didn't see any reauthorization done for, you 
know, the last fiscal year, this fiscal year, or going into 
next year; and Mr. LaTourette said if you heard the thud, that 
was Jim Oberstar falling down outside. But what do you see--how 
can we move the ball? I mean, tell us. I don't see the 
administration coming forward with a plan.
    Secretary LaHood. The President has asked Congress for an 
18-month extension in order to----
    Mr. Latham. Starting when?
    Secretary LaHood. Starting when we requested it, I don't 
know, maybe 6 months ago. I can get you the date, but it was 
probably 6 months ago, whenever we asked for it. We are not 
going to try to start the clock today. We are going to start it 
from when we made the request.
    Mr. Latham. Okay. My concern is you are going to start a 
new Congress. March of 2011 will be a new Congress, and Lord 
knows what is going to happen. That really kicks it probably 
another year down the road. That is the problem.
    And the States are just pulling their hair out, the local 
communities. There is no certainty. And it is just very 
frustrating to a lot of us who would like to see--who have the 
great demands for these projects to be able to plan long term, 
and you simply can't do it.
    Secretary LaHood. Well, having been in the seat that you 
are all in, if you can figure out how to pay for $400 to $500 
billion, we will work with you on that, but where are we going 
to find $400 to $500 billion?
    Mr. Latham. That is why we are looking for your 
suggestions, also. It has got to come from both sides----
    Secretary LaHood. I agree.
    Mr. Latham. But I think the administration actually should 
have some proposals, also.
    Mr. Olver. I think the point is made.
    Mr. Latham. Thank you very much, Mr. Chairman.
    Mr. Olver. Mr. Rodriguez.

                                AIRPORTS

    Mr. Rodriguez. Thank you very much.
    And once again, Mr. Secretary, thank you. I probably have 
one of the biggest rural districts in the Nation in West Texas, 
and we have a good number of small airport relievers that 
provide resources, and we are trying to enhance it in that 
area. I would ask in terms of some comments in terms of the 
importance of those reliever airports throughout the community, 
and including, for example, in San Antonio we have a small one 
that provides 150,000 and in terms of the resources that are 
allocated in that area for you to comment on them.
    Secretary LaHood. Sure. Well, those airports are very 
important, and we have a program that can be helpful to some of 
the smaller airports, and that program will continue. They are 
an important part of it, and we know with the downturn in the 
economy the use of those airports, like every airport around 
the country, has been diminished somewhat. But we will continue 
to work with the smaller airports and do what we can to be 
helpful.
    Mr. Rodriguez. Now, we have been looking at moving towards 
the new technology on airports.
    Secretary LaHood. Right.
    Mr. Rodriguez. Where are we at on that?
    Secretary LaHood. We have a significant request in our 
budget that the President sent up for next-generation 
technology. We have just implemented a NextGen system in the 
Gulf of Mexico. I am happy to have someone come up from the FAA 
and brief you on our plan for next generation technology. We 
want it implemented.
    We are working with the airlines, because it is going to be 
very costly for the airlines--you can put it in the airports, 
but then the airplanes have to have it, too. So we are trying 
to really mesh the two of these together, and we have had lots 
of discussions with airlines about this and how they are going 
to pay for it and so forth. But we think we have an opportunity 
to really get the next generation technology sooner than maybe 
most people think.

                          LIVABLE COMMUNITIES

    Mr. Rodriguez. I also wanted to follow up, and I know there 
has been a great deal of dialogue and collaboration on that, 
and I want to congratulate you on that, regarding the livable 
and sustainable community initiatives. Would you elaborate on 
the mechanics of how this initiative will work and how 
communities will be able to get access to these resources?
    Secretary LaHood. If our budget is approved, we have shared 
resources between HUD and EPA and the Department of 
Transportation in a program called Livable Communities, and we 
have a working group over the last year and once the budget is 
approved, really begin to work with communities. We know there 
are neighborhoods around the country, communities around the 
country, that want to do more with light rail, with transit, 
with streetcars, with walking paths, with biking paths; and all 
of these fit into the definition of livable communities. Once 
our budget is approved, we would be off to the races with these 
communities and neighborhoods in trying to help them implement 
the kind of dreams that they have for other ways to get around 
the community and neighborhoods other than automobiles.
    Mr. Rodriguez. So I gather there will be notices out later 
on in the near future and----
    Secretary LaHood. Yes. This is a part of our budget, once 
our budget is approved, then we can have relationships again 
with these folks around the country that we have been out and 
visiting. They have heard about this program. We have talked 
about it for a year, and once everything is signed, sealed, and 
delivered as far as the money, then we will start accepting 
proposals.
    Mr. Rodriguez. Thank you, Mr. Secretary.
    Secretary LaHood. Thank you.
    Mr. Olver. Mr. LaTourette.

                          INFRASTRUCTURE FUND

    Mr. LaTourette. Thank you, Mr. Chairman.
    Mr. Secretary, I want to commend you for the fund formerly 
known as NIIFF and just come up with a cautionary--I think that 
is a great idea. That really is the wave of the future. And we 
had proposed, and I guess the warning is in SAFETEA-LU there 
was originally a proposal, I think it was $17\1/2\ billion, for 
projects of regional national significance. And the footprint, 
the requirement was that each project had to be half a billion 
dollars or more. And we knew that we might not get one, but we 
knew that there were going to be 35, 30 projects around the 
country that were going to be built and they were going to be 
real projects.
    In Ohio, the inner belt, Cleveland, the Bent Spence Bridge 
that connects Ohio to Kentucky, all of those are billion dollar 
projects. But a funny thing happened on the way to the original 
project fund. It went over to the other body, and they pirated 
it. They took 200 billion here, 200 billion there, 50 billion 
there, 50 million here. And so, just to take the one that I am 
interested in, the inner belt in Cleveland is a $1.2 billion 
project. Senator Voinovich got $200 million. Well, that is 
great, but you are not building a billion dollar project with 
$200 million.
    So I would hope that--and I know that, given your 
integrity, that you will protect the integrity of this fund and 
make sure it really builds America and doesn't satisfy a bunch 
of parochial needs. I am interested in the budget submission 
and the reasoning behind the proposed termination of the 
surface transportation priorities fund of $161 million. And I 
will tell you what concerns me. That has an--it is a dirty word 
around here--earmark. But that fund is congressionally directed 
spending. So I consider it to be a direct slap at the United 
States Congress and the Appropriations Committee, and it will 
leave one bunch in town that is able to direct spending to 
specific areas, and that is the administration. And I wish you 
would reconsider that.
    But if you have a comment about that I would be happy to--
--
    Secretary LaHood. Do you know about that, Chris?
    I will let Chris give you the bad news on this.
    Mr. Bertram. Mr. LaTourette, those are the congressionally 
directed projects----
    Mr. LaTourette. Right.
    Mr. Bertram [continuing]. In an appropriations bill, and we 
don't terminate them. We are not rescinding them, but we don't 
propose any new funding for that in 2011.
    Mr. LaTourette. So you continue the program with no money, 
is that--I got it. We will deal with that during the 
appropriations process.
    I don't want to be a one-note Johnny, Mr. Secretary, but, 
again, the figure is 30 percent unemployment among civil 
engineers, the sand and gravel guys, the asphalt people, the 
concrete people, the laborer, the operating engineer. And 
according to GAO almost half of the stimulus funds that went 
through your Department that did, in fact, create jobs went for 
repaving projects, as I mentioned earlier.
    In Ohio, the Cleveland Plain Dealer reported that the 
stimulus bill created or saved 13,000 jobs. Of those 13,000 
jobs, 11,000 were teachers. I like teachers. I think it is 
great. But that is not stimulating the economy.
    In Ohio, it has been pretty well publicized that over a 
million dollars was spent on signs, not saying ``slow down,'' 
``construction zone,'' but saying ``this project was paid for 
by the Recovery Act.'' So the sign makers are fully employed in 
Ohio, but the people that build the highways are not. And it 
was further a requirement that the sign had to be up before you 
could begin to put a shovel in the ground, which seemed a 
little odd to me as well.
    We have a problem with unemployment. A job solves that. The 
President talks a lot about health care. A job can solve that 
for a family. Retirement security, a job can solve that. 
Foreclosure problems, people losing their house, a job can save 
that.
    I just have to tell you, I heard what you said, and there 
are proposals. Mr. Oberstar has a proposal. I am working with 
Mr. Oberstar. We can find in a bipartisan way the 400 to $500 
billion to fully fund, but it is going to take some tough 
choices.
    And I will be a bipartisan basher. This started with 
President Bush. When he came up on SAFETEA-LU and said we only 
had $256 billion over 6 years, that was crazy. And because he 
wouldn't recognize and his bean counters wouldn't recognize 
that, we had to enhance the revenue to the highway trust fund. 
It would have taken a nickel then. Now it takes a dime.
    I get people don't want to vote for a tax increase. I get 
people don't want to switch to vehicle miles traveled. I get 
people don't want to use the bonding authority of the United 
States. But if this administration continues to pump out 
stimulus bills that fund things like treatment for sexually 
transmitted diseases rather than putting the operating 
engineers to work, shame on you. And if the United States 
Congress can't work in a bipartisan way to come up with a 6-
year bill that gets the job done, then shame on us.
    I went up to Mr. Emanuel after the State of the Union 
address and said, I am ready, and he has invited me to send our 
proposal down. I will work with anybody, as will many 
Republicans, but to kick this can down the road until 2011 is a 
political decision. It is not an infrastructure decision that 
will rebuild America.
    Mr. Olver. Thank you, Mr. LaTourette.
    Mr. Pastor. We are going to stick very closely to let the 
Secretary get finished here, and we are going to hold it to 5 
minutes now.

                                NEXT GEN

    Mr. Pastor. Thank you, Mr. Chairman.
    The stimulus package did save a lot of teachers jobs, and 
school boards and school districts are very thankful, and 
cities have gotten some firemen and some policemen that stayed 
on the job and other people. They are thankful. And in the 
district I represent, jobs went for infrastructure, and people 
are working. And I was only sad to see that it was not a 
bipartisan bill not because of my choice but because of people 
that either felt it didn't go far enough, which may have been 
my colleagues' reason for not voting for it, or because they 
didn't want to spend the money. But the reality is we have made 
attempts to create employment and thank God that people have 
stayed in a job and will continue to do it.
    I support infrastructure development, and I will join Mr. 
LaTourette, as he knows he and I have a friendly relationship, 
that there are water treatment plants and bridges and all of 
that, and I agree with it. And hopefully in a bipartisan manner 
he and I and others can work to get a jobs bill that creates 
more infrastructure that is greatly needed. But that is the 
reality today and for the future we need to work together. I 
guess both of us need to quit looking at the next reelection 
and look to the next generation, as I heard at the State of the 
Union. So we are willing to do that.
    I want to thank you for the emphasis in the budget on 
safety. I have to tell you that sometimes we overlook it. The 
whole texting issue, distraction for drivers, is very 
important. And so as people are driving and wanting to text and 
not text, but the whole issue of how people are not paying 
attention to their driving whether--it is very important.
    But the issue I have--it is not an issue. It is just a 
question, with NextGen. I have to tell you that a few years ago 
I was greatly disappointed because I saw a lot of disarray and 
confusion on how to get it going, and it seemed like things 
weren't happening because some agencies weren't involved and 
probably the priority was not there.
    Today, you are telling me that there is a project over in 
the Gulf of Mexico and it is becoming a reality. I can wait for 
the Administrator Babbitt for more specifics. But, overall, is 
it under budget and on time? I guess that is my main concern. 
Because we can't spread it out like we have other programs 
dealing with navigation in the sky. So this is very important, 
but it is very expensive. So under budget and on time is a very 
big concern to me.
    Secretary LaHood. Well, we have a good plan. We have some 
very good resources in the budget that is being proposed to all 
of you. We have people that think about this every day.
    As I said, we have had lots of discussions with the 
airlines last year about how they can pay for what they need to 
implement in the planes. We are pretty far along on this, and 
we think we will have it sooner rather than later. There is a 
commitment from Congress, there is a commitment from the 
industry, and this is, if not the top priority, which is 
safety, it is right up there for us to implement this. The 
White House is behind us on this, also.
    Mr. Pastor. I am glad to hear that the airlines are 
involved in this.
    Secretary LaHood. Absolutely.
    Mr. Pastor. The other is the air traffic controllers. 
Because I remember sitting here in the hearings always trying 
to discuss the screen and the mouse. So, hopefully, they are 
involved.
    The other question I have, and I support you for the high-
speed rail, but one of the disappointments I guess that I heard 
this morning is that they will still be using lines that are 
accommodating freight, Amtrak, et cetera. And at most hearings 
I have sat through here, it has always been if you try to 
accommodate three partners or two partners, it is always that 
you are not going to have that speed that you are looking for 
above--even to get to 90 is quite a challenge. So I just hope 
you can resolve that issue, because it is a problem in using 
the current infrastructure, especially the rails.
    Mr. Olver. Thank you.
    Ms. Kaptur.

                              TIGER GRANTS

    Ms. Kaptur. Thank you. I will try to get through this in 5 
minutes, Mr. Chairman.
    First of all, Mr. Secretary, the largest transportation 
project in Ohio history was a Federal project crossing the 
Maumee River, the largest river that flows into the Great 
Lakes, Interstate I-280 in the region I represent. Shortly we 
are going to be solar powering the main pylon, which looks like 
a large Roman candle, and I believe it will be the first such 
solar-powered major lighting effort in the United States of 
America. We would like to invite you out to help us on this 
landmark----
    Secretary LaHood. I will be there. Thank you for your 
leadership, too, and to the community.
    Ms. Kaptur. Thank you. It has taken many, many years and 
thank you for your openness to that.
    Number two, I have two quick questions. One is, the 
administration is about to make $1.5 billion in TIGER grants 
funded through the recovery bill, and there is an additional 
$600 million that we provided in the regular budget, in the 
fiscal year '10 bill. Do you anticipate recompeting the TIGER 
grants for the new funding, the extra funding, or are you in 
the next 2 weeks going to roll out an announcement that spends 
the entire $2.1 billion?
    And the second part of my question on that is, if a project 
scored high in the initial round of scoring but is not funded, 
are you going to make those projects compete again?
    Secretary LaHood. We are statutorily required to make 
announcements on the $1.5 billion by February 17, which we will 
do, and then there will be competition for the additional 
money. I take your point on programs where we didn't have 
enough money but they are valuable programs or projects--I will 
get back to you on whether they can compete for those funds.
    Ms. Kaptur. I thank you. I just want to state for the 
record, and I will provide more detail, that the top project in 
our region, which was the modernization of our shipyard, was 
not able to be funded. And I have talked with the Secretary and 
you have been great in trying to explain what happened.
    It was the top priority of our city, county, myself, our 
Governor, everybody else, but here is what we ran into. In the 
Recovery Act, there is a section 601(a)(8) that defines project 
if located within the boundaries of a port terminal to include 
surface transportation infrastructure modifications as are 
necessary to facilitate direct inter-modal interchange transfer 
and access into and out of the port. So our State thought that 
a port project would be eligible, our shipyard would be 
eligible. What happened is, once it got over to DOT, it then 
got administered by the Highway Administration, and that is 
where we ran into difficulty.
    We will explain that, but we are hoping that in the new 
jobs bill, assuming the Senate passes it, that if a project--
our State DOT Director was in here yesterday and said if a 
project is eligible for any DOT program, it should be eligible 
for the recovery jobs program. We ought to find a way to do 
that and not have a stovepipe inside of DOT telling us we can't 
do it. So it seems there is a conflict in the law. We will try 
to clarify it to the best our ability, but we wanted to make 
you aware of it.
    Secretary LaHood. Thank you.

                         ENVIRONMENTAL EFFORTS

    Ms. Kaptur. The final question that I have is just a 
request for information. That is, are there any programs at 
U.S. DOT authorities or funding to help urban communities, 
urban counties consolidate all their public vehicle fleet 
maintenance and management to go green? Is there anything in 
the law? Is there anything in what you are doing over there? 
Because I think this would save us a great deal of money.
    Because we have State fleets, city fleets, county fleets, 
and transit authority fleets. Everybody has got their own 
garage. Every garage leaks energy. The vehicles are not that 
green. And so I am looking for any type of incentive program or 
demonstration program that might exist through DOT that we 
might be able to look in and, if it does not exist, to create 
the authority to have it exist.
    Secretary LaHood. We will get back to you on that.
    Ms. Kaptur. I thank you very, very much.
    Thank you, Mr. Chairman.
    Secretary LaHood. Thank you.
    Mr. Olver. Thank you.
    Mr. Latham for your final round.

                                TRANSIT

    Mr. Latham. Thank you very much, Mr. Chairman.
    Mr. Secretary, as you know, there are many States in the 
country that don't have large transit systems, like Iowa. In 
our case, we put about $60 million a year into the mass transit 
account with the gas taxes that we pay. We get back about $35 
million in the formula. And we still have tremendous needs as 
far as new equipment certainly as far as the systems we have. 
Is the Department doing anything to address the funding 
inequities for the smaller transit systems like in the State of 
Iowa?
    Secretary LaHood. Well, our transit administrator is trying 
to work with States like Iowa, and why don't I get back to you 
with some of the specifics that he has been doing.
    Mr. Latham. Okay. If you would.
    Secretary LaHood. I will have him come up and meet with 
you.

                             MOTOR CARRIERS

    Mr. Latham. Great. Thank you.
    As you know, in the fiscal year '10 omnibus there was a 
provision in there to authorize the use of heavy six-axle 
trucks on interstates, highways in Maine and Vermont. The 
committee never really got a chance to have a hearing or to 
really debate anything about that, and there is a lot of 
interest from other States, obviously, for the same types of 
provisions. I just wanted to know what your thoughts are on 
that like a countrywide pilot program that would allow the 
States to increase the allowable weight on the interstate and 
would you be in favor of considering such a pilot program?
    Secretary LaHood. Our administrator for truck safety is 
working on this, and I will get back to you with the specifics 
on what we are working on.
    Mr. Latham. Okay. Obviously, we have the same types----
    Secretary LaHood. This is a very, very controversial hot 
topic, and either I will come up and brief you or I will have 
our----
    Mr. Latham. Let us get into one that is real easy, then. 
What about Mexican trucks? Where are----
    Secretary LaHood. We are working with the White House on a 
proposal.
    Mr. Latham. And I know we have had discussions between the 
of two of us with NAFTA and the commitment we have made with 
NAFTA to make sure it has to be done in a very safe way, 
obviously.
    Secretary LaHood. Right.
    Mr. Latham. But you are going to get back to me again?
    Secretary LaHood. No. I am going to just tell you we are 
working with the White House on a proposal. Once we have that, 
I will be happy to come up and show it to you.
    Mr. Latham. Is there a timeline that you are looking at?
    Secretary LaHood. Soon.
    Mr. Latham. Soon? In the interest of time, we have votes on 
the floor. So I will yield back my time, and I appreciate very 
much----
    Secretary LaHood. Thank you.
    Mr. Olver. Thank you, Mr. Secretary, for being with us.
    I have a couple of quick questions, and then we will close.
    If when we get around to passing this bill sometime later, 
some months later in the process, if it is in regular order, a 
limited number of months, and if the economy still looks as if 
there is need, what would your thought be about going above the 
10 percent that has been allowed for--several people expressed 
an interest in going above the 10 percent allowance for the 
capital funds that go out by formula being used for operating 
expenses, going to a higher percentage.
    Secretary LaHood. I think that if you all decide to get 
into that kind of debate, we will talk with you about it. I 
think you know where we stand on the principle of doing it, and 
so if you all decide to do something else, we will talk with 
you about it.
    Mr. Olver. Okay. The other thing that I hear several people 
mentioned at one point or another is the streamlining of the 
processes. It is clearly the processes whereby one does 
planning and environmental work and design and finally at some 
point some 10 or 12 years later get to construction on a 
project that people are concerned about.
    Does the administration have any kind of preparatory work 
to work directly with the T&I? Because that is an authorizing 
issue. We have to somehow streamline these processes for major 
capital programs.
    Secretary LaHood. I talk to the chairman all the time, and 
also we are working with their staff. So we will continue to do 
that.
    Mr. Olver. Okay. I thank you for that.
    I just also want to thank you very much for the rail money 
out of the recent announcement a couple of weeks ago, the 
announcement that involves Connecticut and Massachusetts and 
Vermont in the Connecticut River Valley. That is a very 
valuable program that I think much of it can be delivered 
within certainly '10 and '11 at least, and a large portion of 
the work will be done during this calendar year that we are in, 
and a good deal of time will be saved in the trip for people 
who are using that Amtrak corridor. So I greatly appreciate 
that.
    Secretary LaHood. Thanks for your leadership in the area 
and in the region.
    Mr. Olver. I yield to Mr. Latham.
    Mr. Latham. Thank you, Mr. Chairman.
    I just want to say a lot of members here have said that you 
have come to their States. I haven't been with you in Iowa, and 
I don't think you have been with the chairman in Massachusetts, 
so we would invite you to join us.
    Secretary LaHood. I have been to Iowa. I wasn't in your 
district.
    Mr. Latham. What?
    Secretary LaHood. I spent a half day in Dubuque, and that 
is where I learned about the new IBM employees in the millworks 
area. Whenever I am invited, Mr. Latham, I will be in your 
district.
    Whenever I am invited, Mr. Olver, I will be in your 
district.
    Mr. Olver. I am hoping that I will be able to invite you 
after----
    Secretary LaHood. When Mr. Rodriguez invited me to San 
Antonio, I came.
    Mr. Olver. We will see.
    Finally, I just want to thank you for your very strong 
leadership in this field. And, really, if there is a little bit 
of testiness coming from members who have great concerns, it is 
not with you, not meant in any kind of a personal way. I am 
quite certain. And I want to thank you also for the steady 
communication with the subcommittee. It is very much 
appreciated.
    Secretary LaHood. One of the values I bring to this job is 
I have sat in those chairs and I know that when Mr. LaTourette 
speaks, he speaks with great authority and great sincerity, and 
I wouldn't question his motives at all. I know that there is a 
great deal of frustration being expressed, and so we have our 
job to do, and we will continue to work with all of you on the 
way forward here.
    Mr. Olver. Thank you very much.
    Secretary LaHood. Thank you.
    Mr. Olver. The hearing is adjourned.

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                                           Tuesday, March 16, 2010.

STRENGTHENING INTERMODAL CONNECTIONS AND IMPROVING FREIGHT MOBILITY: AN 
                          OUTSIDE PERSPECTIVE

                               WITNESSES

WAYNE JOHNSON, DIRECTOR OF LOGISTICS, AMERICAN GYPSUM COMPANY
JOHN WOLFE, EXECUTIVE DIRECTOR, PORT OF TACOMA
BEVERLY K. SWAIM-STALEY, SECRETARY, MD DEPT. OF TRANSPORTATION
RICHARD F. TIMMONS, PRESIDENT, AMERICAN SHORT LINE AND REGIONAL 
    RAILROAD ASSOCIATION
TIMOTHY P. LYNCH, SEN. VICE PRESIDENT, AMERICAN TRUCKING ASSOCIATION

                    Chairman Olver's Opening Remarks

    Mr. Olver. The subcommittee will come to order. At its 
core, the global economy determines winners and losers based on 
the costs at which a product can be produced and then brought 
to market. Within the global marketplace, the United States 
cannot compete with labor costs in developing countries. As a 
result, we must ensure that every other step of the process is 
more efficient, including the ability of domestic manufacturers 
to transport finished goods to the marketplace. 
    To that point, investments in our national infrastructure 
are not only about creating immediate construction jobs, but 
also long-term jobs that are established when manufacturers can 
access and gain advantage from an efficient, interconnected 
transportation network. In order to meet this challenge, the 
federal government plays a central role in developing and 
maintaining an intermodal system that meets our nation's 
national needs.
    Last month, the Department of Transportation announced 
awards for the TIGER grant program established within the 
American Recovery and Reinvestment Act. This is a significant 
step for our federal transportation program, as it reflects a 
growing understanding that the interconnections between modes 
are just as important as mobility within a mode.
    Helping us explore these complex networks, we have before 
us today a distinguished panel of experts and practitioners who 
represent different modes engaged in the movement of commerce. 
Beverly Swaim-Staley is Secretary of the Maryland Department of 
Transportation. John Wolfe is the Executive Director for the 
Port of Tacoma. Richard Timmons is President of the American 
Short Line and Regional Railroad Association. Wayne Johnson is 
the Director of Logistics for the American Gypsum Company. And 
Tim Lynch is Senior Vice President for the American Trucking 
Association.
    Thank you all for being here today. I believe that we at 
the table--there are a number of other hearings going on. That 
is one of the features once one gets into this hearing process. 
You have people who are three different subcommittees, and very 
often all three subcommittees are meeting at the same time. One 
of the others that I serve on is meeting at this very time.
    Today I believe we will all benefit from your perspective, 
particularly on how our current system operates and where you 
believe there are opportunities for improved mobility. 
Furthermore, recognizing that the U.S. population is estimated 
to grow to close to 400 million people by 2050, I hope you will 
discuss how we can plan ahead to minimize conflict between the 
movement of freight and passengers, and what role new 
technologies may play in alleviating that tension. Your 
testimony will also set the tone and provide practical insight 
for tomorrow's hearing, where we will hear from the federal 
modal agencies that primarily impact freight mobility. 
Specifically, the Federal Highway Administration, the Federal 
Motor Carriers Safety Administration, the Maritime 
Administration, and the Federal Railroad Administration will 
provide testimony on their respective fiscal year 2011 budget 
request.
    With that, let me recognize our Ranking Member John Latham 
for any comments that he would like to make.

                Ranking Member Latham's Opening Remarks

    Mr. Latham. Thank you, Mr. Chairman, and welcome the panel 
here today. And I think this will be an important hearing. I 
think it is interesting that the hearing from last week about 
livability or sustainability, the administration was supporting 
a proposal to take the scarce, and some would say nonexistent, 
highway trust fund dollars from the states, and instead give 
those funds to community planners.
    If I am reading the testimonies correctly here today, these 
witnesses are saying just the opposite: highway trust fund 
dollars are desperately needed for road maintenance and 
congestion mitigation. Not only does our economy depend on the 
jobs that construction and maintenance supports, but general 
industry, distribution, and manufacturing depends on smooth 
mobility of freight.
    My home state of Iowa, obviously, is an agricultural state, 
and our economy and the livelihood of thousands of farming 
families and other people in the business depend on 
agricultural products grown and processed in Iowa and getting 
to other cities, states, and, like Mr. Wolfe's testimony will 
say, to the rest of the world.
    I really do look forward to the testimony and the questions 
and answers the next couple of hours because I think it will 
drive home the need to keep highway trust fund dollars for the 
purposes it was intended by the creators of the trust fund, and 
probably perhaps even more importantly, that the expectation of 
every person who buys a gallon of gas that these funds will be 
used to improve roads.
    So with that, Mr. Chairman, I yield back.
    Mr. Olver. Thank you. We will now hear from the panel. Your 
complete written statements will be included in the record. If 
you can keep your oral summary to somewhere around six 
minutes--we usually have this listed at five, but we are going 
to do six minutes today for each of you. Then we will be able 
to get on to questions from the panel. Thank you very much. Ms. 
Swaim-Staley.

                   Ms. Swaim-Staley's Opening Remarks

    Ms. Swaim-Staley. Thank you. Good afternoon, Chairman Olver 
and Ranking Member Latham, members of the subcommittee. I am 
Beverly Swaim-Staley, Secretary for the Maryland Department of 
Transportation. Thank you very, very much for the opportunity 
to be here today to provide testimony to you from the state of 
Maryland on a topic that is of great importance to us in the 
public sector. My comments and a more extensive set of written 
comments, of course, you have been provided with.
    Maryland's recent efforts in intermodal freight planning 
and investment, and the need for continuation of our federal 
matching grants, plus an improved organizational structure to 
support complex projects are some of the efforts that we are 
trying to advance in the state of Maryland. For more than 35 
years, the Maryland Department of Transportation has functioned 
as a multimodal agency. Within the umbrella of the Department 
of Transportation, we have capital and operating responsibility 
for everything transportation-related, from the state-owned 
short line railroad on the eastern shore of our state to the 
port of Baltimore to the BWI Thurgood Marshall Airport and the 
interstates and roadways.
    Now and in the future, freight growth in the U.S. will 
depend upon the provision of strong, critical capacity networks 
throughout. Some improvements are definitely needed in order 
for us to be able to alleviate the congestion that we 
experience, while others are required to accommodate a greater 
share of the modern freight equipment, including the post-
Panamax ship and Doublestack. And those are some of the 
challenges that we certainly face in the state of Maryland, 
both at our port and our freight lines, just making sure that 
we can handle the larger cargoes that need to pass through our 
state.
    Fortunately, I think Maryland has a flexible funding and 
organizational structure that does give us some of the 
flexibility, I think, to fund across the modes. In fact, we 
have a dedicated modal stream that really allows us to move 
revenue streams from one mode to the other, which I think is of 
extreme importance to us in Maryland.
    Of course, the current downturn in the state revenues has 
affected our ability to fund new capital projects as well as 
our operating program. We have really also been forced, as many 
have, to look at non-traditional resources. We are employing 
things such as a public-private partnership at our new port--
and I will speak a little bit about that in a moment--also 
looking to foster transit-oriented development, as well as 
other opportunities to move freight throughout our state.
    As you might expect, Maryland's location along the 
northeast corridor is key. Our proximity, of course, to dense 
population centers make it very important, and frankly forces 
us to operate in mega-regional environment and to make sure 
that those investments that we are making in our region are 
across-region.
    Like other states, we work across modes and borders to try 
to solve impediments to the growth and efficiency that we need 
to keep our states economically viable. MDOT is engaged in 
partnerships in several major areas, at our port and also in an 
intermodal rail-truck container facility.
    One of our recent investments, our Governor O'Malley has 
announced a 50-foot berth at the port of Baltimore. This is our 
first public-private partnership. It is a 50-year lease with a 
company called Ports America. It is going to bring 5,700 jobs 
to our state and allow us to be able to work with the post-
Panamax ships once the canal, the Panama Canal, opens. And we 
are very pleased about that.
    We also have a CSX Gateway project, which is by far one of 
our most important projects. Of course, being able to provide 
for Doublestack is critical to the port of Baltimore. We need 
to make sure that we are working with our freight railroads to 
accomplish this. We were very pleased that USDOT awarded the 
project $98 million from the TIGER funding recently. 
Unfortunately, despite considerable state and private matching 
funds, this award is still 20 million shy of what we need for 
that segment from Pennsylvania to Ohio.
    To realize the full benefits of the project, we needed to 
clear the route all the way from Maryland to Virginia, and to 
provide 50 percent of the cost to construct the new inland 
port. We have made that obligation for our state, but we need 
federal funds to match that.
    We recognize the significant competition that was available 
in the TIGER funding, and we are certainly very appreciative of 
the first steps. And we certainly hope that these investments 
will continue to create solid employment and give permanent and 
long-term boosts to our economy, national and in the state as 
well.
    Congress has given states broad flexibility for federal 
funding. We are very appreciative of that. We encourage the 
continuation of these programs and further applaud Congress's 
action to include 600 million in the fiscal year 2010 National 
Infrastructure Investment Grants. We consider this kind of 
funding critical. We believe that it is very well timed, and it 
will provide us with the flexibility to delivery deadlines in a 
better fashion than we were allowed under the recovery fund.
    So going forward, we believe that states are going to want 
access to programs like this, programs that benefit intermodal, 
multimodal, and freight projects, and we certainly urge your 
support in continuing to fund these kinds of long-term projects 
so that they have predictable funding streams, quite frankly.
    Traditional private investment previously has had little 
public input, but we believe that these new programs are 
providing incentives for the business community to coordinate 
goals and projects within state and local governments. We are 
involved in our statewide freight plan. We are involved in many 
coalitions along the northeast corridor to make sure that we 
are part of a very viable freight network throughout the 
country.
    So in conclusion, we would urge you to continue to fund 
mode neutral programs like the TIGER program, the projects of 
national regional significance, and the national infrastructure 
investment. And I want to thank you very much for the 
opportunity to be here today to talk about this.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Olver. Thank you. Mr. Wolfe.

                      Mr. Wolfe's Opening Remarks

    Mr. Wolfe. Thank you, Mr. Chairman and members of the 
subcommittee. I want to thank you for this opportunity to 
testify before you today on strengthening intermodal 
connections and improving freight mobility.
    I would like to talk to you about some of the most 
important tools we have for keeping our nation's economy strong 
and keeping U.S. companies successful competitors in the global 
marketplace. U.S. seaports are the gateways for the import and 
export of 7.8 billion tons of cargo annually. This trade 
activity helps our nation's ports provide high-paying jobs 
through public-private partnerships, and generate billions of 
dollars in business income and spending annually.
    I am proud of the innovations at the port of Tacoma that 
have brought freight movement. Back in 1981, we built the first 
on-dock intermodal rail yard on the west coast, a pioneering 
development that helped our shipper save time and money by 
transferring containers directly between ship and train. About 
60 percent of the containers transiting our port travel by rail 
to the American heartland, almost all of them loaded on dock 
directly from ships.
    The port of Tacoma and the port of Seattle, 40 miles to our 
north, together represent the third largest container load 
center in North America. We also handle large volumes of 
agricultural products and break-bulk cargoes. In addition, the 
port of Tacoma is a strategic military port. Both ports realize 
the importance of keeping cargo moving efficiently and cost-
effectively through the Puget Sound region, or that cargo will 
flow through other port gateways.
    In 1996, that concern for transportation efficiency led 
ports, cities, counties, Washington state DOT, railroads, 
trucking interests, and our Regional Metropolitan Planning 
Organization to create the FAST corridor project, the 
identification of 25 grade crossing and port access projects in 
the Puget Sound region, half of which are now completed, to 
reduce congestion impacts from freight movement.
    This initiative showed what major partnerships and major 
investments, almost half a billion dollars, can accomplish. One 
of those FAST corridor projects critical to the port of Tacoma 
is the extension of SR-167, the home of one-third of our 
region's distribution and storage facilities into our port. The 
SR-167 project is the type of project that can greatly benefit 
from programs like the TIGER program, which use merit-based 
criteria to fund large, nationally significant projects, with 
special emphasis on freight mobility.
    Under TIGER, for the first time, ports were able to apply 
directly for this type of federal funds. By one analysis, 22 of 
the 51 projects recently awarded TIGER grants contain a strong 
freight component, and those 22 projects receive 49 percent of 
the total funds. They still had to compete, however, against 
transit and other non-freight projects. We think that a better 
long-term solution would be to create a federal funding program 
similar to TIGER, but a program that is completely dedicated to 
freight mobility.
    A remarkable consensus has developed within the freight 
industry on what kind of federal freight program this country 
needs. Such a program should mandate the creation of a national 
multimodal freight strategic plan, provide dedicated funds for 
freight mobility projects distributed through a competitive 
grant process using objective merit-based criteria, permit 
ports to apply directly for these funds, and establish a 
multimodal grade office at USDOT under the Undersecretary for 
Intermodalism.
    Mr. Chairman, I would like to also single out two recent 
freight-related initiatives of the Obama administration for 
special praise. First, the effort by the International Trade 
Administration and the Department of Commerce, in cooperation 
with other federal agencies and the private sector, to draw 
attention to the need for a national freight policy and a 21st 
century supply-chain infrastructure; and second, the 
administration's national export initiative to create 2 million 
jobs by doubling U.S. exports over the next five years.
    I want to emphasize, however, that if this initiative is to 
be successful, we will need to make major strategic investments 
in freight transportation infrastructure, for example, 
intermodal connections at our ports to handle these trade 
volumes more efficiently.
    Last, but by no means least, Mr. Chairman, I also need to 
mention the longstanding concern of the Pacific Northwest ports 
about the problem of cargo diversion to Canadian ports. Today, 
we are in a tense competition with the port of Vancouver, and 
especially the port of Prince Rupert in British Columbia. They 
are currently winning that competition because of the strong 
partnership among the national, provincial, and regional 
governments of Canada, known as the Asia-Pacific Gateway 
Strategy.
    This national strategy includes a $3 billion investment in 
the gateway program by the Canadian government, the largest 
infrastructure project in British Columbia history. As you 
know, we do not have anything comparable in terms of a national 
strategy for the United States. If we were to ask the federal 
government to do one thing, it would be to develop such a 
strategy for the U.S., and to work with our public ports and 
others to make the targeted investments needed to implement it. 
Thank you.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Olver. Thank you, Mr. Wolfe. Mr. Timmons.

                      Mr. Timmons' Opening Remarks

    Mr. Timmons. Mr. Chairman and members of the committee, I 
appreciate the opportunity to testify in my capacity as the 
president of the American Short Line and Regional Railroad 
Association this afternoon.
    The short line railroad industry is not the largest segment 
of our transportation system. Indeed, we may be the smallest. 
But for large areas of the country, short lines are the only 
connection to the national railroad network. There are 550 
short lines operating in 49 states. Every member of this 
subcommittee except one represents a short line railroad, and I 
can assure you we are working hard to acquire a short line in 
Representative Pastor's district as quickly as possible.
    State DOTs recognize that short lines provide congestion 
reduction benefits while reducing highway pavement damage 
costs. For example, the Kansas Department of Transportation 
found that the diversion of rail traffic from Kansas short 
lines to trucks would cost the state over $50 million in 
pavement damage costs each year.
    Railroads in general and short lines in particular are 
exceptionally capital-intensive industries. These small 
businesses reinvest nearly 30 percent of their gross revenues 
in repairing and upgrading their infrastructure, more than 
other industry in the country.
    With the passage of the Railroad Safety Improvement Act in 
2008, the regulatory compliance costs for short lines have 
skyrocketed. Twenty-six separate regulations are in the works. 
These regulations will create serious financial burdens for 
small railroads. And I have no doubt that several short lines 
will cease operations in the next two years because their 
resources will just not be sufficient to meet this burden.
    Foremost among these costs for both the seven large class 
one railroads and some short lines is the requirement to 
install positive train control systems under certain 
conditions. The Federal Railroad Administration estimates that 
the positive train control mandate will cost approximately $14 
billion over the next 20 years, diverting critical funds from 
other necessary and more important effective safety and 
infrastructure improvements.
    It is quite possible, however, that a solution to the PTC 
issues may be found outside the appropriations process. One 
proposal would provide a tax credit for PTC improvements. The 
ASLRRA endorses this concept, absent a tax credit that Congress 
should seriously consider appropriating funding to assist 
railroads in deploying this new technology.
    While the financial burdens of regulatory changes have 
mounted, the public benefits of rail have gone largely 
unnoticed in federal planning and funding. This committee is to 
be commended for three recent actions to reverse this trend. 
First, it has provided funding for the rail relocation program 
to allow local governments to mitigate the effects of rail 
traffic on safety, motor vehicle traffic, quality of life, and 
economic development. We commend this action, and believe that 
this program could create dramatic improvements to freight 
mobility if it were funded at its authorized level of $350 
million annually.
    Second, the committee is to be commended for 20 million in 
support in 2009 of rail infrastructure damaged in serious 
Midwest flooding. We hope that awarded funding not yet 
dispersed can quickly be released to allow the disaster 
recovery process to continue.
    Third, state DOTs recognized where a dollar of railroad 
improvements can generate benefits in excess of a dollar spent 
on highways. The American Recovery and Reinvestment Act of 2009 
specifically allowed state DOTs to use federal high way dollars 
for passenger and freight rail transportation and port 
infrastructure projects. Many states made funding available for 
freight rail projects deemed in the public interest. We urge 
the committee to grant the same flexibility previously provided 
in the ARRA whenever general fund resources are appropriated 
for future transportation purposes.
    These three actions by this committee are steps in the 
right direction. However, they do not offset the significant 
new financial burdens that are created by the regulatory 
provisions of the Rail Safety Improvement Act, the most 
sweeping regulatory regime in railroad history.
    Let me just briefly touch on additional actions we hope the 
committee will consider. An effort has been afoot to use 
appropriation riders to waive federal weight limits on trucks. 
Diversion of truck traffic from short lines to heavy trucks 
adds to congestion and damages bridges and highway 
infrastructure, as well as posing serious safety concerns on 
our highways. We respectfully request that the committee 
refrain from increasing truck weights in appropriations bills.
    The Railroad Rehabilitation and Improvement Financing 
Program, or RRIF, provides federal infrastructure loans that 
must be paid back in full and do not require annual 
appropriation. I am proud to say that in the 12-year history of 
this program, not a single short line has missed a single 
quarterly debt payment.
    We have discussed in the past and continue to support the 
concept of lowering the interest rate on RRIF loans as a way to 
increase the use of this program. The RRIF statute provides 
that such a subsidy can be covered through federal 
appropriation, and we urge you to do so. For a relatively 
modest subsidy, the government would be leveraging substantial 
additional private investment and railroad infrastructure for a 
program that has a perfect record with regard to loan 
repayment.
    Now petitioners who appear before this committee, me 
included, are seeking additional federal funding for their own 
policy interests. I encourage you to take note of the burden 
that the staff of the Federal Railroad Administration has been 
placed under the past year, and to appropriate sufficient 
resources to allow the FAR to advance its ever-expanding 
mission. The rapid growth in passenger rail spending combined 
with the implementation of sweeping rail safety laws threatens 
to overwhelm a hardworking core of federal railroad experts.
    Mr. Chairman, I thank you and the committee for the 
opportunity to present the industry's views on these matters, 
and will be happy to answer any questions at the appropriate 
time. Thank you, sir.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Olver. Thank you. Mr. Johnson.

                     Mr. Johnson's Opening Remarks

    Mr. Johnson. Thank you, Mr. Chairman and members of the 
subcommittee. My name is Wayne Johnson. I am the director of 
logistics for American Gypsum, out of Dallas, Texas. I have 
submitted a longer statement for your record, so I will keep my 
remarks brief at this time.
    I am also representing the members of the National 
Industrial Transportation League, where I serve as chairman of 
the Highway Transportation Committee. The league is an 
association of companies that conduct industrial and commercial 
shipping throughout the United States and internationally. 
Founded in 1907, the organization is one of the oldest and 
largest associations in the country, representing more than 600 
member companies involved in the transport of all kinds of 
freight domestically and internationally, including ocean 
carriers.
    The American Gypsum, which I represent, sells and 
distributes gypsum wallboard or drywall. We have been in 
business for over 40 years, and we are the fifth largest gypsum 
company in the United States. My job is to make sure our 
production materials are on hand, on time, and our finished 
product is moved to our customers on time, every time. Ours is 
a very cost sensitive industry, so a continuous vigilance on 
holding down transportation costs is extremely important.
    In our free enterprise system, we are challenged daily by 
the risk and competitive pressures of the marketplace. Those 
challenges make us better and more efficient and more 
productive. By ignoring the imperatives of improving our 
national transportation and freight system and reducing system 
congestion, we are imposing additional cost burdens on American 
industry and the American economy which we cannot recoup.
    Congestion leads to inefficiency, longer transit lines, 
missed schedules, and production interruptions. Simply put, we 
need to get moving on fixing the problem. Folks in Washington 
have been diverted to recovering from this deep depression, 
which we need to do. Recovery is essential to our business. 
However, I and others feel that this slack in the economy has 
temporarily pulled a curtain over the problems of congestion 
and delay that had been making headlines daily when the economy 
was booming.
    The truth is that the problems of the freight 
transportation system do not go away. They have picked up 
steam, and resumed normal and growing production and 
consumption cycles underlying the cause of those ills will be 
revealed again, except next time maybe not so small.
    American is under-investing in our freight transportation 
system. We are not paying sufficient attention to real 
transportation infrastructure needs and requirements of the 
American economy. If we do no keep up, we will fall farther 
behind the competition, and competition that is global and 
relentless. The consequences are obvious.
    Mr. Chairman, in your invitation to testify, you indicated 
an interest in the so-called just-in-time delivery process in 
American industry. Just-in-time is indeed now a fundamental 
core element of industrial management that has been adopted 
across the board of economic activity, from manufacturing to 
grocery stores and retail distribution. Just-in-time has its 
roots in postwar Japan. Japanese auto parts had relied on large 
stockpiles of parts and assemblies and reported onsite. This 
was expensive, wasteful, and inefficient. It was difficult to 
determine what needed to be ordered when, and there was a 
specific amount of capital tied in both those piles of parts 
waiting to be used.
    Just-in-time became a revolution in our thinking about 
manufacturing and production and distribution. We moved from 
merely observing inventory in a static way to actually managing 
the flow of materials, supply chain management. Today, when a 
cashier rings up your purchase of a new flat-screen TV, a 
signal is sent through the retailer's supply chain that it is 
now time to move another one to the store floor. Another signal 
is then sent out through the chain to produce another TV, and a 
further signal is moved out to bring the parts needed to build 
that TV.
    Unless the freight transportation system works as well as 
the manufacturing process on the plant floor, or the restocking 
process in the electronic store, we are not going to be able to 
flow the right part nor product at the right time, at the right 
price. Almost is not the same as just-in-time. It is an 
unacceptable standard.
    In the modern concept of freight transportation, it is no 
longer appropriate to think in the terms of single modes of 
transportation. I am a director of logistics, not the company's 
truck person. I am charged with bringing all aspects of freight 
transportation together for the company in the most efficient 
and cost-efficient manner. American freight distribution, 
whether it is for manufacturing or end-product consumption is 
intermodal.
    For example, for-assembly furniture moves from South Asia 
by ship to the U.S. port and is then transferred to a train or 
truck, or in most cases both to get to the point of sale. That 
process is repeated endless times for every conceivable 
consumer product. It is a highly complex and choreographed 
ballet that works well when it hands off clean, fast, and has 
spiraling costs when confronted with missteps in the form of 
choking congestion, bottlenecks, long lines, delays, and so on.
    I cannot control the queue of the highway interchange nor 
the choking traffic that we see everyday in American urban 
life. That furniture retailer must restock his showroom floor 
in time for the promotion being advertised in the local 
newspaper. If the sale is on a Saturday or Sunday, it does not 
do much for the truck to pull into the loading dock on Tuesday.
    The scope and dimensions of the intermodal transportation 
challenge is shaped by literally tens of thousands of 
transactions that span American economic--a panorama. There are 
millions of pickup and transfer delivery combinations.
    Among the broadly diverse membership of the league, there 
is a very deep concern that we are adrift. We are grateful now 
that we have the right insight to serve transportation 
authorization and the new funding to carry us through the rest 
of the year. Respectfully, I am urging this Congress and this 
administration to move with dispatch on the hard work that lies 
ahead to craft a long-term service transportation bill, and in 
doing so, use this opportunity to examine both the present and 
future needs of our freight transportation system in its 
totality.
    We need to address and assure that the transportation 
system is working. We need to use this time to lay out the 
dimensions of the challenge ahead of us, and rationally discuss 
new means to pay for the investments we have been delaying, but 
now must undertake.
    For the record, league members have said repeatedly they 
are willing to pay their fair share of the cost. We are both 
users and beneficiaries of our freight transportation system. 
Our single proviso is that whatever additional revenues, from 
taxes, user fees, and so forth, we are asked to pay are used 
for the intended purpose.
    I know there are other committees in Congress that have 
primary jurisdiction to write the authorized legislation for 
transportation programs, but it is the providence of the whole 
Congress to make that decision. Your hearing today is helpful 
in that regard. As we move forward in that process, I would ask 
that you help change the way we think about freight 
transportation in the United States to begin--low-cost 
transportation really matters to this country. When delay, 
congestion, and high cost in freight transportation begins to 
squeeze out American products in the marketplace, we lose 
competitiveness, loss of jobs, and viability.
    Those are not acceptable outcomes. Freight does matter. 
Thank you.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Olver. Thank you very much. Last but not least, Mr. 
Lynch.

                      Mr. Lynch's Opening Remarks

    Mr. Lynch. Mr. Chairman, Ranking Member Latham, Congressman 
Carter, I think we have reached the stage where everything has 
been said, but not everybody has had a chance to say it. So I 
will try and not be redundant with the comments made by my 
fellow panelists, and hopefully be brief.
    Every day, thousands of trailers and containers carrying 
everything from bulk commodities to consumer goods float 
through our nation's transportation network. And highways are 
the primary circulatory system for this network. Trucks move 70 
percent of the nation's freight tonnage and draw 83 percent of 
the nation's freight bill.
    If you break down the flow of goods into three distinct 
mileage categories, 0 to 500 miles, 500 to 1,000 miles, and 
over 1,000 miles, truck transportation almost exclusively 
handles the short-haul market, dominates the mid-level market, 
and is a significant player in the third or long-haul market. 
More importantly, trucks exclusively serve over 80 percent of 
the communities for the products and goods they receive in the 
United States.
    Trucking is a partner with virtually every other transport 
mode. Intermodal traffic today is at the top of commodities 
transported by the railroad industry, and individual trucking 
companies are among the largest, if not the largest, customers 
of the rail industry.
    Having said that, it is important to note that even if we 
double, double intermodal traffic over the next 10 years, at 
the end of that 10-year period, intermodal traffic will still 
represent under 2 percent of the market. Clearly, we need a 
vibrant and robust transportation infrastructure program in 
this country. We just have one small problem. We cannot seem to 
figure out how to pay for it.
    The American Trucking Association has taken the position 
that we will support an increase in the Federal fuel tax to pay 
for our highways and bridges. Additionally, we believe we need 
a new focus on goods movement and freight mobility, obviously 
the subject of this hearing. But more succinctly, as some of 
the other panelists have said, we need a national freight 
policy.
    Within that freight policy, we believe we need an emphasis 
on addressing congestion. Congestion for the freight community 
has three negatives: It wastes time and delays pickup and 
deliveries; it results in excessive consumption of fuel at a 
time when we should be doing all we can to reduce our fuel 
consumption; and it contributes to unnecessary carbon 
emissions.
    We believe that one part of the solution for the nation's 
congestion problem is to address the choke points or 
bottlenecks in the system, and to ensure that capacity 
improvements remain a priority for the program.
    There is another important component to infrastructure 
investment that is vital, but often overlooked, and that is 
safety. At ATA, we believe that the combination of improvements 
in vehicle technology, the training and performance of the 
driver, and infrastructure, whether it be something as simple 
as fixing the potholes or more complex like extending off- and 
on-ramps between interstates, have all contributed to a 
continuing decline in highway accidents and fatalities. And I 
would be remiss if I did not mention at this time we would 
certainly hope that the subcommittee fully funds the MCSAP 
program, the primary safety program for the trucking industry 
in this appropriations cycle.
    As this subcommittee well knows, the options or 
alternatives are not appealing. As a matter of fact, we would 
be hard pressed to pay for a six-year extension of the current 
program, with no new programs, with the current revenue stream. 
To us, there only appear to be three options. We can either 
summon the political will to pay for the system with enhanced 
revenues; we can continue to supplement the program with 
general revenue funding; or we can scale back the system.
    What we cannot do is attempt to add new programs and 
financial burdens when we are failing to address the most 
fundamental infrastructure needs now. Perhaps we have reached 
the point where we need to take a hard look at what we can pay 
for under the user-based system, and what we may need to 
consider paying for through general revenue funding.
    Mr. Chairman, that concludes my comments, and I would be 
happy to answer any questions you and the other panel members 
may have.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Olver. Well, thank you very much for your testimony. I 
think you have thrown quite a lot of fairly diverse 
controversies on the table that we can delve into bit by bit 
here. From here, we are going to go back and forth with 
questions from the panel, and each of us will have five-minute 
periods.
    Basically, it is better if these involve short questions, 
and then answers by allowance of time for the members of the 
panel to answer those questions. But sometimes members have 
longer statements that they want to make. I think we will limit 
each of us to about six minutes, and this not including the 
explanatory piece that I was doing. [Laughter.]

                           Highway Trust Fund

    Mr. Olver. Let me start. In your opening statement, or in 
your written statement--I am not absolutely certain whether you 
said these words, Mr. Johnson, but in your written statement, 
you said that the members of the National Industrial 
Transportation League are willing to pay their fair share of 
the costs to maintain and improve our national transportation 
network.
    Ms. Swaim-Staley, the Secretary of the DOT for Maryland, 
has explained somewhat in her testimony what the Maryland DOT 
does, and argues there are fees and taxes, fuel taxes and such, 
that go into that fund, but there is also a flexible funding, 
as the words--I think the term ``flexible funding'' is what you 
used, which includes business taxes or fees, and individual 
taxes of an income tax or sales tax nature that goes into the 
fund, which does this. And you had also mentioned the leverage 
that you get with building private partnerships, which are 
relatively new.
    You even mentioned the words ``transit oriented 
development.'' One of the most valuable things that you can 
have is the air rights over transit and highways, especially in 
urban areas. Usually those development monies go into the funds 
which are supporting the transportation systems. So there are a 
variety of ways.
    You did not mention congestion pricing or tolling 
specifically in your verbal testimony, if I remember correctly, 
but of course they were a part of what the commission had put 
forward.
    I am going to spend most of this making a statement, I see. 
[Laughter.]
    We have a need in transportation for two or three times the 
amount of revenue that we now have going into it, especially 
if--we are talking about a need at the surface transportation, 
which is generally meant to be highways and transit, mostly 
passenger sorts of things, although the authorizing committee 
is also clearly working on what the needs are for freight, and 
has done so, as you mentioned with relocation.
    We have proven that the trust fund, built out of what we 
have been doing at the national level, cannot be adequate, and 
will be less adequate over time because our fuel efficiencies 
from which we draw revenues for the moment are going to 
increase. The fuel efficiencies are going to be increased, 
which means lower taxes per unit moved.
    So we have some very serious problems, which go to Mr. 
Lynch's comment. We have to figure out how to pay for this. 
Would you like to give people, with what I have said--where are 
we going to get the money from? We know we have had a big 
commission looking at it. Where do we think we are going to get 
the money, and when are we going to get the political will, 
which involves some of your inputs, too, for what has to be 
done?
    Anybody want to comment on what I have said?
    Mr. Lynch. If I could, Mr. Chairman. You know, we recognize 
clearly that with fuel efficiency, hybrid vehicles, et cetera, 
there is probably going to have to be some sort of a change. We 
have sort of laid out in the written testimony what we think 
are some principles for any new taxing schemes that might come 
along: Ease of collection, ease of auditing.
    Right now, under the fuel tax, you basically have about 
2,000 people that actually write the check to the IRS. If you 
go to some of these others, you will multiply that by literally 
millions of potential units of taxpaying for that, which 
obviously increases the auditing cost.
    But at the end of the day, we can have the current system, 
we can have a new system, but somebody is ultimately going to 
have to raise their hand and say, yes, I support increasing 
that, whatever at that point.
    Mr. Olver. You say only 2,000 units are actually paying the 
fuel taxes?
    Mr. Lynch. That is about the number that actually write the 
check to the IRS on the fuel tax. Those are the jobbers.
    Mr. Olver. Interesting.
    Mr. Lynch. I mean, we all pay it at the pump, but none of 
us in this room have ever written a check to the IRS for a fuel 
tax.
    Mr. Olver. Do not the individual gas stations, fuel 
stations--they do not----
    Mr. Lynch. They do not write the check.
    Mr. Olver. They do not write the checks either.
    Mr. Lynch. No.
    Mr. Olver. It is coming from their suppliers.
    Mr. Lynch. Correct.
    Mr. Olver. Somewhere along that supply chain.
    Mr. Lynch. Correct.
    Mr. Olver. Well, that is a good thing to understand, for 
me. Okay. Anybody else? You were going to comment, Mr. Johnson.

                         Trucking Weight Limits

    Mr. Johnson. Yeah. You know, shippers are more than willing 
to pay their part. I mentioned that there are things that we 
support. We support tolling of roads that are new, not present 
interstates or present roads we have, but the new roads 
construction, we support that. So that brings funds through the 
committee.
    If we raise the weight limits on trucks to 97,000 pounds, 
the ATA and National Industrial Transportation League both 
support that----
    Mr. Olver. Raise the weight limits, which makes more damage 
to the infrastructure.
    Mr. Johnson. No. In 45 states today--and most of the States 
I am sure that you represent here have heavier weights on 
secondary roads. And what we are saying is----
    Mr. Olver. Than on the interstates.
    Mr. Johnson. Than on the interstates.
    Mr. Olver. Really? Do Texas and Iowa have higher fees on 
the secondary roads than they do on the interstates?
    Mr. Johnson. No, they do not, no. Maine is a good example 
of that. Maine just recently had the exempt----
    Mr. Olver. We did not have anything to do with that. 
[Laughter.]
    I dissociate myself.
    Mr. Johnson. Okay, all right. I agree then.
    Mr. Olver. Okay?
    Mr. Johnson. But it was there. I mean, they get the 100,000 
pounds on their roads. And it helped them a lot. I mean, the 
efficiencies in Maine today are just tremendous. Vermont got 
it. Florida got it for the emergency because of the storms down 
there. So it does help, and it is a way of revenue for the 
committee.
    Mr. Olver. I think I got you into the woods here on that 
question, in any case, probably. Mr. Latham.
    Mr. Latham. Thank you for being succinct, Mr. Chairman. 
Interesting. I think in Iowa, as far as the weight, usually 
they suspend on the state and county roads in the fall during 
harvest. They will suspend the weight limitations, but not on 
the interstates, obviously.

                           GLOBAL COMPETITION

    Mr. Lynch, in your testimony, you talked about how the U.S. 
lags behind our global competitors, namely Germany, Japan, and 
the U.K., and Canada. Can you give us an insight? Why are they 
more successful than we are, and maybe give us some ideas?
    Mr. Lynch. Well, I think probably twofold. One, the size of 
their system is vastly smaller than ours, so they have got less 
to pay for, and in some cases they have had a longer history, 
if you will, of relying on alternative modes.
    The second is that they seem to have been able to figure 
out the taxing side of this to pay for the system that they 
have chosen to have. And so I think those two in combination 
explain that, and why we are--we have not raised the fuel tax 
here since 1992, I believe it was, or 1993.
    And by the way, in all fairness, I mean, the American 
Trucking Association has not always been at the forefront in 
support of increasing that fuel tax. But this is, after all, 
our workplace. This is our office, and that office is 
crumbling. And so it was not without a lot of thought and 
debate internally that we reached the conclusion that we did.

                           HIGHWAY TRUST FUND

    Mr. Latham. I had mentioned opening, again, Mr. Lynch, 
about--and we had a hearing last week about a proposal to take 
more highway trust fund dollars to give them to the community 
planners or different types of sustainable developments and 
things like that. There are already--I think it is 104 
different programs that are funded out of the highway trust 
fund, and there are several of them that have to do with 
highways or roads or bridges, whatever. Most all of them have 
nothing to do with that.
    What would you--if we were to going to start up new 
programs like this, would you continue to support new revenue, 
tax increases, for the trust fund?
    Mr. Lynch. One of our feelings about the fuel tax is that 
essentially 99 cents out of the dollar is actually going to 
roads and bridges. Some of these other taxing schemes, the 
administrative costs, the compliance costs, reduce that down 
anywhere from 10 cents to 15 to 20 cents. So we are fairly 
hard-nosed business people in that if you tell us you are going 
to pay a dollar, and you get 99 cents of real value, we are 
pretty supportive of that.
    By extension to answer your question, we recognize that 
many of these other programs certainly may have value, but when 
you are dealing with roads and bridges that are in desperate 
need of funding, we believe that those dollars need to be 
focused on where they are desperately needed.

                       INFRASTRUCTURE MAINTENANCE

    Mr. Latham. And I will, as we are going to have several 
turns here--but I think in your testimony you talked about 
focusing on the interstate highway system, and maybe in Iowa, 
where we have the farm-to-market roads, every four miles, we 
have hard surface roads so people--and that is extremely 
important, obviously, for us to have those types. I mean, 
everybody loves the interstate if you are going across country. 
But is there a mix?
    I mean, everyone who buys a gallon of gas basically wants 
to make sure, nobody how they drive, that the roads are good 
and safe. Is there a mix, or do you still think we should focus 
in on the interstate system?
    Mr. Lynch. We use a statistic. Actually, it is not just us. 
DOT, I think--and I may not have exactly the percentages right 
here. But something like 75 percent of the freight, highway 
freight, moves on less than 10 percent of the road system. So 
logically, you would suggest that you need to focus those 
resources there.
    However, we do not know on any given day if that load is 
coming from or going to a farm or rural community, so we have 
to be very cognizant of the fact that while the bulk of the 
traffic may not be on those roads a significant amount of time, 
they will be on those roads at some point in time, and those 
roads need, and those bridges need, to be maintained as well.
    Mr. Latham. Mr. Johnson, I know you are--how would you--
just by paying your freight bill is how you propose basically 
to increase funding?
    Mr. Johnson. Yes. Of course, we paying our freight bills, 
we pay them to truckers, railroads----
    Mr. Latham. Lynch wants you to pay your bills.
    Mr. Johnson. Yes, he does, very much so, on time, every 
time. We pay all of these modes. And, of course, there are 
increased costs to us. Our shippers have agreed that we need to 
increase these costs in order to maintain our infrastructure in 
the United States, or in all modes, whether it is rail, truck, 
barge, ocean, whatever it may be. We need a viable 
transportation system to get our products to market. That cost 
of that viable transportation system needs to go up, we feel, 
in order to keep it a viable system. And we are willing to pay 
a share of that.
    We know, as you know, that if we pay that share it might be 
passed on to product prices and to the stores. But that is what 
America needs.
    Mr. Latham. Actually, Fort Dodge, Iowa has a lot of drywall 
gypsum there.
    Mr. Johnson. Yes, they do.
    Mr. Latham. I see I am out of time, Mr. Chairman.
    Mr. Olver. Thank you. Ms. Kaptur.

                               FUEL COSTS

    Ms. Kaptur. Thank you, Mr. Chairman, for holding this 
important hearing. And welcome. Thank you so very much for 
putting your remarks on the record. We appreciate your coming 
here.
    Could I ask those representing private interests, what has 
happened to the cost of fuel versus your total cost of doing 
business as a share of your accounts? Anybody want to take--
over the last 15 years.
    Mr. Olver. Did you say 50 years?
    Ms. Kaptur. Fifteen.
    Mr. Olver. Fifteen?
    Ms. Kaptur. Fifteen years.
    Mr. Lynch. Trucking is a very labor intensive industry. 
Obviously, we have the drivers. We have dockmen working on the 
docks. When fuel spiked up two summers ago, that was the first 
time in a very long time that fuel costs actually surpassed 
labor costs as our number one cost, on average, for truck 
companies.
    Now there are always exceptions. Some people have other 
fixed costs, but fuel costs surpassed labor costs that summer. 
We are back down again where labor costs are above, but it will 
not take much of a spike back up again.
    Ms. Kaptur. For you to feel that?
    Mr. Lynch. To feel that, yes.
    Ms. Kaptur. So it is not insignificant. Would you say on 
average, what percent of your total cost of operating 
nationally, you know, just average of the total cost of 
business is fuel? I can tell you for the greenhouse industry 
that I represent, it is close to 40 percent.
    Mr. Lynch. I was going to say 40, but if I could submit 
that for the record, if I am off by too much on that, but I 
think it is about, generally speaking, 40-40-20.

                            FUEL EFFICIENCY

    Ms. Kaptur. All right. Where in the industry is the most 
important research being done to produce more fuel efficient 
vehicles?
    Mr. Lynch. Am I up again?
    Ms. Kaptur. Well, whoever wants to answer. Maybe, you know, 
state of Maryland could answer.
    Mr. Lynch. Trucks on average, 18-wheelers, get about six 
miles to the gallon. That is the bad news. The goods news is if 
we got a 50 percent boost in our fuel economy, that would be 
pretty significant, not only be up to eight, but it would be a 
50 percent improvement.
    We are working closely with our manufacturers----
    Ms. Kaptur. Who are the major manufacturers, sir?
    Mr. Lynch. Boy, if I forget one, I am going to be in big 
trouble. Volvo, Mack, Cummings, International, Freightliner. 
Well, Peterbilt is under Freightliner. They may be in the 
smaller class vehicles. I do not think they are in the class 
sevens and eights.
    Ms. Kaptur. Do you know where the power trains for those 
are made?
    Mr. Lynch. Those are mostly made in the Midwest. And do not 
ask me who all of those folks are because I know I will miss a 
few, and then I will really be in trouble.
    Ms. Kaptur. Okay. But to your knowledge, you do not know 
any company that is in partnership with federal research 
agencies or the One Tank Command or anybody else to try to get 
new propulsion systems to help to reduce the vehicular mile 
cost.
    Mr. Lynch. I am aware that there was an Army--a military 
program, because they are a huge user of trucks. And again, if 
I could submit for the record----
    Ms. Kaptur. I appreciate that.
    Mr. Lynch [continuing]. Where they are in that research.

                       INTERMODAL VS. MULTIMODAL

    Ms. Kaptur. Okay. I just wanted to note that in many of 
your testimony, some of you used the term ``intermodal.'' In 
fact, I think that is on the cover of what we were given, 
intermodal, whereas the state of Maryland, Ms. Swaim-Staley, 
you used the term ``multimodal,'' which is what the director of 
transportation in Ohio always says. Could somebody define the 
difference for us? Do you want to take a stab at what the 
difference is, why you would be using these terms in what 
sounds like interchangeably in your testimonies?
    Ms. Swaim-Staley. Well, I was going to say, coming from our 
standpoint, it would be--I am sorry, yes. They are 
interchangeable. I mean, the Department of Transportation in 
Maryland, all of the modes of transportation are within one 
department. So I think from our standpoint, we do tend to use 
the terms interchangeably. I am not sure if they have more 
significance for anyone else here on the panel.
    Ms. Kaptur. Mr. Wolfe.
    Mr. Wolfe. Yes. Let me just add, in the port industry, 
typically intermodal is defined as rail movement, and 
multimodal is a combination of rail, truck, and other means.

                           INTERMODAL EFFORTS

    Ms. Kaptur. You know, I wanted to just use this 
opportunity, and then I will cease, Mr. Chairman--when the 
recovery bill came through here, our region's top priority 
project was a multimodal effort at our port to try to reduce 
truck traffic by permitting containers to be put on the ships, 
because I represent a port city, and to reduce carbon emissions 
and so forth. And what was really interesting, everybody 
locally, the local transportation agency, the governor, me, the 
senate--everybody supported this, right?
    It never made it out of the Department of Transportation 
because they are so stovepiped over there. If you try to get 
them to think multimodal, they find you 59 reasons why you want 
to do is impossible, because why? FHWA does not agree that this 
happen, the highway administration.
    But, you know, we are trying to put them all together. And 
it was really interesting to watch an agency literally tie 
itself up in knots rather than working with the community that 
thinks it sees the future and wants to have a better future 
serving all, port, rail, truck all together. DOT made it 
impossible.
    So now we have to go back and apply under TIGER grants or 
some other category. You know, of course, we are year behind. 
We have 15 percent unemployment. We wasted all of this time. 
But it was really interesting--and I commend you, Mr. Chairman, 
for holding this hearing, because you would think they are 
there to help, you know, to try to not get tied up in--we all 
know where we want to go with this, but they were not thinking 
multimodal. They were not thinking intermodal. There are all 
these internal regulatory histories that made change very 
difficult, very, very difficult in our situation.
    So I just wanted to put that on the record and thank you.
    Mr. Olver. This is a comment. Let me try to tie myself into 
a knot here. There must be some philosophical difference that 
is distinct between intermodal and multimodal. But I am really 
surprised, Mr. Wolfe, at your comment that in the port 
business, multimodal usually means port and rail. I would have 
thought that might be bimodal rather than multimodal. I would 
think multimodal and intermodal, they at least sort of infer at 
least more than two.
    So let me leave that at that. Mr. Carter.

                    NATIONAL TRANSPORTATION STRATEGY

    Mr. Carter. Thank you, Mr. Chairman. Mr. Wolfe, when you 
were talking about the port of Tacoma and Seattle competing 
with Vancouver and Canada, it brings to mind--and I represent 
the state of Texas. And I was amazed. Recently, I had a coastal 
ports only, not any of our inland ports, come into my office 
and fill it up to overflowing with the number of coastal ports 
we have all looking towards what is going on with the expansion 
of the Panama Canal and competition with Mexico.
    As I understand it, Mexico already is getting a lot of the 
west coast competition in the southern area, mainly because of 
some investments they have made, and also because there was 
some restrictions on the San Diego, L.A. area.
    When you are looking at trying to get rid of this 
competitive disadvantage, where do you think the investment 
starts? Does it start at the ports and work outward? As you 
envision the solution for your port, think in terms of the 
other ports that have the same competition issue. And where do 
you envision we start?
    Mr. Wolfe. What we envision is an advisory committee of 
industry experts coming together. So it would include the 
ports, of course. It would include the trucking industry, the 
rail industry, other logistics partners and policy 
decisionmakers coming together with a national strategic plan.
    So it is not one entity that is going to drive this. It is 
a collective group that is focused on a national transportation 
strategy so that we can compete with the other gateways outside 
of the U.S.
    Mr. Carter. And it is my understanding--and I am really new 
at this transportation business, but I am trying to learn. And 
when I was in Hong Kong, I saw some of the super container 
ships that looked like they were going to fall over to me. And 
I understand there is just certain ports that can actually even 
deal with those. That is part of what the expansion of the 
Panama Canal is all about. And I am wondering if--right now, as 
I understand it, like, for instance, the China trade to Texas 
comes into Mexico, across Mexico on rail, into Texas, and then 
is distributed by rail and by truck out of Texas.
    Explain to me the disadvantage of the foreign port to 
domestic port that we are dealing with there versus, let's say, 
domestic port to domestic port, internal domestic port.
    Mr. Wolfe. Primarily, those decisions about which gateway a 
shipper uses is driven by cost. It is cost inefficiency. And so 
in today's environment, cost is critical. And so when we look 
at the port gateways, we absolutely need to be competitive with 
those other gateways, Mexico, Vancouver ports, and on the east 
coast as well.
    And so I do not think the shipper is going to be biased one 
way or another. They are going to be looking at their cost, and 
that is what is going to drive the decisionmaking. And so for 
us, it is critical that we have an infrastructure program that 
supports efficient movement of cargo because inefficiency 
equates to higher cost. And so we are at a disadvantage today, 
no question. And we need to get our act together.
    As a U.S. policy decisionmaking group and industry group, 
we need to get our act together because the competition has got 
their act together. They are ahead of us, and we need to get 
back in the game, and we need to have a strategic plan moving 
forward that is a national plan identifying the key strategic 
gateways and corridors for trade and freight mobility, and we 
need to make strategic investments into the future, now and 
into the future.
    Mr. Carter. So you think it is a strictly infrastructure 
solution, or do we have regulatory restraints that also cause 
our ports to not be competitive with these foreign ports? 
Because I have heard at least some rumor to that effect.
    Mr. Wolfe. No question that regulatory constraints--I will 
give you an example of one that we deal with. It is the harbor 
maintenance tax that is a tax that does not exist in Canada. So 
when you add all of the costs associated with the movement of 
cargo, at the end of the day, those regulatory mandates that 
have a cost associated with them can be a competitive 
disadvantage.
    Mr. Carter. Thank you, Mr. Chairman.
    Mr. Olver. Thank you.
    Mr. Timmons. I would just add one other observation 
related--I am the railroad guy, so I am not really the port 
expert. But I have been involved to some degree with Chinese 
discussions related to port consistency and reliability. 
Generally, the port development in the southern portion of 
Mexico was a reaction to uncertainty related to labor concerns.
    When there are labor strikes, the entire train of ships, 
all the way back to their destinations, gets bollixed up, and 
deliveries cannot be made. And the Chinese are very concerned 
about that, and started looking eight years ago at 
alternatives, which the Mexicans were very forthcoming in 
offering. And so that is factor also, consistency and 
reliability.
    Mr. Carter. Thank you.

                         LINKING RAIL AND PORTS

    Mr. Olver. Thank you. I am going to focus upon you two here 
at the left end for the moment. Mr. Wolfe, you have a port at 
Tacoma. Can you tell me--you were not there at the beginning, 
in 1981, when the port started working on its first--started on 
the rail link directly to the port, I take it.
    Mr. Wolfe. Right.
    Mr. Olver. Do you know, how many other places--you do 
mention that it is the first that did so. How many of them--for 
instance, Baltimore, does it have a direct rail to port 
connection there?
    Ms. Swaim-Staley. Yes. At the port of Baltimore, we have 
CSX that services directly into the port. And we also, through 
a small arrangement that we have with a local railroad, we also 
have access to Norfolk-Southern with our port, although not----
    Mr. Olver. What would be the cargo size between your two, 
the Baltimore port to rail versus the Tacoma port to rail? Does 
Seattle also have a port to rail connection? They do both, 
Seattle and Tacoma do?
    Mr. Wolfe. Let me just make sure I understand the question.
    Mr. Olver. Quickly. Maybe you should pass back and forth, 
for exactly what kind of tonnage is going directly rail to 
port.
    Mr. Wolfe. Sure. So we measure our cargo in terms of 
tonnage and also in terms of volume. And so our volume has 
taken a hit during this recession. So we had----
    Mr. Olver. Is there not some relationship between--I 
realize there is a density possible difference, but there must 
be some relationship between tonnage and volume?
    Mr. Wolfe. There is, there is. Let me give you figures in 
terms of volume, if that is okay, and then we will see if we 
can compare in terms of volume because I have got the volume 
figures more clearly than I do the tonnage, if that would be 
okay, Mr. Chairman.
    Mr. Olver. I guess I would like to get from the 
organizations--I am always interested in metrics, where it is 
we are doing these very forward-looking things and what kind of 
volumes and what kind of metrics are used in the industry to 
compare by--but I was sort of curious. Do you have a sense of 
how many--are there 15 or 20 that have large volume rail to 
port?
    Mr. Wolfe. There is on average about--there are about 10 
major gateways into the United States.

                                  CSX

    Mr. Olver. Okay. Both of you talk about gateway 
initiatives, one being the CSX initiative.
    Ms. Swaim-Staley. Right. Ours is specific to CSX Railroad.
    Mr. Olver. Yeah. Now there must be--every one of the class 
one railroads must have a major gateway initiative that 
functions. I know about the Alameda corridor into Los Angeles.
    Ms. Swaim-Staley. And Norfolk-Southern has the heartland 
corridor. So yes, many of the companies in the east coast, we 
have it. There are initiatives----
    Mr. Olver. What kind of investment has gone into your 
Baltimore gateway initiative in total?
    Ms. Swaim-Staley. CSX is a fairly new initiative, the CSX 
initiative with regard to gateway.
    Mr. Olver. Gateway and port are maybe two different things 
because your gateway initiative does not only involve the 
transfer from rail to port, I assume.
    Ms. Swaim-Staley. Well, the gateway initiative I am 
referring to is a specific--it is a name of the CSX effort to 
achieve--it is very specific to a single railroad. That would 
be CSX from the east coast into the Midwest.
    Mr. Olver. What is the size of the initiative in its dollar 
value?
    Ms. Swaim-Staley. I do not know in terms of the total 
value. I believe that we--they had requested in funding 
recently in TIGER for a major portion of the portion almost 
$300 million in terms of the cost. And that was just for, I 
think, about half of the whole segment.

                            PORT INVESTMENTS

    Mr. Olver. I am asking imprecise questions that make it 
difficult, I think, to answer. Mr. Wolfe, can you tell me how 
much money has been invested in the Tacoma port to get to where 
you are in today's dollars?
    Mr. Wolfe. I would like to submit exact numbers for the 
record. But it is in the hundreds of millions of dollars. And 
that is over----
    Mr. Olver. Now you mentioned that Canada has got a $3 
billion program related to Vancouver and St. Rupert.
    Mr. Wolfe. Right.
    Mr. Olver. And then you mentioned that they have started 
this out as if, oh my gosh, this is really a dangerous and 
disastrous sort of thing that is happening to us. But $30 
million was the first input at St. Rupert. That is 1 percent of 
the $3 billion. We are not getting very far at that point. When 
are we likely to have a facility at St. Rupert that is going to 
be competitive with Seattle and Tacoma?
    Mr. Wolfe. It is so today. And maybe I am mistaken when I 
said 30 million. It was 300 million.
    Mr. Olver. 300 million?
    Mr. Wolfe. 300 million.
    Mr. Olver. Ah, do not think I missed that one. I thought 
you said----
    Mr. Wolfe. Okay. I must have misspoken then. It was a $300 
million investment. And they are apparently handling in excess 
of 200,000 containers annually, and they have plans for 
expansion upwards of 2 million containers. That is targeting 
the U.S. market.
    Mr. Olver. And what is Seattle and Tacoma doing now?
    Mr. Wolfe. We are handling last year about 1.5, and Seattle 
was about 1.7 last year, I believe.
    Mr. Olver. Million?
    Mr. Wolfe. Yes.
    Mr. Olver. So it will take them awhile. When do they think 
they will reach 2 million?
    Mr. Wolfe. Well, it is driven by the marketplace, so, you 
know, probably conservatively five to seven years. It will be 
dependent on how quickly the market returns. Their target 
market is the U.S. market. It is not Canada.
    Mr. Olver. Yeah. I do understand that. But it is getting 
into the U.S. in a different way.
    Mr. Wolfe. Correct.
    Mr. Olver. Okay. Am I done here? I am going to quit. Who is 
next? Tom.
    Mr. Latham. Thank you, Mr. Chairman. I am going to continue 
to pursue this, I guess. Mr. Wolfe, in your testimony, you 
talked about some theories about charging more for the U.S. 
ports to pay for the road and the rail infrastructure 
improvements, and about new port fees and all of this. And then 
in the same time, you are talking about competition you have. 
Is that going to make you less competitive if it costs more to 
come through your port?
    Mr. Wolfe. Yes. Cost is going to be a key driver. When I 
suggested that the ports are supportive of--and you have heard 
it earlier with the NIT League--it is support for user fees. 
And so the users of the system are supportive of increasing the 
fees so that the infrastructure that we need has funding 
necessary for it.
    The other critical point there----
    Mr. Latham. The user fees, who would pay that?
    Mr. Wolfe. The shippers.
    Mr. Latham. Okay.
    Mr. Wolfe. And ultimately all of us as consumers.
    Mr. Latham. Right. But does that not make you less 
competitive?
    Mr. Wolfe. It may make us less competitive. But it 
absolutely is necessary for us to have that infrastructure to 
compete, otherwise the cargo is going to continue to move 
through these other gateways. And I think it is a combination 
of things. I mean, we have the port at a local level provides 
infrastructure funding. So we have a responsibility. There is 
private sector funding. The railroads participate in that. So 
there are multiple ways in which to fund the infrastructure.
    Mr. Latham. It kind of sounds like the post office model. 
If stamps are--mailing letters is much more expensive than 
doing an e-mail today, well, you just raise the price of a 
letter. I mean, it makes you even less competitive. I am not 
sure about the model here we are talking about.
    But, General, we have been ignoring you. Did you have any--
with your military background--and Ms. Kaptur was talking about 
innovations as far as trucks and things like that. Do you have 
anything to say about your experience?
    Mr. Timmons. What I would say in specific about railroad 
locomotives is relative to a continuous effort to work on EPA 
requirements, tier 0, 1, 2, 3, and now 4--and so the industry--
the locomotive manufacturers are working on that. That has had 
a tremendous impact on the environmental aspects of the 
railroad industry, which is when you look at the actual 
efficiencies associated with freight rail, they can move a ton 
of freight on a gallon of fuel 436 miles. Nothing else comes 
near it except maybe barges, and barges are very restricted to 
very large bulk quantities.
    In addition to that, the innovation of using multiple small 
engines, small relative to railroad and locomotives--in other 
words, a truck engine or a combination of truck engines in new 
locomotives, permits them the same efficiencies with much less 
cost and emissions. So there is a lot of technology associated 
with this. Some of these locomotives are in service now, and 
there are also some very, very innovative systems related to 
electric-related locomotives that the technology appears to be 
worthwhile, so that there are some efficiencies associated with 
that.
    In addition, I think there are some very promising 
additives that have come along in the last few years, very 
sophisticated additives that will save 10, 12, 14 percent fuel 
consumption. And for the railroad industry and the consumption 
of fuel for these locomotives, that is very, very significant.
    Mostly in the past, we were happy with a 4 or 5 percent 
saving. And generally, out of additives, you got about a 2 
percent. Now we are seriously looking at anywhere from 10 to 14 
percent. So there is a lot of technology, and a lot of 
interesting things in the pipeline.
    Mr. Latham. I would suggest using soy grease on your 
curves, too. It really helps make it----
    Mr. Olver. Did you say grease?
    Mr. Latham. Yes. Actually, the Norfolk-Southern uses soy 
grease going around the curves, made out of soy.
    Mr. Timmons. They did. They piloted that 10 years ago, and 
it is a great environmental benefit, and it is just as 
effective as a petroleum lubricant.
    Mr. Latham. What is your opinion of the--maybe we covered 
this a little bit--the appropriation bill, the provisions last 
year for Maine and Vermont as far as overweight trucks, your 
official position?
    Mr. Timmons. Our official position is that we align with 
the Department of Transportation, which was opposed to those 
particular initiatives. They are described as maybe guinea pig 
initiatives, simply to put an experimental 100,000-pound rig on 
highways and see how this thing works. It is from our 
standpoint ill-advised.
    Mr. Latham. What funds--what is the most effective 
assistance we can do? There is the Energy Act, the capital 
grant program, some rail line relocation grant monies. What 
would you like to see as far as funding?
    Mr. Timmons. In that relocation initiative, the actual 
authorized amount was 350 million, and the appropriated amount 
was 20 million or thereabouts. And so the $350 million I think 
would make a very substantial impact on mobility enhancement.
    Ms. Kaptur. Should I ask Mr. Lynch if he would like to see 
that come out of the highway trust fund? [Laughter.]
    Mr. Timmons. Please.
    Mr. Latham. I would, but I am over time. Thank you. 
[Laughter.]
    Mr. Olver. Ms. Kaptur.
    Ms. Kaptur. I have no further questions.
    Mr. Olver. No questions in this round. Mr. Carter.

                           INTERMODAL EFFORTS

    Mr. Carter. We have been talking about a long-term approach 
to the intermodal transportation infrastructure. And, of 
course, it is pretty clear everybody wants to build 
infrastructure. Are there other approaches that have been 
discussed by any of the industries that would help facilitate 
efficiency in the intermodal transportation besides building 
new infrastructure, that scientific approaches say the RFID 
tags to facilitate the process, or some other new approach that 
I am not aware of or that we are not being aware of that is 
being looked at by the various industries to make more 
efficient what we have got until we can get the infrastructure 
we have got to built? Anybody got suggestions?
    Mr. Lynch. I will take a stab at that. I mentioned earlier 
that in the sort of 0 to 500 mile market, trucks dominate. I 
mean, you are going to end up trucking the freight farther to 
get it to a rail head than if you just have it on the highway 
to go.
    Having said that, I do not think we have even really 
scratched the surface of what we could be doing with the MTOs 
in terms of trying to coordinate traffic moving in and out of 
major metropolitan areas. Unfortunately, most major 
metropolitan areas look at us as a nuisance, you know, that we 
are sort of out there just because we want to be a nuisance on 
the highway, when in fact we are out there because we are 
either picking up or delivering something.
    I believe that there are still a lot more opportunities to 
work with major metropolitan areas, coordinating deliveries 
with the customers. We do not much care whether we are--we do 
not want to be on the road at 4 o'clock or 5 o'clock in the 
afternoon any more than the car drivers want us to be out 
there. But we cannot deliver at 3 in the morning if there is 
nobody there to accept the deliveries at 3 in the morning.
    You have got some major big box retailers that literally 
will have hundreds and hundreds of trucks coming in and out of 
that facility on a given day. That can be much better 
coordinated so that they are not all arriving at the same time, 
day or night. So I think there is still a lot more that can be 
done, and a lot more efficiencies to get out of the existing 
infrastructure.
    Mr. Timmons. I would make the observation that in the 
railroad industry the application of a global positioning 
system on certain high value and hazardous material load has 
become fairly commonplace, if not blanketing the industry, 
certainly not unusual to see GPS systems track these 
commodities, which enhances efficiency, delivery, and of course 
safety in case there is some kind of an issue or a problem.
    The RFD system is extensively used by the railroad 
industry, and I do not think there are hardly any pieces of 
equipment that do not have RFD tags on them, a very advanced 
process for reading those along the right of way as the 
equipment is moving toward destination. So that is a fairly 
reliable and robust system that is in place today.
    But GPS seems to be very, very valuable. The trucking 
industry, by the way, has piloted some of this in terms of 
tracking high value Department of Defense loads. And there is a 
national tracking center that keeps track of every one of these 
vehicles that is moving with any kind of sensitive or explosive 
materials, bombs, and weapons, and things of that sort 
nationwide.
    So it is a good approach. It is not fully employed, but 
over time, I think that will ultimately--particularly for 
chemicals and hazardous materials, it will be prevalent.
    Mr. Carter. Anyone else?
    Mr. Wolfe. I would just add on a local level, the ports 
have looked at utilizing the gate assets off hours, and that 
has been effective, and also automation of terminals and 
creating velocity within the terminals versus adding new 
infrastructure, and there has been some success there and more 
to do there as well.
    Mr. Johnson. I will mention, too, that the shippers, when 
the hours of service changed a few years ago, we started 
spending a lot of the money in technology to get trucks in and 
out of our facility a lot faster. We understand from trucks and 
rails both. We have to be on the road or on the rails in order 
to make money. And we spent a lot of money to make sure that 
those units, which was assets, were on the road a lot faster 
and making money for them so we can reduce our cost and keep 
our cost competitive in the world.
    Mr. Carter. Thank you.
    Mr. Olver. Mr. Berry.
    Mr. Berry. Thank you, Mr. Chairman. Could each one of you 
tell us what your greatest need is that you think we can have 
some impact on, besides money? [Laughter.]

                        NATIONAL FREIGHT POLICY

    Mr. Lynch. I will start this one, I guess. I would say, 
Congressman, to develop a freight policy, a national freight 
policy so that the intermodal, the multimodal is in fact 
coordinated.
    Mr. Johnson. And I will have to second that. The modes 
today seem to--rail and truck and others--seem to argue. They 
are pretty much against one another, like they are supposed to, 
but there is no coordination between the modes. I think I would 
like to see and the shippers would like to see a better 
coordinated effort for all of the modes, where our system is--a 
national transportation policy is in place that improves the 
infrastructure for the entire United States for all modes.
    Mr. Timmons. Mr. Berry, bear with me for just a moment 
because my answer requires just a little bit of background. 
These small railroads actually are the product of a piece of 
legislation that came about in 1980 called the Staggers Act, 
and that deregulation of the rail industry unexpectedly 
produced a quantum leap in the number of these small railroads. 
And the reason for that was that the larger railroads under the 
Staggers Act were then permitted to divest themselves of 
properties that were not so economically viable, and they have 
not maintained those properties and those bridges. And there 
were small entrepreneurs that seized those small properties, 
and because of the low overhead and the flat organizational 
structure, they went ahead and have turned those things into 
some moneymaking organizations and have managed to grow them.
    Still and all, the railroad standard today for freight cars 
is 286,000-pound axle weight cars. The old standard was 263. So 
these small railroads inherited this vast array--and we started 
out, keep in mind that we were at 8,000 miles and we are at 
52,000 miles.
    So in inheriting all of these well-worn pieces of railroad 
across North America, the requirement to invest and bring that 
263 up to 286 so that they could continue to interchange with 
the modern equipment and facilities, bridges, et cetera on the 
large railroads has been our largest task. And we have managed 
to significantly improve the system through individual 
investment, through to some degree RRIF loans, and to a very 
extensive degree the 45G short line tax credit that has been in 
effect for the last five years.
    We expect that it will be passed again this year. That is a 
tremendous benefit to the small railroads. It permits them to 
invest in their systems and upgrade these.
    So that is a little bit of a windy answer. The bottom line 
is it is the track upgrade that we really need to ensure that 
the system is compatible nationwide.
    Mr. Wolfe. Mr. Berry, I want to echo what the panel has 
suggested in terms of a national freight policy, and also 
within that a strategic freight mobility program at the 
national level that is coordinated and has priority projects 
based upon the key gateways and key corridors for freight 
movement. That is absolutely necessary for our success.
    Ms. Swaim-Staley. From a state DOT standpoint, I mean, I 
would echo what the panel has said in terms of flexibility. But 
I also would like to add that I think when there is new 
transportation--in any new transportation programs or new 
transportation authorization, that not only the flexibility for 
intermodal, but also to encourage projects and participation of 
projects that are regional, in other words, across state lines.
    So many times the funding that we receive as a DOT, you 
know, it is limited to what we can do within a state. But when 
you are talking about these kinds of challenges here, in a 
state like Maryland, we are a small state. You know, anything 
that we do to improve our freight capability, they really must 
include partnerships, you know, along the eastern seaboard as 
well as, you know, to the Midwest. So we would just encourage 
that kind of approach in future programs.
    Mr. Berry. Thank you, Mr. Chairman.

                              FREIGHT FUND

    Mr. Olver. Thank you. I now am left with three questions. I 
am not quite sure which one to take up first. Probably we will 
have a very foreshortened second and a third, fourth round. So 
let me ask it this way. I think it was you, Mr. Wolfe, who 
first mentioned the dedicated freight fund. A couple of other 
people--I am not sure right now which it was who mentioned that 
also. But I would like your reaction to what you think we would 
gain, given how difficult it has been to keep the trust fund 
going by itself, the trust fund for which it is supposed to 
cover freight as part of it--how would freight by itself fare 
in that mix, given the difficulties that we are having raising 
enough money to do much of anything nowadays? And defend for me 
what each of you thinks is the merit or demerit of this? Assess 
for me what it is. And let me start with Ms. Swaim-Staley.
    Ms. Swaim-Staley. Again, for us, meeting freight needs 
addresses for us a number of--as I said, across our modes. Not 
only does it have a positive impact upon our port, for example, 
but because our transit lines share--they literally share the 
railroads with the freight line. So anything that we can do to 
benefit the freight lines and freight movements is probably 
also going to have a very positive impact upon our ability to 
provide commuter rail and transit in our urban regions.
    Also, of course, we run an airport, so obviously there are 
benefits that cross there as well. And then, quite frankly, we 
are a very congested state. So to the degree that we can 
accomplish a better way to move our freight, it also is going 
to have a very positive impact upon our highway. So again, for 
a DOT like the state of Maryland, addressing the freight needs 
really crosses many of the other priorities that we have as 
well.
    Mr. Olver. Do you really think it is easier to address the 
freight needs if you create a freight fund when you are saying 
that there has to be--you are really saying that out of a need 
for collaboration and cooperation among the modes.
    Ms. Swaim-Staley. Which is why, as I said, from our 
standpoint, what we would like to see in future programs is the 
same kind of flexibility that has been allowed in places like 
TIGER, where the states can really have the flexibility to 
determine which solutions work best for them.
    Mr. Olver. Okay. Mr. Wolfe, we are going to take about 45 
seconds each person down the line here. I think we can do that.
    Mr. Wolfe. Okay. So----
    Mr. Olver. Maybe a minute, actually. No. Stick with it.
    Mr. Wolfe. Okay. The advantage that I see with a separate 
freight fund is simply that right now we are competing across 
the different areas. And by separating freight as a specific 
area of focus, number one is we are able to better prioritize 
our needs on a national basis and coordinate that through an 
advisory council that I recommended; and two, that those funds 
are dedicated specifically to freight. There is not competition 
for other types of needs, recognizing those needs are still 
there.
    The challenge that we have highlighted is how do we secure 
the funding for freight. And I do not have a simple answer to 
that. I think it is a multipronged approach. But I do think 
that there is value in separating freight from the other 
national needs.
    Mr. Olver. I really do think you hit on the nut of it, 
though, is we cannot figure out how to fund transportation in 
whole. How the heck do we figure out how to do freight since 
obviously your needs comes from the sense that it has not been 
well handled up to now, and I agree with you. Mr. Timmons.
    Mr. Timmons. I think the devil would be in the details on 
this arrangement. Generally, the railroads have avoided funding 
per se. We are not in the highway trust fund. We do not 
contribute to that. We did for some years contribute to reduce 
the----
    Mr. Olver. But a freight fund would be beneficial to you.
    Mr. Timmons. I suppose it could be if the details were 
worked out like that. If we were not contributing to it in some 
way, but were working with it, I suppose this would be a good 
thing. [Laughter.]
    Mr. Timmons. If somehow--and it always seems to circle 
around that somehow there are no free rides. If somehow we were 
contributing, certainly we would not like that. We have got 
enough--you know, 20 percent of the railroads' bottom line for 
the major railroads, and 30 percent for short lines, of their 
operating revenues at the end of each year goes into 
maintenance. And so any other contribution in that regard would 
be very, very difficult for us to stomach.
    Mr. Olver. Okay. Mr. Johnson.
    Mr. Johnson. Well, of course, shippers, the major reason 
shippers would like to see a special fund like that is to keep 
transportation funds pouring towards transportation to keep our 
products going to destination on time, on good infrastructure 
roads and railroad, or highways or whatever.
    Secondly, I think a special fund, if you had the funds that 
were viable for transportation going into that fund revenues, 
whether it be rail, truck, barge, ocean, whatever it might be, 
I think you are going to find there is lots of money available 
there that is being spent for things that should not be spent. 
So you are going to have more----
    Mr. Olver. Yeah. But you also probably agree that it should 
not be spent for transit either, would you not?
    Mr. Johnson. If it is for transportation improvements, yes. 
If it is in that transportation project passing through.
    Mr. Olver. Transit, passenger transit?
    Mr. Johnson. Yeah. Well, again, we are a freight shipper. 
But, you know, it is part of the transportation program of the 
United States. It is a transportation plan. You need to put it 
all together.
    Mr. Olver. We are going to give Mr. Lynch a half a minute 
now. It is down to that.
    Mr. Lynch. Well, our position is fairly simple. If the 
source of the revenues are highway users, then the 
beneficiaries of those revenues should be highway users. If we 
are going to expand the recipients, then we have got to figure 
out some way to expand the contributors into the fund. And I 
think the comment was rather eloquent about the railroads think 
about that.
    But not only is it not fair to the highway users, but if 
there is a shipper who is--you know, if it is Walmart that is 
using trucks 95 percent of the time for their freight movement, 
and they are ultimately the ones paying the bill----
    Mr. Olver. Do you have any objection to Maryland's rather 
comprehensive trust fund?
    Mr. Lynch. No, we do not, provided that the revenues that 
go into that trust fund are not coming exclusively from highway 
users.
    Mr. Olver. Well, but we went through that earlier. Their 
fund is built from a whole series of monies coming from a 
variety of sources. Mr. Latham.

                        NATIONAL FREIGHT POLICY

    Mr. Latham. Thank you, Mr. Chairman. I thought it was 
interesting in response to Mr. Berry's question, when you 
talked about having a freight system plan in this country. And 
tomorrow we have a hearing with each of the Federal Railroad 
Administration, the Highway Administration, and the Federal 
Motor Carrier Safety Administration, the Maritime 
Administration, and the point witness tomorrow is the 
Undersecretary of Policy, who is the DOT official supposedly 
for coordinating that. But now he is also going to be in charge 
of the livability.
    Do you think there is the focus put on a national freight 
system that there should be? I mean, we have got a lot of 
diversions going on here of not only the dollars, but of time 
and commitment, I think. Any comment?
    Mr. Lynch. Well, I think----
    Mr. Latham. Jump right in there, Tim----
    Mr. Lynch [continuing]. That there should be--and we said 
it over and over and over again--and the commissions that were 
set up by Congress clearly recommended that there needed to be 
a focus on freight and freight mobility. And if there is any 
federal, true federal interstate commerce function here, it is 
the movement of goods. People, too, but, I mean, we would 
absolutely support that.
    Mr. Latham. It does not seem like with this type of 
diversion of effort that the emphasis is where it should be, 
which is absolutely critical as far as freight movement. Yes, 
go ahead.
    Ms. Swaim-Staley. Well, I think there is a relationship. 
Again, in a very urban state like Maryland, that I think where 
both of the things are very important--and frankly, freight, 
moving freight through our urban regions is something that we 
have to do, but still within the context, quite frankly, of 
sustaining our communities, many of whom are also in those same 
very old urban regions where we have our freight movements. So 
I think there definitely are connections in a state like 
Maryland.
    Mr. Latham. I mean, they are talking about a different 
concept than what maybe you are referring to. It is all 
passenger.
    Mr. Timmons. But, you know, Mr. Latham, the issue here has 
been neglected. The national freight plan, there is no such 
thing. And the problem is a quickly burning fuse into the 
future. So the railroad industry anticipates that its volumes 
will increase 60 to 70 percent by 2025. They are paranoid. The 
industry at large is paranoid about preparing for that bow wave 
of freight traffic and trying to invest heavily in its 
infrastructure across the nation. And so notwithstanding this 
economic slowdown, the burden is still there, and the railroad 
industry is still, despite the slowdown, investing billions of 
dollars in their annual capital expenditure in infrastructure 
upgrades across the country. But I do not know whether we are 
going to be able to make it in time.
    Mr. Latham. And you are not affected as much as the major 
railroads with the short lines. There is a huge apprehension 
over the increased passenger rail.
    Mr. Timmons. Yes.
    Mr. Latham. What effect does that have on freight?
    Mr. Timmons. In the short line world----
    Mr. Latham. I would say it is as much for you in the short 
line, but----
    Mr. Timmons. That is true. But it is a problem for us. We 
have got 1,800 miles and 44 small railroads that are affected 
by passenger or commuter systems. We surprised ourselves when 
we started getting into that, and we got into it as a result of 
the unfunded mandates of positive train control, which are $14 
billion over the next 15 years or so. We are going to be 
affected by that.
    Now it depends I think to a large degree on what corridors 
you are referring to when you say is there going to be an 
impact on freight as a result of passenger. If you are talking 
about the Northeast corridor, the most heavily trafficked 
region of the country, there is an awful lot of passenger 
traffic up there. And when you implement the positive train 
control with all the freight increases, I think there is going 
to be an impact.
    In other regions, it will be far more manageable.

                             PASSENGER RAIL

    Mr. Latham. Do you have any comments as far as--as you 
increase the passenger rail, obviously you are going to reduce 
the capacity for freight.
    Ms. Swaim-Staley. Well, you could on the challenge. I mean, 
we obviously want to make sure, again in Maryland, that both 
work. And it is a tremendous challenge because we are trying to 
increase our transit on our MARC lines, our commuter rails. You 
can fill the trains as frequently--as much volume as we can put 
out there. And it is a real challenge to find the balance with 
our freight carriers. But because we also operate the port of 
Baltimore, it is also in our best interest to make sure that, 
you know, in our case, both CSX and Norfolk-Southern are also 
well served.
    So it is definitely a challenge finding that balance. I 
mean, we need----
    Mr. Latham. So who has the right of way?
    Ms. Swaim-Staley. Well, the railroads own our right of way 
in the state of Maryland.
    Mr. Latham. No. I mean who has priority?
    Ms. Swaim-Staley. Well, again, in the case of CSX, they are 
the dispatcher.
    Mr. Latham. Between the freight trains and passenger 
trains.
    Ms. Swaim-Staley. So for the freight, I mean, again CSX, 
you know, owns our right of way for much of our MARC line, so 
they are the dispatcher.
    Mr. Timmons. In a technical sense. In a technical sense, 
the passenger has the right of a way. In a practical sense, CSX 
is the dispatcher.
    Mr. Latham. Right.
    Mr. Timmons. So you can figure out who gets priority. 
Freight.
    Mr. Latham. Say that again? [Laughter.]
    Mr. Olver. Who gets the priority?
    Mr. Timmons. The priority in a railroad sense goes to 
passenger. But the passenger trains are dispatched. In other 
words, in the railroad industry, there is a control center, and 
they are the ones who decide who gets priority on the railroad. 
And so if the system, the leg of railroad, is dispatched by a 
freight railroad, there are very often going to be freight 
railroads that get on the tracks first, and the passengers get 
on when they can. This is a continuing rub between passenger 
and freight railroads, and it has been so for a long time.
    Mr. Latham. So passengers have the priority, but in 
practice it may not always be----
    Mr. Timmons. It may not always be the case.
    Mr. Latham [continuing]. Be the case, okay. Okay. I see I 
am out of time. Thank you.
    Mr. Timmons. That may be too much candor. [Laughter.]
    Mr. Latham. We do not get enough of that around here, I can 
assure you.
    Mr. Olver. All right. I thought that was what you were 
saying, that while technically they have the priority, that it 
turns out practically to be that the freight gets it in those 
circumstances.
    Mr. Timmons. In many circumstances.
    Mr. Olver. Okay. I thought that was what you were saying, 
but was not sure. Anyway, we have been abandoned by other than 
myself and my Ranking Member. So I am going to take----
    Mr. Latham. And I am ready to leave.
    Mr. Olver. You are ready to leave? [Laughter.]
    Mr. Olver. All right. Well, I will do my couple of 
questions. And if you do not want to follow up, I will just 
close, so it will pass on there.
    I wanted to just explore. Actually, the authorization for 
rail relocation has been in place since the SAFETEA-LU 
authorization passed in July of 2005. While the authorization 
is quite substantial, as a few pointed out, now $350 million 
per year--I am not sure whether it was that--it might have 
started at 250 and gone up from the 250 over time. But in any 
case, it was not actually appropriated until I came to chair 
this committee three years ago. And we have had numbers up as 
high as 35 million, but is what I think the appropriation is in 
the present fiscal year that has not gone out yet.

                              TIGER GRANTS

    Does the TIGER grant program substitute for that in a 
situation where--I think it was you, Mr. Wolfe, who pointed out 
that getting to Chicago takes a day, and getting through 
Chicago takes a day. There is obviously some problems in 
movements of freight in major metropolitan areas. Does the 
TIGER grant take of that? Because each year the administration, 
whether it was the previous administration of this 
administration, has proposed eliminating the rail relocation 
appropriation, though the authorization stays there.
    Just quickly, do you think that the TIGER grant is an 
adequate substitute for that were we to continue--it is not 
authorized--were we to continue to appropriate there.
    Mr. Timmons. Well, I think you should keep the rail 
relocation program, although it has been modest.
    Mr. Olver. It has been modest, and part of it has been 
earmarked, and part of it has been competed.
    Mr. Timmons. That is correct. But it has gone to small 
railroads and large railroads to great benefit.
    Ms. Swaim-Staley. Yeah. With Maryland, I do not think we 
would say one replaces the other.
    Mr. Timmons. No. They would complement.
    Mr. Olver. You would not say one replaces the other.
    Mr. Timmons. No. They are complementary.

                          HAZARDOUS MATERIALS

    Mr. Olver. Well, we will see about the authorization. 
Anyone else want to say something to that one? All right. My 
last set of comments--and this is the third of the set that I 
was thinking about earlier. Mr. Timmons, you have pointed out 
something about the short line system, which is very diverse, 
that have gone from 8,000 miles to 52,500 miles. Nobody had 
greater than 263,000 pounds, now some seem to need to go 
higher. And on the other hand, our major class ones are all 
probably at the 286, certainly, and there are only six of the 
American ones and a couple of Canadians who come in.
    You also point out in your metrics for your system that 
five states have no class one, that 10 other states have more 
than 75 percent of their trackage is short lines.
    So it suggests to me is that we have a kind of problem that 
maybe involves the highway system as well. If you get to going 
from interstate standards and so forth, and you have to move 
down through local roads and such, if you were having to do 12-
foot lanes and say 8-foot shoulders as a standard that was 
being imposed all along the way, we would really tie ourselves 
up in knots. And I am wondering whether the concept of how you 
get all the way to positive train control--you had mentioned 
that as a serious problem for the short line system.
    Now is there some point along there where you do not even 
think about train control? Is that only where you have 
passengers operating on the same systems?
    Mr. Timmons. Mr. Chairman, this is an enormously 
complicated problem, but let me just say this about that. 
Fundamentally, in the simplest sense, positive train control is 
required for on small railroads that are moving a specific 
volume of passengers or commuters and for hazardous materials. 
There are five major hazardous materials that are the focus of 
positive train control.
    Mr. Olver. How many miles of the present 52,000 miles do we 
have hazardous materials moving on?
    Mr. Timmons. It is a moving target. You will have different 
commodities based on different shippers and different company 
needs. Now just as a wild guess, I would say that somewhere 
around 35- to 45,000 miles are going to experience hazardous 
material traffic. But the further----
    Mr. Olver. Just because some of those mileages are 
alternates when some other problem has occurred?
    Mr. Timmons. Some if it may----
    Mr. Olver. Surely we are moving our hazardous material 
along set routes for the most part, if it is nuclear material 
or such. But if it is industrial material, they have a specific 
route they have got to go. It must be possible. Maybe you could 
provide for us how many of your short line miles are actually 
having hazardous materials of the five that you say are----
    Mr. Timmons. We can do that. But the complication--and I am 
not being evasive here. But the complication is associated with 
the requirement now of the last two years to route assess every 
hazardous materials movement on rail, big railroads and small. 
So we are required to use a specific analytical model before 
you move this traffic, and try to determine how close it goes 
to high-threat urban areas or other locations where there are 
populations of people or schools or something else, and then to 
try to decide if we can reroute those.
    This is an enormously difficult challenge. And so the 
actual routing will vary depending on a number of conditions.
    Mr. Olver. Well, this whole discussion at this point is 
giving me a headache, I will tell you. [Laughter.]
    Mr. Olver. But we have had positive train control brought 
to our attention in a number of instances here, and we know it 
is a looming problem in the minds--at least in the minds of 
almost everybody. So I get a headache. Anyway, I have gone into 
the red by far. I am really taking advantage of my Ranking 
Member. Do you have any further comment?
    Mr. Latham. No, I do not.
    Mr. Olver. Then with that, I really want to thank you for 
laying out the problems for us. And we will see what our other 
testifiers tomorrow say on what the agencies are thinking about 
some of the same problems.
    Thank you very much for being with us today and for your 
inputs.
                                         Wednesday, March 17, 2010.

  STRENGTHENING INTERMODAL CONNECTIONS AND IMPROVING FREIGHT MOBILITY 
 (INCLUDING THE FY2011 BUDGET REQUESTS FOR FHWA, FMCSA, MARAD, AND FRA)

                               WITNESSES

ROY KIENITZ, UNDER SECRETARY FOR POLICY, U.S. DEPARTMENT OF 
    TRANSPORTATION
VICTOR MENDEZ, ADMINISTRATOR, FEDERAL HIGHWAY ADMINISTRATION
ANNE S. FERRO, ADMINISTRATOR, FEDERAL MOTOR CARRIER SAFETY 
    ADMINISTRATION
JOSEPH C. SZABO, ADMINISTRATOR, FEDERAL RAILROAD ADMINISTRATION
DAVID MATSUDA, ACTING ADMINISTRATOR, MARITIME ADMINISTRATION

                    Chairman Olver's Opening Remarks

    Mr. Olver. The committee will come to order. Thank you all 
for being here. The ability to move passengers and freight are 
core functions of our transportation infrastructure. Our 
ability to ensure that these functions are accomplished 
efficiently with minimal losses due to congestion directly 
impacts the ability of domestic manufacturers to compete in the 
global marketplace and the price of goods when those goods 
reach consumers. Yesterday we heard from a panel of 
practitioners who represent different modes involved in the 
movement of freight. 
    Today, we will hear testimony from Roy Kienitz, the Under 
Secretary for Policy at the U.S. Department of Transportation. 
Roy.
    Mr. Kienitz. Good morning.
    Mr. Olver. In addition, Mr. Kienitz is accompanied by the 
administrators of the four federal agencies that are primarily 
responsible for overseeing the safety and efficiency of our 
freight transportation network. We look forward to delving 
deeper into the fiscal year 2011 budget request for each of 
your respective agencies. Specifically, I want to welcome 
Victor Mendez, the Administrator of the Federal Highway 
Administration; Anne Ferro, the Administrator of Federal Motor 
Carrier Safety Administration; Joe Szabo, the Administrator of 
the Federal Railroad Administration; and David Matsuda, the 
Acting Administrator of the Maritime Administration.
    With the exception of motor carriers, all of your budget 
requests are essentially frozen at 2010 levels in the absence 
of a surface transportation authorization. I will be interested 
to hear how you intend to support needed improvements in our 
national infrastructure under those circumstances with the 
requested resources. In addition, many of our outside witnesses 
spoke in support of the TIGER grant program established within 
the American Recovery and Reinvestment Act and acknowledged the 
need for a grant program that addresses the complex 
interconnections between modes and supports improvements in 
freight infrastructure. I look forward to discussing how 
interagency cooperation occurred on the TIGER grants and how 
the Department intends to continue this cooperation to support 
intermodal investments. With that, let me recognize my Ranking 
Member, Tom Latham, for his comments.

                Ranking Member Latham's Opening Remarks

    Mr. Latham. Thank you, Mr. Chairman, and welcome to 
everybody, the witnesses today on the panel. As I mentioned 
yesterday, I think we had an interesting hearing last week 
about livability and sustainability, and truly, I believe we 
did have some interesting exchanges on a variety of topics 
under that theme. However, I think there is some real and 
justified opposition to the administration's proposal to take 
the scarce, and some would say nonexistent, highway trust fund 
dollars from the states and instead give those funds to 
community planners. Our witnesses yesterday echoed our 
concerns. The highway trust fund dollars are desperately needed 
for road maintenance and congestion mitigation. Not only does 
our economy depend on the jobs that construction and 
maintenance supports, but general industry goods, distribution 
and manufacturing depends on the smooth mobility of freight.
    I am also welcoming the opportunity to delve deeper into 
the budget request from the Rail Administration, the Highway 
Administration, the Maritime Administration and the Motor 
Carrier Administration. Those modes represent billions of 
dollars of federal investment, affect billions of dollars in 
industry and commerce and touch the lives of pretty much every 
American. I look forward to the testimony and the questions and 
answers of the next two hours because I think this will drive 
home the need to keep highway trust fund dollars for the 
purposes it was intended by the creators of the trust fund, and 
perhaps even more importantly, by the expectation of every 
person who buys a gallon of gas, that these funds will be used 
to improve roads. So, with that, Mr. Chairman, I yield back.
    Mr. Olver. Thank you, Mr. Latham. Now we are going to hear 
from Under Secretary Kienitz. Your complete written testimony 
is in the record, and if you can keep your remarks at this 
point in the five or six minute range, that will be appreciated 
and we can get on to the questions from this enthusiastic group 
being joined by Mr. LaTourette.
    Mr. LaTourette. I heard you mention me yesterday.
    Mr. Olver. We certainly did. We are always interested in 
your comments. Mr. Kienitz.

                      Mr. Kienitz Opening Remarks

    Mr. Kienitz. Good morning, Mr. Chairman. Thank you, Ranking 
Member Latham, Mr. LaTourette and Mr. Rodriguez. Good to see 
you all again. We have introduced everyone here, and obviously 
we will all be at your service for questions, but I am going to 
do the only opening statement. So our main goal here today is 
to talk about the Administration's approach to freight issues 
and what this could mean for transportation programs going 
forward, both in terms of the discretionary actions we might 
take, and also action by Congress, either through 
appropriations or a long-term reauthorization. This could end 
up being a large topic.
    When it comes to freight policy, we start where we start 
with every policy, which is with, first, principles. The 
Secretary, shortly upon entering office, and actually even 
before he was sworn in, named a very short list of priorities 
that he wanted to try to have transportation policy pursued to 
the degree he could, and that was economic competitiveness, 
safety, a state of good repair of the existing system, 
livability and environmental sustainability. So the first 
question for us is: does an activist role of some kind by the 
Federal Government in freight policy help advance those goals? 
I think our answer to that is a resounding yes.
    The questions get harder after that, which is, of course, 
what kind of involvement, either from a policy or a financial 
point of view, moves us most effectively towards those goals, 
and where are the most effective policies or expenditures in 
the freight side to help achieve those goals or where do you 
leave off and spend your money elsewhere? So that is the sort 
of balancing question that we are going to spend I think most 
of today trying to talk about. Development of freight policy is 
something that has been much talked about in transportation 
circles for 20 years. The actuation of any such policy, though, 
basically is constrained by the stovepipe nature of our system.
    Highways has a highway trust fund, rail does not have a 
trust fund, waterways does not have a trust fund, there is 
transit funding, and each of those categories of funding are 
limited to expenditures. So the Department has, I think, for a 
long time wanted to take a broad look at freight policy to 
figure out where enhancements to the system would be most 
efficient, but we actually do not have a financing or policy 
system that would allow us to follow that to its logical 
conclusion.
    So some of the freight transportation modes operate on 
roadway, public right-of-way, some of them operate on privately 
owned right-of-way, like freight rail, some of it is privately 
owned right-of-way where publicly funded passenger trains also 
operate and you have those conflicts, so, for a variety of 
reasons that are in the structure of the federal program and 
just in the ownership structure of our systems, it is very hard 
to pursue a unified policy. I will just give one example. For 
example, on the highway side, the last mile to a port or rail 
terminal is often a big issue. The great growth in freight has 
been intermodal connections between modes. Getting the 
containers off the ship, onto the train, off the ship, onto the 
truck, onto the train, off the trucks, onto the waterways, 
things like that.
    There are often those last mile connections where the stuff 
has to move on locally owned roadways not on the federal aid 
system, not eligible for investments by us, but even though 
they are very short in their extent, they carry huge amounts of 
traffic. So a lot of the energy lately has gone into these 
questions of how to connect ships and rail and those things 
like that, but actually, the highway connection ends up being 
one of the places where we also have a disconnect between 
funding and outcomes. Another policy that we have talked some 
about is imports versus exports. The great rationalizations 
that have occurred in freight movement over the last 20 years 
have been largely based on containerization of cargo and the 
efficient movement of containerized cargo into ports, through 
ports, onto trains and over long distances across the country.
    When you actually analyze, though, what that freight flow 
is, containerization has been most effective for imports in the 
United States. It tends to be consumer goods packed in 
cardboard, put in boxes, put in containers. U.S. exports 
actually tend to be of a different character. They tend to be 
huge things, like Boeing airplanes, or Caterpillar tractors, or 
things like that where we are very competitive in the world 
market, or they tend to be bulk items, like soybeans, corn, 
wheat, things like that, or they tend to be very small high 
value items, like high tech computer chips, or devices, or 
things like that, and those things sometimes move by container, 
but sometimes they move by air freight or other methods, and so 
the investments that have gone in, both with private railroads 
and port operators, but also through government in 
rationalizing the container system, have tended to have more of 
an effect on the efficiency of importing goods and less of an 
effect on the efficiency of exporting goods.
    So a policy consideration that we want to look at going 
forward is the degree that the Federal Government is going to 
be intervening in the freight system. Is there a way to do it 
that is at least on an equal footing for U.S. manufacturers and 
exporters, as well as importers? I will talk a little bit about 
how we have tried to operationalize some of these ideas. 
Obviously the TIGER program has been the big example for us. I 
think there has been much discussion of livability as a new 
concept and some controversy over it, and so I think there was 
an expectation that the great share of the funds from that 
program would go to livability projects, but, in fact, the 
largest category of investment we made was in freight rail.
    That is because freight rail has been one of those things 
where large public benefits are available, but where the 
private actors do not get any return on their investment by 
creating public benefits. Public benefits meaning fewer trucks 
on the road, less damage to roadways, less pollution, safer 
roads, fewer fatalities, fewer accidents. So at some level, if 
the public wants to achieve those outcomes, we have to be 
willing, potentially, to invest, so we have put close to $5 
million into partnerships with states and private railroads to 
help improve freight systems on the rail side, and also create 
connections that are truck to rail, rail to port, things like 
that.
    So the other thing is in our budget request. As you know, 
Mr. Chairman, we have this national infrastructure innovation 
fund proposal which I think could best be thought of as the 
next iteration of a TIGER program, somewhat larger, and our 
hope would be even more rigorous in its application. We tried 
very hard, particularly with help from Victor's staff at 
federal highways who have a lot of the in-house freight 
expertise, to make the decisionmaking about freight investments 
for TIGER funding based on an analysis of freight flows around 
the country. What we found out is there is a lot of good 
information, a lot of data and good analysis, but there are 
huge gaps in the information and huge gaps in our ability to do 
the analysis.
    If we are going to have these types of authorities going 
forward to make these investments, we want to be able to do it 
in a rigorous, defensible way. I think we did that within the 
limits of the information that we have. Then the final thing I 
will say is that one of the other principles we need to follow 
is shared systems. The good news is most of the freight in the 
U.S. moves over shared systems. It moves over waterways that 
are shared for other purposes, it moves over freight rail 
tracks that are shared for passenger purposes and it moves over 
highways that are shared for passenger purposes.
    What that means is that any time you do an intervention on 
one of those systems you can say you are going in to do a 
highway project for the purpose of freight improvement, but 
that same investment could hugely change the dynamic of 
passenger movements in a way that either crowds out the trucks, 
or the trucks are crowding out the cars, or you are creating 
benefits for freight and disbenefits for passengers or vice 
versa. The same thing is true on the rail system. Because we 
are picking the low hanging fruit with high speed rail and 
freight rail right now, I think we are fairly confident the 
investments we are making, both in the high speed rail program 
and in the TIGER will help passenger movements, and passenger 
investments will help freight movement.
    There are places where that is not true, where you do one 
type of investment and it advantages passenger travel and 
disadvantages freight travel and vice versa. I know the private 
railroads are very concerned about that. That makes our 
analytical task that much more difficult because there are 
various types of benefits you can have, and you cannot have 
them all, and so you need to trade them off against one 
another. So I think those are some principles we are trying to 
bring to this. We see as a long-term value here not necessarily 
for a separate freight investment program, but rather making 
freight projects of all kinds eligible for flexible investment 
dollars at the federal level. We think there are real benefits 
to be gained there. So I think that is a good summary of our 
approach, and I will leave it to your questions at this point. 
Thank you.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Olver. Well, it was a good summary. I think a very 
complicated summary. It will take a while to think about this 
while we are supposedly having a budget hearing one gets right 
back into the policy issues that are up there. I will respond 
to that in kind, I guess. Yesterday we had our panel of 
witnesses and there were people there from trucking, rail, 
ports, manufacturing, they were all there, and we had a state 
DOT head here who had to cover all of those issues in her 
portfolio as well. There was a strong sense that there needed 
to be additional federal investment in large scale, big ticket, 
multimodal projects, which they strongly supported the TIGER 
program as it was, and would like to see more there. I am 
really beginning to be sold on that idea.

                              TIGER GRANTS

    Of course, I like to do infrastructure in any case. They 
all had a lot of positive things to say about the TIGER program 
that was funded in the Recovery Act. With that aside, though, 
federal funding is directed to modal agencies which arguably 
have a very narrow investment focus, as you indicated, and then 
you indicated that there are some huge gaps in the data and 
information denoted really to make different decisions and to 
work out of a whole. I think freight has not been dealt with in 
as broad a way as highways and rail passenger circumstances, 
which have been under federal transit's bay as opposed to the 
freight aspect.
    Given this environment, would you expand on the challenges 
that exist--you mentioned the last mile issue which really 
rings a bell with me, that business that we have our Class I 
railroads who are building major intermodal centers sometimes 
30 or 40 miles away from where the major port, for instance, 
is. That business of getting stuff from port to wherever those 
intermodals are, how do we get it, and what, specifically, is 
going to be able to deal with that? It lays out that old 
comment that it takes one day to get from the coast to Chicago 
and then one day to get through to Chicago. What are we going 
to do in order to correct that kind of thing?
    Mr. Kienitz. I will speak to this and then others may want 
to as well. Maybe Joe will. I would say first it is very case 
specific, and so I would hesitate to offer a generic solution 
to that kind of an issue. You know, I have experienced, for 
example, in the City of Philadelphia with the freight 
railroads, the tracks actually go right down to the port. The 
gap there is that the port is not properly developed, and so 
there is all of this rail capacity and a lot of space that you 
could use to get stuff in and out, get it onto the trains and 
never have the trucks go on public roads. Very efficient. The 
gap is on the port development.
    Mr. Olver. Did you give in the TIGER grants any grant 
solely for expanding port facilities to correct that kind of a 
thing, as you have described it in the Philadelphia case?
    Mr. Kienitz. Not precisely, although the California grant 
actually is an interesting take on this. What they wanted to do 
is instead of trucking commodities from the Central Valley of 
California over the highways to the Port of Oakland, they 
wanted to put them on barges in the river system, round them to 
the Port of Oakland on water, and tranship there for export 
overseas. The distance is 100 miles or something like that. So, 
once again, it is a very case specific thing because the river 
system there is very navigable and so that is a good solution 
in that matter.
    We got a bunch of applications, I know, along the 
Mississippi River for various truck or rail-based transfer 
points to get grain and other commodities on and off the barge 
system, but part of the issue there was there were 12 places 
all vying to be the place where you come to tranship your 
grain, and so then how do you choose from among those? Is one 
state more worthy than another, or one project more worthy than 
another? That is a very hard type of decision to make. The 
concept is a good one, but the playing of favorites is a hard 
thing. With the port business, too, the port authorities all 
come here to town and say we are all a united group, but in 
reality they are fierce competitors. They are fiercely 
competing to get the ships to come to their port and not the 
other guy's port, and at some level it is hard to----
    Mr. Olver. Well, we cannot have the infrastructure needed 
at all ports for all people, for all places.
    Mr. Kienitz. Right.
    Mr. Olver. Somewhere, decisions are going to have to be 
made.
    Mr. Kienitz. Yes. You know, the Panama Canal expansion is 
occurring, so by 2014 the theory is you are going to have much, 
much wider, deeper, larger ships, many more containers, and the 
theories of economics will argue instead of taking the ship to 
L.A. and unloading it, it is going to be more cost-effective to 
send the huge ship through the Panama Canal and then dock 
somewhere in the Gulf Coast or the East Coast for cargo that is 
bound for the central and eastern United States. So there are 
probably 10 ports on the Gulf Coast and the East Coast, all of 
whom believe that they should be the post-Panamax's center for 
the cargo, for the movement all over the eastern United States. 
Perhaps one of them one day will be. They will not all be. So 
that is a very hard thing for us. Should we intervene in that 
dispute or should they compete with one another to offer the 
best service to the provider?
    Mr. Olver. Thank you. Mr. Latham.

                   HIGHWAY TRUST FUND REAUTHORIZATION

    Mr. Latham. Thank you, Mr. Chairman. We talked a little bit 
about reauthorization of the highway trust fund. Mr. Mendez, 
and your Secretary, and, I might add, your Under Secretary here 
today, have taken quite a beating recently since the budget was 
released in February for the Department's lack of initiative 
and cooperation when it comes to putting forth a highway 
reauthorization proposal. When we spoke last month, and in the 
Under Secretary's testimony today on page 7 it referenced the 
Department's Surface Transportation Reauthorization Outreach 
Tour.
    When we spoke, I figured you were touring in preparation of 
submitting a reauthorization proposal. Unfortunately, the 
Secretary has made it clear that no proposal will be 
forthcoming from the Department. We can tell you what is needed 
because it seems like every group and constituent I meet with, 
both here and back home, and I am sure it is the same way for 
everybody else on the subcommittee here, they are telling me 
that we need a reauthorization and need solvency in the trust 
fund. Quite honestly, I do not know if we needed to travel too 
many places. I think it is pretty obvious what the need is. How 
many listening stops have you made to get input on the 
reauthorization program?
    Mr. Kienitz. We have done three so far: New Orleans, 
Louisiana; Minneapolis, Minnesota; Los Angeles, California. A 
couple more are under discussion.
    Mr. Latham. Okay. Where does the money come to do all the 
tours?
    Mr. Kienitz. From the Department's budget. I confess. I do 
not know exactly which line item.
    Mr. Latham. Is it out of the trust fund?
    Mr. Kienitz. I do not know. I do not think so.
    Mr. Mendez. Yes. We have supported at least one of the----
    Mr. Latham. Microphone.
    Mr. Mendez. I am sorry. Excuse me. I know within federal 
highways we have supported at least one of the tours. I do not 
know that we supported all of them.
    Mr. Latham. Okay. I think probably for the record I would 
really like to see some kind of a breakdown of where the 
expenses for those have gone and where the money comes from, 
and, if we could, I would very much like to see that. I think 
one thing interesting, and we have had a discussion here about, 
you know, livability planning and those type of things going on 
and on for weeks here, but in August of 2007, the Interstate 35 
West Bridge collapsed in Minneapolis and bridge safety became a 
huge priority for Congress, the Department, the highway 
administration. This committee provided an additional $1 
billion in spending solely for bridge safety and repair. Can 
you tell me what the status of that $1 billion, and, you know, 
how many bridges have been brought to an acceptable safety 
level with that?
    Mr. Mendez. Well, I do not have the exact numbers with me. 
I certainly can provide them to the committee here in the 
future shortly. We did undertake through our processes, in 
coordination with the state DOTs--you will focus on the bridge 
issues. As you mentioned, when we had that big collapse there 
was a big focus on bridge safety. I can tell you at that point 
in time, I happened to be in Arizona as the state DOT director, 
and clearly, we did everything we could to move forward on the 
bridge safety inspections, the inspection process. We also at 
this point in time are reviewing the bridge safety inspection 
process and also coordinating with the National Transportation 
Safety Board on some of those same issues.
    Mr. Latham. Okay. So you would say that bridge safety is a 
highest priority and funds should be used in that regard, is 
that correct?
    Mr. Mendez. Yes, sir, safety is our number one priority at 
the Department.
    Mr. Latham. Okay. In the budget request they propose to 
skim off a percentage of the highway funds from each state, and 
according to the Budget Office, $36.6 million would be removed 
from the bridge program in fiscal year 2011, or almost 20 
percent of the total livable communities fund for community 
planners. Is this a higher priority than bridge safety?
    Mr. Mendez. Well, let me just address that. As you mention, 
$200 million from the highway component. Livability, as you 
know, is a high priority for the administration. I can say I do 
not want to minimize the value of $200 million. We do believe 
it is modest when you look at the overall funding, and so we 
are simply asking for support to advance that administration 
priority.
    Mr. Latham. I mean, my question, is that a higher priority 
than bridge safety?
    Mr. Mendez. Well, again, I think it is important for us to 
be able to advance a new priority for the administration. 
Certainly, we are not minimizing the importance of bridge 
safety. We will continue to focus on that, and we are not 
giving up on bridge safety. No, sir.
    Mr. Latham. I see I am out of time. Thank you, Mr. 
Chairman.
    Mr. Olver. Ms. Kilpatrick?

                              TIGER GRANTS

    Ms. Kilpatrick. Thank you, Mr. Chairman. Good morning. I 
want to go back to the TIGER grants just a bit.
    Mr. Kienitz. Yes, ma'am.
    Ms. Kilpatrick. I do not know if that is the first round or 
second. That is the first round. Right. Several proposals 
submitted, and I did see the list and how they were 
distributed. A couple of areas got the large grants, other 
areas got a small piece. I come from Michigan so the waterways 
are international with Canada, and the infrastructure left from 
the auto industry that includes an international bridge, and a 
tunnel, and the railroads, and all of those kind of how we send 
our TIGER grant in. We were not awarded that. We did get a 
small piece of something else, and we thank you for that and 
much more.
    I hope this committee will put more in TIGER grants, as has 
been proposed by the Executive Office, so that we can do more 
of those because I really believe that those grants directly to 
those used for government can be the difference in rebuilding 
America and putting people back to work. That is real important 
on that. Now, does the Department plan to create a more direct 
grant that will just be targeted at freight rail? When I came 
in we were talking freight rail. Is that going to be a priority 
as we move more goods and services? Is there a need for that?
    Mr. Kienitz. Thank you, ma'am. I think our approach at this 
point really is that the lesson of the TIGER grants is that if 
you take the strictures off and say this is not money directed 
at any particular use, it is to achieve our goals in the most 
cost-effective way possible, turns out that the freight 
projects compete extremely well, but they should have to 
compete. Everybody should have to compete. That is what creates 
the upward spiral, the upward pressure to get, you know----
    Ms. Kilpatrick. I am glad to hear you say that. I want to 
see the competition. I think you get the better products when 
you compete, and everyone comes together intermodally, by the 
way, that would make that competition real and valuable to the 
people who live in those areas. That is why I think the TIGER 
grant was very creative. In our situation, the businesses and 
the private, as well as the nonprofits and the cities that are 
involved in that, put together a real good application, and we 
are going to be working with you to see what we can do better 
by that. Thank you for what you have done.
    Mr. Kienitz. Absolutely.
    Ms. Kilpatrick. Also, what did get a TIGER grant is a 
project, eight mile light rail down a main business 
thoroughfare that has a public/private partnership. One of the 
FTA administrators were in my district. I was here and could 
not be there, but he came to say that public/private 
partnerships had not proven to be effective in this regard. I 
was not sure what that meant, and I was not at the meetings. 
The staff reported it in their memos and conversation to me. 
Are public and private partnerships, I do not want to say more 
efficient, but valuable, and in what cases more so than others? 
Should we be looking at that as well?
    Mr. Kienitz. Yes, ma'am. Obviously, I am very familiar with 
that project, and the Secretary, you know, that was a decision 
that he personally made.
    Ms. Kilpatrick. Say his name for me, please.
    Mr. Kienitz. Secretary LaHood.
    Ms. Kilpatrick. Not the Secretary.
    Mr. Kienitz. Peter Rogoff.
    Ms. Kilpatrick. Yes. I want to meet with him.
    Mr. Kienitz. Transit administrator. Okay.
    Ms. Kilpatrick. Yes, transit administrator.
    Mr. Kienitz. I will tell him that.
    Ms. Kilpatrick. Please. I would like to have follow-up in 
my office. I like how he presented himself and the information. 
To prepare for the future, that is what we need to know. That 
is why I am asking now. What kinds of things are better, and 
how do we proceed?
    Mr. Kienitz. Right. I think the issue there, obviously 
there is a real partnership certainly in the development of the 
first phase of that project. It is a financial partnership. I 
think part of what Mr. Rogoff wants to understand is what the 
operating partnership will be. I think their experience is that 
having a single operator who is responsible for everything that 
goes either well or poorly in operations is a more effective 
and accountable system. I know that there has been some 
discussion over who is going to be the operator of that project 
once it eventually gets built.
    Ms. Kilpatrick. There have been several.
    Mr. Kienitz. Right. I guess I am not quite current the last 
week or so.
    Ms. Kilpatrick. I should say normally the settlement is 
closed.
    Mr. Kienitz. Yes. So I think he has expressed some issues 
about that. I think the financial partnership and the 
commitment of the civic community, the philanthropies, the 
business community, that, I think, is part of what convinced 
Secretary LaHood that this was: (A) a real priority of the 
community generally; and (B) something that a lot of people had 
their money riding on and would want to succeed, and so that 
that would really create the pressure to make it work.
    Ms. Kilpatrick. I see. So that 20 percent partnership to 
help get our 20 percent that is required is okay. The operation 
of it should stay with the public entity whose most of the line 
required.
    Mr. Kienitz. As a general matter, I think I should probably 
leave it to Mr. Rogoff who understands the details of those 
rules better than I do. I would not want to speak out of----

                               LIGHT RAIL

    Ms. Kilpatrick. Okay. I would like to speak with him on 
that. Then, finally, in as much as we are late, every other 
metropolitan area in the country has a light rail system of 
some sort. We are trying now to move to rapid rail, which is 
what the President is supporting in the corridor, and we 
believe that we have that with the infrastructure, again, left 
by the auto industries, and the port, and the tunnels, and the 
bridges and all of that. Mr.--what is his name again?
    Mr. Kienitz. Rogoff.
    Ms. Kilpatrick. Rogoff. Right. I have got to write that 
down. Said that we needed a rail person, people who specialize 
in this, who has helped other areas of the country bring their 
rail to fruition. What type of person is that? Is that 
specifically? I agree with that, by the way. I totally do. We 
do not have that initiative, and we need to have that. I tell 
this to the Secretary all the time. Our MPO is antiquated and 
inefficient. There has got to be another way to do this. Having 
a rail person specifically. The MPO is broader. I think you 
need that for the kinds of projects that we are talking about. 
It certainly has become one of the right-of-ways that the 
President is talking.
    Mr. Kienitz. I will make two points and perhaps let Joe 
talk about this a little bit. Just on the light rail, commuter 
rail side, there are definitely some agencies out there that 
have become real experts in doing project development, like 
Seattle, and Los Angeles, and Salt Lake City and Denver, who 
have done a lot of it.
    Ms. Kilpatrick. Houston?
    Mr. Kienitz. For folks who are going into it for the first 
time, we try to help create those partnerships to get the folks 
who have done it in other cities to try to help out. I know on 
the passenger rail side that has also been a little bit of an 
issue in Michigan, not just in the Detroit area. Maybe Joe 
could speak to that a little bit.
    Ms. Kilpatrick. Come in closer, Joe.
    Mr. Szabo. While I think in your case you are talking about 
light rail, certainly, when we have been talking about high 
speed rail, passenger rail----
    Ms. Kilpatrick. That was the question, light rail to high 
speed rail. We want high speed rail.
    Mr. Szabo. Sure.
    Ms. Kilpatrick. That is the order of the day.
    Mr. Szabo. I think the key point is that the different DOTs 
have different levels of expertise. It depends on their history 
and their past commitment to rail. Certainly, as rail moves 
forward as a priority, there is the need to elevate the level 
of expertise in many DOTs. You can go on the internet and look 
up the rail division of one particular state and find about 65 
employees assigned to their rail division and go take a look at 
their neighboring state and find half the employees assigned to 
the rail division, and so it kind of runs a very wide gamut. A 
key part of what we are trying to do in the preparation of our 
national rail plan is capacity building.
    Frankly, that is capacity building for all of us. For the 
FRA, as well as for the state DOT. As we look to rebalance our 
transportation network, it is important that the DOTs also take 
a look at rebalancing their resources, and how they choose to 
allocate their priorities inside the DOT. So if you want rail 
to be a priority, sometimes you need to make those adjustments 
at----
    Ms. Kilpatrick. That last part you said was most important. 
That first part was University of Michigan 101. I do appreciate 
it. Thank you.
    Mr. Olver. Thank you. Mr. LaTourette.
    Mr. LaTourette. Thank you, Mr. Chairman. Is it your 
intention to have more than one round?
    Mr. Olver. Yes.

                     BICYCLE AND PEDESTRIAN POLICY

    Mr. LaTourette. Okay. Good. Because I wanted to talk to 
Administrator Szabo about positive train control and 
Administrator Matsuda about short sea shipping, but I have been 
sidetracked by a news flash and I really got to check it out. 
There is an article today in BNA that indicates, and apparently 
it is on your FHWA blog and the headline is called Fast Lane, I 
will try and get a subscription, but it says that LaHood 
declares bicycling, walking, as equal to motorized 
transportation. I got two questions. One, is that a typo? Two, 
if it is not a typo, is there still mandatory drug testing at 
the Department?
    Mr. Kienitz. I will respond to that. Not a typo. Yes, there 
is mandatory drug testing, and I have had mine. For many years 
the Department has had a document called a bicycle and 
pedestrian policy. That document has been under revision for 
some months, and the revised version was released. The 
Secretary maintains the blog, and so every couple of days there 
is a new item on there of something he has been doing. As you 
know, this is something he is passionate about and so there is 
a long posting on there about that.
    I would say that the import of the document is it is not a 
regulation and so it is not some mandatory requirement. You 
know, the states are still in charge of expending formula funds 
in the way they have been before. I think it is an expression 
of his oft stated, in front of this committee and certainly 
many others, view that the Federal Government should not take 
the position that roads and trains are real transportation and 
walking and biking are not. I think his view is it is all real 
transportation and we should consider it based on what benefits 
it can bring for the amount of money we spend.
    Mr. LaTourette. Well, listen, I totally agree with that 
position. Where I think I am taken aback and sort of breathless 
today is that he declares it equal to those other modes of 
transportation. So today's hearing is titled Strengthening 
Intermodal Connections and Improving Freight Mobility. So is it 
his thought that perhaps we are going to have like rickshaws 
carrying cargo from state to state or people with backpacks?
    Mr. Olver. That is what they do in Chicago.
    Mr. LaTourette. Well, sure. That is why it takes a whole 
day to get through.
    Mr. Kienitz. That is why the trains take so long to get 
across Chicago.
    Mr. LaTourette. Exactly right. So, I mean, he did not mean 
equal to. He just means that in the mix we are going to 
consider these as alternatives and good things to have, but if 
we are going to spend $1 million on a road, we are not going to 
have half of it go to a bike lane and half of it go to cars.
    Mr. Kienitz. My interpretation of that would be equal in 
the eyes of policymakers as what is the expenditure you make, 
what is the benefit you get. If the freight project offers the 
best bang, great, but if the bike project offers a good bang, 
great for them.
    Mr. LaTourette. Yeah. In terms of what? I mean, that gets 
back to, you know, you are already stealing $305 million from 
the trust fund for this sustainability, livability initiative, 
so, and as I look at the Secretary's objectives, the five 
things that he finds to be important, 40 percent of them, I 
mean, and you separated them today, one is livability and then 
you have got economic sustainability. I was hoping you would 
only have 20 percent and it would be, you know, livability and 
sustainability. So I do not even understand how you get a bang 
for the buck out of a bicycle project. I mean, it is quality of 
life. I mean, when we are talking about economic development 
and jobs, I mean, what job is going to be created by having a 
bike lane?
    Mr. Kienitz. I think it is an entirely fair question, but 
you often see the cyclist with the t-shirt that says ``one 
less'' car on the back. The person who is driving by them 
thinking ``why are you in my way'' would instead think, ``well, 
at least you are over to the side instead of in front of me in 
your car.'' There is some value to that. Bicycling, and walking 
are low cost. They lower family costs. The interesting thing 
about the U.S. transportation system is that the great majority 
of the expenditures are not expenditures that we make as 
governments, it is the expenditures that we make as 
individuals.
    The car ownership rate in the United States is very high, 
and that is a very high family cost. For people of solid means, 
it is a perfectly affordable thing. There are a lot of people 
for whom a transportation system in which you cannot have a 
job, you cannot get your kids to school, you cannot do shopping 
unless you own a car, or two cars, or three cars, that is 
actually a hardship for folks. Giving them ways to make choices 
where they can achieve their goals without necessarily having 
to do that, entirely at their own choice though, seems 
reasonable.
    Mr. LaTourette. Well, and I do not have any problem with 
the philosophy that we should----
    Mr. Kienitz. Perhaps our rhetoric is not to your----
    Mr. LaTourette. Well, that is what I am saying. Equal is a 
bad word. Maybe you should say that it should be under 
consideration or we are going to do more of it, but to say 
equal I think really does send it. I mean, it is a little bit 
like if you own a Toyota, you should park it. It is sending the 
wrong message, would be my observation. Thank you, Mr. 
Chairman.
    Mr. Olver. Mr. Rodriguez.

                              TIGER GRANTS

    Mr. Rodriguez. Thank you very much. Thank you for being 
here with us today. Let me ask you, on the TIGER grants I got 
kind of mixed understandings. Are we going to have a second 
round of that or what? We are?
    Mr. Kienitz. The appropriations bill approved by this 
subcommittee and eventually enacted into law for the current 
year provided $600 million for a second round. So it is a great 
reduction in the amount, but, yes, there will be----
    Mr. Rodriguez. Because, you know, and I have verbalized 
this before, in Texas we have a problem south of Dallas along 
the border. We, you know, really have been treated 
appropriately by the state in the last, you know, so many 
decades. I know with the TIGER grants also went to the north, 
none to the south. I am in San Antonio, seventh largest city in 
the nation, and yet, you know, I would hope that as you look at 
that criteria and to making those determinations, you know, 
look at those, you know? Okay?
    Mr. Kienitz. Yes.

                          RAIL LINE RELOCATION

    Mr. Rodriguez. Secondly, on your budget on the rail line 
relocation improvement program you kind of wiped that out. I 
was wondering if there are going to be other resources that you 
are going to look at, realignment or improvement projects. We 
have the South Orient project. For Texas, you know, trade comes 
through Mexico a lot and it goes through the inners, you know, 
and we have rail that comes in through the Atlantic and through 
Mexico and north to the center of the country. The South 
Orient, we are looking at the Pacific side of Mexico coming 
also through the center, you know? It is an area where South 
Orient needs, actually, it is owned by the state and it needs a 
great deal of improvement. We are able to get some resources 
there. That is why I was, you know, really concerned that you 
seem to be wiping out that category in terms of improvements.
    Mr. Kienitz. I will say I am personally very familiar with 
that program. When I worked in state government we actually 
took great advantage of some of those funds, and you may have 
as well. I know that it has traditionally been a program with 
strong support in Congress, and administrations past and now 
current have chosen not to request those funds, but obviously, 
that is an ongoing program at the rail administration right 
now, and the funds are provided, we will obviously work with 
you all to get them to the right projects.
    Mr. Rodriguez. Okay. So what was the rationale for doing 
away with that?
    Mr. Kienitz. I think it is the same rationale that has 
previously been the case. Every Administration I can think of 
has not supported that program--just one of the many things 
that gets cut every year to try to have a balanced budget.
    Mr. Rodriguez. Improvement in safety, and so it is not an 
issue because you also wiped out safety?
    Mr. Kienitz. I certainly have seen projects that have been 
very valuable funded under that program.
    Mr. Rodriguez. Okay. Because if we look at probably freight 
that comes into this country, a huge amount comes in through 
Texas.
    Mr. Kienitz. Yes.
    Mr. Rodriguez. Any part of that freight system as it goes 
up to the north or anywhere else, if you have got bottlenecks 
there, it not only impacts that area, but everywhere up north 
like when you look at I-35 that goes all the way across the 
country, it comes out of Laredo and San Antonio, and if it 
bottles up there, you are going to have a bottling up, and 
people forget that it is not just their areas but also where it 
comes from.
    Mr. Szabo. Congressman, if I could say this? I was 
previously a local mayor in the south suburbs of Chicago, and 
it was a railroad town. It had two major freight rail yards in 
the community, and so certainly from that local perspective I 
can clearly relate to what you are talking about. What we chose 
to do was to focus on more flexible funding for larger 
infrastructure programs where a rail line relocation would 
still potentially be eligible whether it is under the TIGER 
grants or through the proposal for the NIIFF, the 
infrastructure bank that rail line relocations would be 
eligible under those programs, and so it was not that they were 
excluded. It is just that it is being funded from a broader 
pot.
    Mr. Rodriguez. Okay. Is that the $4 billion pot?
    Mr. Kienitz. Yes, sir.
    Mr. Rodriguez. Okay. Okay. I just wanted to make sure. 
Okay. Because I know that includes commuter rail and passenger 
and freight intermodal systems.
    Mr. Kienitz. Yes.
    Mr. Rodriguez. The GAO quickly indicated that with limited 
federal funding targeted to intermodal transportation, a well-
limited collaboration that exits, limited ability to evaluate 
the benefit of such projects based on GAO. What are you guys 
doing in that area?
    Mr. Kienitz. First of all, I would say I entirely agree 
with that analysis. I think they are entirely right. To the 
degree that we now have some modest flexible funding, we are 
trying our darndest to do a much better job of that. For 
example, in the review of the flexible funding through the 
TIGER program, all of these people were involved, their staffs 
were involved. We had staff from each of the agencies look at 
each of the applications. We have really tried, both within our 
department and in the multi-agency partnership with HUD and 
EPA, to get a wide variety of perspectives.
    That said, the fundamental structure of the department in 
our authorizing statute is stovepiped and divided. That is our 
operating manual, and we have to follow it. There is a certain 
amount of administrative stuff we can try to do to create a 
veneer of multimodal thinking on top of what are essentially 
single-mode programs, so I think the long-term response to that 
has to be a change potentially in the authorizing statute to 
make it more part of our DNA.

                              TIGER GRANTS

    Mr. Rodriguez. And can I just followup once again on the 
TIGER? Can I get a better perspective? Can we assume that you 
are going to be looking at it a little more broadly in terms of 
applicants on the TIGER projects, or are you going to be going 
to the same ones who have received it in the past?
    Mr. Kienitz. I think in particular we will probably almost 
certainly not go to the same ones that received it in the past, 
in part because those people are now going to be struggling to 
get their projects completed on time and on budget, so I would 
hope that we could explicitly do what you are saying.
    Mr. Rodriguez. Thank you.
    Mr. Olver. Well, on my time just for clarification, the one 
thing about the $600 million program is that it is an 80/20 
program as opposed a 100-percent program which is the $1.5 
billion that went out earlier, so it will require a local match 
with it along the way, but a quick question to you to follow up 
what Mr. Rodriguez had said. Would everybody have to apply de 
novo, or will you look at the list of those which were close to 
the award in the first place and not make them go back all the 
way through this process? Can you give me any sense of how that 
would go?
    Mr. Kienitz. There will be an entirely new de novo process. 
I suspect we will see many of the same applications back in.
    Mr. Olver. With a whole new notebook, but if they had a 
good program, or they have reason to think they are close, can 
they just put it in with very minor changes, is that what you 
just said?
    Mr. Kienitz. Yes, although with the caveat that you stated, 
which is that there is now a match requirement. Although, I 
will say I am not sure any of the projects that we granted did 
not have match, the great majority of them because that was a 
competitive factor. If you were willing to offer a match, the 
project was more competitive.
    Mr. Olver. Yes, but it did not require.
    Mr. Kienitz. It did not require.
    Mr. Olver. Did not require.
    Mr. Kienitz. There may have been a few cases; I think we 
funded an Indian Reservation project in South Dakota, and the 
Indian Tribe does not have a local match. They are not a state 
DOT. They do not have resources, so I think there was no match 
required on a couple of projects like that.
    Mr. Olver. Okay. Sometimes they have resources, too.
    Mr. Kienitz. But this was not one of them.
    Mr. Olver. All right. Continuing with my time, Mr. 
LaTourette, I had not realized how we had missed you when you 
are not here, and as you all know, the Secretary comes from the 
party of the folks on his right, and I think Mr. LaTourette is 
a very close personal friend of the Secretary. I do not know 
how many times you can make that sort of comment and still be 
totally friendly with the Secretary. In any case, again to my 
friends on your right, I have heard from both of them here and 
others when they are here decry the inadequacy of the 
infrastructure program of the authorization bill that occurred 
in 2005 and how small it was and how much greater the need is.

                                FREIGHT

    I really think the need at the time was probably close to 
twice that and surely is with inflation now equal to what has 
been proposed and if you add the kind of need that comes if you 
take into account and appropriate a proportionate roll for 
freight, which is freight, with the movement of freight and its 
interconnection with the problems of overlapping uses of 
facilities and such that on this Subcommittee we probably would 
agree that we need more than twice what that program was and 
headed toward three times in order to be reaching to our need 
for infrastructure, so it is very large in any case.
    To my ranking member, just a comment, Mr. Kienitz, you 
listed very definitively the order, at least I think it is done 
for a reason, safety, economic competitiveness, state of good 
repair, livability and environmental sustainability. Well, if I 
look at that, if I had a complaint with it, I would think there 
is a need for expansion of facilities, capacity expansion and 
facilities, which I suppose you might argue is included 
somewhere under economic competitiveness, but it is hidden, and 
in a transportation role, it is such a clear idea to speak of 
capacity expansion, which we need, as well as we need state of 
good repair.
    At the other end of it, livability and sustainability I 
will concede that some might look at that as the same thing, 
but when you speak of environmental sustainability, it really 
speaks to the fact that we have environmental law, and we have 
had it for a long time, and it is one of the things that slows 
down the process our adherence to environmental considerations 
and environmental sustainability. That has been there for a 
long time.
    In very urban areas, this is not going to end up with a 
question at all in this round, but I do need another minute 
because I have gone red, but if you end up trade associations 
from say the highway advocates and the trucking advocates, the 
trucking advocates basically use the highways, you will hear 
them say do not spend anything on rail, do not spend anything 
on transit, just build more roads.
    Well, you cannot build more roads, or you do not have much 
livability in major metropolitan areas, so you do not have 
either environmental sustainability or livability, which leads 
toward the possibilities of bicycles and walking if we have our 
jobs and our living spaces and our schools and so forth in good 
shape, but in rural areas, it is quite a different calculus 
that you have to think about, so I have no problem if one wants 
to put those two sort of in the same place realizing that there 
are differences with the different types of communities, so I 
think that you have been quite clear in safety being the most 
important thing in this. I will leave that there. That is how I 
view the matter, and, Mr. Latham.
    Mr. Latham. Great question, Mr. Chairman. I think the 
frustration I have that Mr. LaTourette spoke to also is the 
fact that if you now have an idea that there is equal 
importance for bike trails and all that, we are spending 
thousands of dollars coming out of the trust fund to do a 
listening tour where we get no response, no proposal, nothing 
about fixing the problem. We have money being taken out of the 
bridge fund, $36, $37 million, which is supposed to go to 
safety, that is going now to some other new initiative out 
there.
    We are increasing the number of people, and he talked about 
well, the guy the T-shirt with one less case. That is also one 
less person paying into the trust fund, and so there is money 
there to build more bike paths or more roads and bridges to 
handle the safety issues, and that is the frustration I think 
that we are not getting anything. We are punting the ball, 
basically. The gentleman talked earlier on the TIGER grants 
that a lot of these decisions were really tough, so they did 
not make any decisions, and they funded millions and millions 
of dollars of new bike paths.
    I mean, there are real infrastructure needs out there that 
are being swept aside, and we all want to have a good 
environment to live in. I have got my green tie on for multiple 
reasons today, but that is the frustration. All the things we 
should be doing do not seem to be getting done. There is no 
proposal for initiatives going forward on how to solve the 
problem, and yet we are moving all this money over to other 
projects here that are somebody's new initiative, and we have 
got huge infrastructure problems out there, and so I do not 
know how we rectify that.

                              TIGER GRANTS

    I was really disappointed on the TIGER grants that you only 
disclose what grants receive the money under the TIGER 
competition. Left out of it, there is no formula as to how 
decisions were made, what various projects were scored, 
evaluated, and who applied and what applicants were requesting 
saying you talked about the ones you did. Given the 
Administration's idea of being totally transparent, are you 
going to release the information of other requests, proposals 
that were made to go after the TIGER grant funding? Is that 
going to be transparent so we know how everything was scored 
and evaluated?
    Mr. Kienitz. We are working on that exact matter right now, 
and frankly it was just the press of work up to the deadline 
for doing the release that did not cause that to be done in a 
contemporaneous way, and so that is our fault. I have been 
involved in a variety of meetings about this exact topic to 
figure out what exactly can be released. We are trying to have 
this program be consistent with the way the department has 
handled other discretionary funding programs in the past 
through rail and highways and other places so that we have a 
consistent approach to all of it, but there will be a coming 
release.
    Mr. Latham. Is there any criteria you could release?
    Mr. Kienitz. The criteria under which the projects were 
rated were published in the notice of funding availability. We 
had two primary criteria: did it meet the policy objectives, 
and did it create jobs, and secondary criteria of were partners 
invested, and were there innovative things about the project, 
so the criteria under which everything was judged were all 
published before the grants came in.
    Mr. Latham. But you can understand that people would be 
very concerned if their project was submitted knowing that 
criteria, and they do not know why it was not accepted. Was it 
a merit, or was it a political consideration, is there some 
other reason why their project was rejected and another one was 
accepted, and without any kind of transparency, nobody knows.
    Mr. Kienitz. That is a fair point, and we have actually had 
many, many one-on-one discussions with project sponsors and 
members of Congress and others answering those exact questions, 
and we are also trying to put out guidance materials to try to 
elucidate that point for all past and potential future 
applicants about lessons learned from Step 1, and a lot of 
times it is really an obvious thing: Match. One person came in 
with a 50 percent match, and another applicant came in with 
zero match, and so that was published in our criteria, but 
saying it to someone face to face is often more effective.
    Mr. Latham. Okay. I am almost out of time. I will yield 
back.
    Mr. Olver. Of course, the ultimate problem was that there 
was $50 billion worth of requests and only $1.5 billion to do, 
which shows a pent up demand for the sorts of things with the 
flexibility that has been identified, the flexibility which 
took away the silos and could cut across what was going on. 
That is pretty important.
    Mr. Latham. I think that begs the question whether the 
decision is made on merit or were there other considerations?
    Mr. Olver. Ultimately, we go back here, the people on your 
right, while they raise these questions and want the money, no 
one that I know of on the right has indicated how it is we are 
going to come up with the money that is needed to do what we 
need to do. I just have to editorialize there. Mr. LaTourette.

                              RIF PROGRAM

    Mr. LaTourette. I would just say respectfully, Chairman, 
that I have worked closely with Jim Oberstar for now 16 years, 
and he has had a variety of plans. He had a bill that he put 
through his committee. I support that. He is now working on a 
bonding proposal. I support that, and so not everybody on our 
side of the aisle is sort of wandering in the wilderness as to 
how to solve the problem. Administrator Szabo, I want to just 
ask you a couple of questions.
    When Joe Boardman, now the head of Amtrak, had your job, 
and here I will say something bad about the Bush 
Administration, you talk about the intermodalism, you talk 
about moving freight, the Deputy Secretary talked about the T-
shirt that says one less car on the road, Norfolk Southern had 
this great ad. I thought it was the best ad in the world, where 
this giant tree would take a truck off the road and put it on a 
train and so forth and so on, so clearly moving freight on the 
rail system is a good idea.
    I could never get Boardman or the Bush Administration to 
grant anything under the RIF Program, and I am just wondering 
where your Administration is on the RIF Program, and have you 
given any RIF money out? Are you going to give any RIF money 
out because it is about $4 billion if I remember right. Maybe, 
I am fuzzy.
    Mr. Szabo. The fund itself?
    Mr. LaTourette. The authorization, the bonding authority in 
the RIF Fund.
    Mr. Szabo. I believe it is $35.
    Mr. LaTourette. Billion?
    Mr. Szabo. Yes, it is substantial.
    Mr. LaTourette. Yes, it is. So how much have you given out?
    Mr. Szabo. I do not have the exact answer about how much 
has been given out and certainly I can provide that to you, but 
obviously we consider it a very, very important program, an 
incredibly useful tool. Again, whether we are coming back to 
issues of rail line relocation, positive train control or 
certainly helping the short line industry, which has always 
been the primary purpose of RRIF, we consider it an important 
program. We continue to get applications, and we continue to 
see them approved.
    Mr. LaTourette. And that is what I want to know. If 
somebody could just cobble together a list of the money that 
you have shipped out the door or you intend to ship out the 
door because $35 billion is not chump change. I mean, it is 
about what we were spending out of the highway trust fund on an 
annual basis for roads, and now roads and bicycle lanes and 
things like that, so, yes, I would like to know. Second, you 
mentioned positive train control.
    I asked a question of the Secretary when he was here, and 
he said he was going to send somebody over, and we did get an 
email response, and I was on the Transportation Committee when 
we wrote the Railroad Safety Act, and included in there is this 
mandate for positive train control, and I am a big believer in 
positive train control, but the mandate extends to, and the 
baseline is supposed to be December 31, 2015. I asked the 
Secretary how come FRA in its rulemaking in January used routes 
that are in existence or are being used today in 2008.
    The email response I got is FRA is not using an old map, 
but the final rule which requires the implementation plans that 
have to be filed by April 16, a couple of weeks from now, do 
talk about changes since 2008, and so the railroads tell me 
what this rule that you all have come out with may cause, and 
positive train control while it is a wonderful innovation, it 
is expensive, and it does not come free, and so the railroads 
have expressed concern to me that by having that baseline 
either be 2008 or April 2010 that you are going to have a 
requirement that they have PTC on about 8,000 miles of track 
that do not need it because there is no TIH chemicals, so what 
do you think?
    Mr. Szabo. Well, let me say this: First, I need to be a 
little careful with the answer since there is a pending lawsuit 
on it, but I will say that we believe that the rule that we are 
proposing, that we have adopted, allows sufficient flexibility. 
In essence, 2008 is used as the baseline, but there is a high 
degree of flexibility that carriers can in fact make 
substantial changes from that. They just need to come and 
justify it, so it is a matter of ensuring that the public 
safety is maintained, that they do not just artificially make a 
change. As long as they can justify it, it is acceptable.
    Mr. LaTourette. Well, and that is what I want to be clear 
on because nowhere in the Rail Safety Act is 2008 mentioned. I 
mean, that is when it was passed, but it is not mentioned 
anywhere. 2015 is mentioned, so if we get to 2015 when they 
have to actually begin to deploy, and a railroad comes to you 
and says well, I know you used the 2008 map, the 2010 map, but 
I am telling you because of traffic patterns, because of 
decisions we have made, because of abandonment, or whatever, 
but we do not have any TIH stuff going on this line. Are you 
saying, you are still here in 2015, that it is your view that 
the Administration is going to say okay, we will work with you, 
and we will modify that mandate?
    Mr. Szabo. I certainly hope to still be here in 2015.
    Mr. LaTourette. I do, too.
    Mr. Szabo. Let me say this. Certainly, the intent is to 
continue to work with the industry, and those changes that are 
appropriate and justified will be acceptable.
    Mr. LaTourette. Okay. Thank you.

                                 MARAD

    Mr. Olver. All right. We have votes that have been called. 
I think we will be able to do maybe four minutes for each of us 
and make another round out of this if that is okay. Very 
quickly here, Mr. Matsuda, as I understand it, 44 of 278 
authorized positions at the Merchant Marine Academy under your 
Administration are vacant. Yet, there is quite an increase in 
the budget here. I am not sure that budget is related to 
filling those positions particularly, but let me just ask, do 
you have the qualified staff to administer the funding for 
MARAD that has been requested in the budget, and answer that 
fairly quickly if you can.
    Mr. Matsuda. If I could, yes. We are in the process of 
recruiting all of the staff we need to help spend the 
additional capital monies requested in the 2011 budget.
    Mr. Olver. And what kind of staff are those?
    Mr. Matsuda. These are engineers and project overseers.
    Mr. Olver. So that is part of the budget request?
    Mr. Matsuda. Well, yes. That is part of it.
    Mr. Olver. We know there are needs there. We know there 
have been problems there. I am just trying to identify whether 
we are getting at the problems and the staffing issue is quite 
severe.
    Mr. Matsuda. We certainly are, sir. We are hiring folks 
this year and fiscal year 2010 as well as fiscal year 2011 if 
the budget request is approved. The Academy, as you know, is 
one of the few places that has a curriculum in transportation 
and logistics, and it really does produce some of the next 
generation's transportation leaders, and I know the Secretary 
feels it is an extremely important part of our national system.

                              FMCSA BUDGET

    Mr. Olver. Okay. Thank you. That is enough for the moment 
given the time. Now, Ms. Ferro, I want to ask you about your 
situation because you have a request for quite a sizeable 
increase for staffing for additional positions. It says for an 
additional 59 FTEs that are 118 positions. That sounds like 
just about 118 half-time people. How is that (1) going to help 
you meet your safety mission, and (2) how are we going to get 
at the rulemaking that has been required through the 
comprehensive safety analysis, the 2010 program?
    Is that clearly related to doing that? We have had some 
serious difficulty. There has been rulemaking in regard to 
rules that were required under the SAFETEA-LU bill, which have 
been rejected a couple of times. Are we going to be able to 
complete that? Is that how we are to get done with that 
rulemaking or what? Give me your best sense here in about a 
minute or so.
    Ms. Ferro. I will start with the budget question. Our 
budget request is in fact $20 million over our 2010 baseline or 
enacted budget of $550 million, and that $20 million is 
directed specifically to our safety mission. We are this year 
on the eve of rolling out the most significant change in the 
underpinnings of how we interact with our regulated 
populations, the commercial vehicle industry and drivers, as 
well as brokers and others that we credential, as well as the 
underpinnings of the systems and tools we provide to law 
enforcement and the regulated populations and the public access 
to motor carrier data.
    The two components are CSA 2010 and Compass, and of the $20 
million, a little less than half of it is directed towards 
funding the additional positions you identified, and by 2012 it 
would be 118 if all goes well. That is correct, 59 positions 
presuming we hire them in the second half of the fiscal year, 
and that is how we got to that number.
    Mr. Olver. Okay. Okay.
    Ms. Ferro. Ninety percent of those positions are in the 
field specifically related to the workflow, changes that happen 
under the Comprehensive Safety Analysis Program that we are 
rolling out. That CSA 2010 program specifically shifts from a 
static high-risk carrier rating system and a static 
intervention system to one that is very dynamic in providing 
data and trends to carriers that are demonstrating a tendency 
towards high-risk behavior or are specifically high risk and 
engaging them in comprehensive corrective action plans through 
our intervention.
    Mr. Olver. Okay. Okay. Thank you very much.
    Ms. Ferro. You are welcome.
    Mr. Olver. I am going to move on to Mr. Latham.
    Ms. Ferro. Okay.

                                 NAFTA

    Mr. Latham. I am just going to have one question, and we 
visited about it, I appreciate it very much about the NAFTA 
mandated cross-border trucking arrangement.
    Ms. Ferro. Thank you.
    Mr. Latham. Where are we? What is going on?
    Ms. Ferro. Well, it is no surprise for me to say to this 
committee it is a tough situation that has created some 
hardships on all sides, and so what I can say is that I 
certainly look forward to meeting with the Committee and 
briefing you on the details of whatever program is developed at 
the appropriate time.
    Mr. Latham. What is the appropriate time?
    Ms. Ferro. Well, I will say when we got the tough question, 
we agreed we would look towards Roy.
    Mr. Kienitz. There is a very active process that we are 
involved in right now that I know Anne is spending personally a 
lot of time on with the Secretary to try to come up with a way 
to solve this problem, which frankly no one has been able to 
figure out a way to solve for quite a long time, and so I think 
we have recognized it as important but hard, but we do not have 
anything for you yet.
    Mr. Latham. No timeline? Nothing? Okay. Obviously, parts of 
the country are being negatively impacted with the tariffs that 
have been going on. I mean, it is all over the country. It is 
not just my district or whatever, but I think with that, Mr. 
Chairman, I will allow time for Mr. LaTourette.
    Mr. Olver. We still do not have a huge number of people who 
have voted for this one. It has taken a while to gather them. 
Mr. LaTourette.
    Mr. LaTourette. Thank you. I will still be brief and 
perhaps the answer to the Mexican truck problem is if we made 
all the border crossings bicycle only. Mr. Matsuda, I want to 
come to you for a minute. If you are talking about 
intermodalism, moving freight and so forth and so on, in my 
part of the world, the Great Lakes, we have had under 
consideration for a long time short sea shipping, which is hard 
to say fast, but the last time I checked, there was only one 
operation.
    It was up in Detroit, the Gentlelady's district, and he was 
taking empty containers from Detroit up to Canada and so forth 
and so on, and a couple of things are a problem, figuring out 
the relationships with Canada, and the Jones Act is a problem, 
but the harbor maintenance tax, and what I could never 
understand, again I will say something bad about the Bush 
Administration, the OMB under the Bush Administration said if 
we eliminated the harbor maintenance tax for cross-lake 
shipping in the Great Lakes that it would be costing the 
Treasury money.
    Well, we are not collecting a tax now because there is no 
shipping, so that is one of the things that I will never 
understand here, so in a nutshell, where is your Administration 
on short sea shipping, and where is your Administration on the 
couple of bills that have been introduced to eliminate the 
harbor maintenance tax for that purpose?
    Mr. Matsuda. Thank you for the question, sir. I can tell 
you that at the Maritime Administration short sea shipping, we 
call it part of a larger program called America's Marine 
Highway. Like the ranking member said, every day we are green 
at Maritime Administration just because of the efficiencies 
that can be had by shipping over the water, especially in the 
Great Lakes.
    Mr. LaTourette. Right.
    Mr. Matsuda. So we have a lot of things going on in that 
program. I expect to see a number of announcements this spring 
and summer that would help move that along. The Administration 
has not taken a position with respect to the legislation to 
remove the harbor maintenance tax for these second moves, but I 
can tell you that I have been to maybe 10 of the largest ports 
around the country, including Cleveland. I was at the Great 
Lakes Community Maritime Day last month. It snowed the entire 
time, and there was a common theme I have heard throughout the 
country that this is perceived as an impediment to starting up 
some of these services and increasing them.
    Mr. LaTourette. Sure it is. It is not only the harbor 
maintenance tax, but it is the way with Homeland Security you 
have the notification requirement. If you are going across the 
bridge in Detroit, you have a compressed notification. If you 
are going to take it on a boat, you have to expand on it. It 
makes it tough, so anything you can do to sort of break down 
those barriers would be appreciated because you want me to wear 
a T-shirt that says one more car off the road.
    I mean, sending it 38 miles across the lake from Ohio to 
Port Maitland where they are making cars as opposed to going on 
the bridge in Buffalo or Detroit really makes a lot of sense, 
and you could call it sustainability and livability and all 
that other stuff, so thank you very much.
    Mr. Matsuda. You are welcome, sir.
    Mr. Olver. As long as the lake area is deep enough to carry 
those kinds of things. I do not know what we would do to dredge 
Lake Erie eventually, but that may be far out. That is geologic 
time. We are just about out of time here. We are going to need 
to go. I just want to make one last little comment, and that is 
that if you are dealing with TIGER grants and dealing with port 
related intermodalism, I hope you will take into account that 
very often we can come up with the west coast and the east 
coast and then the Gulf coast, but really it is usually an 
afterthought as to what it is that is happening with the Great 
Lakes, the ports on the Great Lakes, so I think that is often 
the way it comes out and that needs to be thought of.
    Mr. Kienitz. All right. Yes, sir.
    Mr. Olver. Thank you very much for being here today.
    Mr. Kienitz. Thank you.
    Mr. Olver. We would love to have had more time to continue 
the discussion, but be well.
    Mr. Kienitz. All right. Thank you, sir.

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                                          Thursday, March 18, 2010.

  MAINTAINING A SAFE & VIABLE AVIATION SYSTEM (INCLUDING THE FY 2011 
                      BUDGET REQUEST FOR THE FAA)

                               WITNESSES

HON. J. RANDOLPH BABBITT, ADMINISTRATOR, FEDERAL AVIATION 
    ADMINISTRATION
HENRY KRAKOWSKI, CHIEF OPERATING OFFICER (ATO), FAA
VICTORIA COX, VICE PRESIDENT FOR OPERATIONS PLANNING (ATO), FAA
JOHN HICKEY, DEPUTY ASSOCIATE ADMINISTRATOR FOR AVIATION SAFETY, FAA
NANCY LOBUE, DEPUTY ASSOCIATE ADMINISTRATOR FOR AVIATION POLICY, FAA

                    Chairman Olver's Opening Remarks

    Mr. Olver. The Subcommittee will come to order. I would 
like to welcome the FAA Administrator, Randy Babbitt to the 
Subcommittee. Mr. Babbitt, congratulations on surviving your 
first nine months on the job, and having made some significant 
progress in your efforts to reenergize the agency. It is a 
pleasure to have you before the Subcommittee to testify on 
FAA's Fiscal Year 2011 budget request and to give us an update 
on the status of the next generation air transportation system, 
NextGen. We hear a very great deal about that, and the more I 
know about it the more complex it becomes, and it is your job 
to both implement it and demystify it.
    The FAA is requesting $16.5 billion in budgetary resources, 
an increase of $476 million above Fiscal Year 2010 enacted 
levels. While airline passenger levels have remained low the 
last few years, I believe the proposed budget recognizes that 
significant improvements to our aging infrastructure are needed 
to accommodate future passenger growth and improve the aviation 
industry's performance record.
    First and foremost, I want to emphasize the need to remain 
committed to FAA's core safety mission. I am pleased to see 
that the budget request increases funding for aviation safety 
and proposes hiring 82 new positions in order to strengthen 
oversight of operations. However, the recent story regarding 
the traffic controller bringing children into the JFK tower 
underscores the need to remain vigilant when it comes to 
following safety protocol.
    At the same time the FAA is making significant capital 
investments to modernize the aviation system and replace our 
outdated air traffic control system with a more advanced 
satellite based system. I look forward to discussing the budget 
request of $1.14 billion for the NextGen aviation system and 
being updated on the progress of implementing ADS-B in Houston. 
This multi-year, multi-billion-dollar initiative it clearly a 
complex management undertaking, but I believe it is vital to 
efficiently utilizing our airspace, reducing congestion, 
improving safety, and minimizing aviation's environmental 
imprint.
    The key to any success with your agency's critical safety 
mission and implementation of the NextGen air traffic control 
system rests upon the efforts of a dedicated workforce. Every 
controller, inspector, supervisor, and senior leader must 
remain committed to achieving aviation safety and the 
efficiency goals that you and the Secretary have set. From the 
statements you have made publicly and those that you have made 
to me privately, it is clear that you believe every employee in 
the FAA has a role to play in safety oversight, in the 
development and deployment of new technologies, and assessing 
ongoing facility needs and in the careful stewardship of 
Federal resources.
    Finally, I hope to discuss the development of renewable jet 
fuels. As you know, the aviation industry is responsible for 
three percent of our green house gas emissions. Additionally, 
fuel costs are one of the largest portions of airline operating 
costs at about 30 percent. Last year, this Subcommittee 
provided additional funding for accelerating the development 
and the certification of alternative jet fuels under the CLEEN 
program. I hope you can provide us with an update on this 
program and provide a timeline for developing a renewable fuel 
that meets the aviation industry's unique operating 
requirements.
    Before I recognize our Ranking Member Tom Latham, I would 
like to acknowledge some of the key members of your leadership 
team who have joined you at the witness table who will be 
available for questions. Hank Krakowski. Hank Krakowski is your 
Chief Operating Officer, fellow pilot, and was previously a 
safety executive for United Airlines. Victoria Cox is a Senior 
Vice President for Operations Planning and a veteran of 
research and development programs at DOD and NASA. I think that 
suggests that you may be the firing line for NextGen.
    John Hickey is the Deputy Associate Administrator for 
Aviation Safety and 20-year veteran of the FAA's Safety 
Division. And Nancy LoBue is a Deputy Assistant Administrator 
for Aviation Policy Planning and Environment--well, maybe you 
two women have that sort of between you--and has vast 
experience in the area of environmental review, airport 
financing, and government contracts. With that, I will turn to 
the Ranking Member for his comments. Tom.

                Ranking Member Latham's Opening Remarks

    Mr. Latham. Thank you, Mr. Chairman, and I want to welcome 
the panel here this morning and certainly Administrator Babbitt 
for the courtesy of coming by a couple times and we have had 
very, very good conversations and I have the greatest respect 
for you and what you are trying to accomplish, I really do.
    Mr. Babbitt. Thank you.
    Mr. Latham. The NextGen with all of its bells and whistles 
and public relations campaigning that has gone on over the past 
few years has really yet to make a noticeable impact as far as 
delays or congestion in our system. Considering we have spent 
billions of dollars on this effort over the past several years, 
I would say the return on investments to this point really is 
quite low, and we are coming up on some very critical years and 
NextGen and the development of this system.
    Beyond looking at safety, efficiency, and cost savings that 
NextGen could potentially bring, it is important to keep this 
effort on time, on budget, and without constantly evolving 
requirements, not just because of the fiscal constraints that 
we have here in Congress, but because of our standing in the 
world as the most innovative and advanced aviation system I 
think that really is in jeopardy. Countries such as Australia, 
Canada, China, and our European friends are implementing 
various different stages of NextGen technologies without the 
bureaucratic kind of hand wringing that is occurring it appears 
within the FAA.
    It is not acceptable to fall back on the excuse that our 
airspace is too complex or that we have too many unique issues. 
We need to move forward on technologies that will actually 
reduce delays and increase safety, and do so with I think a lot 
more urgency than what we have seen in the past several years. 
The RTCA report that was developed last year sends a very 
strong statement to the FAA regarding priorities and what 
should be done to bring NextGen benefits out of the planning 
offices and into the system.
    The FAA's written response to these recommendations is a 
good road map for going forward to deliver the benefits in the 
near term, but unfortunately the track record of the FAA is in 
wholesale concurrence with the Inspector General, the GAO, the 
National Transportation Safety Board, or Congressional 
recommendations, and then doing the exact opposite is nothing 
at all is well documented, I think we all know what has 
happened, that the recommendations really have not been 
followed.
    It is my hope that with your leadership the FAA can repair 
its damaged reputation, procurement failures, safety lapses, 
lax oversight, and cost overruns. It certainly will not be 
easy, but I think with your background and experience, I am 
very optimistic that you can do it. I really am, and that is 
why I appreciate the kind of job you have been doing and look 
forward to working with you in the future. And again, thank you 
for being here. I will yield back my time, Mr. Chairman.
    Mr. Olver. Thank you. Mr. Babbitt, your complete statement 
will be included in the record. Please make your summary 
comments somewhere in the five to six minutes. Since you are 
the only one making the statement, I am going to give a little 
leeway on that. There are important things to be done, as you 
see, and then we will move on to the questions.

                     Mr. Babbitt's Opening Remarks

    Mr. Babbitt. All right, sir. Well, thank you very much, 
Chairman Olver, Congressman Latham, Members of the Committee. 
Thank you for inviting me and my team, and I appreciate the 
kind introduction that you gave the executive team that I 
brought here to perhaps provide additional insight and when we 
get into the questions. We are going to discuss the Fiscal Year 
2011 budget with you today for the FAA, and this request 
supports many of the FAA's vitally important safety initiatives 
as well as the transformation of our nation's aviation system 
into NextGen.
    On the safety front, since the year 2001, there have been 
93 million successful flights of U.S. commercial aircraft. 
Those aircraft safely carried 6.3 billion passengers. And while 
this record is truly remarkable, recent accidents remind us 
that there is always still work to do. We are focused on ways 
to improve safety through better accountability and a renewed 
dedication to professionalism within our organization and with 
the employee ranks, the airlines, and the people that we work 
with.
    Last year's call to action and resulting initiatives have 
been extremely valuable in that regard. No serious aviation 
professional accepts anything less than demanding the highest 
standards to ensure safety. Looking forward, approximately 53 
percent of our budget request for 2011 will be used to maintain 
and improve the agency's safety programs. Our proposed budget 
also supports moving forward more aggressively on NextGen, 
something both the government and industry embrace as being 
crucial to meeting future needs.
    We are particularly grateful for the work of the RTCA 
NextGen Mid-term Implementation Task Force. That task force was 
composed of more than 300 members of all segments of the 
aviation community, and the Fiscal Year 2011 budget requests 
some $403 million across the NextGen portfolio to support the 
RTCA task force recommendations. We believe that it is clear 
why NextGen has such strong support, as I recently told a group 
of aviation leaders at our FAA Aviation Forecast Conference, 
NextGen is the trifecta of safety, efficiency, and the 
environment, and many of the NextGen projects that we will talk 
about actually address all three of those components at the 
same time.
    For example, the roll out of the transformational Automatic 
Dependence Surveillance Broadcast, ADS-B, is already a reality. 
The FAA has deployed ADS-B ground infrastructure and is now 
providing operational capability across the Gulf of Mexico 
following successful introduction in Louisville. ADS-B will 
enhance safety, increase capacity, and reduce costs. Our work 
in data communications all but eliminates the potential for 
misunderstanding by providing direct communication from air 
traffic control that is then uploaded into the aircraft and 
simply can be accepted by the pilot. Fewer misunderstandings 
translate into improved safety.
    Similarly, the NextGen's 4-D, or 4 dimension, weather cube 
would increase and enhance decision-making by giving pilots and 
controllers access to real time weather, and thus improving 
safety while also increasing efficiency and reducing aircraft 
emissions. I will say that is a far cry from the days when I 
was flying as a line pilot, that the information regarding 
weather was outdated as soon as I boarded the aircraft. The 
bottom line is this: NextGen enhances safety, reduces delays, 
adds capacity, and improves access while saving fuel and 
protecting our precious environment and our resources.
    And for these reasons, the FAA has increased its budget 
request for NextGen related programs by 32 percent in Fiscal 
Year 2011. That is a total of $1.14 billion, or $275 million 
increase. While improved technology is essential as a component 
in meeting future aviation needs, people are in fact 
fundamental to making the system work and to keeping the flying 
public safe. Improving our employee engagement and our overall 
relationship with our employees is a priority of mine, and we 
have several initiatives underway.
    I am very pleased to have today a new contract in place 
with our air traffic controllers, and I look forward to 
ushering in the future of aviation in full partnership with all 
of our employees. And finally, this budget supports our plan 
for hiring controllers and safety staff so that we have the 
right people in the right place at the right time. Mr. 
Chairman, I have been the FAA Administrator for less than a 
year, but I am constantly impressed by the dedication and the 
excellence of the workforce and their ongoing efforts to make 
our system safer. The Administration's budget supports both the 
important work that the agency is doing as well as the people 
who are doing it. That concludes my statement, and I and my 
entire team here would be happy to answer any questions that 
you might have. Thank you.
    [The statement of Mr. Babbitt follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                         NEXTGEN IMPLEMENTATION

    Mr. Olver. Thank you, Mr. Babbitt. I thought I had a quite 
clear set of questions that I might ask, but during the course 
of what you said a whole bunch of new things struck me as 
remarkable. I view this whole NextGen situation as a kind of a 
multi-layered matrix of change with all of those 
interrelationships being pretty complex. And so I guess I am 
going to delve into that for a bit of time in my first round 
here. Given that we have a relatively small group of people 
here at the moment--there may be a good many others coming in--
we will have several rounds, I think, in the time that is 
allotted, so we can move on.
    When the Secretary was here earlier this year, if I 
remember correctly, I would have to go back to look at the 
actual record, I think I laid before him the challenge that it 
seemed to me that we ought to bring NextGen into place within a 
six- to ten-year period rather than--we have been already 
talking about it for some years, all the three years that I 
have chaired this Committee and before, and as my Ranking 
Member has said, things have been done, but it is hard to see 
exactly what the cumulative result of it is yet, and that is 
partly because it is so complex and comprehensive.
    And when I said that, he instantly replied, ``I agree.'' I 
think that is in the record, so I look at what is going on here 
and am willing to appropriate the money as long as it is 
possible with the approval of the rest of the Subcommittee the 
appropriation necessary to accomplish that if we can figure out 
how to do it in an orderly manner. So I just wanted to let you 
know that is where I think we ought to be going, because the 
benefits and the needs are pretty great.
    The GAO found that the early implementation efforts had 
been hampered by some unclear roles and responsibilities across 
Federal agencies as well as within the FAA. Do you see real 
progress in defining those roles and responsibilities in the 
various offices here in the period of time that you have been 
here? And, well, let me let you answer that.
    Mr. Babbitt. Sure. I think we had made significant progress 
in defining that, and I want to applaud some of the efforts 
that were made by the RTCA task force. I think that very 
clearly helped us prioritize the order in which we take the 
various initiatives. And if I could step aside for one second, 
I think your description of NextGen is very accurate. NextGen 
is a complex series of programs, it is not a box somewhere that 
I just get to turn on when we are all ready. It involves very 
complicated series of interrelated initiatives that come 
together, not unlike a symphony, to make the full robust 
NextGen.
    And we have put money in. I would attribute some of that 
money, not unlike building a house, we spent money with the 
architect and time, we spent money pouring the foundation. To 
the casual observer, if you went to the building site you would 
say, ``Well, I do not see anything yet but a lot of money has 
been invested.'' I think we are at the point now, I am very 
optimistic we are going to see the benefits of that time, that 
architectural design of this system.
    And I think now you are going to see things coming to 
reality which we can talk about, such as NextGen in the Gulf of 
Mexico and Louisville and places that we are going to roll out 
in complex environments, creating additional assurance, I 
think, for everyone. But when all of that is said, I think the 
pathway is much clearer now, and I think we can talk, as you 
would like whether on the air traffic control side, the NextGen 
implementation side, on specifics as you would like.
    Mr. Olver. Is RTCA's Task Force 5 program consistent with 
this concept of maybe bringing this completely on within a ten-
year period? Or what have they laid out?
    Mr. Babbitt. Well, I think perhaps if we took a high 
altitude view of what the RTCA was tasked to do and did very 
well--remembering that they had airlines, airports, 
manufacturers, both component and aircraft, pilots, 
controllers, everybody was involved--and what they were tasked 
to do was to take all of the initiatives that need to come 
about in the implementation of NextGen and say, ``Well, in 
terms of priority do we get a bigger bang for the dollar if we 
were to implement this component ahead of that component?'' 
They helped us order the structure and the rate at which we put 
various components in. For example RNP navigation offers us a 
big benefit, more than some other opportunities, and so they 
suggested we put that first.
    Mr. Olver. I will get a chance to ask them later this 
afternoon, but that was an adroit answer.
    Mr. Babbitt. Okay.
    Mr. Olver. Mr. Latham.

                 EN ROUTE MODERNIZATION PROGRAM (ERAM)

    Mr. Latham. Thank you, Mr. Chairman. The En-route 
Modernization Program, or ERAM I guess the acronym--we need 
more acronyms around here actually. But I am really concerned 
about the progress that we see in that, and disappointed in the 
program. It is about six months behind schedule. I think we 
spent a couple billion dollars already on that, and I do not 
know how the latest schedule to have every site completed by 
December of 2010 is realistic at this point. You are six months 
behind in Salt Lake City, the money has been expended, it has 
not been tested yet. And then to have the 24 other sites 
supposedly up and operational by December, is it reasonable to 
think that that is going to happen, that all the sites are 
going to be up by this December?
    Mr. Babbitt. Well, clearly we have had some implementation 
issues. We are also talking about one of the biggest air 
traffic transformations, how we shift away, and some of the 
complexities, candidly, were bigger obstacles, they have proven 
to be bigger obstacles than we perhaps forecast. What I would 
like to do, if you would not mind, Hank Krakowski has a fair 
amount of expertise in this area. And, Hank, would you like to?
    Mr. Krakowski. Good morning, Congressman. As Randy said, 
this is probably one of our largest-scale modernization 
programs. It is actually fundamental to making NextGen happen 
so we need to do it right. Not surprisingly--first of all, let 
us talk about the setup. We decided to do it in Salt Lake 
first. This is a low traffic area, with not a lot of complex 
airspace, so we could test drive it correctly and work the bugs 
out of the program.
    We had a good concept and have a good concept going in with 
ERAM and we are very confident. It is up and running in Salt 
Lake as we speak, and it has been, in our view, safely stable 
since we turned it on this last weekend. Since we did start to 
implement ERAM in Salt Lake we have had a couple of hiccups 
where we have had to take the system down to correct software 
issues and interface issues. The interface issue is probably 
the one that is most critical because what we learn in Salt 
Lake and do there is going to be transferrable to all the other 
facilities.
    This is the first place where we actually put it in a 
facility, turned it on, the interface with the old Host 
computer system which existed and the other adjoining airspace 
systems for Seattle Center, Denver Center, and some of the 
local TRACONS as well. And that is where most of the problem 
has been, quite frankly. And, not surprisingly, because you 
have not been able to actually live test it with these 
interfaces, you are going to have some glitches.
    I can assure you, and I talked to Lockheed Martin this 
morning, in our opinion no safety issues have come up during 
this. We have had some increased workload issues, but we did 
it, we are doing it at midnight typically, turning it on, 
bringing it up slowly. We have extra staff on board in the 
facility in case we have to fall back to the Host system, and 
we have done that a few times, and we have successfully fallen 
back to the Host system as well. So this is iterative. It is 
the first of 21 of these that we are doing. We do not want to 
turn it on--and the schedule, while it is important to us, the 
schedule is not going to drive us to do anything to deploy this 
before the cake is baked.
    Mr. Latham. And I think that is the concern that we may 
have, we do not want to see any system that is not safe, and 
just the idea of meeting a deadline, although it is, what, you 
are about six months behind at Salt Lake City?
    Mr. Krakowski. About five to six right now, yes.
    Mr. Latham. And originally, you are going to have six 
computer programs or software builds, now you have got 18 or 
something. So how about the in-service decision, I mean where 
are you at that?
    Mr. Krakowski. Well, we were hoping to have it last 
December. We are kind of looking toward May right now if the 
current progress with the ERAM program proceeds. We have an 
aggressive schedule to try to finish it out by the end of the 
year. It is at risk. I will be up front with that, but 
hopefully we have got a shot at it, we still think, as long as 
we make the progress we are continuing to make.
    Mr. Latham. Okay. I am about out of time. I will start 
another subject here, Mr. Chairman. So I yield back.
    Mr. Olver. Thank you. Mr. Rodriguez.

                       NEXTGEN FOR RURAL AIRPORTS

    Mr. Rodriguez. Thank you very much for being here. I 
represent a district that is both urban and rural, probably the 
most rural in America. And so I have a lot of small airports, 
and I was just wanting to get your perspective in terms of the 
future as it deals with rural communities. I also have San 
Antonio, the seventh largest city in the nation, yet we do not 
have any direct flights, and it is a major problem, we have to 
go through the major hubs. And so and I do represent west 
Texas, you know. And so I wanted to get your perspective in 
terms of the current budget in addressing the needs of rural 
airports in terms of our future.
    Mr. Babbitt. Well, first let me make an observation 
regarding NextGen in the rural environment. I think a lot of 
people have focused that NextGen is just going to be a solution 
for our large hub airports, and clearly it does provide a 
wonderful solution, but I constantly remind people that there 
is a cascade of wonderful benefits that fall from all of the 
NextGen programs that will benefit rural airports. For example, 
we use criteria when we want to make an allocation to provide 
navigational facilities, and an airport has to have some level 
of traffic in order to justify certain components, for example 
an Instrument Landing System or a precision approach system of 
some type.
    With NextGen, all we have to do is design the approach, we 
do not have to put any facilities on the ground. All the 
aircraft are equipped to use these approaches, so it does not 
matter if 20 flights a day or 200 flights or 2,000 flights a 
day go to an airport, the cost of the approach is the same and 
we have nothing to maintain. So I think that is going to be a 
big benefit to a lot of general aviation and rural airports.
    Also, from the safety component, even providing simply a 
horizontal and vertical guidance to rural airports for VFR 
operations, make sure you are landing at the right airport. We 
still have pilots that, in visual conditions, land at the wrong 
airport because there was no navigational facility to help them 
find it. And so giving them good vertical and horizontal 
guidance to airports is another benefit that I think will help 
us a lot in that world.

                     MINORITY HIRING/STAFFING PLAN

    Mr. Rodriguez. Let me ask you, one of my concerns, you have 
hired some 7,300 new air traffic controllers the last five 
years, and I had some real concerns in terms of the number of 
women that you have in that category, which is very nil, 
minorities in that category, and so we have moved also to 
create a two-year program in San Antonio, on our own, and if 
you do not have the figures now, in terms of the 7,300 that 
were hired, do we know where we stand in terms of minority 
hiring for air controllers?
    Mr. Babbitt. We can.
    [The information follows:]

    FAA's Annual Workforce Diversity Report--Update on April 5, 2010

    The Workforce Diversity Report has been drafted and is currently in 
the Executive Coordination and Approval process with the FAA 
Administrator, DOT, and OMB. We plan to deliver that document as soon 
as that process is complete.

    Mr. Rodriguez. Could you get a report on that?
    Mr. Babbitt. Yes, sir, we can. We staff according to 
traffic forecasts and attrition and so forth, and we had 
unprecedented attrition. The last agreement with the 
controllers, not the one we have now, but the previous 
agreement, there was a fair amount of labor tension, which lead 
to a lot of retirements, an exceedingly high number of 
retirements. So we were forced to hire a lot of controllers.
    Mr. Rodriguez. I understand that, and you had a 
disproportional number and a lack of representation in the 
minority and the female category, and I hope, that we have 
improved on that.
    Mr. Babbitt. We have, yes.

                             CYBER SECURITY

    Mr. Rodriguez. Thirdly, let me ask you, as it deals with 
the NextGen and as we move on that, what are we doing from a 
cyber perspective, since we are moving more into computers and 
those kind of things, to protect, and how much is it in the 
budget?
    Mr. Babbitt. We have a significant amount. We concern 
ourselves with cyber security in two areas, our internal 
communications within the FAA, and then the system itself. I 
think I might let Vicki speak to the cyber-security aspect of 
maintaining a very secure environment, this has a lot of 
negative potential for us if not done right. Vicki?
    Ms. Cox. So we are developing a security architecture that 
will encompass all of the NextGen systems and ensure that as we 
go to a broad access, which certainly helps us run the system 
more efficiently with an Internet-like capability for accessing 
information, that at the same time is a very secure system. And 
the costs for that are actually built into the programs going 
forward, and overlaid over that will be our overarching 
monitoring and tracking of the overarching security 
architecture that we are putting in place. So certainly this 
will not be an afterthought, this will be an aforethought as we 
go forward.
    Mr. Rodriguez. Have you all done any exercises whatsoever 
to check your system?
    Ms. Cox. As we put the systems in place we certainly will 
do that. ADS-B carries its own security architecture as part of 
the service provision category going forward, and there have 
been some very specific approaches taken to that limiting the 
number of entrance gateways into the system and so on. And we 
are also working with the DOD and the DHS through their air 
domain awareness and security surveillance processes to be sure 
that as we interface with them, which we naturally have to do, 
that we maintain their security levels as well.
    Mr. Rodriguez. I would just ask you to keep in mind that, 
because I know we are going through GAO audits and we are 
asking them to assess how you are checking yourself in terms 
of, you know, because I remember a community that had a great 
system and it went down because people started calling on 
fireworks and stuff like that and so and they could not manage 
the system, so I would ask that you look at those exercises 
that are important, okay?
    Mr. Babbitt. If I could, I would also note, we had an 
unfortunate outage recently, which I think the byproduct from 
that is going to be very helpful to what you are raising. I 
asked for a complete review of our infrastructure for our 
communications, our system. We put a team together that 
included industry experts in the IT world from the Department 
of Defense, Homeland Security, the White House, everyone, and 
we have taken a very hard scrub. We have the initial report and 
they are giving us a longer-term report on how well we are 
protected, what redundancies do we have, need, lack, and I am 
looking forward to that report and I would be happy to share it 
with you when we get it.
    [The information follows:]

              FTI Report--Status Updated on April 5, 2010

    The FAA initiated an independent investigation of the FTI incident 
in question by a Blue Ribbon Panel comprised of government and industry 
experts. The Panel has drafted a report on the FTI incident and it is 
being coordinated through executive review. A copy will be provided for 
the record as soon as this process is complete.

    Mr. Rodriguez. And the report on the minority 
representation.
    Mr. Babbitt. Yes, sir, thank you.
    Mr. Olver. Mr. LaTourette.

                          FAA REAUTHORIZATION

    Mr. LaTourette. Thank you, Mr. Chairman, and welcome, Mr. 
Administrator. I want to congratulate you and the Secretary and 
your team for reaching that new contract with the air traffic 
controllers. That was sort of a blight on the system and it 
became one of the two major issues that, in my mind at least, 
kept FAA reauthorization from moving forward. And it still is 
not complete, our friends in the Senate have not quite gotten 
to it, and my question would be, how is the lack of an adequate 
FAA reauthorization impacting the agency if at all?
    Mr. Babbitt. Well, we certainly would like to have a clear 
path for our long-term projects. I made a comment in a speech 
the other day, it is awfully difficult to make long-term 
decisions on short-term information, and I think that is where 
we feel ourselves. If we have clarity on where we can go and 
what we can do it certainly helps us for our longer-term 
projects.

                       FEDEX/UPS LABOR PROVISION

    Mr. LaTourette. I would just interject, Republicans are 
having the same problem with this healthcare discussion, but go 
ahead. The other big issue, at least in my mind having been a 
former transportation guy, was that there was a dustup going on 
between FedEx and UPS, and the House bill came down on the side 
of UPS, and I do not know what the Senate is doing. Are you 
aware, one, of where those discussions are and has the 
Administration taken a position relative to whether or not both 
entities are going to be regarded as airlines or a ground 
transportation company?
    Mr. Babbitt. To answer your first question, I am aware of 
the discussion. But no, sir, we are not part of those 
discussions. I think the Administration has given some 
guidance, but not to us.

            AIP GRANTS FOR LIVEABLE AND SUSTAINABLE PROJECTS

    Mr. LaTourette. Okay. The Airport and Airway Trust Fund, I 
do not see any diversions for liveable and sustainable 
communities. Is that an accurate observation, you are not part 
of that?
    Mr. Babbitt. Yes, sir, I will give a brief overview and 
then I will let Nancy comment further. Our guidance, and, in 
terms of regulatory direction for us, and legislative direction 
for us, is to provide inspiration and guidance. We have some 
programs, they are voluntary. I actually had the opportunity to 
see one of our small airports actually using that guidance. I 
was recently in Charleston, West Virginia, and I rode in a 
vehicle that was part of our VALE program, which is a low-
energy or low-emission vehicle, which is part of the program 
that came from airport improvement funds. But, no, we do not 
have specific directions. But, Nancy would you like to?
    Ms. LoBue. Thank you. This is an area I think we see as 
increasingly becoming more and more important. While we have no 
specific requirements right now, we are working with industry 
groups, particularly on best practices and sharing those. The 
standards for what is sustainability and the definition are 
still evolving, and as they become more robust, we are in fact 
having conversations about looking at performance standards and 
should we move from voluntary to some sort of mandatory 
requirements.
    But I think at the current time, while we work through what 
is involved in sustainability, we are doing a series of 
voluntary programs. We have done a pilot program where we are 
funding certain grants, certain airports involved in 
sustainability projects. As the Administrator mentioned, the 
VALE program is one of those we consider as one of the 
cornerstones of sustainability. And again we are doing some 
guidance and best practices through the Airports Cooperative 
Research Program creating handbooks for how to do inventories 
for greenhouse gasses and things like that.
    Mr. LaTourette. And are those grants coming out of the 
Airport and Airway Trust Fund?
    Ms. LoBue. Yes.
    Mr. LaTourette. And do you have a dollar amount?
    Ms. LoBue. We can get that for you.
    [The information follows:]

   Amount of AIP Grants Devoted to ``Sustainability'' Projects (ARP)

    The FAA has awarded $3.4 million in the current year to Voluntary 
Airport Low Emissions (VALE) projects, bringing the total VALE funding 
for the past five years to $48.4 million. Additionally, we funded two 
FY09 grants totaling $580,798 for sustainable planning projects, 
bringing the total of amount of funding to ``sustainability'' projects 
to $49.0 million.

    Mr. LaTourette. Okay, thank you so much. Thank you, Mr. 
Chairman.

                         MINORITY HIRING/ADS-B

    Mr. Olver. Thank you. Because Mr. Berry has indicated that 
he would like to listen a little bit before he delves into 
things, he will get his chance in the next round and I will 
claim the next Democratic position here, so we are basically 
starting our next round and the next person will be Mr. Carter 
on the other side. I wanted to just mention that to follow up 
on what Mr. Rodriguez said, the Subcommittee has asked for and 
FAA has provided each of the last couple of years what the 
women and minority hiring is among not just controllers but 
inspectors and such.
    And so when he asks for a new report this year, it allows 
us to kind of look at this, it is always hard to look at only 
one point or two points, to begin to see what trends are. But I 
think you know that in the American population, about two 
thirds of the whole population is either women--they are over 
50 percent--and minority males when you take in across the 
minorities. So one should begin to see some significant change 
in the way those patterns look over time. All right, then I 
want to go back here. Randy mentioned that, in commenting on 
ADS-B, that Houston is now about to be up or is up but you 
mentioned that Louisville was first up. Is Houston the second 
or are there other ADS-Bs now in place?
    Mr. Babbitt. Let me clarify that for you a little bit. We 
have had ADS-B actually in use in a number of places. The 
Capstone project, for example, up in Alaska has been a long 
time in use. Some of that is R&D, some of it we actually use in 
the operational sense. Louisville came up but did not have 
initial operating capability at that point in time, I think it 
has now. Same thing with the Gulf.
    Mr. Olver. When you mentioned the Gulf, I thought you 
mentioned you were getting it from Louisville, but is the Gulf 
being covered by way of Houston?
    Mr. Babbitt. Yes, it is in the Houston Center area.
    Mr. Olver. What is the next one that is about to come up?
    Mr. Babbitt. Philadelphia.
    Mr. Olver. Philadelphia.
    Mr. Babbitt. It has IOC.
    Mr. Olver. I think one almost needs a chart that lets us 
know which of these things is coming up when.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Babbitt. Sure.

                NEXTGEN IMPLEMENTATION/EN-ROUTE CENTERS

    Mr. Olver. There are complications. I see, you must have 
some sort of plan at least in somebody's mind, I do not know 
whether it is Victoria's mind or Nancy's mind, of how these 
things are going to come up in order. I look at airspace 
design, which we must have done some of whether we have done it 
before we did the Potomac TRACON consolidations or the Boston 
consolidations or the California, the north and southern 
California, whether that airspace design preceded in both cases 
those things, and I need to understand what is the order of 
things that must be done and what are--these acronyms are 
systems that put in place, but the airspace design is something 
which is overarching, it seems to me. That is one of the 
complexities of this matrix that I spoke of earlier.
    And then you speak of, as my Ranking Member Mr. Latham had 
questioned about the En-route Centers, now, for instance Salt 
Lake seems to be the first of those that is in place but I am 
told there are 21 more to be done. We even end up changing the 
numbers from time to time because he thought that we were at 24 
and I thought I had understood 24 was where we were going to 
be. And I then need to know, when we have NextGen completely in 
place are we going to need 24 still or 21 still, 22 still I 
guess it would be, or is that only an interim kind of a step? I 
need to get some sense of what the context is in which we are 
likely to be functioning over a period of time here how these 
things are fitting together. In fact, are we going to need, 
just quickly, are we going to need 22 when NextGen is in full 
place on the En-route Centers?
    Mr. Krakowski. The technology would allow us to have, if we 
wanted to, one giant center in the middle of the country or 
somewhere, the technology would allow that. Other countries 
have consolidated to that degree.
    Mr. Olver. But they are smaller.
    Mr. Krakowski. But they are small countries, correct.
    Mr. Olver. Except a few.
    Mr. Krakowski. But we do not know what the end-game answer 
is. It could be 20. Now, and when we are talking, we are not 
just talking the big air traffic control centers, the end-game 
design is to have all the local TRACONS, the radar services at 
the hub airports, to also come within those, and that is in 
place in many countries. So we are going to work with our 
employees.
    Mr. Olver. We are behind, are not we?
    Mr. Krakowski. Well, but the technology----
    Mr. Olver. But their spaces are smaller and their total 
capacities are smaller.
    Mr. Krakowski. Exactly. I think though, to get to the root 
of your question, I look at ADS-B and the NextGen technologies 
as an enabler to do things with airspace we cannot do with the 
current system. The current system is equivalent to hard-wired 
telephones in your house. NextGen and ADS-B are the equivalent 
of cell phone technology.
    Mr. Olver. I am trying to find out whether we are in 
interim stages and whether when we are building TRACONS in 
various places that we are--well, I will ask that question in 
the next round.
    Mr. Krakowski. Okay.
    Mr. Olver. Mr. Carter.

                 EQUIPPAGE INCENTIVIZATION FOR NEXTGEN

    Mr. Carter. Thank you, Mr. Chairman, and I thank all of you 
for being here today. I would like to ask a question that 
relates to general aviation. Is the FAA doing anything to help 
general aviation transition into NextGen, and if so how much 
will it cost general aviation to equip with ADS-B, and what are 
the incentives that would encourage folks to equip? And 
finally, should the Federal government in some form or fashion 
assist general aviation in the cost?
    Mr. Babbitt. It is an excellent question. I think we have 
certainly looked at that. I think perhaps before you came in I 
talked about some of the benefits that general aviation 
receives when we have a full robust NextGen system implemented. 
The ability to have approaches, we can provide approaches very 
inexpensively to thousands of more airports than we could today 
because we simply could not afford to put ground equipment and 
then maintain that equipment on the ground justified by four or 
five approaches a day.
    However, if all we have to do is design the approach and 
the aircraft has the equipment, it is relatively inexpensive 
and it has no ongoing cost other than just sustain the system 
with the satellites. So it offers a lot of benefit there. The 
question of equipage has come up, and right now I think the 
Secretary has testified to that effect, we are looking at this 
from the executive level and the Administration on what should 
we do. There is a case to be made that in the system, we talk 
about best equipped being best served, but everybody equipped 
is everybody best served.
    So there is a tipping point, and if more aircraft are 
equipped, the entire system runs better. So we are looking at 
ways to try and understand what benefits do people get in this, 
and clearly the benefits of safety and efficiency, protection 
of the environment, all those are wonderful things, opportunity 
to have better navigation, situational awareness, weather into 
the cockpit of general aviation aircraft. You do not fly in 
many--and when I say real general aviation, we are down into 
propeller, small propeller, two-four-passenger airplanes--you 
do not see those with weather radar. So they are denied, they 
just simply cannot afford that cost. NextGen brings that right 
into them with a display. And so that is all under 
consideration.
    Mr. Carter. And what is the cost? What would the cost be to 
general aviation to do that?
    Mr. Babbitt. Well, on a per aircraft basis, I think one of 
the things that we have always been reluctant to do is give 
some of these cost estimates. If someone said, make me a 
prototype ADS-B in-out system what would that cost, it would be 
astronomical. If I said, make 200,000 of them and put them in 
every airplane in this country, I think it gets a lot more 
reasonable. So we have not had a good number on that. I have 
seen some aggregate numbers. How sophisticated does it have to 
be to make you compliant? Do you need the same thing that a 777 
of United Airlines needs to get into Kennedy Airport, do you 
need that in your NextGen equipped light twin? Probably not. So 
I would be reluctant to give you a hard dollar cost, but we are 
clearly talking in the multiples of billions.
    Mr. Carter. Do you think the government will be willing to 
assist the general aviation by some sort of supplement or 
something to assist them? Because it sounds like to me that is 
going to, no matter how many you put out there it is going to 
be a pretty high cost item for a small four-passenger general 
aviation plane to be able to put in. And then would it become a 
requirement to have that? That would also be something I think 
that pilots would like to know.
    Mr. Babbitt. Sure. Well, what we have done in the past--I 
will answer those questions backwards--the requirement issue, 
there are sort of barriers right now that you cannot fly in 
controlled airspace without certain equipment. And so that is a 
decision the pilot would have to make. I am either going to 
have this equipment and be able to operate in all the airspace 
or I am going to have a little less equipment and operate in 
some of the airspace. Again, that is a level. Going to the 
willingness, I think what we all need to do, both the 
government, the industry, the users, is to sit down and 
understand what the value is. My personal belief is that there 
is value into getting us to that tipping point with everybody 
equipped. What form that takes, whether that is some loans, 
some tax credits, things like that, that is on your side of the 
microphone, not mine.
    Mr. Carter. That is down the road.
    Mr. Babbitt. Yes, sir.
    Mr. Carter. Okay. Thank you, Mr. Chairman.
    Mr. Olver. Mr. Berry.

                    LABOR RELATIONS WITH CONTROLLERS

    Mr. Berry. Thank you, Mr. Chairman, and thank all of you 
for being here today. I think I brought this up at this hearing 
last year. The morale with the air traffic controllers in the 
two airports that I am closest to, that would be Little Rock, 
Arkansas, and Memphis, Tennessee, especially Memphis, is really 
not good. I do not think it is good for people to be working 
under those circumstances. Has anything been done in the last 
year to try to improve that?
    Mr. Babbitt. Yes, sir. I think, now I cannot speak for any 
particular facility and there may be something unique there, 
but as a whole I am genuinely encouraged and delighted to see 
the progress we have made. Number one, we do have a new labor 
agreement. Number two, we have engaged in a number of 
initiatives for a much better dialogue with our controllers, 
and, for that matter, a much better dialogue with all of the 
employees of the FAA. Thirdly, I will refer to them as the lost 
years, there was a period of time when relations were not very 
good, and that takes time to heal. And to that effect we have 
hired an outside team, you can call it what you would like, a 
marriage counselor, whatever you would like, but the bottom 
line is, we needed some help in facilitating the return of good 
relations.
    I have a background in labor relations, and I understand 
when they get really torn it takes a while to put them back 
together, and I am quite happy with the progress, and I would 
applaud the team. Hank has worked very hard on a personal basis 
working with the controllers. The new leadership, I would 
invite you to have direct conversation and get their opinion. I 
could tell you all day long how good I think it is, but I think 
if you talk to the controllers yourself, you are going to find 
that they are very optimistic and are seeing the progress. We 
have worked a number of things out that before would have 
either gone to arbitration or impasse, and today we are 
reaching mutually agreed solutions and I am very happy about 
that, they have a lot to offer us. Hank, do you want to add 
anything?
    Mr. Krakowski. Yes. Specific to Memphis with the split that 
we did, which you are aware of, I actually went down there a 
few months ago and talked with the leadership team, and I think 
things are getting better. I think the atmosphere, as the 
Administrator just talked about, is helping overall, and I 
think we are going to start to accelerate through these issues.
    Mr. Olver. We are going to be listening to the testimony 
this afternoon and you can ask that one directly because there 
will be a person on the panel from the air controllers, you can 
check with the other side of that one.

                         NEXTGEN IMPLEMENTATION

    Mr. Berry. Okay. I would share to the Chairman's, from your 
answer to his last question, you know, Boon Pickins wrote in 
his last book that any fool with a plan will beat a genius 
without one. That seems to be, I know Boone Pickins may not be 
considered the master of aviation, but I think he makes a basic 
human behavior point, and it makes me nervous when we do not 
know how many of these places we are going to have. Seems to me 
that we have already built up and taken off and now we are 
going to try to figure out where we are going to go, I think 
that needs to be a little more clearly defined. I would 
certainly be more comfortable with it if it was.
    Mr. Babbitt. If I can expand on that, and I appreciate your 
comment on Mr. Pickins. I have an autographed book from him and 
he made one of the wisest decisions he ever made, which was to 
stay out of the airline business.
    Mr. Berry. I would agree with that.
    Mr. Babbitt. One of the things, and I think it is probably, 
let me give sort of a top view, sometimes I think we might not 
do ourselves service in providing clarity to you on some of the 
things that we are doing. We talk about redesigning airspace, 
that can be independent with or without ADS-B. We can have ADS-
B with or without a design of the airspace. We can have one 
center, 21 centers, eight centers, with ERAM however we 
construct it.
    So these are different issues, and we completely 
acknowledge that, if you think about where the centers are 
today, we put the centers where we literally had the big radar 
systems so that they could be close to them. Well, they do not 
need to be there today. Today we think about where are 
gridlines, where are natural faults in the earth's surface, and 
where are natural disasters going to be avoided? You do not 
want to put them in harm's way, you do not want to put a center 
right on a known earthquake fault. So we are going to give that 
some thought, but that is a further out issue and not one that 
needs to be decided here and now as to what ERAM is going to 
look like. That is an independent decision.
    Mr. Berry. I would like to volunteer my district for the 
location of that one center.
    Mr. Olver. He has got some big rice fields out there in 
which that would probably do well without any problem. I am not 
quite sure exactly where we are, but I think Mr. LaTourette is 
in the order going next direction.

                                  GBAS

    Mr. LaTourette. Well, thanks very much. I want to talk 
international if I could for just a minute. Everybody has a 
favorite airline, mine happens to be Continental because they 
employ thousands of people in Cleveland, Ohio. And, in your 
testimony you talk about aggressively moving forward with 
NextGen, it is the perception of some in the business that that 
is not quite measuring up and in particular one of their other 
hubs aside from beautiful Cleveland, Ohio, is in Guam.
    They have invested a lot of money, as I assume other 
airlines have in, you know, they are to be commended for buying 
Boeing products, which also employ Americans, and they are 
buying them at a certain cost with the satellite-based tracking 
system navigation aids already installed. The question that 
they have is that, so they spent all this dough and one of 
their hubs is in Guam and there is not, as they can see it, a 
plan at the moment for the installation of a GBAS system in 
Guam, and I just want to know what do you have to say about 
that and when do you think it is going to happen and if it is 
going to happen?
    Mr. Babbitt. Very good question. Actually, we have just 
spent some time recently on this question. GBAS, which is 
Ground Based Augmentation System, for finding the signal of the 
satellite navigation so you can use it in the approach 
environment, for us it is a research and development project, 
and I am going to let Vicki talk to you a little bit more about 
that. But Continental, by the way, is one of our best partners. 
This GBAS system is in its research and development phase in 
Newark, and we are very appreciative of the feedback we get 
from them. They utilize it. Actually some of their regional 
feed can utilize it to land on a runway otherwise not served by 
an approach, so it is a good system.
    However, to move it to Guam, we would have to buy the 
system. We have three of them, one of them is fully in test, 
the other two are in facilities where Memphis I believe is the 
other one, and we use it in Newark. The bottom line is, we 
asked Continental if they could, since they are the primary 
user of the airport, if they would perhaps help us with some 
finances. Their answer, and I do not want to put them on the 
spot, but they came back and said, ``look, the weather in Guam 
is usually pretty good but for typhoons and we do not land 
there when the typhoons are blowing, so we cannot cost justify 
any allocation of funds to it.''
    So we have sort of taken the conclusion that if they cannot 
cost justify it, if we cannot provide them increased 
operational capability by providing GBAS to them, that it would 
just be another R&D site for us. And we at this point in time 
have concluded that that does not serve the mission too well. 
Vicki has some information on what we are doing in that 
testing.
    Ms. Cox. So, as Randy said, it is still an R&D project. We 
are making great progress though. We have certified GBAS for 
Category 1, which is our lowest category of systems, but we are 
continuing the R&D to get the Category 2 and 3 capability, 
which I know Continental and others are very interested in, and 
we are very hopeful that we will have data to support those 
decisions and actually be able to get that certification in the 
near future and, at that point in time, make a decision about 
further acquisitions of a fully certified Cat 2 or 3 system, at 
which time airports in the Continental U.S. and also in other 
locations like Guam would be considered. I can point out that 
there is an additional complication with the location of Guam 
because of its nearness to the equator and potential 
ionospheric disturbance that would also need to be 
investigated.
    Mr. LaTourette. If the FAA makes a decision to move forward 
to the Category 2 and 3 level, what is a reasonable timeframe 
for a commissioning of the first system?
    Ms. Cox. We have a decision point in our architecture to 
make a decision about potential future ILS type approaches that 
is in the, I believe it is the 2015 timeframe, that we would 
make that decision. But I can get back to you with that exact 
date, I may not be accurate.
    [The information follows:]

Timeframe for GBAS Category II and II Approaches--Status Updated April 
                                5, 2010

    Ground Based Augmentation Systems or GBAS CAT II/III approaches 
will be available beginning in FY2014-2015 and will continue with 
installations at OEP and CAT III airports with an expected completion 
date of FY2012-2022.

                        FOREIGN REPAIR STATIONS

    Mr. LaTourette. Okay, I would appreciate that. And, Mr. 
Krakowski, when you were here last year we had a little 
discussion about repair stations international and domestic, 
and there was some controversy going on between the European 
Union and the treatment of that. Any update on where we are 
with the repair stations?
    Mr. Krakowski. I think I'll throw that over to Mr. Hickey 
actually.
    Mr. LaTourette. Oh good, all right, well, you have 
outsourced it since I saw you last.
    Mr. Hickey. Good morning, sir. We are closely monitoring 
what is going on in the House and the Senate. The House's 
reauthorization bill calls for a mandatory two inspections per 
year. As is well known, the problem and challenge with that is 
it somewhat is contrary to the spirit of a bilateral aviation 
safety agreement we have with the Europeans which would provide 
for reciprocal acceptance of our inspections, meaning repair 
stations in Europe that hold FAA certificates. The Europeans 
would do the inspections on our behalf, and for the repair 
stations in the U.S. that hold European certificates, we would 
do those inspections. The Senate reauthorization bill, which 
has passed committee I believe but has not gone to the floor, 
does provide a provision that would seemingly allow for 
agreements like that.
    But at this point in time, we do not know which way it is 
going to go. I will say that there are many in the U.S. 
industry, and the Europeans in particular have said that if 
that goes through that they will set up a third party 
organization in the United States and conduct two inspections 
also on the U.S. repair stations. And the challenge, of course, 
with that is the Europeans charge fees for their work, and 
there are approximately three times the amount of repair 
stations in the U.S. than we have in Europe, and as such it 
would be a lot of cost to U.S. repair stations, and several of 
the aviation groups I think have provided various committees 
with that cost.
    Mr. LaTourette. Got you. Thanks so much.

                    AIRSPACE REDESIGN/CONSOLIDATIONS

    Mr. Olver. The answer to your question there sort of gets 
you to why this is so complicated in the U.S., even that one. 
For those who may not be aware, we have about 50 percent of all 
the air traffic in the world these days, and so the Europeans 
with their smaller places that can put in place these things in 
a much more orderly manner, it seems to me, with the total 
amount of traffic that they have.
    And this one where we have three times as many repair 
stations as they have leads us into a conflict essentially, 
which we are trying to for safety reasons think about very 
carefully, and then you get into the conflict of your mutual 
agreements, your bilateral agreements and so on. Anyway, that 
is a view that may not hold up on further scrutiny, but I say 
it in any case. I want to go back to where I was earlier. Did 
we do the airspace redesigns where the big TRACON Potomac and 
Boston and California Consolidations were done? Did we do those 
with a design first, whoever is in charge of that?
    Mr. Babbitt. Again I will let Hank answer that a little 
better, but the difference between consolidation, if we 
consolidated two approach controls, we are talking about taking 
the screen that the controller would be looking at and moving 
it to another building, the airspace that he controls is 
unchanged. So there is a difference between redesigning the 
airspace and realigning.
    Mr. Olver. Does not the redesign of airspace also have 
something to do with whether or not you are going to make your 
approaches in steps, which have environment and noise 
implications, as opposed to being able to make those in an 
incremental way?
    Mr. Babbitt. Yes, sir.
    Mr. Olver. Which allows you to be on a glide path 
essentially. But does not the redesign of the airspace involve 
that as well or is that a different, totally different kind of 
a thing?
    Mr. Babbitt. Yes, that is what I am trying to make the 
distinction. There is a difference between the redesign of the 
airspace, we can leave the TRACON right where it is and 
redesign the airspace. We could combine two TRACONS and never 
touch the airspace. So I just wanted to make that distinction.
    Mr. Krakowski. That is exactly accurate. I think though, to 
get to your question, what we really want to do is do all of it 
simultaneously as a concept of operation. So that if we are 
going to make a move and we are going to actually put 
modernization into these facilities, which is one of the 
drivers for making these physical moves of facilities, we would 
like to take advantage of working the airspace at the same 
time. Now, the Task Force 5 recommendations that we have talked 
about are starting to drive us toward a road map of what are 
the priorities for industry and the airlines on where we should 
start this work and kind of on what credo.
    Mr. Olver. What I am trying to look for is some sort of a 
plan. I am not sure whether I am the fool or the genius here, I 
have to think about that from what my distinguished colleague 
has commented. But I am trying to get a sense whether we are 
doing air en route centers that are near term, midterm, or end 
term, long term, when the whole system is in place. Are we 
doing things that are going to have to be again readjusted 
farther along the way--and then whether we are going to have 
more or fewer en route centers.
    Looks as if from what Randy has said that you could have 
many fewer but maybe you will have only eight or ten for the 
whole country at some point, we do not yet know, apparently. 
But then on TRACONS, are we going to have more or fewer in the 
long term, or do you know that? Are we going to have more or 
fewer towers? It seems to me there is not much impact of where 
you want to have the last mile kinds of towers situations, but 
the last 50 miles of TRACON and so forth is quite different 
sort of a thing, we may have many fewer than we have now.
    Mr. Krakowski. Correct. The enabler is the technology.
    Mr. Olver. That is why this is all so complicated and why I 
am befuddled a little bit about how we are going to achieve 
this whole thing.
    Mr. Babbitt. Well, I think there are two issues. I think if 
Hank talks to more the facilities side and I think Vicki can 
talk about the longer term, the end.
    Mr. Olver. We may be better to try to do this in you 
providing me with a seminar at another time.
    Mr. Babbitt. We would be happy to do that, happy to do 
that.
    Mr. Olver. Okay. Mr. Latham, and since we sort of got 
confused and basically did, we are now starting on our third 
round truly, you will have up to ten minutes if you wish at 
this point.
    Mr. Latham. This will be exciting.
    Mr. Carter. You are glad you came back.

                  CONTROLLER PAY/CONTRACT EFFICIENCIES

    Mr. Latham. Yes, thank you. Okay, let me just say first I 
want to talk about the air controllers, and I think everyone 
understands the tremendous job that they do and how everyone 
wants to make sure we have the very best people there and to 
have them be happy in what they are doing and enjoy their work, 
and I think they are under incredible stress. And I think, one 
thing about Members of Congress, we fly probably every weekend 
so we see what happens and the kind of nightmare that they have 
to put up with as far as making the system work.
    And, you know, in the last few years there has been a lot 
said about controller pay. The figures that you provide show 
the top 100 controllers make about $229,000 a year, and it is 
certainly a lot of money and I think you can certainly make the 
case it is well earned. And in the contract I think they get a 
three and a half percent increase each of the next several 
years, and your figures show the 100 highest paid first line 
supervisors, which is the first level of management in the Air 
Traffic Organization, averaged about $220,000 a year this year. 
Is there anything--and I think everyone is concerned obviously 
with the budget concerns about cost, both salaries and 
otherwise within the organization--are there any efficiencies 
or anything that we can do to control, contain costs? I mean I 
understand we have a contract, but.
    Mr. Babbitt. I think, well, I will let the controllers 
defend some of those top ends. These are typically cases where 
very high volume of overtime was involved. And the average pay 
of a controller is considerably lower than that and I am sure 
they will be happy to share with you the details. One thing 
that you should appreciate in the new agreement that we have 
with them, there are a number of things that we hope will bring 
us some efficiencies and benefit. We have a number of 
situations where we are going to work through things 
collaboratively to gain some of these efficiencies.
    But also, the underlying agreement, the agreement before 
that reduced their pay bands by 30 percent. So some of the 
raises that people are talking about are simply a restoration, 
which is only about half of what they had. So yes, they are 
coming back, but it is a restoration of reductions, pretty, 
dramatic reductions in the past agreement. So those top 
salaries, the other thing with these pay bands being lower, 
those top pay bands and those senior controllers were, I think 
the term red circled, they were locked in at the top. As they 
retire, then we begin to get the advantage as we roll out, the 
future controllers will be on a more moderated rise. And, Hank, 
did you want to add any?
    Mr. Krakowski. I mean your costs naturally reduce. We do 
have a significantly older workforce with the air traffic 
controllers. The retirement issue has been a big driver for 
some of the strain we have had on the system. That is going to 
continue for the next probably eight years, where we are going 
to see a lot of people go off the top as they hit the 
retirement age. They do get replaced by lower earning 
controllers because they are earlier in their career, so there 
is going to be some savings in there. We are always looking for 
efficiencies wherever we can.
    Mr. Latham. Does the projections, do they include or take 
into consideration all the articles of the contracts and the 
new training, the NextGen involvement requirements, or is it 
just strictly pay? I mean because you could get in a situation 
where you are, maybe the equipment is not ready but you have 
got people there and you are going to have to pay them no 
matter whether they actually have a job or not. Do your 
projections include all that?
    Mr. Krakowski. Yes, the cost of the contract, the work 
rules, are baked into that as well, so relative to the budget.

                      CONTROLLER PLACEMENT ISSUES

    Mr. Latham. But that takes into consideration all the 
potential, okay. In your testimony, you talked about the fact 
that you have hired over 7,000 I think new air traffic 
controllers in the past few years, and not one of the 
controllers were placed in a facility based on their ability to 
perform as a controller, I think which is interesting, even if 
they are going to some of the most difficult places like 
Atlanta and Chicago and New York. Is it in the contract or why 
cannot you place people because of their merits, it does not 
matter where they are in the class or whatever, it is basically 
where they choose to go is where they go?
    Mr. Babbitt. Well, there are a couple of issues there. We 
have, first off I think we can talk a little bit after I sort 
of give you the overview about some programs we are doing to 
make some changes. But coming out of the period of that last 
agreement, we did suffer a high level of attrition, and we did 
not have the ability necessarily to incentivize experienced 
controllers to go into these complicated level 12 type towers.
    And we did, and not to anybody's particular benefit I would 
say, put newly hired controllers into those environments. It 
was not the wise thing for us to do. However, when you have a 
vacancy and no one else will fill it, we did not have too many 
choices, and so we exposed people. Today, under this new 
agreement, I think we have a much better ability to incentivize 
people to go into these. We have some other programs, and, 
Hank, you may want to expand a little bit?
    Mr. Krakowski. Yes, I think one thing that is important to 
know is, only about 10 percent of a controller's training 
occurs at the academy. The other 90 percent actually occurs 
with OJT at the facility itself.
    Mr. Latham. How long does that take?
    Mr. Krakowski. Two years typically for a tower local radar 
controller and terminal controller. About three years for the 
en route centers. And we have been hitting those numbers pretty 
well actually, even with the newer workforce. So we also, to 
the extent we can, would like to place our students where they 
want to live, and a lot of them would like to live locally. So 
if they are successful basically at the academy, we would like 
to put them in their hometown or wherever it is. So I think the 
new training programs that we are doing, some of the things 
Randy talked about, helps get us healthier in that whole 
environment.
    Mr. Latham. But you still cannot tell someone where they, 
they basically go where they choose to go rather than?
    Mr. Krakowski. We can tell them. We give them preference 
and we try to honor their preference.
    Mr. Latham. Okay. I mean is there any--I would hope not 
but--any real safety concern, I mean when you talk about the 
highest traffic places, whether you talk about Atlanta, New 
York, Chicago or whatever, that you are having these people?
    Mr. Krakowski. There has been no evidence of any particular 
differentiation of the new workforce having more operational 
errors than the older workforce at all. I will tell you, we 
have had some people, like a new hire off the street, hire in 
Chicago O'Hare Tower who certified in a year. He was like one 
of these naturals that, you know, really impressed everybody 
and he is extremely, extremely good. So, it is interesting, you 
do not necessarily always have to go through a standard 
apprenticeship. If someone can excel and really prove 
themselves in the system, we would like to accelerate them into 
the higher facilities.
    Mr. Babbitt. I think it is worth noting too that there is a 
natural protection that, sometimes they do not make it, and we 
do not turn them loose. I mean they are given a period of time 
and if they cannot----
    Mr. Latham. I hope it is not, you know, my family's flight 
or me on that plane when they just happen to not make it.
    Mr. Babbitt. No, but they would have a professional 
controller with them at all times, they are not making those 
decisions independently.
    Mr. Latham. Right.
    Mr. Babbitt. And if they are not making the progress, they 
simply do not get certified and therefore they never get put in 
that position. So it is unfortunate, we have an investment in 
them at that point in time and that is unfortunate for both of 
us, but it happens.
    Mr. Latham. I mean they do an incredible job.
    Mr. Babbitt. Yes they do.
    Mr. Latham. And it is amazing to me when you see the map 
and you see how many planes are in the air at one time in this 
country, and to think that they are being controlled, and they 
do an outstanding job. I think with that, Mr. Chairman, I will 
wait until my next round, I will not use my whole ten minutes, 
how is that?
    Mr. Olver. Okay. Mr. Berry.
    Mr. Berry. No questions.
    Mr. Olver. Mr. Carter.

                           ARRA JOB CREATION

    Mr. Carter. You stated that through the stimulus package 
you were able to create new jobs, I think that was one of the 
things you pointed out. What kind of jobs did you create? And 
especially in light of at the same time you pointed out you had 
decreasing air traffic, so can you tell me a little bit about 
the jobs that were created by the stimulus package?
    Mr. Babbitt. Sure. Within the stimulus package we were 
granted $1.1 billion, [Clerk's note--Later corrected to ``$1.3 
billion,''] which we have allocated every dime, those are out, 
those projects are more than 60 percent completed now. These 
jobs, I think more than 1,000 different projects at 360 
different airports around the nation, have been everything from 
increasing runway safety areas, aging facilities. Some of that 
money, some small amount of that money, was allocated 
internally to us for our own facilities, mold remediation, 
older buildings, and older equipment upgrades. So I think this 
money, particularly in the airport environment, has created a 
substantial amount of new jobs.
    We have an advantage that with our AIP process we have our 
jobs in queue, so they are literally shovel ready. They have 
already had environmental approvals, they have had airport plan 
approvals, they are very consistent, it is just a matter of 
when we get the money. What we were able to do is take some of 
our AIP projects and say, ``look these are eligible and meet 
the criteria of the Recovery Act,'' and we just instead of 
waiting for the AIP queue we pushed them over into the Recovery 
Act and were able to go very quickly, an advantage that we had 
the way we are structured within the FAA.
    Mr. Carter. Are those ongoing, long term jobs or are those 
like contract jobs that you do the work and then it is over? 
Just curious.
    Mr. Babbitt. Well, there are actually both. Some of them 
are very long term projects, meaning it might take a year or 
two to renovate a runway, to build a new tower, to build a new 
ramp. Others were very short term projects. We had some 
projects in Alaska where you might do something, put a contract 
out, the project was completed within six months. So there is a 
variation. We could certainly get you a report if you would 
like that would lay out those that have, how much time is left, 
where they were by facility and location.
    [The information follows:]

       Report on ARRA-Created Jobs--Status Updated April 5, 2010

    An estimated 6,000 jobs were created as of the quarterly reporting 
cycle that opened in January 2010. The next reports are due April 10, 
2010.

                           AGENCY BUDGET CUTS

    Mr. Carter. Well, you are very fortunate to have shovel 
ready jobs that were really shovel ready jobs, because we have 
had things that almost were that we are still waiting on some 
of this. If you were required to do a 1 percent budget cut, 
where would you do it?
    Mr. Babbitt. Well, that would be a very difficult question. 
I would certainly want to look over what my options were, but I 
would say we have had a number of initiatives where we have 
actually been finding savings. We have, through wise 
consolidations and reviews, been streamlining internally where 
we can. I am very pleased that we have several initiatives 
where we work across lines of business now. I am trying to 
break some of these stove pipes down and maximize the 
efficiency that we have internally.
    I.T. presents a wonderful challenge and an opportunity, 
because we have found areas where over time we have wound up 
with redundant equipment, we can eliminate some of it, we can 
eliminate the maintenance of it and the acquisition of it. So, 
you know, I would not look forward to that opportunity to find 
1 percent, but I am sure that we could find ways to not 
compromise our safety nor our workforce, but it would be a 
challenge, that is for sure.
    Mr. Carter. Thank you, Mr. Chairman.
    Mr. Olver. Mr. LaTourette.

                          BILATERAL AGREEMENTS

    Mr. LaTourette. Thank you very much. Aside from the tension 
that may be created by the House bill on repair stations, are 
there any other hotspots in our bilateral agreements? I 
traveled with the Aviation Subcommittee last year and there was 
some difficulty with code share arrangements down in Panama, 
and I can remember a number of years ago there was a problem 
with our ability to get into Heathrow and get slots at business 
friendly time--I mean you could go there and get there in the 
middle of the afternoon if you wanted to but you could not get 
there in the morning. And any big sticking points in the 
bilaterals that you are seeing?
    Mr. Babbitt. Well, the types of things that affect us would 
not fall under some of the things you described, those would be 
either State Department or Department of Transportation issues, 
how you arrange those code share agreements. We actually have a 
fairly robust arrangement with bilaterals for aviation safety 
coordination, and we have memorandums of understanding with a 
number of countries, countries that we operate in, we inspect, 
and, John, you may want to expand a little bit on some of our 
international arrangements with our safety partners?
    Mr. Hickey. Yes, sir. I would actually, say quite contrary, 
the nature of the bilateral agreements is actually quite a 
tremendous benefit for us. The previous question was regarding 
efficiencies that the Administrator mentioned, this provides 
tremendous efficiencies for the FAA when we have a bilateral 
agreement with, for example, Canada or individual countries in 
Europe or Asia, because we have assessed those countries in 
their capabilities to be the FAA, and we have found many of 
them to be quite adequate.
    In the case of the European agreement, I might add it has 
been signed but it has not been implemented because of the 
waiting to see what happens on the reauthorization. There are 
tremendous benefits to the United States if that agreement goes 
through. A lot of the U.S. companies today, whether it is 
Boeing or engine companies or many of the smaller companies in 
Wichita, are currently paying significant fees by the 
Europeans, and an agreement would help sort of bring those down 
to a more reasonable level.

                                 SAFETY

    Mr. LaTourette. Right. Well, while we are on safety, coming 
back to the United States, I saw some place that 50 percent of 
the U.S. departures and about a quarter of the traveling public 
in the United States are coming from these low-cost, short-haul 
airlines, and so just since, Mr. Hickey, you appear to be the 
safety guy, something about what if any emphasis you are 
putting on that. And then two, something that was in the news a 
little while ago was laptops in the cockpit, and maybe if you 
could chat with us about that as well?
    Mr. Babbitt. Sure. Well, you are absolutely right, the 
dropoff in traffic has inspired carriers to sort of shift where 
their carriers operate and where their service goes, and they 
have, in fact, allocated a larger share of where they pick up 
traffic in smaller communities and bringing them into the hubs, 
they use their bigger machines to fly longer range 
intercontinental. We have, as a result of a tragedy, in the 
Colgan accident, had a Call to Action and put a lot of focus on 
a number of reforms, including several changes, regulatory 
requirements, peak management which is now undergoing executive 
review, our flight time and duty rule, that is in executive 
review today.
    We have had a Call to Action, we had visits to twelve 
different parts of the country, the Secretary and I both 
participated in those. I think we have had a lot of very 
positive things come out, a renewed focus on professionalism. 
It is disappointing when shifting to the distraction in the 
cockpit where people did have a couple of laptops out, not 
doing business issues with them but distracted, that was 
certainly a disappointment to me. It lead to the revocation of 
some pilot certificates.
    So we have a number of initiatives that are out there. I 
think we have gotten a lot of people's attention, I think every 
one of our carriers now we ask them all to adopt and they have 
responded for the most part. Ninety-nine percent of the people 
traveling today are going to travel on a carrier that has an 
aviation safety action program, a focal program. These are all 
great data points, safety points generated for us. So we are 
making progress.
    Mr. LaTourette. I think the one example where the guys, you 
know, kept flying, I understand that their licenses were 
suspended, but is there a rule that you have put in place as a 
result of that in terms of laptops in the cockpit?
    Mr. Babbitt. Well, most of the carriers have policy rules 
that you do not allow newspapers. I mean any of these things 
would be a distraction. Laptops, actually some of them, 
electronic flight bags, are authorized but they are for the 
purpose of work. We carry electronic flight bags for aircraft 
manuals, there are a lot of things. Some of the carriers rely 
on a paperless cockpit. John, did you?
    Mr. LaTourette. Right.
    Mr. Hickey. Yes, I would like to add to the Administrator's 
comments. You know, a broad brush prohibition against all that 
equipment is probably ill advised. There are many pieces of 
equipment that are used that have very important functions for 
flight. What we did do shortly after the Minneapolis incident 
is we put out what we call a SAFO, it is a Safety Alert For 
Operations, and we again reminded pilots that the only 
equipment and the only material that should be in a cockpit 
should be flight related equipment. And so we want to remind 
them that this other kinds of stuff that were in the news is 
not appropriate for the cockpit.
    Mr. LaTourette. Thank you so much.

          COLLECTIVE BARGAINING UNIT EMPLOYEE STAFFING NUMBERS

    Mr. Olver. Very briefly, how many employees do you have who 
come under collective bargaining agreements at the FAA?
    Mr. Babbitt. We have a total of about, round numbers, 
48,000 total employees of which close to 30,000 are covered by 
29 different collective bargaining agreements. 30,000 employees 
are covered, round numbers, 15,000 are not.
    Mr. Olver. And what is the rough number for the traffic 
controllers?
    Mr. Babbitt. About 15,000 air traffic controllers. So they 
are about half.
    Mr. Olver. I had heard 20,000 somewhere. I had heard 20,000 
somewhere, that is good. What is the next largest one?
    Mr. Babbitt. Well, we have other units. We have obviously 
our inspector corps.
    Mr. Olver. And how large is that?
    Mr. Babbitt. 6,000.
    Mr. Olver. Roughly 6,000. What is the next largest?
    Mr. Babbitt. There would be airway specialists, where 
people who take care of the equipment, the radars, the ILS 
equipment.
    Mr. Olver. And how many are there there?
    Mr. Babbitt. 4,000.
    Mr. Olver. 4,000?
    Mr. Babbitt. About 4,000.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Olver. All right, maybe you could get that 48,000, give 
me a clear listing. I have got it down as 15, 6, and 4 at least 
for three and then I do not want to go on farther. I want to 
take on a different matter. A new acronym--we have had I do not 
know how many acronyms, I asked Kate whether we had a catalogue 
of them and she said yes there is a manual of acronyms. The 
idea that there is a manual of acronyms rather than just one 
page, you know, maybe it is just a long page, I do not know.

          TERMINAL AUTOMATION MODERNIZATION REPLACEMENT (TAMR)

    I want to take up the Terminal Automation Modernization 
Replacement Program, which is TAMR, T-A-M-R. Under that 
program, phase 1 includes the replacement of radar processing 
equipment displays at 47 of our terminal radar control 
facilities with STARS equipment, with the TRACONs with STARS 
equipment. Phase 2 of that TAMR program replace systems at five 
additional tracons and modernize four large ones, Denver, 
Chicago, St. Louis, and Minneapolis.
    Now, it is my understanding that the current STARS system 
can serve as a platform to implement the RTCA, Radio Technical 
Commission for Aeronautics, task force recommendations for 
NextGen. Phase 3 of TAMR is supposed to update the automation 
systems at 106 lower level facilities that currently operate 
using what is called the Common Arts Platform. What is the 
FAA's plan to upgrade the automation systems at the 106 TRACON 
facilities so that they are compatible with ADS-B and NextGen 
technologies?
    Mr. Babbitt. I am going to let Hank answer this one.
    Mr. Krakowski. Right. It is a fairly complicated 
proposition that is under discussion right now. I would like to 
offer a more detailed briefing when you would like to have it. 
We are at a decision point, we are aiming to make a decision by 
the end of this fiscal year to figure out whether we are going 
to replace these hundred plus areas with a one for one with 
TAMR or whether we are going to converge them toward the ERAM 
platforms at our centers as kind of the backbone of this thing. 
So without getting through a lot of technical detail on it, 
that discussion is ongoing right now. I would like to give you 
a status update and I know some of your staff is interested in 
this as well.
    Mr. Olver. So you are thinking of kind of overrunning the 
TAMR or terminating the TAMR, is what that sounds like, and 
going on to ERAM, that is what it sounds like. My understanding 
is that you put out a request for information to replace all of 
the FAA's terminal automation system including all the STARS 
systems, which are relatively new, those were done in phase 1 
and phase 2, during the timeframe that I have been either the 
Ranking Member or the Chairman of this Subcommittee.
    That is quite a big investment that has gone into phase 1 
and phase 2, and the RTCA recommendations, it seems to me, say 
that those are adequate certainly in at least the near and 
midterm operations. So does it make sense to be thinking about 
replacing all of the old ones, which is what, maybe I am 
incorrect regarding the information that was sent out in the 
request for information to replace all of those facilities, or 
is that part of the next seminar?
    Mr. Krakowski. Well, I think it would be useful to have it 
there, and I also want to throw this over to Vicki here too 
because one of the things that we are trying to avoid is 
putting some technology in place and some expenditures in place 
now that would then be obviated by the newer technologies, the 
NextGen technologies going forward. So we are trying to figure 
out where that spot is, do we make big investments that have 
not as long a lifespan or do we actually try to converge it 
into the longer NextGen platforms.
    Ms. Cox. So, sir, if you would like for me to try to----
    Mr. Olver. This is another level, this is now part of this 
three-dimensional matrix.
    Ms. Cox. So there are three potential solutions that are 
being assessed in TAMR phase 3. Just one of them looks at the 
potential ERAM involvement as a common automation platform, 
which would address future NextGen needs. But STARS is being 
considered as also the potential automation platform for the 
terminal environment to assess if it will meet the future 
NextGen needs down the road. And the third option looks at how 
we can handle the current common ARTS, the two E ARTS, at some 
of the smallest facilities that we have and what is the best 
way forward with addressing ADS-B placement on those when 
future facilities may not require that at all.
    So part of what is being looked at is what is called a 
backroom way of addressing it, where the software is done in a 
central location but a display is produced at the actual 
facility, the smaller facility, so you have a common automation 
system working and feeding these smaller facilities, which is 
another potential solution. But all these are being assessed.
    Mr. Olver. Okay, Vicki, it is clear that I have stepped in 
the wrong place. I have now got myself into at least two 
seminars, okay? All right, otherwise I will get them 
interconnected and confused. So, Mr. Latham.
    Mr. Latham. After I exit ASAP.
    Mr. Olver. Mr. Berry.
    Mr. Berry. No questions.
    Mr. Olver. I do not know how we are going to schedule these 
things, but I have asked for it. So thank you very, very much 
for being here, thank you for all the work that you do. This 
is, I think everybody can understand, unless I have made it 
much more complicated than it need be, this is a very 
complicated process getting to the full implementation of 
NextGen, but I do want to see that we get this done within a 
ten-year period.
    Mr. Babbitt. Yes, sir. If I could offer a suggestion, one 
of the things that we have found, I am going to suggest----
    Mr. Olver. Six to ten-year period, excuse me.
    Mr. Babbitt. Well, I am going to suggest that perhaps we 
could arrange for a delegation from this Committee to go up to 
Atlantic City, and I think it would be time well spent if you 
would, and some of our research laboratories up there, you can 
see where we actually are deploying this, we have real live 
controllers, we have the ability to generate artificial traffic 
and put them in these environments, let you see these displays, 
let you see this architecture.
    Mr. Olver. What were the considerations that put that in 
Atlantic City?
    Mr. Babbitt. I think it was there when I got here, so.
    Mr. Olver. I would love to know what was behind that 
decision.
    Mr. Babbitt. Well, it has been there for decades.
    Mr. Olver. Okay, we will consider that.
    Mr. Babbitt. It has been there for decades, it is about a 
5,000-acre facility where we do everything from explosive 
testing, any number of high tech experiments.
    Mr. Latham. It was a gamble.
    Mr. Olver. I was just wondering whether gambling arrived 
there first or whether?
    Ms. Cox. Way after.
    Mr. Babbitt. Way after, way after. The alternative is 
Oklahoma City, we could take you there.
    Mr. Olver. Why did the gamblers end up going--oh, never 
mind. Okay, thank you very much for being here. The hearing is 
adjourned.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                          Thursday, March 18, 2010.

MAINTAINING A SAFE AND VIABLE AVIATION SYSTEM: PRIORITIES FROM AVIATION 
                              STAKEHOLDERS

                               WITNESSES

GINA MARIE LINDSEY, EXECUTIVE DIRECTOR, LOS ANGELES WORLD AIRPORTS
TRISH GILBERT, EXECUTIVE VICE PRESIDENT, NATIONAL AIR TRAFFIC 
    CONTROLLERS ASSOCIATION
PETE BUNCE, PRESIDENT AND CHIEF EXECUTIVE OFFICER, GENERAL AVIATION AND 
    MANUFACTURERS ASSOCIATION
JAMES C. MAY, PRESIDENT AND CHIEF EXECUTIVE OFFICER, AIR TRANSPORT 
    ASSOCIATION
MARGARET JENNY, PRESIDENT, RTCA

                    Chairman Olver's Opening Remarks

    Mr. Olver. The subcommittee will come to order. There are 
people who are going to be returning from the vote that was 
going on on the floor. Sometimes the elevators get clogged at 
that circumstance, but we are going to start.
    This morning we heard testimony from the administrator, 
Randy Babbitt, on the FAA's fiscal year 2011 budget request. So 
we are now going to hear outside feedback from five experts 
within the aviation industry. We have Gina Marie Lindsey, 
Executive Director of Los Angeles World Airports.
    Trish Gilbert is the Executive Vice President of the 
National Air Traffic Controllers Association, Peter Bunce is 
the President and Chief Executive Officer of the General 
Aviation Manufacturers Association. Jim May is President and 
Chief Executive Officer of the Air Transport Association. And 
Margaret Jenny is the President of RTCA, which it took me 
awhile to find out exactly what RTCA was.
    Thank you all for being with us today. I look forward to 
hearing your comments on the FAA's budget request, as well as 
the challenges facing our aviation system. As practitioners in 
the field, you have practical insight into FAA's programs. That 
is valuable to this committee as we perform oversight of the 
execution of FAA safety programs and the implementation of the 
NextGen aviation system.
    As we have a lot to talk about, I will be short and turn it 
over to my Ranking Member, Tom Latham, for any comments he 
would like to make.

                Ranking Member Latham's Opening Remarks

    Mr. Latham. Thank you, Mr. Chairman. And I too will be 
short, and welcome the panel. As I said this morning, I am 
extremely disappointed at the progress the FAA has made on the 
NextGen, considering the billions of dollars that have been 
poured into it so far. I am very interested in hearing the 
opinions of our witnesses today to determine how we get away 
from the past failures and create a new NextGen system that 
will deliver actual quantifiable benefits for the future 
without wasting taxpayer dollars.
    You each bring a unique perspective to the issue to our 
subcommittee, and I look forward to hearing your statements. 
And with that, I will yield back, Mr. Chairman.
    Mr. Olver. As a panel, all of your written statements will 
be printed in the record, and I would ask you, because we have 
five people and would like to get to questions, and it looks as 
if there may be an important set of caucuses going on at about 
4 o'clock, we are going to try to get through some questioning, 
and maybe even be done, by 4:00 or very shortly thereafter.
    So if you could keep your remarks to the five minutes, I am 
going to be fairly strict. That thing starts green, goes to 
yellow, and then to red, and you should be done within 15 or 20 
seconds after it goes red.
    Thank you. We will start with Gina Marie Lindsey.

                     Ms. Lindsey's Opening Remarks

    Ms. Lindsey. Thank you, Chairman Olver, Ranking Member 
Latham, and my own home congresswoman, Ms. Roybal-Allard, and 
the rest of the committee when they come in. I am delighted to 
be here. Thank you for the invitation, and I appreciate it very 
much. I am the Executive Director of Los Angeles World 
Airports, which is a collection of airports, one of which is 
LAX.
    On a flight back to L.A. last week, I read Tom Friedman's 
op-ed article, and he wrote about his recent visit to LAX. He 
wrote, ``Walking through its faded, cramped domestic terminal, 
I got the feeling of a place that once thought of itself as 
modern, but has had one too many facelifts, and simply cannot 
hide the wrinkles anymore. In some ways LAX is like us. We are 
the United States of deferred maintenance.'' Mr. Friedman went 
on to say, ``While others save, invest, and build, we have 
spent, borrowed, and patched.''
    Now as the CEO of LAX, those words struck right to my very 
core. LAX, I have learned in my two and a half years of being 
there, is an extraordinary example of deferred maintenance. 
What was once a cutting edge transportation icon is now reduced 
to an often repeated characterization of an airport with a set 
of drab, dingy terminals connected by a traffic jam. Whereas 
that might in some instances elicit a chuckle, it is all too 
sadly true.
    I am pleased to say under the leadership of our mayor, 
Antonio Villaraigosa, we have begun to set things in motion to 
rebuild and repair, but we are going to need your help. First, 
though, a note of gratitude for this committee's action, 
including AIP funds in the airport, or the American Recovery 
Act, ARRA--this enabled FAA to get out an extra $1 billion for 
airports. And I do need to throw a rose to FAA. They did an 
incredible job evaluating priorities, determining all of those 
jobs that were shovel-ready and actually getting the grants out 
the door.
    This and the alternative minimum tax holiday, which allowed 
LAX and other airports throughout the nation to save quite a 
bit of money on debt issuance and financing costs--these are 
all very important.
    However, in Mr. Friedman's United States of Deferred 
Maintenance, the needs cannot be fully addressed by a temporary 
holiday in the AMT and $1 billion of AIP grants that were split 
between 360 projects. The President's proposed budget for the 
FAA makes clear his understanding of the realities facing 
America's aviation system quite literally. Our national economy 
is dependent on the fundamental vitality of the airport 
facilities, and safe, efficient air traffic management.
    In particular, as Ranking Member Latham noted, the 
President's proposed budget does address the huge and complex 
near-term challenges of NextGen, but we do have to hold FAA's 
feet to the fire, that the progress made is commensurate with 
the appropriations that you are able to give. Our air traffic 
management system, once I would say the paragon of innovation 
and efficiency in the world, is slipping behind emerging 
countries who quickly embrace new technologies while we demur, 
debate, study, and restudy before we embrace and implement the 
NextGen equipment and processes.
    The budget also includes funding for FAA's airport safety 
and infrastructure programs. Currently, there are about 3,400 
airports and proposed airports that are eligible for AIP 
grants. Over the years, the formula for distributing these 
grants has morphed to favor smaller airports, leaving larger 
airports scrambling to fend for themselves.
    Just as an example, over the last five years, large hub 
airports, which by the way would be the top--the busiest 33 
airports in the nation--have handled 85 percent of all the air 
traffic, but received only 18\1/2\ percent of all of the AIP 
grants. During times of reliable annual increases in passengers 
and traffic, the scramble for infrastructure dollars, while 
difficult, was nonetheless achievable. But in an era of no to 
slow growth, scrambling just does not yield what it used to.
    While part of our nation's economic strength is rooted in a 
broad set of aviation capabilities in the air and on the 
ground--and AIP, by the way, has been very critical to that--it 
is not clear to me that the current formulas and priorities for 
distributing AIP are well matched to the infrastructure, 
repair, and reinvestment needs of the future.
    Are we directing AIP monies to the most critical airport 
infrastructure needs, to the airports that are most pivotal in 
maintaining the integrity of future air commerce? We need your 
help in examining the merits, and yes, the demerits, of the 
current formula for distributing AIP dollars.
    Large airports are looking at a confluence of storms. On 
the one hand, taxes collected at their facilities are 
subsidizing AIP entitlement funding to small low-volume 
airports. On the other hand, if large airports then turn for 
solace to the PFCs, a discretionary, locally imposed user fee, 
they run directly into another costly federal reality. Although 
it is locally imposed, it has been federally limited to $4.50 
per passenger since the year 2000. And if imposed, it requires 
the airport to relinquish 75 percent of its AIP entitlement 
funding.
    While FAA reauthorization is not in the direct purview of 
this subcommittee, on behalf of the 59 million passengers that 
will use LAX this year, I hope the bill can come to the floor 
quickly. I cannot overstate the importance of this action at 
LAX, an airport with over 30 years of deferred maintenance and 
obsolete facilities. Every $1 increase in the PFC translates 
into $300 million of additional capital capacity, which yields 
2,400 new jobs, new, good, high-paying construction jobs.
    As large airports look to the days immediately ahead, your 
help will be critical on three fronts. The first is to secure 
and fully fund the airport improvement program. The second is 
please do not let the AMT holiday that you approved in the ARRA 
expire in December of this year. Thirdly, please add your voice 
to the bully pulpit on behalf of an increased PFC. This 
increase will be every bit as important for large airports as 
AIP is for small airports.
    Now I do know that these requests--sir. Airports need to do 
what so many Americans are learning to do, and that is do more 
with less. I am confident we can do that with your help in 
being able to have the maximum tools and leveraging our revenue 
stream. Thank you.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Olver. Thank you. Ms. Gilbert

                     Ms. Gilbert's Opening Remarks

    Ms. Gilbert. Thank you, Chairman Olver, Ranking Member 
Latham, and Congresswoman, for allowing me to be here today and 
testify. I really do appreciate this opportunity. The FAA 
budget is of great interest to the National Air Traffic 
Controllers Association, whose 16,000 members make up the 
majority of the FAA workforce. These hardworking men and women 
are dedicated to safety, efficiency, and professionalism.
    In October of 2009, a new contract went into effect between 
NATCA and the FAA. One of the major benefits of the new 
contract is the enhanced collaboration it provides. It 
establishes collaborative workgroups composed of 
representatives from the FAA and NATCA to address critical 
issues like NextGen, runway incursion prevention, professional 
standards, operational air reduction, and fatigue.
    The budgetary submission focuses on the expense of the 
contract by highlighting the funds that were set aside to cover 
the personnel costs of the arbitration agreement. But in order 
to truly understand the cost of that contract, you must also 
understand its value. In addition to the road map to 
collaboration, the new contract represents the restoration of 
fairness, after what neutral arbitrators referred to as 
economic take-backs in the name of fiscal prudence that 
constituted unprecedented draconian reductions in compensation 
bordering on the unconscionable. These take-backs and the 
animosity that accompanied them drove many experienced 
controllers out of the FAA workforce.
    The years under the imposed pay and working conditions saw 
unprecedented retirements and resignations among air traffic 
controllers. Now attrition has returned to normal rates, giving 
us the opportunity to train those that were hired to make up 
for the losses we incurred. The contract has stabilized the 
workforce, stability that is very much necessary to safely and 
effectively implement NextGen.
    NextGen, as you know, is composed of major modernization 
projects for FY 2011 and beyond. NATCA is supported of the 
modernization of the national air space system, although we are 
still concerned by the undefined nature of NextGen's components 
and goals. NextGen should be understood not as a single 
initiative, but as many interconnected projects, each demanding 
separate scrutiny.
    The success of each of these projects will be dependent on 
the FAA's willingness to work meaningfully with NATCA and other 
stakeholders before decisions are made, not after. The entire 
FAA team, including the frontline controller workforce, must be 
on board with a sense of ownership in the projects and a 
complete understanding of its directions and goals.
    Meaningful collaboration from the inception stages through 
implementation is essential to delivering superior products on 
time and on budget. As the primary users of the air traffic 
control system, NATCA's members are uniquely positioned to 
recognize the needs and shortcomings of the current system, 
suggest solutions, identify potential glitches during the 
development stages, and recognize the human factors 
implications of the changes.
    NATCA has a long history of supporting modernization. We 
worked with Administrator Garvey as a part of the team that 
developed and implemented some of the most successful 
technological innovations in air traffic control. NATCA 
sincerely believes that we can all benefit from that level of 
collaboration again with Administrator Babbitt.
    Just last week, the FAA named a NATCA national rep to join 
the team on NextGen initiatives. An example, ERAM, which is En 
Route Automatization Modernization, is a major initiative that 
would have been benefitted significantly had NATCA been 
involved on the forefront. It is still contending with several 
critical flaws and a high number of work-arounds, which might 
otherwise have been avoidable with earlier collaboration.
    We are pleased that Administrator Babbitt has reached out 
to NATCA on this issue and look forward to working with the FAA 
and the contractors so that when we deploy the system, it is 
safe, ready, and reliable.
    Unifying the terminal automation platform is another 
technological priority for NATCA. Right now, terminal 
facilities use different platforms, each with its own 
capability and displays. That makes training, maintenance, 
modernization more difficult, complicated, and expensive. We 
would support upgrading and standardizing the current platforms 
rather than developing an entirely new system, as we believe 
that this would be a more cost effective way to address the 
issue.
    Lastly, the FAA submission adjusted staffing goals 
downward, in large part because of the recent downturn in air 
traffic. We are concerned that this adjustment may be 
shortsighted. We can take up to three years for a newly hired 
air traffic controller to complete his training and become 
fully certified. As such, it is impossible to quickly increase 
the size of the workforce when the economy improves and 
aviation resurges.
    Instead, we must prepare for personnel needs of the 
national air space system the same way that we prepare for 
technology increases, by building for capacity and safety for 
the future. It is also critically important that the FAA 
maintains even flow hiring in order to avoid another wave of 
retirements.
    We all share a desire for the national air space system to 
remain safe and the most effective and efficient system in the 
world. And I would like to thank the subcommittee again for 
giving us the means to do that. I look forward to 2011, and 
hope it is full of innovation and collaboration. Thanks again 
very much.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Olver. Thank you. Mr. Bunce.

                      Mr. Bunce's Opening Remarks

    Mr. Bunce. Chairman Olver, Ranking Member Latham, thank you 
very much for letting me testify in front of you today. We look 
at this fiscal year 2011 budget very positively from a 
manufacturer's perspective. The first thing it does for 
modernization, about a 30 percent increase for allowing NextGen 
and move forward, we are extremely supportive of that.
    We are hoping, though, that we are able to work with you, 
with the administration, in an industry-government partnership 
to be able to figure out ways to accelerate NextGen because we 
all know if we delay--that has been already mentioned--other 
countries are going to move far forward and far more rapidly 
than we will on being able to have a modernized system.
    There are ways to go and incentivize equipage, which is a 
key element of that, which will allow us to move forward. And 
there are some things that will cost money, and there are other 
things that will not. And I hope we can explore those. But I 
think it is important to note that we all have to change our 
paradigm somewhat and think about infrastructure not as just 
being on the ground.
    We are moving so much into the aircrafts so our great 
controllers will be able to do their jobs better. And we are 
all supportive of modernization, but we have to think of 
infrastructure as not only being on the ground, but also being 
in the air. And once we can break that paradigm, I think we can 
really move forward on creative ways that we can be able to go 
and incentivize equipage and get what we need up in the 
aircraft to be able to accelerate NextGen, and keep pace with 
what is happening, both in Europe and in China.
    Another key element in this bill that we are very 
supportive of is the fact that because of the work that this 
committee has done over the last five years from the 
manufacturer's perspective, you have helped us emphasize the 
importance of having enough certification engineers employed by 
the FAA to allow us to get product out.
    We get in this long queue to be able to get our programs 
looked at by the FAA, and that directly translates to a lack of 
our ability to hire more people to get product out to market. 
You have helped us over the last five years. The administration 
listened. They are adding 41 certification engineers this year 
to help us do that, and we are extremely supportive.
    Lastly, the environment is very important to all of us. We 
are all looking at creative ways to be able to use NextGen to 
help us reduce emissions, and we have a tremendous track record 
in this industry of being able to produce aircraft that are 
able to fly more efficiently with engine and aircraft design. 
We need NextGen to make that move forward. We need help with 
fuels. We have got a lot of great initiatives going with 
synthetic fuels, with biofuels. But on the light end of general 
aviation, we have been stuck with the leaded fuel for quite a 
few years, and we know we have to transition. It is a very 
complex problem.
    The FAA has dedicated $2 million for tech center funding to 
be able to help us convert this industry, and it is very, very 
important to us. So we absolutely support this budget, and 
absolutely appreciate all of the help that we have received 
from this committee. Thank you.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Olver. Thank you very much. Mr. May.

                       Mr. May's Opening Remarks

    Mr. May. Thank you, Mr. Chairman. Let me get this organized 
here. I appreciate the opportunity to appear before you and Mr. 
Latham and the other members of the committee today, and bring 
you up to date on changes in the industry dynamics that we have 
experienced since the year 2000, which is the last time we 
testified before this subcommittee.
    I would like to start on a positive note, that the nation's 
passenger and all-cargo airlines run an incredibly complex 
global business, fueling local, national, and world economies. 
While not perfect, we are proud of our performances, as we 
maintain a safety record that is second to none, drive nearly 
11 million U.S. jobs and 1.2 trillion in economic activities 
annually, contribute about 5.2 percent of GDP, operate 26,000 
flights daily, carrying almost 2 million passengers daily, 
about 45,000 tons of cargo daily, offer domestic fares at 1998 
levels.
    We would prefer they not have to go back quite that far, 
but our fares today are equivalent to 1998 levels. That is 10 
years at least. We have an enviable environmental record, where 
we have increased fuel efficiency by 110 percent from 1978 to 
2008, reduced our greenhouse gas emissions significantly, while 
transporting 17 percent more passengers than we did in 1978.
    Now there is some unfortunate news. The global recession 
severely weakened demand for travel. This year--I say this 
year--2009 saw us derive $36 billion less in passenger revenue 
than we did in 2008. Our capacity, which will come as no 
surprise to all of you who are frequent fliers, and you all 
are, is way down, 1,300 planes in communities seeing reduced 
service.
    In 2000, the FAA forecast we are going to hit the 1 billion 
passenger mark, a great milestone, by 2009. Well, in 2010 that 
same FAA has forecast that we are going to reach that 1 billion 
passenger mark by 2023. I think that is a far more realistic 
measure. And at the same time, there is no reason to think that 
demand for air travel is going to grow exponentially.
    This past decade, we have lost about $60 billion. We have 
been unable to recover the cost of capital. Most of our 
carriers suffer poor credit rates. Taxes and fees account for 
20 percent of a typical round trip of domestic air fare. We are 
paying on an annualized basis a little over $16 billion as an 
industry to the federal government for taxes and fees.
    Volatile fuel prices have nearly quadrupled from what they 
were 10 years ago. The ATC system, which belongs in the 
Smithsonian if it belongs anywhere, costs this economy an 
estimated $40 billion a year in lost time and productivity. And 
our inability to stabilize and reach profitability harms 
employees and the entire economy. We have cut or lost 30 
percent of our workforce in the last 10 years, 163,000 jobs 
fewer than in 2001.
    So what can be done to turn the tide? Well, we certainly 
cannot control the weather or the losses that we sustained 
during the storm, which, by the way, that series of storms up 
and down the East Coast and across the South cost us between 
$150 and $200 million. But we can have and promote government 
policies that suggest that the government should do no harm and 
not inhibit economic progress.
    We need to stop talking about modernizing the ATC system 
and actually get it done. NextGen, whether it is ADS-B. RNAV/
RNP procedures, safety enhancing equipment, cockpit displays 
and other technologies can and will transform the system in a 
matter of years. This is not technology that needs to be 
developed. This is technology that exists today. We need to 
have the will as a government to make it a national priority.
    Last year, as I said, we paid $10.3 billion to fund FAA 
operations in the air traffic control system, a total of about 
16 billion across the board. We need third to control excessive 
speculation in energy markets. Fourth, we cannot impose 
unnecessary climate change costs--I think that is critical. It 
does not fall immediately within the purview, but we have got a 
very positive alternative for climate change that goes well 
beyond cap and trade. We need to eliminate barriers on 
international business opportunities by using tools that can 
make us stronger, like across border investments, ventures, 
mergers, and acquisitions.
    And finally, a strong U.S. airline industry drives jobs, 
commerce, and competitiveness. And although these challenges 
appear daunting, there are in fact solutions that will restore 
the industry to financial stability.
    We ask for and appreciate your leadership. We support the 
budget that you have in front of you, and we look forward to 
the opportunity to answer whatever questions you may have.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Olver. Thank you very much. Ms. Jenny.

                      Ms. Jenny's Opening Remarks

    Ms. Jenny. Last, but not least. Good afternoon, Chairman 
Olver and Ranking Member Mr. Latham. I want to thank you for 
inviting me here to be at this hearing. I think instead of 
trying to tell you what RTCA stands for, let me just tell you a 
little bit about what we do. We operate as a federal advisory 
committee for the Federal Aviation Administration, and provide 
a venue to bring industry together and forge consensus, 
recommendations back to the FAA on issues in aviation.
    You asked for my perspective on challenges facing the 
aviation community and FAA and how best to move forward on 
NextGen. In February of 2009, Hank Krakowski, the chief 
operating officer of the air traffic organization of the FAA, 
and Peggy Gilligan, the FAA associate administrator for safety, 
had the foresight to ask RTCA to establish a task force to 
answer that very question.
    Over 335 individuals from 141 organizations--all of the 
organizations here, by the way--came together and participated 
in the task force. And on September of last year, RTCA 
delivered a consensus-based set of recommendations to the FAA 
on the capabilities to develop between now and the year 2018. 
It is what the task force calls NowGen next.
    I am here to represent the collective voice of the 
individuals who came together on that task force. The essence 
of the recommendation is first to deliver benefits from the 
equipment in which the operators have already invested. Beyond 
that, if resources are provided to help operators equip for the 
next phase of NextGen, the FAA must also complete all of the 
related work, such as procedures and training, that will be 
required to deliver the full benefits of that equipage.
    Absent attention to those details, it is likely that the 
government could spend millions of dollars and not lead to a 
measurable improvement in the performance of the air 
transportation system.
    The task force, briefly, made recommendations in seven 
areas. The first was to improve surface traffic at airports, 
thereby enhancing safety and reducing delays. Second, to 
increase the runway throughput at airports. The third was to 
increase the capacity and efficiency of metroplex areas, where 
there are multiple airports interacting. The fourth was to 
introduce more things like area navigation or RNAV routes in 
the en route environment. The fifth was to enhance low-altitude 
non-radar air space for general aviation, and to deploy more 
GPS approaches to general aviation airports. The sixth was 
implement some near-term digital data communication 
applications, which would decrease the departure delays out of 
gates and increase the safety and efficiency of the airborne 
traffic. And finally, to enhance collaboration among the FAA 
and the operators' operating centers.
    Since September, the FAA has been working with industry 
through the RTCA to analyze the full extent of these 
recommendations and to understand how they are being integrated 
into their plans. The industry is encouraged by the 
transparency of this interaction, and is committed to 
continuing to work with the FAA until all of the 
recommendations have been addressed, and the resulting NextGen 
implementation plan becomes the sole plan that documents the 
FAA's commitments for NextGen.
    So what are the critical next steps for the FAA? First, the 
FAA should agree and needs to agree on an agency-wide set of 
priorities, and then work across their silos to implement 
NextGen. The industry for its part must speak with one voice 
when working with the FAA to establish the next set of 
priorities for NextGen.
    Both the FAA and the industry must assign clear 
responsibility, authority, and accountability for implementing 
the components of NextGen. Specifically, the FAA should commit 
to specific locations and dates in their plans. They should 
manage NextGen with a single plan that enjoys the support of 
all parts of the FAA. They should deliver capabilities that 
provide equipment that provide benefits--I think as you said 
earlier--to that equipment, using some existing capabilities 
first, like multilateration, RMP, RNAV. They should deploy 
comprehensive solutions where outcomes are tied to the delivery 
of benefits, not simply programmatic milestones. They should 
launch joint government-industry implementation teams for their 
specific capabilities, streamline their processes for things 
like getting operations approval for new equipage, again assign 
accountability. It will take top-down direction to usher in the 
necessary cultural changes to implement a successful NextGen.
    Finally, to incentivize equipage, either through 
operational means, or where that is not able to be done until 
there is a full equipage, then through financial means. This is 
a more complex undertaking that delivering individual 
infrastructure programs, and will require a new way of doing 
business.
    Since some have asked whether the FAA can afford to do both 
implement the task force recommendations as well as the vision 
for NextGen, I think the answer is that we cannot afford not to 
do them. This NowGen next is really a risk mitigation program 
for NextGen.
    Thank you for the opportunity to testify. I will be happy 
to take your questions.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Olver. Thank you very much. As others return--Ms. 
Roybal-Allard had to go to a specific thing that was occurring 
at 3 o'clock, and she should be back in probably 15 minutes or 
so. But others will return, I think. We will go through rounds 
of questioning here in the usual way, five minutes per person, 
and back and forth as appropriate.

                         TASK FORCE FIVE REPORT

    Ms. Jenny, you have already said that each of the 
organizations, each was present in your task force. Is this the 
task force that came up with the task force five report?
    Ms. Jenny. Yes.
    Mr. Olver. What is the five for?
    Ms. Jenny. It is the fifth time that RTCA has had a task 
force.
    Mr. Olver. Ah, number five task force.
    Ms. Jenny. And it is the fifth one.
    Mr. Olver. Now just as a question, would individual 
airlines have been also represented as well as Mr. May for the 
Transport Association?
    Ms. Jenny. Yes, yes. We had representation from ATA as well 
as a number of airlines.
    Mr. Olver. And did you also have several of the major 
airports represented there?
    Ms. Jenny. Well, actually, we had--Airports Council 
International was the main representation for the airports.
    Mr. Olver. Would there have been other employee members who 
are stakeholders, employees of the FAA or just traffic----
    Ms. Jenny. We had members of the FAA involved in the task 
force, yes. And NATCA was a major participant as well.
    Mr. Olver. Okay. And I do not know what to ask. How many of 
the manufacturers might be in there, as opposed to the trade 
association as well? You can have a lot of people.
    Ms. Jenny. And for the manufacturers also we had----
    Mr. Olver. Individuals and organizations----
    Ms. Jenny. Yes.
    Mr. Olver. I think you said 141 organizations, something 
like that.
    Ms. Jenny. It was a lot.
    Mr. Olver. Well, I would like to ask each of you, in 
looking at that, you have a report, which I take it is at least 
a consensus report, if not a unanimous report. There may be 
some people--you did not have minority views or anything like 
that.
    Ms. Jenny. That is right.
    Mr. Olver. You had a consensus report.
    Ms. Jenny. We had a full consensus, yes.
    Mr. Olver. I would like to ask--each of you must have a 
sense of what is the most important thing that has to be done 
here to achieve success, and what the largest barrier might be 
to achieve success. And I do not want you all to say that you 
need a plan, you know. I have heard you, Ms. Jenny. That is one 
of your keys here toward the end of your testimony, which was 
you have to have and work from a plan. But the plan is actually 
very complicated. I use the analogy that this was a 
multilayered sort of three-dimensional matrix of things that 
have to happen, and I am having a hard time figuring out which 
ones have to happen first.
    If there is something--if it is a sequential thing that 
there is something that has to happen first before you can take 
the next step, you can take a long time getting from the 
beginning to the end. So a lot of things--there are a lot of 
moving parts, many of which have to move together, it seems to 
me.
    So I do not want you to just all say a plan. So let me see. 
Let me leave it to each of you in turn, and I will turn it 
around. Since you had the last speech, I will let you start 
out, Gina, as to this. What is the most important--in your 
mind, what do you think is the most important to achieve the 
NextGen agenda, and what is your largest barrier. And I will 
put it that way.
    Ms. Lindsey. Because I am not a technological expert, I 
will tell you what I think the end result is that we need to 
see from the airport perspective. We need to see the better 
ability to track and understand exactly where the vehicles that 
are approaching our air field are, and where are the vehicles 
that are on our air field.
    We have a particular problem at LAX with runway incursions. 
You may have heard that airport referenced several times in the 
vernacular of runway incursions. Sometimes those are airplane 
to airplane. Sometimes those are ground vehicles to airplane.

                                NEXTGEN

    The biggest thing that we think NextGen is in the near term 
going to provide for us from an airport standpoint is much 
better situational awareness as to where all the vehicles that 
happen to want to access an airfield really are. How that can 
happen--having worked a little bit with NextGen, I know just 
enough to know that it is really fuzzy, and the confusion that 
you confessed, I share 100 percent.
    I would be asking FAA every year in the budget exactly 
what--if I am going to give you this amount of money for 
NextGen, what are you going to produce for me that is going to 
use that money, and how am I going to know from the committee's 
perspective that you, FAA, have actually done what you said you 
were going to do.
    Mr. Olver. Okay. I think I need to let each of you have one 
minute. There are two sides of a coin I have asked for. What do 
you think is the most critical thing that must be in order to 
achieve the results, and then what is the biggest barrier.
    Ms. Gilbert. Can I take my whole minute on the barrier 
part?
    Mr. Olver. I do not care.
    Ms. Gilbert. Okay. Thank you very much. In order to get to 
where we need to go with NextGen, or any technological issues 
we have currently in place and trying to deploy, the agency has 
created the stovepipe, which Margaret Jenny referred to, that 
does not allow them to make any decisions quickly, thoroughly 
vet things, involve stakeholders. They really have struggled 
with dealing with the fact that they have en route as one line 
of business, and they have terminal as another line of 
business, safety as another, AOV as another, and none of them 
cross over and talk to each other.
    So in order to resolve anything, you have to go all the way 
to the top and get resolution by the administrator. And 
Administrator Babbitt cannot do everything. So until he breaks 
down those stovepipes and starts working as one agency, it is 
going to be very difficult to address a lot of the issues 
within the FAA.
    Mr. Bunce. Mr. Chairman, I think that if you really look at 
it, if we figure a way to incentivize equipage--as Mr. May 
pointed out, this is not new technology. It is out there today. 
And if we can figure out a way--some of it costs money, some of 
it does not--to be able to incentivize people to equip, we will 
be able to reap the benefits of NextGen sooner. And this is a 
problem for all us, industry and government. How are we going 
to do it? Is it this infrastructure development bank? Is it 
thinking about real estate in the cockpit now as leasing some 
of it, like we lease land to put a radar up? Is there something 
we can do with loans, grants, however we do it.
    If there is a way to accelerate it, we will be able to 
start seeing the benefits, because if we wait for the mandatory 
equipage, time lines that are out there then in 2020 we are all 
going to be asking these same types of questions. So I think if 
we can figure out a way to incentivize, there are a lot of 
other things that we can do in the short term then to be able 
to make this usable, and our controllers will be able to do 
remarkable things at our airports, and our operators will be 
able to do tremendous things, if we can get this equipment 
deployed and get it up in the aircraft, because the 
infrastructure is already planned to be out in the ground to be 
able to use this new satellite based technology.
    Mr. Olver. I have to infer from your comment that 
incentivization is a very important thing, but that also the 
barrier has to be how to do the incentivization because you did 
not separate a barrier out, and that comes down to some money 
somewhere along the way. What are going to be those incentives?
    Mr. Bunce. Yes, sir, absolutely.
    Mr. Olver. Okay. Mr. May.
    Mr. May. Thank you, sir. I think the biggest need is to 
recognize that we have to establish as a country, starting at 
the highest levels of government, all the way down, that 
NextGen, NowGen, whatever term you want to use, is a national 
priority, much as Dwight David Eisenhower made imposing the 
interstate highway system a national priority back in the 
1950s. Put leadership in place to get it done.
    There is an old saying about lead or follow or get out of 
the way, and I think you need an understanding that we need 
leadership like that to be able to drive this process, which is 
terribly technical, terribly complicated. It is one of the 
toughest management jobs in the world. That is one of the 
biggest challenges. Put somebody in charge, hold them 
accountable, and make it a national priority, give it the 
funding that it needs to have.
    This Congress and this administration gave $10 billion to 
high-speed rail. High-speed rail will not be with us for 10 or 
15 or 20 years. Let's take some of that money and put it 
against a technology that is here today that will create jobs 
today that will make a major difference. We are spending $40 
billion a year as an economy putting up with delays caused by 
an aged air traffic control system. Let's make it a priority 
and do something about it, and provide the leadership to get it 
done.
    Mr. Olver. Okay. Ms. Jenny.
    Ms. Jenny. Yes, thank you. I think the biggest need is for 
us to actually deploy things that are going to have a 
measurable--lead to a measurable improvement, resolve some of 
the congestion and delays that we are seeing in the system 
right now, and to show that we can do that with existing 
capabilities. As Jim said, there is a lot out there. We need to 
show that we can actually deliver benefits. There is a history 
of making investments in new equipage and not getting the 
benefit, and that happens because all of the other things do 
not get done, the training, you know, changing the air space, 
doing the procedures. So I think we need to really tie this to 
delivering benefits and show that we can do that.
    The biggest barrier, I think, to moving on NextGen is the 
lack of trust and confidence that we can do it. And so you 
cannot get the teams. For NextGen to work requires operators, 
all the stakeholders and the FAA together to make investments, 
to synchronize those investments. So we really need to put--we 
need to prioritize. We need to pick where we are going to go 
next. If we decide we are going to go to New York and fix it, 
put all the things together that we need to do there, put the 
teams together with all the stakeholders, and get everybody to 
commit to not walking away from that, and actually show that we 
can do it.
    And I think from the perspective of those who will invest, 
they will be more likely to want to invest in the Next 
Generation of equipage.
    Mr. Olver. I have to say to you that I expected you were 
going to say ``confidence,'' essentially, was going to be the 
biggest barrier, that we really were going to be serious in 
order to do this. I am going to give my ranking member 10 
minutes, but I am going to take about 30 seconds to just say 
that when we had Secretary LaHood earlier this year, I had made 
a comment that I have been on this committee now for quite a 
period of time, and either the ranking member or chairman for--
this is my seventh year, I guess, at that level. And we have 
been talking about this for some time. And I said, I do not 
want to see this being done in 2020 or 2025 or something like 
that. This ought to be done within 6 to 10 years, and he agreed 
immediately, without hesitation. Whether it can be done in that 
6 to 10 years--because it is not very complicated. And with 
that, I will go on to--Mr. Latham, you have 10. I had a 
question that ended up taking more time.
    Mr. Latham. I enjoyed every minute of it. [Laughter.]
    I really did. Does what you just said come out of my time 
now? [Laughter.]
    Mr. Olver. Start it over again.

                                  ERAM

    Mr. Latham. I think we will be very flexible today. It is 
really interesting, in listening to your testimony here. I came 
up with some thoughts that were not in the normal questions 
here. But with the air traffic controller--I was just somewhat 
shocked and appalled. You said that during the ERAM, that you 
were not involved at all? I mean, this to me just is 
unbelievable, that a control system would not involve the 
controllers in the development of the plan.
    Ms. Gilbert. We were not. We just recently, January of this 
year, started to get involved in both NextGen and ERAM. So we 
jumped on that moving train because we need to. It is important 
that we deploy safe and reliable systems. So now we have our 
workforce, our first line workforce, working hand in hand with 
the agency. We are having a difficult time getting them to 
understand our concerns and address them, but we are working 
within the agency to try and get that to happen.
    We have critical issues at Salt Lake Center, which is the 
key site. We have seen them at Seattle. And then they also 
brought a Minneapolis center up as a key site, as an alternate 
because of the Olympics, but they have not taken it down, which 
also concerns us because the more facilities they have 
involved, the more of an impact as to the national air space 
system.
    Our position is that the FAA has abilities along with the 
contractor to test the system, either at the tech center in 
Atlantic City or via shadowing the host in the facilities, and 
they do not need to do it on live traffic, and they can work 
out the bugs that way, identify them, take it back to the 
contractor and fix them, and then deploy a system that works.
    As we get further east into the busy facilities, the 
concern increases with us exponentially. The failures we are 
seeing in slow facilities like Salt Lake and Seattle. So yes, 
we are starting to get involved, but just as----
    Mr. Latham. Would you like to raise your hand and say, 
maybe the controllers should be part of the control system?
    Ms. Gilbert. Absolutely, we did. We actually have been 
asking to be involved for a very long time. And in fact, we 
were involved in the RTCA because we joined them as a member of 
the RTCA and paid our fees like the other ones involved in the 
group because we were kind of shut out for quite a bit of time 
under the previous administration. So that is why we are 
starting to jump on these programs. We definitely wish we had 
been involved in the development and testing, and not just as 
they are deploying.
    Mr. Latham. Okay. That is absolutely incredible. To try to 
get, what, 300 stakeholders or whatever together, and you have 
a total unified--I mean, you normally cannot agree whether it 
is daylight or dark outside.
    Ms. Jenny. This is why we have only had five in the 60 or 
70 years we have been around. [Laughter.]
    Mr. Latham. Do you have confidence that they are going to--
I mean, the FAA said they are going to listen to you. They have 
pretty much ignored you in the past. Do you have that concern 
again?
    Ms. Jenny. That is a good question. So far, I think, as 
the--we have established, and they asked us to establish, a 
group afterward, another working group that really is 
constituted by all of the leaders of the task force. And we 
have been fairly closely with the FAA since September. I think 
the leader of that, Captain Dixon from Delta Airlines--the way 
he puts it is the glass is half full at this point. The jury is 
out. We are still having to stay very close and understand 
exactly how these are getting integrated into their plan. And I 
think until we see--you know, the FAA can take or leave some of 
these recommendations, and we are not saying they need to 
implement everything as said. But there needs to be 
transparency in how they are doing that. And what we are really 
going for is understanding specific dates and specific 
locations.
    The reason that is important is that when we ran the task 
force, we did not allow anybody to even put a candidate 
operational capability on the table to be a recommendation if 
it did not even have at least one operator who was committed to 
investing in it at a set of locations. And for the operators to 
close their business case on that investment, the pay-back 
period is very important. So if they do not get it implemented 
by a certain date, we lose that commitment.
    So we are in a kind of a back and forth now, trying to keep 
this to be a very constructive back and forth kind of dialogue. 
So I think we are still watching. We are going to stay in place 
until at least September working with the FAA, and then we will 
assess it at that point.

                         FIXING METROPLEX AREAS

    Mr. Latham. Okay. And you will let us know, if you would, 
please. In your testimony, you talked about fixing the 
metroplex areas like New York and Chicago, major areas, and 
they seem to be very hesitant to work in Chicago and New York, 
where the air space is very complex or most complex, and some 
of the delays are the worst. Should they try to succeed 
someplace else first, or what is your position?
    Ms. Jenny. That is probably the number one question, is 
where to start. So I think the trade-off----
    Mr. Latham. I would have thought the Chairman would have 
asked that then. I am sorry. Go ahead.
    Ms. Jenny. Oops. It is an important question. The trade-off 
is that you get the biggest bang for the buck if you go where 
the biggest problems are. But you also have the highest risk 
associated with that, some of which are out of the control of 
the FAA or the airlines or the airports.
    I think probably a prudent approach is to start somewhere 
and learn, or to start in several places. And what we are 
trying to do is put together TIGER teams and do several 
different implementations of the bundles of capabilities, and 
learn across what we learn from one and apply it to the other. 
So the task force delivered a number of cities as their 
recommendations. And what we are trying to do now is find a way 
to bring everybody together and decide jointly with the FAA 
where do we go next, and what is going to be the order.
    Mr. Latham. Mr. May, if you would like to respond.
    Mr. May. Yeah. This will come as no shock to Margaret 
because we have had some long discussions on this point. The 
New York metroplex counts for about 12 percent of operations in 
the national air space. It counts for 52 to 53 percent of all 
delays. You have to take it on. It is a tough nut to crack. It 
is rife with local politics because of the noise 
considerations, the environmental lawsuits over noise. You have 
got members of the business community that are desperate to 
have us improve the air space there. And at the same time, you 
have got a lot of politicians in that area that are worried 
about the environmental concerns.
    So there has to be a redesign of the air space. It has to 
involve our friends the controllers, who know more about that 
space than anyplace else. If you do not redesign the air space 
first, in our judgment, you are going to be layering new 
technology on faulty air space design.
    You have got Teterboro, you have got Newark, you have got 
LaGuardia, you have got JFK. I think there are a total of 19 
towered airports in the air space. So you have to take it on. 
It may take you longer. You may learn some lessons in 
Philadelphia, where you have got a test bed project on ADS-B 
underway that you can apply there. You may decide that you want 
to have a best-equip-for-serve policy you want to put into a 
test bed there.
    There are a lot of different issues. But you simply cannot 
ignore New York and say it is too tough. We will learn our 
lessons in some smaller market. If you are going to take on 
where the delays are, the same thing with RNAV/RNP. These are 
procedures that are critically important to Next Generation. If 
you put them in place at small airports around the country, 
that is terrific. That is wonderful. I am glad for it. But 
putting RNAV/RNP into Boise is not nearly as important as 
putting it into place in a lot of other major markets in this 
country, where it is badly needed to see the really measurable 
changes and improvements that you need.
    Mr. Latham. That is very interesting and enlightening. I 
wonder, was there a discussion about where to go and 
priorities? And you mentioned the high concentration, your 
busiest areas. If we were to have done this ten years ago, we 
probably would have--and a couple of place I fly through--St. 
Louis probably would have been pretty busy. Cincinnati would 
have been really busy. And we have seen with the consolidation 
with the airlines today that, I mean, you go to St. Louis 
today, and I love to fly through there because it is direct and 
it is good for me--and Cincinnati, which now with the 
consolidation of the Northwest, I cannot fly through there 
anymore. But their traffic is way down.
    You go to St. Louis, and you can shoot a gun down the 
terminal and--not that I would want to, Mr. Chairman. But, you 
know, you would not hit anybody because there is nobody there.
    So, I mean, was there any discussion about what just 
looking forward, that we are not putting all this money into 
places that maybe will not--you know, no one knows what the 
market is going to do. That is the problem.
    Ms. Jenny. The way that the priorities are put together, 
where we had a large number of airlines and, you know, the 
Airports Council International all involved, and it really was 
predicated on a number of airlines wanting and being willing to 
step up and invest.
    I think another one of the reasons that New York, aside 
from the fact that it is the biggest problem, and if you fix 
it, you fix a large percentage of the delays that ripple 
through the system, is that unlike some of the other larger 
airports where there are one or two key carriers that have 
maybe as a hub, and those change, when you look at some of the 
airports in New York, places like JFK, or the whole New York 
area, there is not one--at that airport, it is not, you know--
there are a whole lot of airlines there, a small percentage of 
each airline.
    So that again gives you another challenge to resolve. And I 
think it is another reason that in the task force report, there 
was definitely a focus on New York as a place that we have got 
to put some attention to.
    Mr. Latham. Thank you, Mr. Chairman. I see I am out of 
time.
    Mr. Olver. Your timing is fine.
    Ms. Roybal-Allard. I apologize for having to leave, but 
there are several things going on at the same time. I do want 
to welcome all of the panelists, especially Ms. Lindsey, from 
Los Angeles.

                                NEXTGEN

    Ms. Lindsey, Los Angeles International Airport is the 
world's busiest origin and destination airport. In total 
traffic, LAX is the sixth busiest airport in the world for 
passengers, and it ranks 13th in the world in air cargo tonnage 
handled. In 2008, the airlines of LAX served 59.8 million 
passengers and handled 1.8 million tons of freight and mail. 
LAX as an annual economic impact of $60 billion. One in 20 jobs 
in southern California is attributed to LAX operations.
    So clearly, an operation of this magnitude must have 
special needs to meet the demands of commerce and the flying 
public. My question is, how can this committee support your 
efforts? And if there is one issue that this committee could 
consider to give maximum funding opportunities to large 
airports, what would it be?
    Ms. Lindsey. Thank you, Congresswoman. We have spent a good 
deal of the time over the last half an hour talking about 
NextGen. And that is critically important for airports as well 
as for airlines and for the FAA. From our viewpoint on the 
ground, however, it is very important that we have the 
facilities in place so that the airlines and the FAA can take 
maximum advantage of the technology that will be implemented 
with NextGen. So it gets a little bit mundane in a way, but we 
actually have to have airfields and taxiways laid out in such a 
way that the NextGen technology can be used most efficiently.
    In order to have that, we need to have a reasonable funding 
structure. Now I am not here to say we need more general funds 
because there is a long line of folks that are there to do 
that. I am suggesting that there are a couple of things that 
Congress and this committee could do that will help us be able 
to leverage our own revenue stream.
    From the broad congressional standpoint, increasing or 
extending the holiday on the alternative minimum tax is hugely 
important to us. I will just give you an example. We are going 
to the market next year--next week--we better do it next week 
because the interest rates are good--with about $900 million of 
revenue bonds. We expect to save about 100 million because of 
this current AMT holiday. If we can have that extended for a 
couple of years, that will help airports greatly.
    When we get to the purview of this committee in specific, I 
mentioned the formulas for distribution the AIP grants. Because 
some airports are so behind in actually investing in 
infrastructure--and even though that may sound like it is a 
parochial issue for an individual airport, it affects the 
entire system if one very important airport, like LAX, which 
handles a great deal of traffic, is not capable of handling the 
NextGen possibilities.
    I believe FAA needs to be instructed to wait in determining 
how the grants are distributed, put a high value on 
infrastructure repair and reinvestment. Historically, the 
discretionary money has been given out with a very high value 
to capacity enhancement. I do not know that our future looks at 
a huge growth. We, I think, have the challenge of reinvesting 
in existing facilities, and AIP, if it were reconfigured so 
that that was highly valued in FAA's distribution formulas, 
that would be of great benefit.

                        AIR TRAFFIC CONTROLLERS

    Ms. Roybal-Allard. Okay. Thank you. Ms. Gilbert, we have 
been hearing for some time about the wave of retiring air 
traffic controllers. And in response, this committee has 
appropriated funding to help the FAA meet the challenge of 
recruiting, hiring, and training the replacement of 
controllers. As vice president of the National Air Traffic 
Controllers Association, in your view, are there adequate 
levels of air traffic controllers in our towers and radar 
facilities across the country, and is there more that the FAA, 
this Congress, and this committee should be doing?
    Ms. Gilbert. Is there enough right now? Our concern is not 
the sheer numbers. It is the amount of air traffic controllers 
that are fully certified to be air traffic controllers. We 
have--well, if you look at Administrator Babbitt's testimony 
and his numbers, he shows closer to 40 percent of our workforce 
has less than five years in the FAA.
    Our numbers are much lower than that, closer to about 30 
percent of our workforce less than five years in the FAA. Being 
that it takes three years to certify, about a quarter of our 
workforce are still in training. Those are our biggest concerns 
right now.
    However, we have other issues that are of more concern than 
that, and that is the placement of those they are bringing into 
the workforce. Never before they imposed the workers on us did 
they put people that came out of the academy straight into the 
high density facilities and expected them to be successful 
there. We have had great numbers of failures in those areas. 
There were no training programs set up to take somebody from 
the academy to full performance level, like at LAX or in 
Atlanta or at Dallas-Fort Worth.
    So that is a big issue as well. And secondly, or thirdly, 
the issue with the retirement bubble concerns us because we 
lost 11,000 controllers in 1981. And 20 to 25 years later, when 
we saw those eligible retire, and their pay was frozen, they 
left. We lost about 4,000 air traffic controllers who were 
controllers then. That is why you see the large number of 
trainees in the workforce now.
    In order to not see that 20 years from now, we need to 
continue an even-flow hiring to be able to deal with the 
growing traffic and to deal with the retirement bubble that we 
will forecast to see in 20 years.
    Ms. Roybal-Allard. Are you giving me more time?
    Mr. Olver. Do you----
    Ms. Roybal-Allard. No. If Mr. Latham has other questions--
--
    Mr. Olver. No. Ms. Lindsey had brought with her testimony, 
which of course people in the audience do not get a chance to 
see when one thinks about what Los Angeles' problems may be--
that is why when she talks about intersecting runways and 
taxiways and so forth to deal with traffic. But the other 
picture, I think, really is what lays out why it has to be so 
complicated there, because Los Angeles is exceedingly 
constrained in its space, and there is no place else that they 
can go. So they have got to figure out how to do it there, or 
else all the expansion has to go to Ontario and John Wayne and 
other places like that in the peripheral.
    You have only Ontario. Well, Ontario and one other one. 
What other one is it?
    Ms. Lindsey. Ontario is the only other commercial service 
airport that we have in our portfolio. We have Van Nuys, which 
is also one of the busiest general aviation airports in the 
U.S.
    Mr. Olver. But there are two other relievers of the 
equivalence close to Ontario, are there not? There is one in 
Orange County?
    Ms. Lindsey. There is Burbank and there is Orange County. 
And those are not actually----
    Mr. Olver. Just called John Wayne?
    Ms. Lindsey. John Wayne, correct, John Wayne, Orange 
County.
    Mr. Olver. Yeah, okay.
    Ms. Lindsey. Right. And then there is Long Beach, which is 
a little bit south. So there is complicated air space there.
    Mr. Olver. Some places it is complicated air space. We are 
all friends here, I think, for the moment maybe. Comments by 
you, Mr. May, on this, you are saying going to the air space 
redesign. Well, I thought we had done the air space redesign 
before we did Potomac Tracon.
    Mr. May. Not in New York.
    Mr. Olver. Not in New York.
    Mr. May. Let's put it this way----
    Mr. Olver. Obviously not in New York.
    Mr. May. It has been underway for 10----
    Mr. Olver. No, no. Was it not done in Boston and in----
    Mr. May. Yes, it has been done in other markets.
    Mr. Olver [continuing]. Potomac? Was it done in northern 
and southern California?
    Mr. May. I do not know the answer to that question.
    Mr. Olver. Before? You do not know.
    Ms. Lindsey. I do not know the answer to that. I have been 
there two and a half years. It has not been done in the last 
two and a half years. It might have been done five or ten years 
ago.
    Mr. Olver. Okay. But you are suggesting, in the case of New 
York, you have almost got to do that before you can do other 
things.
    Mr. May. Or at least simultaneously.
    Mr. Olver. Or at least simultaneously. We sort of passed 
over that with Mr. Babbitt earlier today. And it was not clear. 
This is why it gets so very complicated here.
    Mr. May. But the point is in working on major markets like 
LAX, I mean, it is critically important to go after NextGen in 
those large markets. And she has an absolute point to be made 
about the ground infrastructure that is of equal or great 
importance. But we have got to attack the big markets because 
that is where so much of the delays----
    Mr. Olver. Is the reason we have not gone after Chicago, 
which must be also a very complicated one, that the Chicago 
Airport is in such a major capital investment program on the 
ground at the present time, before----
    Mr. May. Well, you would have to ask the FAA why they have 
not gone after Chicago. But they just opened a new runway 
there, which has made a huge difference. Now they have to 
deconflict with Midway.
    Mr. Olver. Yeah. But they have got a whole bunch of other 
things to do. That was only the first phase of at least a 
three-phase----
    Mr. May. Right.

                                 ADS-B

    Mr. Olver [continuing]. Capital investment program. And 
then, Mr. Bunce, you had made a comment, which I made a note--a 
comment in your written testimony suggested to me that you 
thought we had to have ADS-B in a lot of places. At what level 
are we going to--how far down the list of airports are we going 
to have ADS-B? Or is it going to be ubiquitous? Everything that 
has scheduled service?
    Mr. Bunce. Sir, do not think of this equipment as needing 
to be on the airport. Think of equipment that is about the size 
of refrigerator deployed on many sites throughout the country 
that go and take a signal from the airplane that says, I know 
where I am because I am getting all of these satellite signals.
    Mr. Olver. But we speak of it being deployed at Louisville 
and Houston, and Philadelphia being next, I guess.
    Mr. Bunce. Yes, sir. So what that means is that--take 
Louisville. So UPS has put this equipment in their aircraft. 
They have these small ground stations on the ground, and they 
can now use this capability to be extremely efficient in 
getting in and out of the airport.
    Mr. Olver. Okay. We have deployed something at Salt Lake, 
the en route control center process. Let me ask you--it was a 
question I asked at the very end this morning, which was are we 
going to have--they were talking about 22 en route air control 
centers, air traffic control centers. When NextGen is 
completely deployed, are we still going to have 22 of those, or 
would we expect to have less? Anybody want to comment on that?
    Ms. Gilbert. I will take that one if that is okay. We have 
20 en route air traffic control centers. I worked 21 years at 
Houston Air Traffic Control Center. And with proper technology 
and equipment in place, you certainly can consolidate those 
facilities. I did hear a comment that you could go down to one. 
I would caution--
    Mr. Olver. I heard that one.
    Ms. Gilbert. Yes.
    Mr. Olver. It was suggested that technologically one could 
go to one.
    Ms. Gilbert. Technologically, if things are deployed 
properly, tested properly, and developed the way they should 
be, you could get--consolidate down to much fewer facilities 
than we have right now. We are not opposed to that.
    Mr. Olver. When NextGen is completely in place, in your 
view--maybe you, having been sort of the head of the task force 
with Tracon--that next level down, are there going to be 150 of 
those? Or what would you say?
    Ms. Jenny. Yeah. I think it is the same thing that Trish 
said about the en route facilities. So, you know, the en route 
is what controls the traffic when they are at, you know, cruise 
altitude, and then the Tracons take them in and out to get to 
and from the airports. So you will need those, that kind of 
capability for the individual airports.
    But in a NextGen environment, the air space could be 
designed differently, and so you would have larger terminal air 
space. And, you know, ultimately I think where we are headed 
is--where we are right now is that in the en route, the cruise 
part, where there is a lot of air space, is where we have all 
of our structure. And we are trying to move to having that be 
more flexible, and then having more structure in the terminal 
air space to----
    Mr. Olver. Okay. But right now, we cause a lot more noise, 
use a lot more fuel, use a lot more miles and approaches and so 
forth by the fact that we go at levels and then down a level 
and then down another level. And if one can go to incremental 
approach, which I think requires air space design----
    Ms. Jenny. Yeah. That is what----
    Mr. Olver. But it must also require all of this equipment 
in place.
    Ms. Jenny. No. We are able to do some of the optimal 
profiled descents now.
    Mr. Olver. This morning I asked for a seminar from them as 
to just what comes in what order and how would they fit 
together. And I am hearing that there are things that can be 
done at the same time at least. But you are suggesting that you 
do----
    Mr. May. There is no required sequence.
    Mr. Olver. Go ahead.
    Ms. Jenny. Right. But the essence of the task force is that 
right now, even before we get to things like automatic 
dependent surveillance broadcast and some of those 
technologies, we have technologies in place at some of the 
airports, the wide area--the multilateration, the ASDE-X, or 
the airport surface detection equipment. On top of that, you 
can put in decision support tools for the controllers and those 
in the ramp towers to help them have situational awareness of 
where everything is on the surface, and manage that traffic 
better.
    All of that is doable with what we have got today. Then you 
move to the Next Generation.
    Mr. Olver. Okay. Well, I am going to give my Ranking Member 
10 minutes again, and then we will have 10 minutes from Ms. 
Roybal-Allard, and probably we will be ready to quit, as you 
wish.

                             GROUND DELAYS

    Mr. Latham. Thank you, Mr. Chairman. It is an interesting 
discussion. When you talk about congestion--and I think you 
touched on it. There is a lot of concern on the ground, on the 
surface moving around. How much of the delays and the 
congestion problems we have, say in the corridor, are caused by 
what is going on on the ground? When you have Chicago, that has 
that additional runway apparently--I mean, I have flown through 
there several times since they have done that, and there is not 
nearly--I used to avoid it like the plague because you knew you 
were going to be an hour and a half late out of Chicago all the 
time.
    And now everything I have seen so far, they have been on 
time with--the whole system seems to have loosened up. How much 
of it should be on the ground? I mean, NextGen is great, but 
would it be cheaper, more economical? Would we solve the 
problem more readily if we focused more on the surface right 
now? Anybody?
    Mr. May. I do not think you can limit yourself to the 
surface versus the air space, Congressman. What we are trying 
to get to is a reliance on technology that allows us to work 
with the controllers and not be required to go from point to 
point to point to point in the air space, and fly more 
optimized and direct routings, to be more fuel efficient, to 
have continuous descent approaches, which are----
    Mr. Latham. Much more efficient.
    Mr. May [continuing]. Provide far less noise, and take 
advantage of all of these new technologies. And as Pete says, 
very accurately, some of this is going to be equipment on the 
ground, some of it is going to be equipment in the aircraft. A 
great part of it is going to be having the partnership with the 
controllers to have the kinds of procedures and policies in 
place that allow that technology to be better used. And I am 
not sure that I could say that delays are 51 percent as a 
result of air space and 29 percent of ground. But it is a 
combination of the entire map.
    Mr. Latham. Okay. Ms. Lindsey, I think looking at your map, 
and as pointed out, I think part of--it is even a safety issue 
because of the noise abatement that you have some airplanes 
crossing runways because they cannot turn or they cannot take 
off, and they have take over on top of the field again.
    Ms. Lindsey. Yes. You will see on that map there--and the 
way it is shown here, actually north is up. And on the north--
there are two complexes, the north complex and the south 
complex. Ah, thank you.
    Mr. Latham. The audience loves that.
    Ms. Lindsey. And the communities are very, very close. Part 
of what NextGen is going to provide for us is to be able to 
much more precisely allow the aircraft to approach, both of 
these airfields, so that we minimize the noise impact on the 
communities that are surrounding the airport.
    But also, as you correctly identified, these are runways 
that are very close together. In 1960, that was fine because 
the wing span of the aircraft that were being used was very 
small. Now we have--twice a day we have A380s coming in. These 
are airfields that are not designed for A380s. So the 
capability in the air and technologically to very precisely 
control those aircraft that are bigger than this airport was 
designed for is very, very important.
    Mr. Latham. Because of L six. Now there are----
    Ms. Lindsey. Six left, right.
    Mr. Latham. They left. They have to turn left coming off of 
that.
    Ms. Lindsey. Right.
    Mr. Latham. So they cannot go off because of the noise, 
right?
    Ms. Lindsey. This is actually the take-off runway. The 
inboard runway closest to the terminal--this is the terminal 
complex. And this is arriving runway. So the arriving 
aircraft--and some of the diversions that we have a problem 
with is that arriving aircraft wants to get over here to the 
terminals as quickly as possible. But if you have got an 
aircraft taking off on that inboard runway----
    Mr. Latham. They have to cross.
    Ms. Lindsey [continuing]. These guys have to wait.
    Mr. Latham. Right.
    Ms. Lindsey. So it is an issue that requires very precise 
vehicle management.
    Mr. Latham. And I think the technology is what some day 
hopefully will solve a lot of things----
    Ms. Lindsey. Yes, it will help a great deal.
    Mr. Latham [continuing]. On the ground and in the air.
    Ms. Lindsey. Yes, sir.
    Mr. Latham. How much is it going to cost? And what is it 
going to do to private aviation to have to have the kind of 
equipment onboard the airplanes as you build them? I think you 
are not going to have any small people out there if they have 
to----
    Mr. Bunce. It has to very scalable, and it also has to be 
commensurate with the type of air space you want to operate in. 
If you want to operate in that complex air space near L.A. or 
in New York, you are going to be needing more equipment.
    Mr. Latham. What is it going to cost?
    Mr. Bunce. It ranges. You can buy a piece of equipment for 
the light end of general aviation for this automated 
surveillance dependent broadcast--this is the first part of 
it--that just sends out that signal where you are--about $5,000 
for the lightest airplane. That can scale all the way up to 
hundreds of thousands of dollars if it goes in some of Jim's 
aircraft. So it just depends on how complex. Then there is also 
installation part of it that goes with it.
    Remember, this is just the very first phase. The next phase 
we have is data communications, where our controllers are going 
to be able to send signals to the cockpit over just like an 
Internet signal, like you would get on your iPhone, a text 
message type of thing.
    So there are all of these technologies that we have a 
capability to use. Each one of those is going to have a cost 
impact on the operators. And that is why we very much are 
working closely with the FAA to try to phase this right because 
every time we take an airplane down to have to go and install 
that, that is lost revenue for the operators themselves, in 
addition to them having to spend the money for the 
installation.
    So we are very concerned that we get this right. But if you 
look at those runways out there, and you think of those closely 
spaced runways, in a traditional approach, you think about a 
final approach, especially in the weather, that goes out 10 to 
20 miles. That is why at night you just see all of these 
airplanes lined up out there.
    These new approaches that we have on board will take you 
from altitude where you are not burning much fuel--you are able 
to pull the power back so you are not burning fuel coming down, 
and you are not putting the emission in the air, and also you 
are not making noise. What the chairman talked about when you 
do that stair step--every time you put the power up, you make 
noise.
    So now we can draw these curved type of approaches that go 
rightly. They put airplanes over houses that do not 
traditionally have them on these very long approaches. But they 
are not going to be making the same amount of noise. And with 
NextGen, we are going to have between 10 and 15 percent fuel 
savings--that is direct emission savings, so that is dollar 
savings. And because we have got the equipment up in the 
airplanes, that infrastructure in the airplanes, the FAA can 
start divesting from the long maintenance tail of all of these 
different things on the ground that are out there, en route 
fixes and what is called VORs, some of these complex instrument 
landing system approaches that cost a lot of money.
    So we can integrate these approaches that we already know 
how to build. If we can get capability to streamline 
environmental impact studies to be able to go and instead of 
overlaying this new type of approaches over existing ones, we 
actually draw these new approaches--if we can do that and 
figure out a way to streamline the environmental process so 
that we can use this capability, we can reduce emissions, save 
gas, save everybody money, and really get the system going.

                        AIR TRAFFIC CONTROLLERS

    Mr. Latham. Okay. Very good. I like one thing that you said 
again, Ms. Gilbert. And we talked about it a little bit this 
morning, which I was interested in their responses this 
morning. But you mentioned about where the new controllers 
coming out of their training, where they go--some of them are 
going into the busiest, most complex control systems. And you 
do not think that is what they should be doing. You are saying 
it causes many of them to fail where they would not because 
they are put into that type of environment.
    Now they said this morning that that is where they honor 
people's request. They do not want them to move. What do we 
need to do?
    Ms. Gilbert. I am a people person. I represent the 
workforce and their quality of work life. So I admire that. 
What is happening, though, is you are getting people that are 
not taking the job and turning it down two and three and four 
times until they get the place they want, which is a resource 
drain on the FAA. Second, you are getting people going to 
places that they did not test high enough to go to.
    When I went through 20 years ago to the Oklahoma City 
Academy, the higher test scores went into the higher density 
facilities. They have a much better chance of success testing 
higher, doing better. And then the lower test scores went into 
your lower level facilities. It might not be exactly where that 
person wants to go, but at some point, you have to decide what 
is best of the air space, what is best for the system. And I 
think they have gone away from that.
    I believe they are looking at readdressing that. We have 
actually advocated putting a joint work group together to look 
at placement out of the academy.
    Mr. Latham. And it is interesting because I thought it may 
be that at your request that that is the way they were doing--
honoring the wishes of the people. But you are saying that you 
are more concerned about the safety and getting the right 
people in the right places.
    Ms. Gilbert. Absolutely, because it affects the whole 
workforce. It affects the whole system. If somebody gets put 
into a facility that they just are not capable of being 
successful at, that is starting them out in a new profession as 
a negative. They fail, and now they have started their career 
in that kind of mode. It is not positive. It affects the rest 
of the work environment, those that train them. And in some 
cases, it can be unsafe.
    Mr. Latham. I do not want my controller to be unhappy that 
day. I just really do not. [Laughter.]
    Anyway, thank you, Mr. Chairman.
    Mr. Olver. Thank you. Ms. Roybal-Allard.
    Ms. Roybal-Allard. Thank you, Mr. Chairman. I have to say, 
as someone who flies in and out of LAX almost twice a week, I 
always get more information than what I wish I had. [Laughter.]
    Ms. Lindsey. I am sorry.
    Ms. Roybal-Allard. Mr. Latham just asked the follow-up 
question I had with regards to placement. So I want to ask Ms. 
Lindsey, you described the use of the airport improvement 
program as a more effective funding tool for smaller airports. 
Could you explain why it is not more attractive to airports 
such as the size of LAX? And do you have any specific 
recommendations or proposals for this committee beyond what you 
described in your previous answer?
    Ms. Lindsey. Yes. The reason it has become not a very 
important funding tool for larger airports is that in order to 
implement the passenger facility charge, which is another user 
fee that the airports needed to have access to in order to 
finance projects, airports had to give up 75 percent of what 
otherwise would have been their entitlements money.
    So if that had not been the case, LAX would have 
entitlement funds under AIP of around 50 million a year. But 
because we have imposed a passenger facility charge of $4.50, 
which will gain us more money than the AIP entitlement monies--
but we had to walk away from 75 percent of our AIP entitlement 
money so that now we get $12 or $13 million a year.
    So if you look at the full menu of improvements that have 
to be done on LAX, and you are looking at about $13 million a 
year coming from a reduced entitlement source because of the 
requirement to give up other entitlements, it becomes much less 
of an important tool for airports. And, of course, it is used 
primarily on the airfield, which I think is fine.
    I think there is a potential fix for that. It would be very 
easy for me to sit here and say, well, just restore that 75 
percent of entitlement money back to the airports. But there 
are useful projects at small airports.
    What I would suggest instead is to increase the amount of 
money, of discretionary money, that the FAA is able to award in 
grants. And historically, a lot of that discretionary money 
went to safety projects and to capacity projects. Clearly, 
there should be no diminution in the importance of safety 
projects. Those always have to be number one.
    But I am suggesting for the committee's consideration that 
we make infrastructure repair and rehabilitation just as 
important as capacity projects, which have been the mantra that 
FAA has used in awarding letters of intent and awarding 
discretionary funds in the past. We have such decaying 
infrastructure that--and this is not unique to LAX. This is a 
countrywide problem. It is a multimodal problem. I of course am 
just speaking from the airport standpoint. Having AIP be able 
to value those kinds of projects I think is very important for 
our future.
    Ms. Roybal-Allard. Thank you.
    Mr. Olver. Well, I could go on with other questions, but it 
does turn out that at least the two of us that are Democratic 
members have a caucus going on. I am not quite sure, but I am 
sure that Mr. Latham has other things that he would like to do 
as well. So I think we will let you go.
    Mr. Latham. Tell Mr. Hoyer to put me down as a maybe. 
[Laughter.]
    Ms. Roybal-Allard. Great. That is progress.
    Mr. Olver. Thank you very, very much for being with us 
today. Thank you for your thoughts. I may have to get back to 
you, at least for my own information. But I think we will not 
be back to you for anything more directly for the record. Okay? 
Thank you. Have a good day, and thank you for being with us.
                                           Tuesday, March 23, 2010.

    INTERCITY AND COMMUTER PASSENGER RAIL: MOVING PEOPLE SAFELY AND 
 EFFICIENTLY (INCLUDING FY2011 BUDGET REQUESTS FOR FTA, FRA AND AMTRAK)

                               WITNESSES

PETER ROGOFF, ADMINISTRATOR, FEDERAL TRANSIT ADMINISTRATION
JOSEPH SZABO, ADMINISTRATOR, FEDERAL RAILROAD ADMINISTRATION
JOSEPH BOARDMAN, PRESIDENT AND CEO OF AMTRAK

                    Chairman Olver's Opening Remarks

    Mr. Olver. We will be in order. We are competing today with 
the White House, as you know, and I really did not want to give 
my Ranking Member the whole morning off. So I decided we would 
carry on and do hearings.
    But actually, I know quite a number of the Appropriations 
Committees are doing hearings this morning, as it turns out. So 
a couple of my members, who are our members here, who are the 
Chairs of their own Committees, will not be here because of 
that, or they are going to be at the White House.
    So anyway, I want to welcome Administrator Peter Rogoff and 
Administrator Joe Szabo, and President of Amtrak, Joe Boardman, 
to the subcommittee. Gentlemen, thank you for coming before us 
today to testify on the respective fiscal year 2011 budget 
request for the FTA, the Federal Railroad Administration, and 
Amtrak.
    Rail presents great opportunities to expand transportation 
options and reduce highway congestion. Therefore, over the last 
year, this Congress and this Administration, your 
Administration, our Administration, have made unprecedented 
investments in our Nation's passenger rail infrastructure.
    First and foremost, I want to emphasize the need to remain 
committed to the safety of our passengers in commuter rail 
systems as we invest and expand this infrastructure.
    Earlier in the month this subcommittee held two hearings on 
intermodal freight movement, which highlighted the important 
role rail plays in the transportation of freight. Given that 
the U.S. freight and passengers typically operate within the 
same rights-of-way, as these sectors expand, we must develop 
methods to minimize conflict and ensure the safety of all 
users.
    In order to address this, the Rail Safety Improvement Act 
of 2008 mandated the installation of positive train control on 
all lines that jointly operate passenger and freight traffic.
    Last year Congress appropriated $50 million for grants to 
install equipment that improves safety operations and reduces 
the likelihood of future train collisions. Given that the FRA 
did not continue funding for this program in the 2011 request, 
I will be curious to know how the FRA intends to work with 
stakeholders to ensure that they are able to meet their 
estimated multi-billion-dollar safety obligations by the 2015 
deadline.
    Furthermore, I look forward to discussing FTA's $24 million 
proposal for the Transit Safety Oversight Program. It is my 
understanding that this request is intended to support the 
Administration's legislative proposal to establish FTA's safety 
oversight authority over rail transit systems.
    Recent accidents, including last year's Metro tragedy, have 
highlighted the weakness of the current regulatory system and 
the need for cohesive standards.
    In addition to safety, I want to reinforce the continued 
need by both this subcommittee and the Department to remain 
vigilant on providing strong program oversight. In January, the 
FRA awarded almost $8 billion to projects that expand passenger 
rail operations, and establish high-speed rail.
    I am pleased that FRA's budget proposes supporting 
oversight of this program, with 31 new FTEs in order to ensure 
local authorities deliver quality projects on time and without 
waste.
    That said, I am disappointed that the budget only requests 
$1 billion for high-speed rail in 2011. While I understand that 
when the President promised to provide $5 billion over five 
years, it was a strong statement of his commitment; but in 
light of the $2.5 billion the subcommittee provided in the 
fiscal year 2010 bill, and the $57 billion in applications 
submitted for Recovery Act funds, I believe the current request 
is inadequate to maintain the momentum that we have developed 
in the last year.
    Last, I want to strongly encourage Amtrak to work with the 
Administration and Congress to take the necessary steps to 
ensure that the Northeast Corridor can fully access future 
high-speed rail funds. The Northeast Corridor is our nation's 
premiere passenger route, by total passengers served, and has 
opportunities to significantly reduce travel times and improve 
service quality along this heavily traveled corridor.
    With that, I will turn to Mr. Latham for his comments.

                Ranking Member Latham's Opening Remarks

    Mr. Latham. All right. Thank you, Mr. Chairman. I do not 
think I am going to lose any of my members probably down to the 
White House this morning. And I will be very brief; they have 
got a statement here for me.
    But I guess my concern, and I hear it all the time from 
home, that the one size does not fit all. We have got 
transportation systems throughout my district and through the 
state that rely on buses. They have got buses that are really 
old, dangerous, do not serve the needs. They are 
environmentally not friendly. And I am very concerned about any 
policy that goes forward with not realizing the challenges that 
are in place today, and do not meet those challenges.
    And when you have massive increase in funding for other 
things, it is a real concern. And Iowans do not get back 
anywhere close to the taxes paid in to address what are most of 
their problems.
    And so it is not a one-size-fits-all situation, where 
obviously, with the budget today at $1.6 trillion deficit, 44 
cents of every dollar being spent this year is borrowed money. 
And so I think we have to be very, very conscious of where the 
money goes that is well spent, and actually fills needs, rather 
than some ideal that is out there in the future.
    And just a realistic look at what the current situation is 
in many, many states across the country, and whether the new 
transportation plan really addresses what are actual real 
concerns of a lot of our constituents today.
    So with that, I yield back. Thank you.
    Mr. Olver. Thank you. Your complete statements will be 
included in the record. And I will provide some flexibility 
here, we are going to have lots of time for questions 
afterward, especially if the Ranking Member and I are the only 
ones here. Once we get into the question period, we really have 
an opportunity to examine and see where we are on some issues. 
So I will give you more than five minutes, if you need it.
    So go ahead, Mr. Rogoff.

                      Mr. Rogoff's Opening Remarks

    Mr. Rogoff. Thank you, Mr. Chairman. I will try not to need 
it. So thank you, and thank you, Mr. Latham, for the 
opportunity to discuss President Obama's fiscal year 2011 
budget for $10.8 billion for the Federal Transit 
Administration.
    Importantly for 2011, FTA has restructured its programs and 
its accounts to better reflect how FTA's many programs fit into 
the Administration's priorities for public transportation. As 
such, there is a lot we can discuss this morning; but for the 
purposes of this oral statement, I really just want to focus on 
four issues.
    First and foremost, the funding required for our new safety 
initiative, as the Chairman made mention of. Second, our 
request for significantly increased funds to address the state 
of good repair of the transit industry. And I would point out, 
Mr. Latham, our vision of the importance of state of good 
repair very much includes the bus universe; it is not just 
about rail programs.
    Third, I would like to discuss our very successful 
interagency efforts with HUD and EPA to promote livable and 
sustainable communities, both in the urban and rural context. 
And fourth, our need for additional resources to support our 
core grant making and oversight functions.
    As the Chairman pointed out, the Metro Rail crash in 
Washington this past summer was a horrific event. But even 
before this accident the FTA was focused on a number of very 
serious safety lapses. Those included lapses at the Chicago 
Transit Authority, the MUNI System in San Francisco, the T in 
Boston, and elsewhere.
    In fact, just this past week we have had two grade-crossing 
incidents involving the light rail system in Salt Lake, 
including a fatal incident.
    I want to emphasize, the transit industry is safe, but the 
Administration believes that it is critical that additional 
measures be taken to make sure that it remains safe, as our 
transit infrastructure ages, and as the experienced transit 
workers who know how to operate and maintain these systems 
retire in increasing numbers.
    Unfortunately, the FTA has been prohibited by law from 
issuing safety regulations of any kind since the founding of 
the Agency in 1964. Instead, the oversight of rail safety has 
been left to 27 separate understaffed and underfunded state 
safety oversight agencies.
    These agencies do not have the expertise, staffing, or 
enforcement tools necessary to compel the cooperation of the 
transit systems that they are supposed to oversee. There are 
also, quite frankly, some conflict-of-interest concerns in that 
some of these safety agencies actually are funded by the 
transit operators that they are supposed to oversee. This is a 
conflict of interest we do not allow in other areas of 
transportation safety.
    The Administration found this weak and ineffective safety 
regime for rail transit to be inadequate and unacceptable; and 
as such, back on December 7 of last year, Secretary LaHood 
formally transmitted President Obama's legislative proposal for 
transit safety reforms to the Speaker of the House and the 
President of the Senate.
    We urge Congress to move forward with our Transit Safety 
Reform bill now, and we ask the collected Members here for any 
help they could provide in moving that bill forward to the 
President's desk.
    In our budget request for 2011, we have fully accounted for 
the startup costs of this initiative. We are seeking $24.1 
million for a new rail transit safety oversight program, and an 
additional $5.5 million to fund 30 FTEs in FTA's new and 
expanded Office of Safety at Headquarters.
    A critical part of the challenge of maintaining transit 
safety is ensuring that there is an adequate investment in 
maintaining the state of good repair of our transit agencies.
    Last April, FTA transmitted a report to Congress that 
identified a $50 billion maintenance backlog of assets at just 
the seven largest and oldest rail systems. But importantly, on 
the bus side, preliminary results from a follow-on study showed 
that 41 percent of bus assets nationwide are in marginal or 
poor condition.
    Both studies show that over the long term, funding from 
federal, state, and local sources needs to be increased to 
ensure that transit services continue to be reliable and safe. 
To address this challenge, our budget proposal merges and 
expands the Bus and Bus Facilities and the Fixed Guideway 
Modernization programs, and provides $2.9 billion, an 8 percent 
increase over the combined programs 2010 level.
    I am particularly pleased that in a transit budget that 
calls for growth of less than 1 percent on the whole, we 
succeeded in fully funding the startup costs of the Transit 
Safety bill, as well as an 8 percent funding boost for the 
state of good repair, both rail and bus.
    On the topic of livability, Secretary LaHood has partnered 
with the Secretary of Housing and Urban Development and the 
Administrator of the EPA to form an interagency partnership for 
sustainable communities. And Mr. Chairman, I want to 
particularly thank you for jump-starting this effort by 
requiring HUD and FTA to start working together on this issue 
even before this Administration took office. I will admit, when 
I was in my prior capacity working for the Senate 
Appropriations Committee, I reviewed the language that you sent 
over. I did not fully understand it then, but I understand it 
now.
    FTA's livability budget proposal for 2011 includes $306.9 
million for grants under three existing programs to better link 
communities to affordable housing, increased pedestrian access, 
improved connections between where people live, work, shop, go 
to school, socialize, and, importantly, receive healthcare 
services.
    In addition, FTA is currently evaluating more than 65 
applications totalling over $1.1 billion for urban circulator 
systems that support the Department's livability initiatives. 
We are also separately evaluating more than 250 applications, 
totaling more than $2 billion, for bus and bus facility 
proposals that embody our livability goals.
    Under our initial notice of funding availability for these 
two efforts, we announced that we would allocate at least $280 
million to these applications. It is possible that we will 
augment that amount with some discretionary funds that you 
graciously provided to us in the regular 2010 Appropriations 
Act, as we review those applications.
    Importantly, HUD reviewed and edited our Federal Register 
Notice when we put out the full solicitation for both of these 
initiatives. And they added a lot of value in addressing the 
whole housing aspect of these grants.
    And now the DOT is also reviewing the grant guidance that 
HUD will be using for the funding of their livability grants.
    So this has been a truly functional and effective 
interagency partnership that works. It will yield projects that 
will be more cost-effective for the taxpayer, projects that 
will enable the public to make one comprehensive investment in 
a community, investments that address the transportation and 
housing needs simultaneously. And this way we will only need to 
make one public investment, and we will, frankly, only need to 
tear up the streets once.
    Finally, I would like to call attention to a small but 
important request that is contained in our budget, to address 
the staffing needs associated with our core grantmaking and 
oversight function.
    Our 2011 budget seeks funding for an additional 40 
positions and 20 FTE to address these needs. FTA has not seen 
its staffing level increase by even one body in seven years. 
Yet over those seven years, the number of programs and grants 
that the Agency is charged with overseeing has grown 
dramatically.
    As a result, I am sorry to have to say that out in the 
cities and the states, the initials of our acronym, FTA, has 
sometimes been referred to as Failure To Appear. Too often, FTA 
has lacked the staff in headquarters or the regions to attend 
meetings held by cities and communities and MPOs that want to 
know how they can consider and develop a transit alternative.
    In order to truly partner with these communities, and in 
order to do appropriate oversight of the thousands of grants we 
allocate every year, FTA frankly needs more staff, and there is 
funding for more staff in the budget.
    So I thank you for hearing these many requests. I am happy 
to answer questions when that time comes. And I will leave it 
to my next witness. Thank you.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Olver. Thank you. Mr. Szabo.

                      Mr. Szabo's Opening Remarks

    Mr. Szabo. Chairman Olver, Ranking Member Latham, and 
Members of the Committee: Thank you for the opportunity to 
appear before you today to discuss the Federal Railroad 
Administration's (FRA) Fiscal Year 2011 budget request.
    Our request, which totals $2.9 billion, is unprecedented in 
the history of FRA and reflects the Administration's commitment 
toward keeping the Nation's rail transportation safe, secure, 
and efficient. This request also continues our support of the 
Administration's strategic investments in high speed rail.
    Over the past 2 years, FRA's mission has expanded greatly. 
The entire organization was focused not only on the 
implementation of the Rail Safety Improvement Act (RSIA) and 
the Passenger Rail Improvement and Investment Act (PRIIA), but 
on the requirements of the landmark Recovery Act. Our seasoned 
and dedicated staff is doing an outstanding job implementing 
this ambitious agenda and this Committee's support has been 
invaluable.
    In developing our FY 2011 budget, we re-examined our 
programs in light of recent legislation, established new 
priorities, and built our budget accordingly. I'd like to share 
with you a few of our FY2011 budget priorities:
    FRA's chief mission continues to be safety. For FY 2011, we 
are proposing to establish a new account that will allow FRA to 
be more precise in its reporting and accountability and that 
directly supports the Administration's transparency 
initiatives. Under this new Railroad Safety account, $49.5 
million is requested to carry out FRA's mission critical 
railroad safety functions and activities. The safety of our 
passenger and freight rail systems is of critical importance to 
me and my colleagues.
    In re-evaluating where FRA needs to go in the coming years, 
we also looked at our staffing needs. As such, for FY 2011, we 
are requesting a total of $153.8 million and 979 positions to 
support our mission responsibilities. Included in this request 
are 62 new positions that will allow FRA to tackle our newfound 
responsibilities, including a focus on high-speed rail.
    The High-Speed Rail initiative is central to the 
President's efforts to provide the American people with high-
quality transportation alternatives. The program will create 
jobs, reduce congestion and offer numerous environmental 
benefits. We are proud to continue our work in this arena, 
which began with an $8 billion down payment enacted under the 
Recovery Act.
    Our FY 2011 budget includes a second round of funding as 
part of the President's initiative that complements this down 
payment. Included in the $1 billion request is $50 million for 
program administration and oversight activities, $50 million 
for planning grants and activities, and $30 million for high-
speed rail research and development activities. We will 
continue to work with every state and region that is interested 
in developing a robust passenger rail system.
    The agency will also continue its work on a National Rail 
Plan, so that our efforts to upgrade our nation's passenger 
rail capacity can be undertaken in concert with work to ensure 
that our freight rail system remains the best in the world. 
We've met with more than a thousand of your constituents across 
the country to craft this document and look forward to 
presenting our vision later this next year.
    This vision will certainly include Amtrak. FRA and Amtrak 
share a strong partnership and the FY 2011 budget request for 
Amtrak, which totals $1.637 billion, is a reflection of this 
Administration's continuing support of this partnership. We 
very much recognize Amtrak's unique and important role in 
America's future transportation landscape.
    The past 18 months have been filled with exciting 
challenges for FRA. We have continued to enhance the safety of 
our citizens and communities that live and use the nation's 
freight and passenger rail systems, while designing the 
policies, programs, and infrastructure necessary to advance the 
vision of high-speed rails across our country.
    We appreciate your consideration of our request, and I am 
happy to answer any questions that you might have.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Olver. Thank you, Mr. Szabo. Mr. Boardman.

                     Mr. Boardman's Opening Remarks

    Mr. Boardman. Mr. Olver, Mr. Latham, Mr. LaTourette, I have 
a package on your desk of slides that I will refer to. It has 
got my name there toward the bottom, Steve, just in case you 
are looking.
    This has been a landmark year for intercity passenger rail. 
In the wake of the Administration's decisions to fund the High-
Speed and Intercity Passenger Rail Program, Amtrak stands ready 
to fulfill the mission assigned by the Passenger Rail 
Investment and Improvement Act of developing high-speed 
passenger rail on the national system.
    To meet this mandate, we need to have the tools in place to 
accomplish the job, and we are moving to create them. We are 
working with the states, FRA, and a High-Speed and Intercity 
Passenger Rail grant program, and the corridor equipment 
planning and procurement process.
    We have just completed the first phase of the Northeast 
Corridor master planning process, and are beginning to plan for 
the next generation of high-speed equipment for the Northeast 
Corridor.
    Amtrak is creating a department to oversee high-speed rail 
development. We have created a plan to replace our aging and 
hard-run fleet with the modern equipment we need to provide 
these services. And we provided it to the committee on February 
1.
    The Administration has laid out a strong and clear plan, 
with significant initial funding for the development of high-
speed and intercity passenger rail, and we are working to make 
that plan a reality.
    For 2011, Amtrak initially requested a total of $2.2 
billion, consistent with the preauthorization. About $592 
million of that total was intended for operating support, and 
$1.02 billion will cover our capital needs, while a total of 
$305 million will go for debt and debt-retirement 
opportunities. About $281 million will be needed for ADA.
    On Monday we submitted a supplemental request to Congress 
for an additional $446 million to address our most urgent, 
unfunded need: replacement of our aging fleet. This will raise 
our total 2011 request to about $2.6 billion.
    Our plan calls for the replacement of the entire fleet 
between now and 2040. And it is on this issue that I would like 
to focus the remainder of my statement, because it is that 
important.
    This plan, which is the product of nearly a year of 
concentrated work, is a well-thought-out and comprehensive 
statement of our total need. It is designed to accomplish the 
replacement of equipment, not in large blocks, but in regular, 
annual purchases, which will allow us to break in new equipment 
gradually, correcting issues early in the run before they 
simply become large and insoluble permanent conditions that we 
must learn to live with.
    And as you will see on the first slide, our plan provides 
the enduring demand that will develop and support a domestic 
manufacturing base. If you see two high yellow spikes on that 
slide, that is when the Acelas get replaced.
    This supports the Administration's stated intent to develop 
a domestic rail-manufacturing capability. And we do so by 
projecting long-term, large-scale procurement streams that will 
nurture and sustain suppliers.
    It also provides an affordable means for states to add to 
our purchases on our own, with unit cost savings for everyone.
    We are currently partnering with 15 states to provide 
service, and demand on existing routes will continue to grow.
    It is also an opportunity for us to work with the FRA and 
the states to implement the latest standards and practices to 
ensure this equipment has long-term utility. We will do this 
through the corridor equipment pool committee process.
    It is, however, vitally important that we begin the process 
of seeding the industry, and replacing obsolescent equipment 
now. And the best way to start that process and to advance the 
vision for high-speed and intercity passenger rail is to fund 
our plan.
    Between 2002 and 2008, Amtrak increased its ridership by 32 
percent, without buying a single piece of new rolling stock. 
That is a remarkable accomplishment, but one that cannot be 
sustained indefinitely.
    A new round of procurement is an absolute necessity since 
the average age of our passenger cars is at an all-time high, 
24 years, and it will continue to rise in the time that it 
takes us to order and build and have new equipment delivered.
    As you will see in the next slide, this is the Amtrak car 
fleet. It is the hardest-run passenger fleet in the country. On 
the far right end of this, you will see the blued-out section. 
These are the annual number of average annual miles. And you 
will see the transit operators along the side, and how many 
fewer miles that it takes to run a transit operation. That is 
not to cast aspersion on transit; it is only to say that 
utilization of the heavy-duty intercity fleet is critical.
    To get some idea of that mileage and the work we get out of 
these cars, I would point you to the backbone of our Northeast 
Regional Service: the Amfleet I cars. They were built in the 
late seventies.
    Now, imagine you bought a Chevy El Camino back in 1977. It 
would be worth a lot of money today, frankly, if it was an El 
Camino. [Laughter.]
    But you proceeded to drive it from D.C. to New York and 
back again every single day since then, with a day and a half 
off every month for maintenance. That is how hard we run these 
Amfleets. And they are neither the oldest or the hardest-run 
equipment in the fleet.
    As you will see in the third slide, these are the 
locomotive fleet. And it is in a similar situation. And I would 
point out to you, on the far right, a backbone of our 
locomotive fleet, the P-42 diesels, are run almost twice as 
much as the major freight line, BNSF. We put almost twice as 
many miles on our locomotives every year than BNSF does.
    As a preliminary step, we initiated the bidding process 
last year to buy new equipment to address our most critical 
needs, the Heritage cars, some of which have been in service 
for 60 years--I think there is one even 61, my age--and the 
hard-run electric locomotives that power our Northeast Corridor 
services.
    The $446 million will fund the procurement of American-made 
equipment that will replace these obsolete cars and worn-out 
locomotives.
    On the last slide you will see a perfect picture of our 
need. This is the Silver Star service. The very first round of 
purchases will replace the AEM-7 that is hauling this train, 
the electric locomotive, and the Heritage baggage car and 
diners that are still in daily service. And it probably is not 
by any mistake that the train number is 911. [Laughter.]
    Thank you for listening.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Olver. You mean it was not deliberate that you used 
911?
    Mr. Boardman. It was very deliberate, Mr. Chairman. 
[Laughter.]
    Mr. Olver. This is a set of data that I have not seen. No 
one is speaking for Amtrak; never in the last years that I have 
been Chairman or Ranking Member of this subcommittee have I 
seen someone put these data together.
    And I am wondering if you required the assembly of this 
data.
    Mr. Boardman. I required a fleet plan, a fleet strategy. 
Something that you and I had discussed in the past.
    The data that was assembled as a part of that, this is part 
of that. That is the provision of this.
    Mr. Olver. Okay. Was there any shock when you saw these 
data? When you saw----
    Mr. Boardman. It was very eye-opening to us, let us say 
that. Yes, it was shocking for a lot of us, to really sit down 
and think about what has really happened here.
    Because one of the things we discovered here was nobody in 
the world today is building heavy-duty-enough equipment to 
deliver this kind of service over the period of time that they 
have been delivering it, 60 years.
    And the discussion included what is the commercial life, 
and then what is the useful life of equipment, and how often do 
we have to rebuild it. And you will see in the study, which I 
have here and you all received this in February, that we really 
thought about that. I know I am going a little bit long on the 
answer. But we cannot keep buying equipment in the huge number 
of pieces of equipment that we get in very small windows, and 
expect an industry to be able to support passenger rail for the 
future. We have to spread it out.
    Mr. Olver. Look, in this chart, it is too bad, we really 
should have these on so the general audience can see these. We 
should have these in large form up for people. I wish I had 
known that we were----
    Mr. Boardman. They did hand them out, Mr. Chairman, as we 
came in.
    Mr. Olver. Oh, you did. So everyone does have it.
    Mr. Boardman. They should have.
    Mr. Olver. Okay.
    Mr. Boardman. But they were afraid to put it up as a slide 
this year; I spent too much time last year at that.
    Mr. Olver. The yellows are the cars. And you have indicated 
in your written testimony that the average age of the cars is, 
is 24 years.
    Mr. Boardman. Yes.
    Mr. Olver. What is the average age of the locomotives? The 
reds or the----
    Mr. Boardman. It is a little better than that. The average 
age of the electric locomotives is much higher. I do not have 
it right in my head right this minute.
    Mr. Olver. But it is that when you say better, do you mean 
more than that? They are all----
    Mr. Boardman. They are a little younger. They are a little 
younger.
    Mr. Olver. The locomotives or the----
    Mr. Boardman. The locomotives, yes.
    Mr. Olver. Okay. I am getting completely diverted, but I am 
sure my colleagues will bring me back to some point of 
reference.
    Mr. Boardman. The AEM-7s, and they just handed it to me, 
that was what you saw, the 911 in the picture, are from 21 to 
29 years old. They are our oldest.
    Mr. Olver. I think the thing that you are bringing out in 
your testimony, to me the most important thing is the question 
of who makes the equipment. You are talking about heavy rail.
    Mr. Boardman. Yes.

                         DOMESTIC MANUFACTURING

    Mr. Olver. Now, there is a whole lot of stuff that is light 
rail and bus in nature. And there must be some gradation of, I 
do not know, maybe I am going to engage Mr. Rogoff on the light 
rail side. Because we are talking largely about heavy rail, 
commuter rail, and, and long-distance passenger rail for 
Amtrak, and certainly for you, Mr. Szabo.
    The lighter rail----do we have all the equipment that we 
need for light rail and for bus facilities? Do we have enough 
of that being built here in America? Or are we having to depend 
heavily on others?
    Mr. Rogoff. Well, our view is no, we do not have the kind 
of domestic content that we would still like to see. In fact, 
this past summer, Secretary LaHood hosted a session down at the 
Department where we brought in rail car manufacturers. This was 
largely built around the new high-speed rail initiative. But 
there was also an important transit nexus here, because in many 
cases they are the same manufacturers.
    The Buy-America content for transit rail cars is lower than 
some of the Buy-America requirements that are in other 
programs. And we would frankly like to do a whole lot better 
than the 60 percent that is currently in law and regulation.
    Secretary LaHood's message at that session was, through the 
high-speed rail initiative and through subsequent funds that 
either in the Recovery Act or in future transit initiatives, we 
want to see greater domestic content. It is very much part of 
the Vice President's effort to build up the manufacturing base 
again in this country.
    Just the other day, in fact, one of the rail car 
manufacturers, Talgo, announced that it is opening a plant in 
Milwaukee, Wisconsin, in part on the back of Wisconsin Buy, in 
part on what they see as the opportunities for high-speed rail 
there. But it is something that we would like to see more of, 
both in the heavy rail space, but also in light rail.
    Mr. Olver. Okay. My impression is that we are not creating 
much of the heavy rail equipment in this country, and we need 
to try to correct that. I do not have as clear an impression, 
and it is partly, throughout this program to expand public 
transportation, particularly for the rail positions, that that 
comes to the fore.
    At the light rail level, I think what we are seeing from 
the equipment point of view somewhere between two and three 
times the mileage is going per year on the heavy rail equipment 
than on the transit authorities. That is, I think, the brief 
summary of what that chart shows.
    Mr. Rogoff. It is a reflection of the nature of the trips 
they take.
    Mr. Olver. Yes.
    Mr. Rogoff. I mean, if you are doing intercity, you are 
certainly going to put in more mileage.
    Mr. Olver. But I do not even know whether we are building 
all of the light rail equipment that goes into these systems or 
not. Are we to a large measure, or not?
    Mr. Rogoff. Well, in order to comply with Buy America, it 
all lies behind what you mean by the word ``build.'' Because 
the way a lot of the manufacturers get to the 60 percent 
content requirement is through purchasing components, plus the 
added value of assembly.
    Mr. Olver. Is assembly done here?
    Mr. Rogoff. Assembly is done, commonly done here. So what 
often happens, for example--and this goes back a number of 
years--in some of the cars that Bombardier manufactured in 
Canada, it would then be pulled to Barre, Vermont, or they are 
now pulled for final assembly to upstate New York.
    Mr. Boardman. Plattsburg.
    Mr. Rogoff. Excuse me?
    Mr. Boardman. Plattsburg, yes.
    Mr. Rogoff. Plattsburg, New York. And that is where, that 
is how they get the assembly done in the United States.
    Mr. Boardman. But I do think, Peter, you have Kawasaki 
bending metal in Nebraska, and putting it together in Yonkers, 
New York. So there is some of that.
    But we have gone out and we do have conversations going on 
with some of the major manufacturers of what it is that they 
need to begin to build here in this country, the very heavy.
    And I think Peter was very responsive in terms of how 
Talgo--Talgo will accommodate this kind of traffic. They are a 
very heavy-duty train.
    Mr. Olver. One of the key things that we heard when we had 
the Domestic Manufacturers Summit the Secretary called was for 
the manufacturers to invest domestically in the plant and 
equipment that they need for heavy rail equipment, is to see a 
smoothness of the contract order. That we really needed to get 
beyond these huge peaks and these valleys that would better 
allow them to manage----
    Mr. Boardman. We would see this as a base, Mr. Chairman. If 
you look back in the late twenties, thirties, you had 65,000 
passenger cars in this country that were heavy-duty. By the 
late forties, you had about 30,000 passenger cars. Now you have 
what we have.
    And if you are really going to grow the, the passenger rail 
and intercity rail, which I think is going to happen, you are 
going to have to have a domestic manufacturing base. This 
starts it. The states can add to this, but we have to have, we 
have to get started.
    Mr. Olver. Well, one thing that is clear is that the 
mileages that you are going at the heavy rail line, even 
compared with your passenger versus the freights, as is also 
shown in those, is that the mileages get up, into the two 
million miles very quickly, and beyond.
    Mr. Boardman. Yes, sir.
    Mr. Olver. Anyway, we are going to do 10-minute sessions 
for each of my colleagues. Mr. Latham.
    Mr. Latham. Mr. LaTourette has got a little time problem, 
so I yield.
    Mr. LaTourette. I thank you very much for the courtesy. It 
is nice to see all of you again. And Mr. Rogoff, we have not 
had the pleasure, but it is nice to see you before the 
committee. Your name was thrown around a lot last week during 
our hearing, so it is nice to actually see someone connected 
with the, with the name.

                         POSITIVE TRAIN CONTROL

    Administrator Szabo, I wanted to come back to you just real 
quickly on something that continues to vex me, and that is the 
Passenger Rail Improvement and Investment Act (PRIIA). And at 
the last hearing, I talked to the Secretary, and then you and I 
had a chat at the last hearing about what lines will be 
designated for positive train control.
    And I, quite frankly, loved your answer. Because I 
understood it to say that the effective date in the bill is 
2015; and when we get to 2015, if the planning and mapping that 
you have done, if a Class I railroad can come in and indicate 
that that is not the traffic anymore, and TIH vehicles are not 
being used, that you would make some accommodation.
    But I had a conversation with a couple of them. And I said 
you know, this is really great news. And they tell me, 
however--and I guess you could either respond now or maybe have 
somebody come see me later--they indicate that they can only 
come see you to be relieved of the burden of positive train 
control on a line after something, an analysis of a residual 
risk. But that residual risk is not defined in your regulation.
    And so their first question, and my question to you, is, do 
you believe someplace in your regulation that I could go and 
find the definition of residual risk?
    Mr. Szabo. Well, let me tell you this, Mr. Congressman. You 
know, it limits my ability to give you much of a detailed 
answer. But I think echoing what I said last week, that we do 
believe that there is sufficient flexibility in the rule that 
as traffic patterns change, that there is the ability to adjust 
accordingly, but they have to come to us and document why.
    And frankly, it is all about ensuring safety, the safety of 
the community.
    Mr. LaTourette. Listen, I helped write the bill, and I am 
all about safety. But let me just say this, that whatever 
litigation is going on, that prevents you from telling me 
whether or not residual risk is defined in your regulation that 
you issued in January?
    Mr. Szabo. It limits me from going into any detail. But 
again, we can----
    Mr. LaTourette. Okay.
    Mr. Szabo [continuing]. Schedule sometime to come sit down 
and talk. We would be happy to.
    Mr. LaTourette. I would like that very much. And just so we 
are clear, I do not believe residual risk is identified.
    And the other thing that causes me some problems is that 
even if a railroad can figure out what residual risk is, and 
makes an application to be relieved of PTC on a particular 
line, it can still be required under special circumstances.
    Now, special circumstances is, in fact, defined. And one of 
the definitions of special circumstances is increased traffic.
    Now, I do not know of any business in the world that does 
not hope to have an increase in business. So, but it is not 
increase in TIH traffic; it is just increased traffic.
    So again, I get you are in the middle of a lawsuit, but if 
somebody could come see me, I would appreciate it. Because this 
continues to cause me some difficulty.
    Mr. Boardman, it is lovely to see you again. And you 
indicated that your initial request was $2.1 billion, and I 
think just last week you asked for another 400-and-some million 
dollars, for a total for the year of about $2.5 billion.
    What has the Administration proposed in their budget? I 
apologize for not knowing, but what has the Administration 
proposed for Amtrak in their budget?
    Mr. Boardman. What is it, $1.6 billion.
    Mr. LaTourette. And what was appropriated last year for 
Amtrak, do you know?
    Mr. Boardman. Just about $1.6 billion.

                         AMTRAK BUDGET REQUEST

    Mr. LaTourette. Okay. I guess, is this in your bailiwick, 
Mr. Szabo? Are you in charge of making the budget submission on 
behalf of the Administration for Amtrak?
    Mr. Szabo. I am here to testify on behalf of that. Yes, 
sir.
    Mr. LaTourette. Okay. Well, how come they are asking for 
$2.5 billion, and you are only ponying up $1.6 billion?
    Mr. Szabo. Well, let me say this. I mean, first off, 
obviously in the budgeting process there are a lot of 
negotiations that take place, there are a lot of difficult 
choices that have to be made. It is a matter of trying to 
balance priorities.
    Of course, the most important thing is the fact that the 
supplemental that has been put in for the fleet plan is new, 
and has come subsequent to the preparation of the President's 
2011 budget.
    Mr. LaTourette. Right.
    Mr. Szabo. So you know, obviously we have an obligation to 
work with Amtrak to try and find a means to fund that. But for 
the record, I support our budget submission.
    Mr. LaTourette. Well, and even without the increased 400-
and-some million dollars to replace this rolling stock--and 
this is a pretty impressive picture, Mr. Boardman, I have got 
to tell you--that you are still half a billion dollars short in 
your original. So I get tough budget requests, and so forth and 
so on.
    But you know, I can remember the Bush Administration one 
time said zero. And it became very difficult. And I was not on 
the committee at the time, but I had to work with the Chairman, 
Mr. Olver, and we had to pirate money. And this subcommittee 
does not have that ability any more, because now it is just 
THUD. [Laughter.]
    In the old days, the way we satisfied that shortfall and 
sort of frustrated the wishes of those that were in the charge 
at the time--I think that was pre-Boardman. We took money out 
of the Public Buildings Fund, which was sitting fat and happy 
at $7 billion.
    We cannot do that any more on this subcommittee. So, Mr. 
Boardman, you are short half a billion dollars, not even 
getting your rolling stock request. So what does that mean to 
you? If you are at appropriations $1.63 billion, and I guess 
you are going to have to be a good soldier, but if you are at 
appropriation $1.63 billion, you have asked for $2.1 billion, I 
assume you did not just make up the number. I mean, what are 
you going to do?
    Mr. Boardman. I think what we have been trying to address 
in the overall, not just the fleet, for example, there is $281 
million in there to try to address the ADA legislation that was 
placed on us. And the continuing backlog that we have on the, 
the infrastructure that we own in the Northeast Corridor, 
something that is near and dear to your heart, the positive 
train control that we are planning to get implemented on the 
Northeast Corridor.
    So to us, it means that we fall behind again. We fall 
behind more if we do not find a way to do this.
    I see this as a responsibility of Amtrak is to place this 
on the table wherever we can put it, whether it is here to this 
Committee, or whether it is investigating the opportunity of 
financing privately or publicly, or whatever we would be 
looking for. We have to find a solution, because this is 
America's railroad. And I think it needs better care.
    In the Northeast alone we had, in the last 10 years, $56 
billion that went for capital in the highway side. And it was a 
consistent kind of capital. Now we do not have that with this, 
this program.
    We are $5 billion behind, maybe a little more than that, on 
our infrastructure.
    Mr. LaTourette. Does the $1.63 billion, or your budget 
request of $2.1 billion, I know that there was some, some labor 
strife that has been settled recently. And my understanding of 
that is that the settlement of those labor agreements called 
for the back pay in some instances, and I do not remember the 
figure as I am sitting here.
    But have all of those obligations been satisfied? And if 
not, can they be satisfied if you are stuck at $1.63 billion?
    Mr. Boardman. We have satisfied them all. The back pay 
issues are complete.

                             TRANSIT SAFETY

    Mr. LaTourette. Right, super. Mr. Rogoff, to you, this 
American component thing is something that has really bothered 
me for a long time. I think, I think the first time I became 
involved in it, it was transit, but it was the ticket machines; 
it really was not, it was not the cars that we were talking 
about.
    And what we found was that all the parts were made 
overseas, but you know, somebody rented a garage over here and 
they put the ticket machine together. And they got enough 
credit to satisfy the requirements.
    As you move forward with safety, is signage part of where 
you think you are going to go in the future? And let me ask you 
specifically. I am concerned that when the power goes off on an 
electrified system, that luminescent signs, for instance, I 
think would be a swell idea, if that technology exists.
    And so is signage that glows in the dark part of the future 
for what you are looking for?
    Mr. Rogoff. It could be, but I would not want to say that 
dispositively.
    What we have done, Mr. LaTourette, is establish a Rail 
Safety Advisory Committee. We do not need new statutory 
authority to do that. The Secretary has begun standing that up. 
We have now just closed the period for nominations to be on 
that. It will include a broad representation of rail safety 
experts, management, and labor.
    And our whole regulatory regime for rail safety in transit 
will be led by what that advisory committee advises us are the 
highest-risk issues. We obviously want to knock down the 
highest-risk issues first, because we are starting with nothing 
right now.
    Mr. LaTourette. Will that committee, when it is stood up, 
accept suggestions?
    Mr. Rogoff. Absolutely. The idea to do this advisory 
committee was inspired largely by the RSAC and the FRA, where 
they do take external suggestions. And I am sure we will, too.
    Mr. LaTourette. When that event occurs, like the shop is 
open for suggestions, could you have somebody just----
    Mr. Rogoff. Absolutely. We hope to be announcing our slate 
of participants in the next couple months. And once that is up 
and we have a chairman, maybe I could bring that person to your 
office and we could talk about that.
    Mr. LaTourette. Thank you very much.
    Mr. Olver. Thank you. Mr. Latham.
    Mr. Latham. Thank you, Mr. Chairman. And Mr. Boardman, I 
think the thing that a lot of people obviously look at Amtrak 
is the fact that I think 41 out of 44 of the lines are losing 
money, subsidized at the rate of about $34 per passenger.
    And I understand that you are serving a lot of areas with 
lower population, like when you cross southern Iowa and Amtrak 
does not even go through a populated part of the state. I mean, 
which always amazed me that, where people would actually get on 
Amtrak, there is nobody that lives there.
    Mr. Boardman. But we have to get from one state to the 
next, so we do go through Iowa.
    Mr. Latham. I know, but there are people in Iowa, too. 
[Laughter.]
    Mr. Boardman. I know people in Iowa.
    Mr. Latham. You do not have to purposely go around them.
    You know, on the positive side, there are, you know, the 
Acela line is making about $41 per passenger, but the Sunset 
Limited continues to lose about $462 per passenger. And even 
the popular Northeast Corridor loses about $5 dollars per 
passenger.
    What happens if you do not get what your request is, you 
continue to lose money? You know, the utilization obviously is 
much heavier on the East Coast, but the rest of the country is 
paying for it. And how do you address that?
    Mr. Boardman. I think that one of the things that I found 
at Amtrak, even before I got at Amtrak, is there are a lot of 
statistics, and there are a lot of averages. And there are a 
lot of things that people can point at.
    But I think what needs to be understood is this is the most 
efficient railroad in the United States, period. We cover 80 
percent of our costs in this railroad. There are no transit 
systems in this country that cover that kind of expense. And I 
do not think that there are probably any in the world.
    And so what happens is, we are very large. We operate all 
over the country. And so that the focus becomes on the very 
rural areas of the country. And if the same focus was placed on 
in Iowa--and I happen to be raised on a dairy farm, have family 
in Clarinda, Iowa, and worked in Audubon County, Iowa.
    But if the focus today was on the electrical power supply 
and where it goes in this country, then there would be the 
argument that we should not take it to the places where there 
is no population.
    I think what we do with, one of the strengths that Amtrak 
has is it connects this country together, coast to coast, 
border to border. And one of the other things that is 
discoverable, as the Chairman pointed out, we discovered really 
what the facts were when we looked at the fleet, we are finding 
the facts on what we have as an efficient railroad truly exist.
    And when you are out, on our system as I was out in Chicago 
about two weeks ago at what we call a town hall meeting, what 
we hear is that our prices are very high. And they are. We 
charge a lot of money to ride the railroad. And people want it 
to be better.
    And one of the things that is preventing us from making it 
better is this aging-out of the equipment that we really have.
    I think today we do not generally understand--and I am not 
pointing fingers at other modes when I say this, because I have 
been a state transportation commissioner. I know the 
difficulties that the highway guys have. I know the 
difficulties that aviation has.
    But there has been a regular investment going into the 
highways, going into the airports, going into the transit 
systems that have not existed for America's railroad, for 
Amtrak.
    And so instead, we get distracted by the high cost for a 
particular section of one route that does not deliver what the 
country would expect to be delivered. But when you look at the 
overall, and the connectivity for this country, you have a very 
good deal with Amtrak.
    Mr. Latham. How do you--even the Northeast Corridor, you 
are losing five dollars per passenger.
    Mr. Boardman. We are actually making 121 percent of our 
cost above the rail, so the non-capital cost, on the Acela 
service in the Northeast Corridor.
    Mr. Latham. Acela. But that is not all of the Northeast 
Corridor.
    Mr. Boardman. And the Regional, when you add to it and you 
put it all together, we do not do as well. It is because 
business--and it is primarily businesspeople that ride the 
Acela, because time is money. And other folks do go by the 
Regional operation.
    We see more and more of the service on the Northeast 
Corridor. We need to get to two hours between New York and 
Washington, and three hours between Washington and Boston.
    And we are working today, I talked in my testimony about 
creating a high-speed rail group, division. It will have two 
focuses. One is in the area that has already been identified by 
somebody else with a vision, like California and Florida, and 
we want to be the operator of those. And the other is the 
Northeast Corridor, and how we can make it faster.
    Even sometimes, Congressman, people do not understand the 
difference between miles per hour and kilometers per hour. And 
the Europeans talk about over 200 kilometers per hour or 240 
kilometers per hour; 240 is 150 miles an hour, and that is what 
we operate.
    But we operate every day at over 200 kilometers per hour, 
and we could do it with more trains if we did not have, as in 
the last photo shows, the Heritage cars, where we cannot go any 
more than 110, which is 160 plus whatever, 16. So it is '76. I 
will be stretching my conversion factor here.
    We deliver better mobility in the Northeast Corridor. We 
have 40 million people within 40 miles of that corridor. It is 
the best corridor to run high-speed rail in the United States.
    Mr. Latham. Can I ask each of you, I guess, a question? And 
I think you are doing a great job, myself. I mean, in a really 
difficult situation.
    Mr. Rogoff. Thank you, sir.
    Mr. Latham. I really do, I appreciate it. It must be that 
Iowa touch. [Laughter.]
    Mr. Latham. Can I ask each of you, though, who is right? I 
mean, should the money--you have got a total of what, about $14 
billion over time, you are talking about for new high-speed, 
new stuff, new, shiny stuff? And you are dying because you have 
got old equipment that is falling off the track. Where is the 
priority? Who is right?
    You have got him asking for an additional billion dollars 
more than what you are going to give him, because he has got 
desperate needs. And here we are spending all this additional 
money on new, shiny stuff. I mean, and maybe that is great, I 
do not know.
    Mr. Szabo. Well, I think there is two parts to that answer. 
I mean, first, when it comes to Amtrak's general budget 
request, again, we have to make some very, very difficult 
decisions, as anybody does when they are proposing a budget.
    But when it comes to the high-speed rail program, literally 
the Northeast Corridor is eligible as a recipient of those 
grants. And it kind of comes back to what Joe was talking about 
in getting his Northeast Corridor Committee set up, under 
PRIIA. We are moving forward, the Secretary is, with getting 
the Northeast Corridor Commission set up to start planning the 
steps that it is going to take to bring the Corridor to the 
next level. And it is clearly part of our vision.
    Mr. Latham. Yes?

                          STATE OF GOOD REPAIR

    Mr. Rogoff. I think in trying to bring this to a transit 
context, Mr. Latham, I think you have put your finger on an 
issue that we wrestle with every day, and are wrestling with 
increasingly. And that is the tension between the desire for 
people to have new systems, and the challenge in having enough 
money to maintain the systems they have.
    And we are, at the FTA, taking a hard look at this. You 
know, a lot of the attention our agency gets actually is not 
where the bulk of our money is; a lot of it is on the brand-new 
systems we are building. And as I am sure you can appreciate as 
an elected Member, there was a lot of enthusiasm by the 
electeds, both federal, state, and local, when you are 
providing a new service to a community.
    But the state of good repair of existing systems is also an 
emerging high priority for the whole Department, under 
Secretary LaHood. And it is not just transit; it also has to do 
with the condition of our highways, the condition of our 
runways. It is going to be one of our emerging strategic goals.
    And we have to take a hard look. We have got a situation 
right now in a number of cities that are simultaneous trying to 
build new new-starts, which is to say expand their footprint, 
when they are really struggling to put adequate funding into 
maintaining their existing footprint. And we have to make a 
difficult call as to whether we are going to let some of those 
projects go forward.
    So you are on to a very telling issue, and that is, how do 
we balance, in an area of scarce resources, the issue of what 
we can afford to build out new. This Administration wants more 
transit service; we want to provide more transit opportunities 
to more communities.
    But we also know that if we under-invest in the existing 
service, and that service becomes unreliable or, worse still, 
unsafe, we are going to lose transit riders on the existing 
service.
    So if you look at the FTA budget, I mentioned before we 
have an 8 percent increase for our state-of-good-repair 
efforts, both rail and bus. But the overall budget increases 
only 1 percent, while there are reductions elsewhere in our 
budget.
    One of the areas is our new starts budget, which goes down 
$200 million from what you provided us in 2010. That was a 
difficult tradeoff, but we felt that the state of good repair 
was critically important.
    Mr. Latham. I do not know if you have any comments.
    Mr. Boardman. Well, I guess the only thing I would say is 
that it is a very difficult question. It is like the question 
of what is more important, your hands or your feet, your eyes.
    And I would say that it is critical that we have 
connectivity with Peter's transit systems in order to make 
intercity passenger rail work.
    We are not falling off the rails. We have, as one of the 
greatest strengths, not only that we connect border to border 
and coast to coast, is we have a workforce that understands how 
to get the job done. So we have tremendous ability.
    And one final thing. We have a great workforce that has a 
memory that said, and they passed it to me, that the original 
1971 plan was for Amtrak to go through southern Iowa simply 
because this is part of the state that was so underserved by 
other modes. So I just thought I would give you the reason why 
we are down where we are, in Iowa.
    Mr. Latham. It is probably because there are no people 
there. [Laughter.]
    Mr. Boardman. Just trying to be responsive, Congressman. 
That was the 1971 plan, when they were put together.
    Mr. Latham. 1971 plan. Oh, you would use that one. I 
thought it was because it was the end of the old Northern 
Pacific, or probably the old Northern Pacific that went that 
route.
    Mr. Boardman. It might be that, too.
    Mr. Latham. It is 50 miles away from any populated center.
    Mr. Boardman. Yes.
    Mr. Olver. All of those years ago, before anyone decided 
that they would--some of us would remember where they grew up 
in Des Moines as the center city of Iowa. Anyway.
    What we have just had, this has been a very good 
conversation. What we have just had is really passionate 
statements by Mr. Boardman, and very, very cerebral statements 
being made by Mr. Rogoff. The other end of the line and in 
between----
    Mr. Szabo. And I am right in the middle. [Laughter.]
    Mr. Olver. All I can do in this is to generalize, to assert 
that we are really very, very far behind in our capital 
investment programs, across the board essentially. And that 
goes to the authorization. I think that our subcommittee 
members would generally agree with that.
    How we are going to pay for them in order to make the 
balance, the right balance, is a different question. What they 
agree with is we have really serious needs in a capital 
program, whether for state of good repair or for expansion, 
both of them.
    Mr. Latham. Just if we are having a conversation, and not 
on anybody's time here, but that is why--and I said last year, 
I think we missed a huge opportunity in the Stimulus to take a 
bunch of that money that is being spent on God knows what, it 
is not going to have any long-lasting benefit.
    And we have got these tremendous infrastructure needs. And 
we should be doing these things. And that is where the money 
should be spent.
    I mean, you could take care of 700-and-whatever, $87 
billion if you just took 10 percent of that. Think what you 
could do for infrastructure, for high-speed rail, for Amtrak, 
for new system. I mean, that is where the investment should be, 
rather than all the new other things that do not produce 
anything.
    Mr. Olver. At the same time, there had been such a deficit 
over a period of time that people really did not have the plans 
ready to go, or the designs ready to go, to spend a lot more of 
that money at that time. And so many of the parts of the 
Stimulus Plan were intended to spend out more quickly.
    Mr. Latham. Right, right.
    Mr. Olver. Whereas much of what is in the transportation 
infrastructure side requires some lead time to be able to get 
there. So we probably could, now.
    Mr. Latham. We never will get there----
    Mr. Olver. If we keep up the momentum, we probably could 
produce more in the future. We have clearly those examples 
every time the $50 billion, for which we had $8 billion to go 
out, another $50 billion for the TIGER grants. Mr. Rogoff just 
tells us in his testimony that they had at least 10, between 10 
and 20 times the amount of money requested for your two little 
hundred, 120, 150 million-dollar NOFAs that you are going to be 
giving out in June, in a couple months. You had at least 10 on 
the one, and 20 times on the other, the requests for those 
funds.
    Mr. Rogoff. Yes, TIGER was $60 billion for one----
    Mr. Olver. Goes to show the kind of deficit. You mentioned, 
Mr. Boardman, that you had $5 billion--I do not like to hear 
that we want to get to two hours from New York to Washington, 
and three hours from New York to Boston. They should be darn 
close. They should be within half an hour, at least.
    Mr. Boardman. We will make them both two and a half. 
[Laughter.]
    Mr. Olver. Yes, well, all right. But if the next time you 
make that comparison you use two and a half, I will still 
bitch.
    Mr. Boardman. I understand. [Laughter.]
    Mr. Rogoff. Mr. Chairman, I am all for you bitching at Joe, 
but I think----
    Mr. Boardman. Thanks, Peter.
    Mr. Rogoff. There is an issue here that I think you need to 
recognize. We have worked very hard to get Boston down to three 
hours from four and a half, when we originally electrified New 
Haven to Boston. This was in the nineties.
    There are some real infrastructure issues about the 
curvature of that track that will really undermine your ability 
to get down to two hours. But----
    Mr. Olver. There are longer stretches from New York to 
Washington that go quite straight.
    Mr. Rogoff. Right.
    Mr. Olver. And on the whole, probably less environmental 
issues.
    Mr. Rogoff. Absolutely, especially on the seashore.
    Mr. Olver. I am willing, if in my lifetime I could see two 
and a half hours from Boston, and two hours from Washington to 
get to New York, I would be pretty happy.
    Mr. Rogoff. Well, if you do not, it is Boardman's fault. 
[Laughter.]
    Mr. Olver. Well, yes. By the way, I was sort of using my 
own time here, my 10 minutes or whatever, in order to give Mr. 
Berry a chance to come in. If you guys do not mind, I will go 
to Mr. Berry next. Okay. Would you like to take your time? You 
can have as much as 10 minutes, if you have as many things to 
say as our other Members have had.
    Mr. Berry. Well, a lot of the discussion is about how we 
need to expand our infrastructure. And I support that. And it 
sounds like what we need is a Stimulus bill every year, which 
would be real popular.
    And I support these things. I apologize for missing your 
discussion in the beginning of the meeting. I just want to 
raise one issue with you.
    In the district that I represent, one of the, if not the, 
greatest problem we have with the railroads is the way they 
treat their neighbors and the communities that they go through.
    And in many cases, with total disregard for the law, 
whether it be state, federal, local, or whatever that might be. 
And it is a really difficult thing to get their attention. And 
even when you do get their attention, the first, second, and 
third answer is always no, we are not going to do that, hope it 
works out for you, and pretty much ends there most of the time. 
Because few people have the resources to try to engage them in 
a meaningful way.
    And I would ask for your help in trying to work through. 
These are generally very minor situations, but their impact on 
a small group of people is major. And when you take all a man 
has got, it does not matter whether it is a little bit or a 
lot, it is all he had. And that is what we are dealing with 
sometimes, that they cause that kind of harm to a small 
landowner or an individual that is not necessarily well off.
    And I would ask your help to do that.
    Mr. Szabo. Congressman, I will be happy to help. We will 
make a point to come by and see you and discuss issues. And 
obviously, where we have a regulation, we will enforce it; 
where we do not, we will use the power of the bully pulpit.
    Mr. Berry. Thank you very much. Thank you, Mr. Chairman. I 
yield back.
    Mr. Olver. Okay. I am going to go to Mr. Latham.
    Mr. Latham. I am just curious. You said earlier that you 
recover about 80 percent of your costs.
    Mr. Boardman. Operating costs.
    Mr. Latham. Operating costs. And that for some lines now 
today, that some of the fares are too expensive to begin with.
    Mr. Boardman. That is what we hear from our customers.
    Mr. Latham. And so we are going to be expanding the system 
dramatically. Is the expectation going to be, from one of you, 
that, with all this new investment in high-speed rail, and it 
sounds good and everything, that we are going to do any better?
    Mr. Boardman. Yes. Let me address that. First of all, for 
the fleet that we are talking about here, this is not an 
expansion.
    Mr. Latham. I realize that.
    Mr. Boardman. It is a replacement.
    Mr. Latham. But it is a model of, you are saying the fares 
are already too high, and we are going to be building this 
whole new system again. And you are talking about not even 
recovering capital expenditures.
    Mr. Boardman. Well, capital expenditures in terms--yes. You 
cannot cover all your capital, just like you cannot in any of 
the other modes. So setting capital aside, what I want to 
address is your question about whether this gets paid for in 
the future, and how do we deal with this.
    And that is that when you really look at how do we, how 
should Amtrak go forward, the Northeast Corridor is one piece 
of Amtrak. It has the national system, which connects coast-to-
coast, border-to-border. And it is just a requirement here, 
just like the interstate highway system is you cannot stop it 
at the border, you have to have it go through.
    Commuter rail systems need to stand on their own. They are 
funded often by Peter, but they need to stand on their own when 
they deal with Amtrak, and they have to pay for themselves. So 
Amtrak looks at that as part of a business proposition for 
Amtrak, not a subsidy proposition for Amtrak. So there should 
be money coming in the door.
    And Congress has made that very clear to us in the past, 
that it is important on the commuter side of things that Amtrak 
make money with that.
    It is the same in the high-speed rail that is being 
proposed for Amtrak. Amtrak looks at those, we want to operate 
the high-speed rail, but Amtrak has to be paid for that by 
those that are funding the high-speed rail. And the expectation 
by them, the estimates, the decisions that they make, are the 
decisions that pay whoever the operator is to run that.
    So Amtrak is looking like a business, Congressman, to 
deliver the product at a lower cost to Congress for the future. 
That we have less subsidy, that we cover more of our costs, 
because we are finding more business opportunities to do that.
    Mr. Szabo. The high-speed rail program essentially is a 
state driven program for the capital needs that are federally 
funded. So ultimately it is the states that have to assume 
responsibility for the operations, should there be any deficit.
    But the model that you actually want to compare it to is 
the Acela service. You know, where, again, from an operating 
standpoint, they are covering operations, and perhaps a little 
bit above, but the capital is provided.
    Mr. Boardman. Let me--and Joe, you brought up the right 
thing, and I did not say it. When we estimated the new 
Lynchburg Service that started last year here in Virginia, what 
the cost would be, we picked up enough ridership that there was 
no necessity for a subsidy by the State of Virginia for that 
service here just recently.
    So there is a backlog of demand that is out there, that I 
do not think is well understood, in the country, of the 
services that are being desired.
    Mr. Szabo. Yes. The bottom line is that when you have the 
frequency of service, the quality of service, it generates 
ridership. You have a very, very strong opportunity to, at a 
minimum, cover your operating costs.

                        FUNDING TRANSIT AGENCIES

    Mr. Latham. Are not a lot of the local transit 
organizations asking the federal government for operating funds 
this year?
    Mr. Rogoff. There is a lot of focus on the desire for 
operating funds, because we have service cutbacks going on, and 
layoffs going on at a number of transit agencies really, coast 
to coast. And that comes even after we have boosted our 
agency's funding of those agencies, some 84 percent in a single 
year, through the Recovery Act.
    The vast majority of that money was for capital expenses. 
There was some additional flexibility granted to allow that to 
be used for, about 10 percent of each large agency's grant 
could use it for operating expenses.
    But the reality is, between the loss of sales tax revenue, 
especially transit agencies that are dependent on sales tax 
revenue, those revenues went down so fast that they are really 
struggling to keep services and employment levels constant.
    We even have some transit agencies that are dependent on 
property transfer tax revenues. So you can imagine what 
happened to those in the real estate bust.
    So yes, there has been increased focus. We heard a lot of 
it last week, when the transit agencies and the unions were in 
town. And we are looking at some, in some states, some really 
quite dire cuts.
    Mr. Latham. Does the plan take that into consideration long 
term? Or does your budget this year allow for funding for 
operations at the local level?
    Mr. Rogoff. Our budget does not have increased flexibility 
specifically for operations. There already is flexibility in 
the law that allows capital funds for some operating-type 
costs--this whole debate really pertains to agencies in cities 
of 200,000 or more. They are the ones that must use their funds 
solely for capital expenses.
    But our definition of capital expenses also includes 
preventive maintenance. That is, in many cases, an operating-
type expense. But here, you go right of the tension that we 
talked about before; and that is the tension between operating 
costs and the tension of putting enough money in the state of 
good repair on the capital side to keep things up and running.
    And the Secretary has said that he has an open mind, and is 
interested in having a dialogue with Congress as to whether 
operating costs should be, at least on a temporary basis, 
recognizing the current economic reality, a permissible 
expense.
    But we do not propose anything in the budget that expands 
that opportunity at present.
    Mr. Latham. Okay. And I have run over, Mr. Chairman. Thank 
you.

                   FTA NOTICE OF FUNDING AVAILABILITY

    Mr. Olver. I think you are trying to get us back to five-
minute sessions here, but that is perfectly all right. We can 
go back and forth.
    I would like to explore a little bit the program that I 
mentioned, the two NOFAs that you have out that you have worked 
on.
    Have you found, in those that have been assessed by now, 
you have got all the applications are now in. You know you have 
how many, there are 65 applications in the one case, and in the 
other case, 150 or whatever it is.
    All those applications are now in and under assessment, I 
take it.
    Mr. Rogoff. They are under assessment. They are not all 
completely assessed.
    Mr. Olver. Do you find them to be cookie cutter kinds of 
applications?
    Mr. Rogoff. No. We are actually finding a very broad 
diversity, both under the urban circulator and the bus 
livability programs, some urban, some rural, some suburb, and 
some coming at the livability challenge, fulfilling two or 
three or four of the five principles that we articulated in the 
NOFA.
    Mr. Olver. Okay. In the case of the, well, the TIGER grants 
were being covered and being assessed by all of you, I take it.
    Mr. Rogoff. Correct.
    Mr. Olver. Or at least, I do not know whether you were 
involved in the assessment.
    Mr. Rogoff. No.
    Mr. Olver. But at least the two Administrators here were 
involved in TIGER grants.
    Mr. Rogoff. As was highways and----
    Mr. Olver. Along with MARAD and so on. Did you, in those 
that you have seen or know about, were they one size fits all 
in any way?
    Mr. Rogoff. No. Especially because the TIGER eligibility 
was so broad, we had everything from freight rail projects, 
including port projects. This was, I think, one of the great 
opportunities that we fulfilled in the actual awards. We had 
some true intermodal projects that combined highway 
improvements and the transit improvements in one grant.
    Mr. Olver. In the rail items, in the high-speed rail items, 
under the High-Speed and Intercity Passenger Rail Program, that 
$8 billion program, were they one size fits all?
    Mr. Szabo. Oh, no. On the contrary.

                               LIVABILITY

    Mr. Olver. All right. That was my impression. And it seems 
to me all of these things that you are talking about, and some 
of them have to do with the livability and sustainability 
issue, they are almost certainly, the sustainability and 
livability, the very definitions of those vary whether you are 
in an urban area, or a suburban area, or in a rural area.
    Mr. Rogoff. Correct.
    Mr. Olver. And what we are looking for is options, 
transportation options, that also meet the concepts in all of 
their glory of what sustainability and livability may be. That 
is my sense of this.
    So I am sorry, the Ranking Member earlier on made a comment 
about one, he is very worried about one size fits all. But I 
think what we have been doing is very much in contravention, 
direct contravention of one size fits all, it seems to me, in 
the transportation programs that we have been functioning in.
    Mr. Rogoff. Yes. And there are some enduring themes, but 
they are principally built around how you enable people to be 
mobile who either do not have a car or want to get out of their 
car or basically choose to use public transportation, to go to 
the community around them. So, let me give you an example that 
is an important livability challenge for us because it is an 
important emerging need for the whole nation: the elderly, 
especially the isolated elderly, and how do we allow the 
isolated elderly to age in place. I go up to northern Michigan 
every summer and in a lot of those communities, a lot of jobs 
have left and the people that are remaining in those 
communities are elderly. They need to go farther and farther to 
their healthcare services, whether it is the VA hospital or 
just to be part of the community and actually be able to go to 
the community center and get to the center of their town to get 
to shopping, to get to church. And not all of those elderly are 
on the road and not all of them should be on the road. That is 
a livability challenge.
    Mr. Olver. Let me get some comment----
    Mr. Rogoff. I am sorry.
    Mr. Olver [continuing]. From Mr. Szabo. I agree with you 
totally.
    Mr. Szabo. I just wanted to say whether you are talking 
about the TIGER grant program or whether you are talking about 
the high-speed rail program, the strength of them is the fact 
that it allowed DOT to shape the applications based on what 
their needs were and that there was absolute flexibility to 
meet state and local needs in favor of those applications. Or 
it was far from a cookie cutter; on the contrary, the exact 
opposite.
    Mr. Rogoff. It actually made it very challenging to have 
one application compete against another because of the 
diversity between them.
    Mr. Olver. At the same time, one cannot have things that 
have to serve a national plan essentially and not have things 
that simply do not connect with each other. So----
    Mr. Rogoff. Well, the applications, while flexible had to 
achieve----
    Mr. Olver [continuing]. Which is why we have high-speed 
rail corridors that we are trying to achieve a certain national 
kind of program----
    Mr. Rogoff. The applications have to be broader----
    Mr. Olver [continuing]. At the same time that sections of 
it might be quite different.
    Mr. Szabo. Yes.
    Mr. Olver. Right, have quite diversity.
    Mr. Szabo. Have to be part of the Administration's goals.
    Mr. Olver. Whose turn is it here anyway? Mr. Berry. You are 
going to pass? You are going to pass. All right. Mr. Latham.

                          REPLACING BUS FLEETS

    Mr. Latham. Thank you, Mr. Chairman. I want to go back to 
when we first opened up the hearing today talking about 
transit, you know, bus transportation systems, transit systems. 
In a State like Iowa, where we put in about 62 million dollars 
here, we get back about 38.8 million and we have the--it is 
kind of like Amtrak. We have got these really, really old buses 
sitting there that are not efficient, environmentally not very 
friendly. What can we do to address that? I mean, my 
communities are just having a real problem with all of this 
money going elsewhere and there are real problems at home. Can 
you help me?
    Mr. Rogoff. Yes, I can and I think we are helping and this 
is how. When you look at the Recovery Act, 11 out of the 12 
grants that went for transit in Iowa were used to purchase 
vehicles. In fact, there are some 249 new vehicles that have 
been ordered with Recovery Act dollars in Iowa. And what I am 
told is that between the Recovery Act resource and the regular 
5307 formula dollars that Iowa gets, over the last few years 
with these purchases, the percentage of your fleet that will be 
over-age will go down very rapidly, from about 60 percent to 40 
percent.
    But that said, if you remember from my opening statement, I 
said that one of the things we are concerned about is that 40 
percent of the bus fleet is over-age, which is to say these 
funds have now brought Iowa to the national average. So, 40 
percent, I would argue, is not good enough.
    We talked a lot this morning about the Bus Livability NOFA 
and what that was, was discretionary bus funds that we put out 
as a competition for livability principles. But in 2010, you 
also have generously granted us probably a historic high in 
unearmarked discretionary bus dollars and we plan to put that 
out for competition, too. And our focus for a large chunk of 
that money will, in fact, be State of Good Repair, to address 
things like not only the aging fleet, but aging facilities. So, 
that competition is upcoming. I will make sure that our region 
in Kansas City that deals with the Iowa folks everyday makes 
sure that everyone gets the full information they need to 
compete under that program because, as we said, we have made 
huge strides with the Recovery Act to deal with the aging of 
bus fleet, but we can do more.
    Mr. Latham. One concern I have, a lot of the buses did not 
replace the oldest buses in the State, if that makes sense, 
because a lot of the systems we have, they have some of the 
oldest buses, did not get funding.
    Mr. Rogoff. But a lot of the systems, in a State like Iowa, 
are funded through the statewide grant and it is up to the Iowa 
DOT to allocate those funds based on need. Also, Iowa has had a 
statewide earmark from time to time for bus purchases. So, I 
think there is maybe some work to do. It is called an earmark. 
It is hard given my history to deride them, so I am just saying 
it like it is. But, it is important. Perhaps a conversation 
also needs to happen with DOT more about how that gets 
allocated.
    Mr. Latham. In your testimony, you talked about creating 
two new programs out of the bus and bus facilities 
discretionary dollars that were not earmarked, one for 130 
million for the Urban Circular Systems Program, another for 150 
million for the Livability Program. In a place like Iowa, we do 
not have a lot of the urban districts and like we talked about 
have some of the oldest buses. I am just wondering if we are 
going to get--in the formula get--I hate to discriminate 
against, but the discretionary programs are not going to be 
able to fund rural transit systems. Where the new emphasis is, 
is away from places like where I live.
    Mr. Rogoff. Well, I will agree. Obviously, the Urban 
Circular Program is a hard one to bring into a rural context. I 
think you will see some rural grants coming out of the 
livability initiative. But importantly, we will put an even 
larger chunk of money on the street for the State of Good 
Repair Program, and that is one which I expect especially 
systems with aging facilities and their aging fleet will do 
well.
    I think what you may be referring to is in our budget 
proposal. If we merge the bus program into a formularized the 
State of Good Repair Program, will it recognize bus needs. And 
it is our expectation that it will fully recognize bus needs 
and buses will get--you know, the majority of my operators are 
soley bus operators. While rail gets a lot of attention, the 
reality is not only the majority of our operators, but the 
majority of transit trips are taken by bus and we have not lost 
sight of that.
    Mr. Latham. Okay. I see I am out of time, Mr. Chairman.

                              TIGER GRANTS

    Mr. Olver. Thank you. For the two of you, who are involved 
in the TIGER grant assessments earlier, do you expect to be 
equally involved in the TIGER grant assessments for the 2010 
monies, 600 million dollars that are out there?
    Mr. Rogoff. I believe it is our expectation that it will be 
standing up the same interagency teams to evaluate those 
grants.
    Mr. Olver. Are you aware, if you want to sort of confer and 
agree on what the timetable is likely to be on when those are 
ready to be out?
    Mr. Rogoff. I think the goal is to----
    Mr. Olver. That would be up to the Secretary, I suppose.
    Mr. Rogoff. Yes. I mean, I am quite sure the goal is to 
complete that process through the summer to get awards out in 
the fall and we have just not been given a hard schedule yet.
    Mr. Olver. Well, given the job situation, the earlier the 
better, of course, on those things from my point of view.
    Mr. Rogoff. And we are taking the same approach with our 
discretionary transit dollars. The Recovery Office very much 
wants us to get that on the street as soon as we can.

                          NEW STARTS CRITERIA

    Mr. Olver. Mr. Rogoff, on New Starts, the Secretary 
announced earlier that you were going to now be evaluating 
equally all the criteria when considering projects for the New 
Starts Program. Exactly what does that mean?
    Mr. Rogoff. Well, it was a major change. As you may be 
aware, Mr. Chairman, in the statute for evaluating New Starts 
projects, there are designated areas which we are supposed to 
evaluate projects and they include mobility benefits, economic 
development benefits, land use, and how that land use planning 
fits into the value of that project, and environmental 
benefits. In 2005, that whole process got done away with and 
the only criteria to get funding in the President's budget was 
the cost effectiveness index, a very narrow criterion. And what 
we found is that criterion was actually working against our 
livability goals because it was resulting in some very perverse 
effects on which projects got funding and which projects did 
not. And some of the very reasons why projects were running 
afoul of the cost effectiveness index were things that we 
wanted to promote. There were even some projects that wanted to 
have added safety equipment and had to take that safety 
equipment out because of the added cost. So, the Secretary 
announced that we would do away with that single criterion and 
go back to the approach that is in the law.
    Mr. Olver. Does that mean that there is going to be sort of 
a scoring mechanism whereby each of three or five categories of 
considerations have equal weight in the scoring? How does that 
function?
    Mr. Rogoff. Well, the SAFETEA----
    Mr. Olver. How does the concept of equally evaluate all the 
criteria----
    Mr. Rogoff. The SAFETEA-LU Technical Corrections Act 
included language to require us to weight them all equally. 
What they were trying to get at was to get around that single 
criterion focused on cost effectiveness. We now have language 
that tells us to weight them equally. I will tell you this, we 
are going to put an ANPRM on the street shortly soliciting 
input from all stakeholders to ask them how they think we 
should evaluate these projects going forward. So, we are taking 
a fresh look at this whole issue with the input of the public.
    Mr. Olver. Okay. And so what kinds of projects are really 
going to benefit from this change?
    Mr. Rogoff. Well, I think the kind of projects that will 
benefit are those that, in some ways, embody the livability 
principles and that they have very, very good land use 
planning, even if they may have expensive right-of-way that 
they need to procure. Let me give you one example because that 
is the most concrete example we have. We have a project that 
was going to fail, potentially fail the cost effectiveness 
index and now because of the change, we can do better things 
with it. That is the light rail system between Minneapolis and 
St. Paul. In order to not run afoul of the cost effectiveness 
index, the Met Council is going to build, instead of three 
stations in the heart of the African American and Asian 
community in Ramsey County, only foundations for the stations, 
but not the stations themselves. This change has allowed us to 
partner with them to build those three stations, which we think 
is a laudable and important goal.

                              SMALL STARTS

    Mr. Olver. Okay. Let us see here, I had one other thing I 
wanted to ask you. I notice in your testimony, you speak of new 
starts and small starts. What has happened here to the very 
small starts? There is no reference to the very small starts, 
only the lowest category in the reference and, also, it seems 
to me, in the budget, itself. Has it just simply been subsumed 
in the----
    Mr. Rogoff. Yes. The small starts. It is a parlance issue. 
The request that we have for the Small Starts Program embodies 
both the small starts and the very small starts. We do have 
different criteria for each. We do not generally have a----
    Mr. Olver. That is no more than 75 million in the small 
starts and no more than 250----
    Mr. Rogoff. Two-hundred-and-fifty, right.
    Mr. Olver [continuing]. Million total investment in the 
program, whereas the very small starts are generally viewed as 
80 percenters and the 50 million maximum for the project.
    Mr. Rogoff. And we do not generally include an explicit 
dollar requests for very small starts and, therefore, it is not 
exclusion by design. It is just sort of how we have handled it 
in the past.

                  HIGH-SPEED INTERCITY PASSENGER RAIL

    Mr. Olver. To Mr. Szabo, I think you have done a wonderful 
thing in managing the way we have gotten out the program thus 
far because we did throw in the ARRA funding a year ago and a 
lot of stuff at the agencies, particularly the FRA. They are 
something quite unexpected for anybody who had been watching a 
month before it had happened. Can you give me an update as to 
just how you have been doing on the adding of personnel that 
come out of the needs for--let us see here--writing for the 
2011 budget, where you have asked for some additional 
personnel. So, it is in the 2010 budget. How are we doing on 
the development--on the filling of those positions that you are 
allocated in the 2010 budget?
    Mr. Szabo. Well, extremely well. We have been working 
diligently at getting new personnel hired. We have several of 
them on board. Mark, we have an actual total of how many in so 
far? Yes, five on hand so far, but continue to do the 
interviews. Very happy with the caliber of the personnel that 
we are getting. We feel good about the future and the staffing 
that we are getting on board.
    Mr. Olver. Okay. I am going to ask more specific questions 
of you in that area later.
    Mr. Szabo. Okay.
    Mr. Olver. From my point, I do not want to make my ranking 
member too annoyed at me. I would like to know, how are we 
doing on the awarding of the announced $8 billion in the high-
speed rail grants? Where are we on the process of the award, 
the actual award of those because that means contracts and 
such.
    Mr. Szabo. Exactly. What we have done, we put into effect a 
fast track process. We are working with the State DOTs and 
helping them prioritize their projects, to determine which ones 
clearly are the most ready to go. And essentially, what we are 
doing is setting up a process where it is almost like your 
faucet, where you turn the water on and it just steadily 
continues to flow out. And so by getting those projects that 
are most ready to go out the door right now, as we continue to 
help the States further develop those, it just made a little 
bit more work. And continue to work on those, it made quite a 
bit more work, we get this steady progression.
    Mr. Olver. That is perfectly reasonable, it would seem to 
me. Have any been awarded now, actually awarded?
    Mr. Szabo. No.
    Mr. Olver. When are we going to begin to see that faucet 
begin to open?
    Mr. Szabo. I would say about----
    Mr. Olver. That is where the jobs are. When they are 
awarded, then they can begin to move on them.
    Mr. Szabo. Yeah. I would say about the next 60 days.
    Mr. Olver. Sixty days. And those awards, do you expect 
those to be all awarded by the end of this year, by the end of 
this fiscal year?
    Mr. Szabo. Yeah. There will be some letters of--some 
cooperative agreements, some letters of intent. You know, it is 
a little bit again like there is not the one size fits all, 
where everything will be a fixed agreement.
    Mr. Olver. I sort of mixed up the argument. The argument I 
made was in the ARRA fund, which the actual announcements were 
made back in January.
    Mr. Szabo. Right.
    Mr. Olver. The 2010 monies, the $2.5 billion for that, are 
they going to be following the same sort of a grant process?
    Mr. Szabo. What we will be doing, actually, there will be a 
couple of NOFAs coming out. By the end of March, we will have 
our notice of funds available out for the planning money that 
comes out of the $2.5 billion. And also for the----
    Mr. Olver. Which was how much? Remind me?
    Mr. Szabo. $50 million for the planning money.
    Mr. Olver. $50 million for the planning money.
    Mr. Szabo. And the NOFA will be out by the end of this 
month, by the end of March on that. And then also the remaining 
balance on the 2009, the 50-50 project money, we are going to 
circle that back out around----
    Mr. Olver. So, you are still working on 2009 money?
    Mr. Szabo. Yes. There was a little bit of 2000--some loose 
change I would call it. It was 50-50 project money. It was 
track four under the last round that was put out. And, first, 
because there was 100 percent money available under ARRA, not 
too many folks applied for the 50-50 money. And, so now, we 
have the States coming back, they are saying, you know, now 
that awardees have been selected, would you put that out for 
another round of applications?
    Mr. Olver. The $2.5 billion is match money.
    Mr. Szabo. The $2.5 billion, we will have the NOFA out on 
that by the end of the spring and that is match money at the 80 
percent federal with the 20 percent state or local match. And, 
again, the goal is to have that awarded by the end of this 
fiscal year, by the end of September.
    Mr. Olver. Okay.
    Mr. Boardman. I think all the Administrators put 50-50.
    [Laughter.]
    Mr. Olver. What I now have is my ranking member has another 
question. I should shut up and then we will be able to go. Mr. 
Latham.
    Mr. Latham. No, I am just curious what has gone out. I 
mean, there is no contracts----
    Mr. Rogoff. You are talking about on the eight billion?
    Mr. Latham. Right.
    Mr. Szabo. Again, the announcement was just made 60 days 
ago. We are in the process of working with the States and in 
the next 30 to 60 days, we will see some initial awards made.
    Mr. Szabo. It is probably worth remembering, I mean, the 
idea of the stimulus was----
    Mr. Olver. More of the high-speed rail. We put $8 billion 
out, but we still could not get any working.
    Mr. Latham. I know. But, you are not going to be able to 
plan long term if there is not a commitment. And my point is 
that we should be putting a hell of a lot more money into this 
than we should in spending on other programs that have no long-
term benefit. And, obviously, this is not having a stimulus 
effect now either because there are no contracts that are let. 
The money is not going to go out of the door probably for a 
year or more at least before anything actually happens. So, I 
mean if the idea of a stimulus was to stimulate the economy, it 
is not working.
    Mr. Szabo. But if you recall when the stimulus bill was 
passed, there was a third----
    Mr. Latham. I remember.
    Mr. Szabo [continuing]. An exception was made for the high-
speed rail program that gave us until 2012 to obligate the $8 
billion. And an important part of this, you know, is getting 
the States prepared. The States have had 80 years of experience 
in executing road and highway projects. They are very 
experienced. They have, you know, instead of plans on a shelf, 
but as soon as funding becomes available, they have their next 
project that they are ready to move forward. In most cases, the 
same was not true in States when it comes to rail. So, it is a 
matter of partnership, working together.
    Mr. Latham. I think you are making my point, is that they 
will never have long-term plans if there is not a funding 
source out there. And rather than spend money on a bunch of 
other things that will not do anything besides grow more 
government, we should actually have this commitment out there, 
so that they can plan for the future. This is where we have 
been. He is starving over here and you are saying that you have 
$8 billion sitting there that you are not going to get out of 
the door, he can spend tomorrow, right? Could he not spend it 
tomorrow? Does not he have a need for it?
    Mr. Boardman. I would take a good shot at it. [Laughter.]
    Mr. Latham. No. But this would actually create maybe some 
jobs right away if he had that money here today, rather than--
--
    Mr. Szabo. Obviously, there is a challenge with the high-
speed rail program because you are balancing sometimes 
conflicting goals, which is the immediate job creation, but the 
transitional----
    Mr. Latham. It is a stimulus package. The idea was to 
stimulate the economy.
    Mr. Rogoff. Well, just to weigh in, I just want to remind 
you, since we are talking specifically in the rail context. 
When you look at our other surface transportation initiatives, 
my agency's stimulus money, $8.4 billion dollars, is 100 
percent obligated and 25 percent disbursed. Highway is not very 
far behind me. Money is getting into the ground. Albeit, we did 
recognize, when I was in a different capacity, when we put in 
the high-speed rail money, that it would need a longer 
obligation deadline because a lot of these projects were 
starting without a lot of experience.
    Mr. Szabo. We are setting up a brand new program. But, we 
feel good about the progress that has, in fact, already been 
made and feel good about the direction that we are heading.
    Mr. Latham. I wish I could feel better with you. That is my 
only question, Mr. Chairman.
    Mr. Olver. With that, I think you may actually agree with 
me that the $1 billion, which is a continuation for the next 
year, which is in my original comments, if that seems not 
enough to keep the momentum, to give people the sense that we 
were really serious about this----
    Mr. Latham. We just had testimony they cannot spend it now.
    Mr. Olver. Well, I will explore that a little bit further, 
now that you had that opportunity. Mr. Szabo, on the Northeast 
Corridor, you said earlier in the very beginning, it was an 
answer to your question, I think, rather than in your 
testimony, that Amtrak was eligible for high-speed rail money.
    Mr. Szabo. The Northeast Corridor.
    Mr. Olver. The Corridor, the Corridor.
    Mr. Szabo. It would be a matter of the States applying----
    Mr. Olver. The States applying----
    Mr. Szabo [continuing]. The appropriate----
    Mr. Olver. But now, in order for the States to apply, a 
plan is under creation, is it not? How close is that plan ready 
to fly essentially? How close is that plan ready to fly, so 
that they may apply because you have a plan coming from the 
States.
    Mr. Szabo. This Committee has just been set up.
    Mr. Olver. Just set up?
    Mr. Szabo. This Committee has just been set up and we are 
just now standing up the mission. We are directed to stand it 
up under PRIIA, the development of--you know, what is truly the 
big bold vision, there continues to be isolated projects----
    Mr. Olver. Yes.
    Mr. Szabo [continuing]. That are eligible for funding----
    Mr. Olver. Yes, if they are ready.
    Mr. Szabo [continuing]. Immediately on the Corridor. This 
is really that vision that truly takes the Corridor to the next 
level.
    Mr. Olver. Well, okay. But, are not those projects all 
designed and ready to go, so that if, according to Mr. Latham's 
idea, you could just give them the money, that they can start 
building at the moment.
    Mr. Szabo. Not for the big bold vision. The State of Good 
Repair Projects----
    Mr. Olver. Ah, okay.
    Mr. Szabo [continuing]. Definitely.
    Mr. Olver. The State of Good Repair.
    Mr. Szabo. The big bold vision, no.
    Mr. Olver. Well, we have been getting a lot of stuff out of 
the FTA, as Mr. Rogoff points out, and maybe particularly--
well, certainly on the bus transit issues and State of Good 
Repair. But also in the rail modernization, the 5309 funds, 
those get out there and that was what drove the House to put a 
sizable amount of money into the rail modernization issue, into 
the 5309 issue, in the job bill, which we passed back in 
December. The time begins to flow, which is also in the black 
hole on the other side of the Capitol. So, we have lots of 
opportunities here for the use, good use of monies, if we have 
the monies.
    Mr. Rogoff. And I would just chime in. Rail modernization 
funding is a great stimulus program because it is one of the 
best opportunities to get money in the ground quickly. It 
generally does not require complex environmental work, does not 
require extensive design, and it puts a lot of people to work. 
I am not going to comment about the black hole on the other 
side of the Capitol.
    Mr. Olver. The State of Good Repair rarely requires--it may 
become an emergency, in which case you absolutely put aside all 
environmental concerns. But, usually, because it is all on the 
right-of-way that is already in use for the State of Good 
Repair, go ahead with it. That is what we did it that way for.
    Anyway, I thank you very, very much. This has been a good 
discussion. I wish there was a lot more members that were here 
today to take part of it. They would get their answers along 
with the four of us who were here for the event. Thank you and 
we will have further discussions.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                          Thursday, March 25, 2010.

  HIGHWAY SAFETY--THE FY 2011 BUDGET REQUEST FOR THE NATIONAL HIGHWAY 
                     TRAFFIC SAFETY ADMINISTRATION

                                WITNESS

DAVID L. STRICKLAND, ADMINISTRATOR OF THE NATIONAL HIGHWAY TRAFFIC 
    SAFETY ADMINISTRATION

                    Chairman Olver's Opening Remarks

    Mr. Olver. The subcommittee will come to order.
    I want to welcome the administrator of the National Highway 
Traffic Safety Administration, David Strickland to the 
subcommittee.
    Mr. Strickland, you have been on the job for slightly less 
than three months. By all accounts, three eventful months. I 
thank you for coming before this subcommittee today with 
NHTSA's 2011 Year budget request. Your budget is small enough 
that I think I can understand it.
    At its core, NHTSA is tasked with improving the safety of 
passenger travel on our highway system and has played a 
significant role in the steady reduction of fatalities per 
vehicle mile traveled. It is estimated that fatalities in 2009 
dropped to under 34,000, the lowest on record since 1954. 
However, as the economy recovers and people begin to travel 
again, NHTSA will need to remain focused on continued safety 
improvements across our transportation network.
    The 2011 budget proposal before us today requests a total 
of $877 million for the programs within NHTSA. In particular, I 
am interested in the $50 million proposal for a new Distracted 
Driver Initiative. The explosion of wireless devices and in-
vehicle entertainment systems presents significant safety 
concerns offering multiple opportunities to distract drivers' 
attention from the road. I am interested to hear how this 
initiative will use learned lessons from past campaigns to 
change driver behavior.
    In addition, I look forward to discussing the Agency's 
request for 33 additional FTEs. The recent investigation into 
Toyota and NHTSA's response to safety complaints have raised 
questions about the Agency's technical capacity to critically 
assess the advanced electronic components within modern 
vehicles. In light of these investigations, I am interested in 
better understanding how the requested FTEs are proposed to be 
allocated and how many are slated to expand vehicle safety 
oversight activities.
    Administrator Strickland, by its nature NHTSA has the 
unfortunate burden of making news only when mistakes are made 
and tragedy occurs. Moving forward this subcommittee is 
committed to working with you to strengthen the Agency's 
oversight capabilities and ensure that every effort is made to 
achieve optimal safety on the highways and roads.
    Before we hear from you I would like to recognize our 
Ranking Member for any remarks that he wishes to make.

                Ranking Member Latham's Opening Remarks

    Mr. Latham. Thank you very much, Mr. Chairman, and welcome, 
Administrator Strickland, here. I just personally thank you for 
coming by and having a chance to visit. I appreciate that very, 
very much. It is very, very helpful.
    Looking across the entire jurisdiction of this 
subcommittee, NHTSA really stands out as one of the most 
important modal administrations within the Department, and 
while the key statistical measurements for fatalities are going 
in the right direction--for instance, traffic fatalities down 
8.9 percent in 2008--the fact that still 33,963 fatalities 
occurred in 2009 shows there is still a lot of work to be 
done----
    Mr. Strickland. Yes, sir.
    Mr. Latham [continuing]. And we can not let up at all on 
safety. Much has been said about NHTSA and the way it conducts 
investigations and recalls over the past couple months. Many 
Members on both sides of the aisle have criticized the 
Department and NHTSA over staffing, funding levels and 
oversight.
    Like many of the challenges that we face here in the 
federal government, simply throwing more money towards the 
problem and crossing your fingers and hoping for the best is 
not the answer. The challenges facing NHTSA are complex and 
multifaceted, and I look forward to the opportunity to delve 
into those issues during our questioning and answer here today, 
so welcome.
    Mr. Strickland. Yes, sir.
    Mr. Latham. And I yield back, Mr. Chairman.
    Mr. Olver. Thank you. Administrator Strickland, the floor 
is yours. Your complete written statement will be included in 
the record. If you could keep your oral comments to somewhere 
in the five, six minutes that would be fine.

                    MR. STRICKLAND'S OPENING REMARKS

    Mr. Strickland. I will be happy to do that, Mr. Chairman. 
Thank you so much for your kind invitation to present the 2011 
budget for NHTSA.
    Chairman Olver, Ranking Member Latham and distinguished 
Members of the subcommittee, I thank you for this opportunity 
to appear before you today to discuss the President's fiscal 
year 2011 budget request of $877.6 million for the Department 
of Transportation's National Highway Traffic Safety 
Administration.
    Transportation safety is the Department's highest priority. 
NHTSA's safety programs are an integral part of addressing 
those priorities. NHTSA's programs work and they work well. 
Three weeks ago the Secretary released numbers that show a 
continuing dramatic reduction in overall number of highway 
deaths. Our analysis projects that traffic fatalities have 
declined for the fifteenth consecutive quarter and will be 
33,963 in 2009, the lowest annual level since 1954.
    In terms of lives lost per 100 million vehicle miles 
traveled, the number of deaths dropped to 1.16, again the 
lowest level on record. This was almost a 9 percent drop in 
fatalities in one year, and this followed a 10 percent drop the 
year before.
    Your ongoing support of this Agency and its important 
safety mission over the years is paying off for the American 
public. I want to thank you, Mr. Chairman and Ranking Member 
and Members of this committee, for your unwavering support of 
NHTSA's budget request made over the years.
    Are we winning the battle in terms of highway traffic 
fatalities? Not yet. The loss of more than 33,000 people in 
traffic-related crashes in a single year represents a serious 
public health problem to our nation. We will not rest until 
that number is zero. We cannot and will not relent in any one 
area, and we must remain flexible and capable of rising quickly 
to meet new challenges.
    In short, we must do more, so once again we ask for your 
support. The fiscal year 2011 budget proposed by the President 
is a good budget that allows us to continue moving forward in 
our mission in a responsible and thoughtful manner. The request 
before you adds 66 more employees to NHTSA. We will target 
these positions to meet our program needs.
    Mr. Chairman, our budget does not sacrifice safety in any 
manner and fully continues the programs and activities that 
have been responsible for the remarkable reductions in 
fatalities over the past few years that I referenced. Because 
of funding anomalies during the past few years, it may appear 
that we are cutting spending in some areas and increasing it in 
others. We are allocating and tracking that money carefully and 
wisely in order to maintain our program flexibility and 
effectiveness.
    That flexibility is part and parcel of this Agency's 
success. We are delivering on our mission. For example, we are 
working with the Environmental Protection Agency, and we will 
deliver on President Obama's call for a strong and coordinated 
national policy for fuel economy and greenhouse gas emission 
standards for motor vehicles, and we will do so in a way that 
does not compromise safety. We expect to issue the final rule 
on CAFE on April 1.
    We are also on track to rule on our enhanced five star 
safety rating system for model year 2011 vehicles. For the new 
ratings, we made changes to the existing front and side crash 
rating programs. We also added a family of crash test dummies 
and a side impact pole test to increase occupant safety.
    We established an overall safety score that will combine 
the star ratings from the front, side and rollover programs. 
Finally, the Agency also implemented a program that we hope 
will encourage the demand for and the advance and the use of 
advanced crash avoidance technologies.
    Another programmatic success is our early fatality analysis 
reporting system, FastFARS, which is a relatively new program 
that this subcommittee provided the funds to initiate. FastFARS 
allows us to make fatality projections much earlier and more 
accurately, which aids us in reacting to trends.
    During my tenure I want to work with the Secretary and the 
Congress to strengthen and improve NHTSA so that it can 
continue to achieve its mission in saving lives, preventing 
injuries and reducing economic costs due to road traffic 
crashes.
    We will remain accountable to the President, the Congress, 
the Secretary of Transportation and the American public whom we 
all proudly serve. Thank you. I look forward to answering your 
questions.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Olver. That was wonderfully done within the right time. 
We will be fairly flexible about time here. Though I think I am 
going to try and be a good boy and stick close to the five 
minute allowances, so we can get back and forth and hear from 
both sides a little bit more often.

                           DISTRACTED DRIVING

    As we all know, Secretary LaHood has been extremely focused 
on the issue of distracted driving, and I would say really 
quite justifiably, and so not surprisingly the President's 
budget proposes a $50 million initiative to deal with that 
issue of distracted driving, which the distractions are just 
multiplying----
    Mr. Strickland. Yes, sir.
    Mr. Olver [continuing] On a daily basis almost. Now, this 
subcommittee took some criticism a year and a half or so ago 
for approving a simple $1.5 million reprogramming of money as a 
reduction in the Office of Safety Defects Investigation. You 
can see probably why we might get some criticism for that, but 
here we have a $50 million reduction from the account that 
deals with seatbelt problems and programs that develop seatbelt 
usage.
    So first of all I would like to know how you intend to use 
these resources if the Congress goes ahead and provides, as has 
been proposed, the dollars asked for in the budget for the 
distracted driving program. How will you allocate those 
dollars, and how will those be used in dealing with that issue?
    Mr. Strickland. Mr. Chairman, the distracted driving grant 
program will be similar to what we do in impaired driving and 
in belts, which is to create incentives for states to pass laws 
to decrease the amount of distraction, whether it is a texting 
ban or hands free devices.
    We have provided a sample law for states in order for them 
to follow a model which would increase safety and decrease the 
distraction risks on the road. So the $50 million will be a 
program that is patterned after the very successful programs 
that we have had in impaired driving and in primary belts.
    Mr. Olver. Can you give me a sense of what the experience 
is in the states up until now? You have already created the 
model law, and I read now and then something about what one 
state or another is doing. What is the present status? How many 
states are dealing with this and how comprehensively?
    Mr. Strickland. Well, at this point we have approximately 
20 states that have passed distracted driving laws, including 
six states that have full bans.
    We have a tremendous amount of activity at the state-level 
with several dozen bills that have been placed upon the states' 
legislative calendars. The hope is that this distracted driving 
grant program would be the additional incentive to get those 
states over the top, which is clearly what we have always done 
in the impaired driving and primary belt programs.
    We want to try to give the states that additional 
incentive, and especially in this area of distraction where 
there is momentum. There is a lot of attention. There is a lot 
of activity, but there is always the issue with those that 
believe that is not a proper role for the states to be placing 
new laws upon drivers and all these issues that we have dealt 
with and the similar sort of push back that we faced in 
impaired driving and in belts.
    We believe from our contact and our work in the states that 
this incentive will be the tipping point to move many more 
states into passing laws regarding texting and overall 
distraction.
    Mr. Olver. Okay. You have 20 states that have done 
something, and you said a handful--you did not use the word 
handful----
    Mr. Strickland. Multiple.
    Mr. Olver [continuing]. But several that have----
    Mr. Strickland. There are several states.
    Mr. Olver [continuing]. Comprehensive bans. There must be 
new things that have come up every day----
    Mr. Strickland. Yes, sir.
    Mr. Olver [continuing]. So whatever there is today, within 
a few months there will be something else that comes out.
    Mr. Strickland. There is a variety of legislative 
proposals. Some of them are texting bans. Some of them have age 
parameters. Some of them have different concepts. Our goal is 
to try to move all the states to the best, most protective laws 
possible.
    Yes, you are absolutely right, Mr. Chairman. There are new 
threats and there are new distractions and there are technology 
issues every day. The goal is to try to provide a foundation of 
these laws for the states that is not following the tail of new 
technology, but creates a template so that as new threats 
arise, the states are better able to have programs to enforce 
and protect.
    Mr. Olver. Tell me how we can feel comfortable if we move 
that $50 million out of the seatbelt program, reducing the 
seatbelt program and creating this one, how we can be 
comfortable that we will not have left the seatbelt program 
short?
    Mr. Strickland. You can be very comfortable, Mr. Chairman. 
From our analysis of the primary belt program, that money is 
used to incentivize states to move to a front initial to a 
first line enforcement program.
    The states that have an opportunity of passing a belt 
program and collecting those grant funds is nowhere near the 
amount allocated. We are probably expecting only two to three 
states to pass primary belt laws, so we may be expending 
approximately only $30 million or $40 million, so we would be 
leaving $100 million on the table that would not be utilized.
    The distracted driving program, on the other hand, is an 
area that is an emerging risk. States are very active, and it 
does move the goal of safety forward. You will not be 
compromising the primary belt program in any way if the 
decision by this subcommittee is to allocate those funds in 
this particular way.
    Mr. Olver. All right. Thank you very much. Mr. Latham, you 
have at least six minutes. I believe that I have gotten both 
questions answered in that time.
    Mr. Latham. You are not alone in that disbelief. All 
kidding aside, I want to continue on the same subject of 
diverting the $50 million from the seatbelt enforcement grants 
to this project.
    There is really in your testimony and the budget there is 
really very scarce justification as far as what you actually 
are intending to do and how these incentives will force states 
to make the kind of changes.
    Kind of getting to the Chairman's point, are you talking 
about just banning cell phones? Texting specifically? What 
about hands free devices? Are you getting down to that? What is 
your recommendation?
    Mr. Strickland. Well, the sample law is a texting ban, 
which we find at this point from the research is that the 
physical manipulation risk is the most apparent, which is where 
the driver is taking their eyes off the road, handling a phone, 
dialing, reaching.
    When the eye comes off the ground line and down below the 
dash, that is where you really have what we believe to be the 
most emergent risk. We need further research in the hands free 
technologies, which we are currently doing, and I know that 
there is lots of work underway in taking a look at other types 
of distraction.
    So the template of the model law, which is dealing with 
texting, we believe to be the most efficacious of safety at 
this point. We will be doing more research. We will be making 
new recommendations. As we move forward in developing the 
program we will definitely communicate with this committee and 
with the authorizing committees, as we do with the impaired 
driving program and the belt program, to properly align the 
criteria for the states to qualify for that money.
    Mr. Latham. And I guess on the research, I mean, are you 
using human research or is it just all data driven? What type 
of research are you doing?
    Mr. Strickland. NHTSA has actually done a great deal of 
research in this area already, but there is lots of human 
factors research that still needs to be done.
    For example, we will be undertaking a naturalistic driving 
study called SHRP 2 in the future. We have a distracted driving 
plan that is in process right now that we will be presenting to 
the Secretary very soon, and once that is done we will be 
coming and presenting to the Congress as well and talking about 
our research plan not only from the SHRP 2 work, but all the 
other research we are planning to undertake in this area.
    Mr. Latham. States' budgets are strapped today, and maybe 
just as a question have they been using seatbelt enforcement 
grants to keep highway patrolmen on the road? Are we going to 
get a lot of push back from the states saying that those are 
dollars that we use. We are having to cut troopers as it is.
    Mr. Strickland. No, sir. Once they have qualified for the 
grant, that money is expended and given to the states so that 
money will not be cut.
    The issue in question is whether or not there is enough 
money from the belt program for a state that actually passes a 
primary law within the time period. We will have the funds 
necessary. The states that are close to passing primary, the 
money will be available to them so we will not have an issue 
there.
    In terms of how states utilize the funds, they are allowed 
to use those funds for anything related to highway traffic 
safety. Part of it may be used for enforcement and for high 
visibility checkpoints, things of that nature. They also have 
the flexibility to use these funds for highway traffic safety-
related infrastructure changes as well. There is an opportunity 
to flex those funds.
    But the request that is being made, the $50 million, will 
not impact a state directly in terms of funds that they would 
receive from a grant that has been actually liquidated and 
provided to the state.
    Mr. Latham. Do you have a lot of push back from the states? 
I mean, do we have to spend $50 million? I do not know of any 
state that is not looking at distracted driving as far as 
legislation. I mean, you have a model legislation supposedly, 
but I always wonder about putting money into something that 
people would have done anyway.
    Mr. Strickland. From our work, we feel that there are 
several states that do need that additional incentive. As you 
know, sir----
    Mr. Latham. Can you name them?
    Mr. Strickland. I can get back to you with the specific 
names in terms of the states that we have contacted, but 
speaking generally, the legislative process, as you know, is 
very difficult not only for the purposes of safety, and we hope 
the policy goal would be enough to move them.
    Providing that additional grant money may be the tipping 
point. As opposed to a couple of states passing a law, we can 
maybe have 10 or 12 states passing a law, which is always the 
goal.
    Mr. Latham. This is a carrot, but any conversations about 
withholding funds if states do not do it?
    Mr. Strickland. The Department of Transportation supports 
both sanctions and incentives. They both work. In this 
particular policy we believe that states would be more 
effectively moved by an incentive program.
    However, I know there are several conversations in other 
pieces of legislation regarding distraction which also has 
possible sanctions, but we believe that the incentive program 
is the best way to move states in this particular time.
    Mr. Latham. What would those sanctions be?
    Mr. Strickland. There is one bill I believe that is----
    Mr. Latham. What are you recommending?
    Mr. Strickland. We recommend the policy as placed forward 
in the budget, sir, which is an incentive program. States 
normally do not take to sanctions very well.
    Mr. Latham. Boy.
    Mr. Strickland. We believe that the incentive program, 
after having conversations with the states and the 
stakeholders, is the proper incentive to move the needle. I 
think at this point that the policy as presented would be the 
most effective.
    Mr. Latham. Okay. I see the red light is on, Mr. Chairman. 
I will yield back.
    Mr. Olver. Six minutes goes quickly, does it not? Ten 
minutes takes longer.
    Just as a finish to that before I go on, I have heard 
several anecdotal stories of texting.
    Mr. Strickland. Yes, sir.
    Mr. Olver. The most dramatic one that I have heard of is 
someone who was weaving, crossing lane boundaries and so forth, 
slowed down and was sort of weaving and then finally stopped 
right in the middle of the travelway----
    Mr. Strickland. Wow.
    Mr. Olver [continuing]. And blocked traffic while finishing 
the texting that was going on. You know, this is really serious 
stuff I think.

                           MOTORCYCLE SAFETY

    Anyway, let me move on to talk about motorcycles. SAFETEA-
LU authorized a program of incentive grants to encourage states 
to adopt and implement programs to reduce the number of crashes 
involving motorcyclists, yet despite the funding that this 
grant program has had, $6 million or $7 million per year since 
2005, motorcycle fatalities have continued.
    In fact, they have more than doubled over the last 10 years 
from about 2,300 in 1998 to almost 5,300 in the year 2008. I 
would call that a pretty dramatic rise.
    Mr. Strickland. Yes, sir.
    Mr. Olver. Now, is your budget proposal for this year's 
program for continuation of the $6 million to $7 million range? 
What is your proposal?
    Mr. Strickland. Yes, sir. It is a continuation of the 
SAFETEA-LU program.
    Mr. Olver. Would more money be valuable there? Why are 
these fatalities continuing to rise, and with that much of a 
rise why is that happening?
    Mr. Strickland. The reason why we are seeing a rise in 
fatalities is because there are more riders that do not wear 
helmets. The thing that the Department has found, that NHTSA 
has found, in the data is that the one thing that can most 
effectively move the needle in protecting motorcyclists' lives 
is for them to wear a helmet.
    The education that is underway as part of the grant 
programs is important--teaching riders proper riding etiquette, 
trying to communicate to drivers of automobiles to be mindful 
of riders on the road--but the core is trying to get riders to 
wear helmets, and that has been a long on-going issue for NHTSA 
and the Congress for some time.
    In fact, NHTSA is limited in how we can even communicate 
with states across the entire spectrum of our programs because 
of the efforts several years ago in trying to incentivize 
helmet programs for the states. So the reason the numbers are 
moving up is because we have fewer riders wearing helmets, and 
the only way we are going to get those numbers moved down is to 
try to find a way to get those folks to wear helmets.
    Mr. Olver. All right. Now, with what my Ranking Member said 
here earlier, states clearly do not like penalties, but maybe 
this is a place where there needs to be some penalty. I am not 
sure exactly how one applies it to the states if people are not 
wearing the helmets--but obviously something else is needed. 
Something new is needed here.
    I do not know whether it is going to cost more money or 
not, but do you have any idea how you are going to have the 
impact that is clearly necessary?
    Mr. Strickland. We are underway in trying to find new 
strategies to communicate with the states in finding new ways 
to get riders to wear helmets. We will be happy to discuss 
those plans in more detail as we finalize them.
    Anything that the Congress does that would support the 
movement of riders into helmets would be efficacious of safety. 
We would be happy to discuss with you, Mr. Chairman and the 
Members of this committee, ways that we can help move riders 
into a safer posture.
    Mr. Olver. What the committee has done in the recent past, 
in the last couple of years, is we have kept an administrative 
provision in the Appropriations Act that gave the Secretary or 
his designee authority to work with states to consider 
proposals, to work with, cooperate with, collaborate with 
something on proposals that relate to the reduction of 
motorcycle fatalities.
    We have continued that language, and you propose continuing 
it. You have not suggested taking it out or anything, but we 
are obviously not having much success with it.
    Mr. Strickland. There is more to do, sir. I agree with Mr. 
Chairman. We have to do more. The long term question, and it is 
not only the trying to get riders to wear helmets. NHTSA is in 
an ongoing dialogue with states that are actually trying to--
the states that have mandatory helmet laws. We have lost some 
of those states. They have actually rescinded those laws in 
some areas.
    So in a lot of places, sir, frankly we are going backwards, 
and we need to redouble our efforts in this area in order to 
try to reverse this trend in motorcycle fatalities.
    Mr. Olver. Well, it is a safety statistic that is alarming, 
actually.
    Mr. Strickland. Yes, sir, it is.
    Mr. Olver. Thank you. Mr. Latham.

                             VEHICLE SAFETY

    Mr. Latham. Okay. In your budget you are talking about 
vehicle safety and the complaints that you get. You think about 
Toyota and all that. How many people do you have actually 
screening those?
    I know last year you averaged about 3,100 complaints per 
month. I think just since February you have already had over 
15,000, so the workload has gone way up obviously.
    Mr. Strickland. Yes, sir, it has. We still have the same 
number of screeners. We aim to try and get all complaints 
reviewed within one business day. That has taken a little bit 
longer now. Our folks are very adept at the work that they do 
and they are working very quickly.
    Mr. Latham. How many do you have? It is like 15, is it not, 
that do the screening?
    Mr. Strickland. Yes, sir.
    Mr. Latham. And then they make recommendations to the 22 
investigators?
    Mr. Strickland. That is correct.
    Mr. Latham. With that many complaints, that really----
    Mr. Strickland. They are very efficient at their job. It is 
one of recognizing trends and sort of knowing what to look for. 
They are very good at what they do, very efficient, and have 
been very effective in processing those 30,000 complaints a 
year.
    Yes, because of the attention that Toyota has created we 
have gotten more consumer complaints. The staff is working 
diligently, and, yes, their workload has increased, but they 
are managing it.
    Mr. Latham. The complaints, and we have so much information 
or publicity obviously with the Toyota situation, but the 
complaints that you were getting before. Just as far as the 
acceleration and the electrical system issues and all that, was 
that just Toyota? Were there other cars that were getting 
complaints on the same thing?
    Mr. Strickland. Sudden acceleration is an issue that is 
across the fleet in terms of complaints. We take each of those 
complaints very seriously and we look at those investigations 
individually.
    Toyota, in terms of the overall complaints since 2000 was 
probably in the mid range of total number of complaints in 
terms of sudden, unintended acceleration. Ford was I think the 
one with the most complaints during that time period.
    So those complaints affect the entire fleet, and we look at 
each of those complaints seriously with regard to which 
manufacturer actually has the complaint lodged against it.
    Mr. Latham. I am sure there has been some criticism that 
you did not catch this earlier, but, as the numbers would say, 
there was no reason that Toyota stood out from everybody else?
    Mr. Strickland. NHTSA is a data analysis agency. We look 
for the----
    Mr. Latham. I thought you were a safety agency.
    Mr. Strickland. Well, we are a safety agency that finds our 
work through data.
    Mr. Latham. Okay.
    Mr. Strickland. Folks tend to think that we go out and we 
look at every car in America that has a complaint. That is not 
true. What we do is we look for anomalies in the safety data, 
and when we find those anomalies we then take further action.
    From the work on Toyota and any other manufacturer, when we 
find those anomalies that create an unreasonable risk to safety 
we have acted and took action.
    Mr. Latham. Okay. So what kind of staffing model do you 
have as far as your request, because I am very concerned about 
being able to do this job the way it should be and maybe 
something could have been caught earlier. I do not know. 
Probably not if they did not stand out as far as the 
complaints.
    Do you need people with expertise today with electronics 
that you do not have on staff? I mean, are you contracting that 
part of it out or what?
    Mr. Strickland. A couple of answers to that, Ranking Member 
Latham. NHTSA had the proper experience on board to deal with 
these issues. Our electrical engineers, our folks out in East 
Liberty, Ohio, are fantastic automotive engineers and 
electrical engineers to deal with these issues.
    Can we be stronger in this area? Of course. NHTSA can 
always be stronger, and the President's request asks for 66 new 
employees and so we will be allocating them across NHTSA to 
move the safety mission, which includes more resources and more 
folks in the Office of Defects Investigation. We are in the 
process of hiring an additional electrical engineer, and we are 
reviewing our work, our load, and our expertise to try to find 
the best way to buttress our experience.
    In addition, we will be undertaking a comprehensive study 
of electronic throttle control systems and electromagnetic 
interference where we will be not only leveraging our own 
internal expertise, but bringing in outside experts and 
independent experts to take a look at not only Toyota, but 
systems throughout the fleet and our process in looking at 
them.
    Mr. Latham. Okay. Thank you, Mr. Chairman.
    Mr. Olver. Mr. LaTourette.
    Mr. LaTourette. Thank you very much, Mr. Chairman. Welcome, 
Mr. Administrator. It is good to see you.
    Mr. Latham. Thank you, sir.
    Mr. LaTourette. Before I talk to you about NHTSA, I want 
to, Mr. Chairman, sort of rise to a point of personal 
privilege.
    We had a hearing and we had a whole array of Administration 
folks here talking about a variety of subjects. An article 
appeared on March 17 in something called the Courthouse News 
Service, which I was not aware existed until this article came 
to my attention. The article is written by a fellow by the name 
of Nick Wilson. I just want to read the first paragraph and see 
if it comports with other Members' recollection of the hearing.

                               BIKE LANES

    The heading is Republicans Ridicule Bike Lanes, and it 
says: Republicans heaped ridicule on Transportation Secretary 
Ray LaHood at a Wednesday hearing after LaHood suggested that 
bicycling and walking are just as good ways to get around as 
cars. To laughter, Republican House Members suggested LaHood 
was taking drugs, dismissed the very idea of bike lanes and 
derided any change to a car dependent society.
    That does not comport with my recollection of what I said. 
I think it is scurrilous, to tell you the truth. Just so the 
record is clear, I have used every highway bill since I have 
gotten here to fund bike lanes, love bike lanes, love people to 
ride bicycles. My objection was the Secretary's apparent 
observation that half the highway trust fund should be utilized 
for that type of transportation and half for cars and other 
things.
    I do not know anybody that would agree with that, but 
unfortunately it is now making the way around the bicycle 
stores in my district. I have to go home over the recess and 
meet with a lot of people in spandex pants and tell them that I 
was not serious.
    Okay. Mr. Administrator, welcome to you.
    Mr. Strickland. Thank you, Mr. LaTourette.

                            REAUTHORIZATION

    Mr. LaTourette. The subject here has come up a couple of 
times about the lack of a reauthorization of the highway bill. 
In SAFETEA-LU, the last iteration in 2005, NHTSA received a 132 
percent increase for your safety related programs, and the 
question is is there any impact upon the Agency or your work in 
safety as a result of flat funding now and no reauthorization?
    Mr. Strickland. No, sir. The programs that were funded 
under SAFETEA-LU have been very successful, as noted earlier in 
my testimony about the projected fatality numbers of 33,963, 
which is a marked decrease from last year. The work ongoing, if 
the budget is approved, would enable NHTSA to provide grant 
funding to the states to continue the incentives which have 
been so effective.
    Now that we have the extension until the end of this year, 
it allows not only NHTSA but the states, to be able to plan 
more thoughtfully for the rest of the year. The one issue that 
I think was troubling to the states was the short-term 
extensions and not being able to plan their highway safety 
programs and the grant programs funded by NHTSA. Now there is 
consistency, which is very good in allowing us and the rest of 
the Department of Transportation to provide a reauthorization 
proposal to the Congress.

                            CARBON POLLUTION

    Mr. LaTourette. Secondly, in front of another subcommittee, 
Ms. Jackson, the administrator of the Environmental Protection 
Agency, came and talked a little bit about that agency's 
endangerment finding on CO<INF>2</INF>, among other greenhouse 
gases.
    And my question is basically based upon reports from the 
U.S. refining industry that our refining industry will freeze 
investment beyond maintaining operations if the EPA moves to 
regulate carbon pollution, I guess the question for NHTSA is 
from your perspective how will you make sure?
    I mean, one of the ways is making littler cars, lighter 
cars, things of that nature, and so what all are you doing at 
NHTSA to make sure that as the EPA moves forward with its 
greenhouse gas endangerment finding that we are not somehow 
losing safety?
    Mr. Strickland. In addition to the EPA's authority from 
Massachusetts vs. EPA and the Clean Air Act, NHTSA's 
responsibility under CAFE since 1975 has been to regulate fuel 
economy and to have safety as a consideration in the setting of 
those rules, not only from the basic foundation CAFE law.
    The CAFE reforms that were passed in the Emergency 
Independence and Security Act of 2007 created a reformed CAFE, 
which created a curve, if you will, for the entire nationwide 
fleet. The impact of that reform forces technology to be the 
driver of increasing fuel economy and not downweighting, so we 
believe the reformed CAFE will address a number of the 
anomalies that the old CAFE might have had in terms of 
impacting safety.
    Also, the work that we have done in preparation for the 
promulgation of the final rule is that while there are going to 
be other technologies and new materials to be used to achieve 
those fuel economy numbers, our projections are that if there 
is some notion of downweighting it would be in the very 
heaviest parts of the fleet. It will be the largest SUVs and 
not downweighting the smaller or midsized cars.
    So actually if the CAFE reform works as we anticipate it 
will, CAFE will actually improve safety for the entire fleet in 
the long term, so we at NHTSA are very confident that the new 
fuel economy regulations as implemented through 2016 will not 
only move the ball forward for fuel economy along with EPA 
working with us on greenhouse gases, but will also have not 
only a cleaner fleet, but a safer fleet in the long term.
    Mr. LaTourette. Thank you very much. Thank you, Mr. 
Chairman.
    Mr. Olver. Thank you, Mr. LaTourette. Now, Mr. Strickland, 
you made a comment here earlier that you look for anomalies in 
safety data. I am always looking for anomalies in data.
    Mr. Strickland. Yes, sir.

                        VOLUNTARY VEHICLE RECALL

    Mr. Olver. Sometimes I get way off in the weeds when I do 
that. I am curious to follow up on the comments that Mr. Latham 
was making earlier. The process whereby in your defects 
investigation program you get to the point of voluntary 
recalls. In your written testimony you speak of how many 
million vehicles have been recalled voluntarily somewhere along 
the way.
    It must start obviously with a single complaint, the 
isolated or the random complaint. When does that rise? At what 
point does that rise? At what level of repetition does that 
then trigger your investigation? You really cannot go after an 
individual complaint very effectively. You have to go after 
those that you are getting considerable repetition.
    At what point do you have serious communication with the 
auto company and so forth? What kind of resistance do you get 
there? When do they finally voluntarily get to the point and 
with what stick do you have to force them there? Will you give 
us sort of a rundown of how that occurs?
    Mr. Strickland. Mr. Chairman, I would be more than happy 
to. In terms of your question of what is the tipping point for 
the Office of Defects Investigation to open up a preliminary 
evaluation, a PE, or an investigation, it varies. There is no 
set number that you have to have this many complaints of this 
severity in order for us to open an investigation.
    There have been times when given the severity of the issue, 
we have opened an investigation with as few as five complaints. 
Sometimes it could be as many as over a thousand particular 
complaints. There is a notion of not only frequency and 
similarity of complaints, but the severity of it.
    If there is a fatality that accompanies that particular 
complaint, we pay very close attention to it because we do not 
want a situation where we are looking for more incidents of a 
certain type before we act because that could mean more lives 
lost. So it varies in terms of severity and the frequency.
    In terms of how the process works and the sticks that we 
have to influence recalls and investigations, we have a 
formalized process where we can force a mandatory recall where 
there are several ultimately public hearings and show cause 
procedures and ultimately the decision comes to me as 
administrator. If the staff presents me a mandatory recall 
request, I review the evidence and I can ultimately force that 
recall.
    Mr. Olver. You have not, I take it, triggered that in the 
three months of your tenure?
    Mr. Strickland. I have not found that pen yet, but it is 
close at hand.
    Mr. Olver. I see.
    Mr. Strickland. But in terms of that, the auto maker has a 
right to then challenge that mandatory recall order in Court de 
novo, which means that the entire record that the Agency made 
to force that mandatory recall goes away. The Federal District 
Court looks at it as a brand new case.
    So the process, if we went through a full mandatory recall 
process, could take well over a year to a year and a half 
internally for the Agency, and then if the auto maker chooses 
to challenge us in Court it can be even longer than that.
    Mr. Olver. Do you know how many times NHTSA has actually 
triggered that full process if it takes more than a year? I do 
not remember it getting to the level that requires that.
    Mr. Strickland. No. It is incredibly rare.
    Mr. Olver. That would be a major conflagration in the 
press.
    Mr. Strickland. It would be, and that is one of the reasons 
why NHTSA has been so successful in influencing recalls. We 
present evidence to the auto maker that we believe is an 
unreasonable risk to safety in this particular defect, and we 
will go forward with the process if they do not do so 
voluntarily.
    That is where I think, Mr. Olver, you made comment about 
the negotiation process and how much pushback happens. Auto 
makers will challenge us because a recall can run into the 
billions of dollars for a particular manufacturer so it is a 
very serious issue for them, but if they feel that we do have 
evidence of a defect that is a reasonable risk, the public 
scrutiny of fighting NHTSA over whether or not they should or 
should not execute a recall would be way more damaging to them.
    Mr. Olver. Do you have any recollection or institutional 
knowledge somewhere in the Agency of it actually going to that 
level? Have we gone through that in the last say five years 
that I have been Ranking Member or Chair of this committee?
    Mr. Strickland. There has been no----
    Mr. Olver. There have been none?
    Mr. Strickland. There have been no mandatory recalls.
    Mr. Olver. I see some shaking of heads.
    Mr. Strickland. There have been no mandatory recalls in the 
period that you have served on the subcommittee, sir, as 
Chairman. The issue, though, is that there are some auto makers 
that are more reactive than others to our requests. That was 
the issue.
    Mr. Olver. More responsive than others?
    Mr. Strickland. More responsive. Absolutely.
    Mr. Olver. All right.
    Mr. Strickland. That was one of the issues that we had with 
Toyota, that they were one of the slower manufacturers to 
respond to our requests and they often fought us longer and 
harder, which is the reason why the Agency before I took office 
took some extraordinary steps and then once I came into office 
took the extraordinary steps once again regarding the sticky 
pedals.
    Mr. Olver. Thank you very much. Mr. Latham.

                               INTERLOCK

    Mr. Latham. Thank you. You know, one of the biggest 
problems we have is people driving impaired and the interlock 
ignition standards. What are you doing? Where are we? Is there 
standards across to the states now, or is there any push to get 
states to adopt an interlock? Tell me what we are doing.
    Mr. Strickland. Well, actually that is one where we have a 
tremendous amount of research underway in terms of interlock or 
whether it is the current interlock technology or future 
interlock technology, and that is a long-term research project 
that we are underlying right now.
    In terms of incentives for the states, there was grant 
funding provided to encourage the use of interlocks in SAFETEA-
LU not for primary first offense, so you get caught driving 
impaired once. Oftentimes you have to have multiple offenses 
before you have an interlock device placed on your car.
    NHTSA and several safety advocates agree that a primary 
offense interlock is one policy that the states could adopt 
that would be incredibly effective and improve safety on the 
roads for impaired driving, and we are working very hard with 
our partners in the states to hopefully encourage those issues.
    That is something that we would like to work with this 
committee and the rest of the Congress. As we think about the 
next highway authorization, how can we better move the ball 
forward in terms of the usage of interlocks and interlock 
technology for impaired driving offenses.
    Mr. Latham. Okay. But you do not have an ``approved'' 
technology. Are you talking about also you have a model 
legislation supposedly with texting and all this. Are you 
talking about doing that?
    Mr. Strickland. No. No, sir. It is a performance standard, 
and I think NHTSA always tries to work through performance 
standards and not try to lock in particular technologies.
    Current interlock technology works. It is very effective, 
but there can also be ways to use interlock technologies in the 
future that could be better integrated into the automotive 
systems that could also prove to be very effective and less 
invasive, and that is the work that we are undertaking right 
now.
    Mr. Latham. Okay. I represent quite a rural district, and 
there is kind of certainly an unacceptable number of fatalities 
that happen on the rural roads, whether it is unsafe road 
conditions, maybe people more apt not to wear their seatbelts 
out in the country and impaired driving, again getting back to 
your point.
    Are you doing anything to better identify exactly what we 
can do in the rural parts of the country rather than just the 
urban areas?
    Mr. Strickland. Oh, yes, sir. Our programs reach every 
state and the District of Columbia and the territories, and we 
have to recognize the differences in those states in terms of 
urban density, in terms of driving patterns, in terms of needs 
of those particular states. We are very flexible in working 
with those states and dealing with their particular issues. For 
example, in states with large rural areas another component of 
this is emergency medical service, which is incredibly 
important because you do not have the urban centers where you 
have quick ambulance response.
    The one thing that NHTSA does and works very hard on--I am 
the chairman of the Federal interagency task force dealing with 
emergency medical services--for example, is to try to find a 
way to deploy emergency services better in rural areas so that 
when you do have an accident those citizens have the same 
ability and the same access to emergency care than folks that 
live in the cities. That is the goal.
    Mr. Latham. Did you deal with signage? I mean, if you are 
out in Franklin County, Iowa, at night and there are railroad 
crossings out there. There are no lights at the crossbuck. Do 
you deal with that at all?
    Mr. Strickland. No, sir. That is Federal Highways 
Administration. That is Administrator Mendez.
    Mr. Latham. Okay. That is not a safety issue.
    Mr. Strickland. It is a safety issue, but we deal with the 
car----
    Mr. Latham. Yes.
    Mr. Strickland [continuing]. And the behavior of those 
driving the car. Signage and other roadway issues are Federal 
Highways.
    Mr. Latham. Now, the extension on the highway bill. Are you 
going to have proposals for your Agency to be included in the 
reauthorization? Is anything tangible there today, or are we 
going to wait until March next year to get your input?
    Mr. Strickland. No. No. Secretary LaHood would not be very 
happy if I did not have a draft proposal ready to go. We have 
several principles that we are working on throughout the 
Department and within NHTSA, and our goal is to have a proposal 
to the Congress within the period of the extension.
    Mr. Latham. Okay. Thank you, Mr. Chairman.
    Mr. Olver. Mr. LaTourette.

                           SAFETY ENFORCEMENT

    Mr. LaTourette. Thank you, Mr. Chairman. You mentioned when 
I was talking to you before the CAFE rulemaking. It is my 
understanding that I think prior to your arrival that funds 
were transferred from--reprogrammed from--vehicle safety 
enforcement to rulemaking for that purpose. Is it correct that 
NHTSA has not asked for the safety enforcement budget to be 
restored? If that is correct, why?
    Mr. Strickland. Actually in terms of the money needed for 
CAFE and the money for rulemaking and enforcement, those funds 
were actually adequate. Basically the flexibility that we used 
took care of those sort of emergent issues as we were working 
through that.
    So there has been no diminution of funds in terms of what 
we do in enforcement and in CAFE. We are very close to 
finalizing the rule in CAFE in April, and we are beginning work 
on the medium duty and heavy duty rule, but we have proper 
resources in the fiscal year 2011 budget to take care of all of 
those issues.

                                 TOYOTA

    Mr. LaTourette. Great. The Chairman and the Ranking Member 
have talked a little bit about Toyota, and I want to talk to 
you about another aspect of it, but first of all are you 
involved, your Agency involved, at all with the guy that said 
he could not stop his Prius on the freeway?
    Mr. Strickland. I hate to say it this way. There are 
several investigations I guess and press reports about Priuses. 
There was one in Harrison, New York. There was one in San 
Diego, California. I am not sure which one you are alluding to, 
but we investigated both of those Prius incidents.
    Mr. LaTourette. I do not know which one I am referring to 
either. Just when I flip on the news there is some guy. Some 
people are saying he is a liar. Some people say----
    Mr. Strickland. We are a ``just the facts'' agency. We do 
not look at the driver's motives. We look at whether the car 
has a defect that poses a reasonable risk of safety.
    Mr. LaTourette. Staying on the Toyota theme, has NHTSA 
received any reports or complaints that a rival car company is 
sending out mailings that are marked Important: Toyota Recall 
Information and offer a bonus if you buy their car as opposed 
to a Toyota?
    Mr. Strickland. I am not aware of that. I will definitely 
ask the staff, and I will definitely get back to you about 
that. If that is an issue, the question there is that is a 
fraudulent, deceptive advertising technique which probably 
would fall under the Federal Trade Commission's jurisdiction, I 
would surmise, sort of putting on my hat from a former life and 
sort of dealing with that agency.
    I know that the auto makers are sharp elbow competitors and 
they will fully take advantage of an opportunity if they see 
one and we are definitely seeing that in the marketing across 
the board.
    But if there is deceptive advertising when we are having 
recall notices posing as advertisements, that is a serious 
issue and definitely we will take a look at that from our 
perspective and our authority, but we will definitely ask our 
sister consumer protection agency, the Federal Trade 
Commission, to look into it as well.
    Mr. LaTourette. I would appreciate that. When you are 
talking about a former life, you are talking about work in 
another agency and not reincarnation?
    Mr. Strickland. I was a staffer for the Senate Commerce 
Committee for eight years, and not only I dealt with NHTSA, but 
with Federal Trade Commission as well.
    Mr. LaTourette. On the issue you were talking to the 
Chairman about, recall, do you from your opinion think that 
NHTSA has sufficient recall authority? If not, what would you 
change?
    Mr. Strickland. We are taking a top to bottom look at all 
of our authorities, not only on the behavioral side, but in the 
vehicle safety side.
    Our base authorities are several decades old, the Motor 
Vehicle Safety Act of 1966, and current amendments are the 
changes in the 1970s. I think it is always the right thing to 
do as an agency is to look at its authority and to see if it 
can be improved, made more efficient, and we are undertaking 
that task as we speak.
    When we have recommendations we will be more than happy to 
present to this subcommittee and the rest of the Congress 
hopefully our recommendations for changes that we may think may 
be necessary to improve us.

                             FATALITY RATES

    Mr. LaTourette. I appreciate that. I just want to 
congratulate your agency. I know it has a lot to do with 
vehicle miles traveled, but it is my understanding that we had 
the lowest fatality rate since 1954----
    Mr. Strickland. Yes, sir.
    Mr. LaTourette [continuing]. Which is the year I was born, 
a 9 percent drop from last year. Aside from vehicle miles 
traveled, is there anything else you can point to that is a big 
factor in that drop?
    Mr. Strickland. Well, there are several. In addition to the 
significant drop that we have seen in our preliminary data for 
last year, we have been seeing decreases in fatalities for 15 
consecutive quarters, so that was well before the economic 
downturn.
    So, yes, while clearly the amount of discretionary driving 
has decreased because of the economy, NHTSA's programs have 
worked. Our impaired driving programs to eliminate impaired 
driving have worked. Our primary belt programs have worked. Our 
education and outreach have worked.
    We ask for this subcommittee to support the 2011 budget so 
we can continue that work, and we are looking forward to 
working with the subcommittee as well on the long-term 
reauthorization where we hope to take on more changes to 
improve our authorities in this area.
    Mr. LaTourette. Thank you. Thank you, Mr. Chair.
    Mr. Olver. Thank you. Am I correct that the actual 
fatalities per million miles traveled and so forth has gone 
down in this period?
    Mr. Strickland. Yes, sir, it has. Actually it is fatalities 
per 100 vehicle miles traveled, and that has dropped to 1.16. 
And that is a controlled number that is independent of 
economics, that is a real number.
    Mr. Olver. Right, within this two-year period where there 
has been a 10 and then a 9 percent drop, what has been the drop 
in that statistic?
    Mr. Strickland. That has dropped--give me one second, I 
know----
    Mr. Olver. I was quickly looking for the table to see what 
it said.
    Mr. Strickland. Yes.
    Mr. Olver. Now, there is a considerable drop in that as 
well, close to 10 percent, which is probably more remarkable. 
But maybe not, maybe that is just because if there is that much 
less driving going on the traffic on the road is considerably 
less congested and less travel within congested time periods 
and so forth. Maybe there is less anger going on because of 
waiting around and so forth. There have to be some reasons that 
go into it, but it is interesting that not only have the 
fatalities gone down dramatically but also, in the same 
percentage range, that particular measure has gone down as 
well.
    Mr. Strickland. Now, Mr. Chairman, that number was 1.3, so 
it dropped from 1.3 to 1.16. That was the drop in the period.
    Mr. Olver. In the two-year period.
    Mr. Strickland. Yes, sir, that you were asking about.
    Mr. Olver. Which is about 10 percent per year.
    Mr. Strickland. Yes, sir.
    Mr. Olver. Okay.
    Mr. Strickland. We would like to think hopefully not only 
education but more harmonious driving on the road and better 
citizens is always a good thing and if we can encourage that, 
we will definitely do that.
    Mr. Olver. Well, I hope that it can stay down there. As 
traffic comes back my concern is, and I do not know how you can 
stop it if traffic comes back because our road systems are not 
growing or getting that much better maintained, when the 
traffic goes up a slot we are probably going to see it slip 
upward. It should be your job to make sure it does not slip 
very far upward.
    Mr. Strickland. Yes, sir, Mr. Chairman, we understand that 
when the economy improves that we will see more discretionary 
driving and there will be more risk on the road and it will be 
a hard task for us to maintain the gains that we have seen over 
this two-year period in addition to trying to make advances 
getting that number below the 33,000. It will be a very 
difficult task and NHTSA is up to it and we will continue to 
work very hard in that area.
    Mr. Olver. Let me take up something else. I am sorry that 
Mr. Latham had to leave, because he and I heard testimony 
yesterday in a hearing where the HUD agencies involved with 
housing on the Indian reservations and the DOT agencies 
involved with transportation on the Indian reservations were 
discussed. What we heard, ultimately was that there are over 
three times the national average of traffic fatalities on 
Native American lands, on the Indian reservations, in Indian 
country, than the national average. Now that is a pretty 
dramatic kind of a number.
    Mr. Strickland. Yes, sir.

                     INDIAN RESERVATION CONDITIONS

    Mr. Olver. The suggestion was that there are unsafe road 
conditions. I would say from looking at pictures, they do not 
look as if the roads were designed, most of them are unpaved as 
well, that there is low seat belt usage and alcohol impairment, 
those were the things that generally were cited. You have had 
very good campaigns on seat belt usage and drinking. We have 
obviously improved the roads steadily, or tried to except for 
periods when we are without reauthorization of our surface 
transportation systems which clearly we are in danger of losing 
the quality of the road surfaces if we do not get going on that 
kind of thing. First of all, do you have authority to have 
impact on there, and exactly what are your programs like on the 
Indian reservations?
    Mr. Strickland. Our programs are the same programs that we 
use for the states. The relationship in the funding is 
different. The Congress provides $4.5 million in Section 402 
funds every year to the Bureau of Indian Affairs, and that $4.5 
million managed by the Bureau of Indian Affairs, they act like 
a state highway grant.
    Mr. Olver. It goes through BIA?
    Mr. Strickland. It goes through BIA, and that money is for 
the incentive programs for all 600 Native American tribes. So 
just from a funding standpoint, $4.5 million to deal with all 
the Native American tribes, I can see that probably being one 
issue there. In terms of how we interact with the Bureau of 
Indian Affairs, we treat them as any other state highway safety 
program, and we will in terms of offering our assistance. In 
terms of providing guidance and education and the support of 
our advertising programs, we are definitely looking at new 
opportunities and new ways to create better operational 
efficiencies in working with BIA on this front because, just as 
in motorcycles, we agree that number is way too high and we 
need to do more work in that area.
    Mr. Olver. Well, the $4.5 million is not a number that 
should be proportionally compared with your whole budget, but 
that is half of 1 percent of your budget. And the population on 
the Indian reservations is probably not much more than half of 
1 percent of the population. It is a little bit more than half 
of 1 percent. But the statistical evidence really calls for 
something to be done, and I would like you to. We may even 
write something into our legislation this year, but I would 
like you to think seriously maybe with some further contact 
with the Subcommittee about how those programs work.
    When you mentioned that it goes through the BIA, I have the 
feeling, from serving on the Interior Committee where the BIA 
and Indian Health Services dealt with and all the things that 
that entails, and the horror stories are horrendous it seems to 
me, along with chairing this Subcommittee where we do housing 
and transportation, that there is one awful lot of sand that 
gets in the gears in the process of how our agencies work with 
Indian people on the reservations.
    Mr. Strickland. Mr. Olver, we will be happy to communicate 
with the Subcommittee and our staff will work very closely with 
your staff in trying to find ways to improve the numbers in 
Native American tribes. You are absolutely right, the numbers 
are statistically off the charts in terms of the population and 
the risk, and we need to do a much better job and we are 
looking forward to working with you on that.
    Mr. Olver. Thank you, thank you. Mr. LaTourette.

                              SECTION 130

    Mr. LaTourette. Thank you, Mr. Chairman. Mr. Administrator, 
one of the greatest safety features of the highway 
reauthorization in my opinion is the Section 130 program which 
provides funds to upgrade at-grade railroad crossing. And you 
can make railroad crossings impenetrable and some clown is 
still going to try to beat the train. Are you involved in the 
implementation of that, do you make suggestions at all, your 
agency?
    Mr. Strickland. That is, again that is Federal highways 
that deals with grade crossings and I guess the Federal 
Railroad Administration probably deals with that as well. We 
deal with the education parts of just in terms of safe driving 
generally, speed control issues, aggressive driving, and part 
of that is challenging the grade crossings or trying to beat 
the train is definitely part of our efforts in terms of our 
general teaching about safe driving and all of those efforts, 
and we definitely will work with our other Administrations to 
help improve overall safety around grade crossings. But the 
actual physical grade crossings themselves, that is Federal 
Highways.
    Mr. LaTourette. Federal Highways, so you do not get 
involved or make suggestions about design modifications?
    Mr. Strickland. No, sir, we do not.

                                 SAFETY

    Mr. LaTourette. Okay. One of the difficulties with some of 
the proposals, you talked about how much, when you were talking 
to Mr. Olver about the motorcycles, seatbelts, air bags, and so 
on, one of the big dilemmas has always been during the 
reauthorization of the Highway Program whether you use a carrot 
or stick approach and what the impact is. And on the helmet 
issue I can remember pretty vividly during the reauthorization 
of not only of ICE TEA but then T-21 which became SAFETEA-LU, 
that there were proposals that you would withhold--not you--but 
that funds would be withheld from states that did not enact 
mandatory helmet laws.
    What would happen historically is that we would have a 
hearing on it and a lot of large gentlemen with body art and 
hair would, you know, fill the back and sort of cross their 
arms and scowl at you, you know. So it is a tough thing, and, 
you know, some could make the argument that unlike seatbelts 
and other things that are designed into a passenger vehicle 
that if you want to ride your motorcycle without your helmet 
and that is you understand that it may cause your death and you 
feel like doing it anyway, which is their argument I guess. If 
you were the king and you could use either the carrot or the 
stick as we approach this reauthorization, what would be, I 
assume helmets would be on your list, is there anything else 
that would be on your list that you would either give a state 
more highway funds if they did it or take them away if they did 
not that would satisfy some of the things that you are working 
on?
    Mr. Strickland. We would be happy to talk to you about our 
overall safety program in terms of what would be the most 
effective way to sort of to move the needle. Motorcycles is one 
that I am very concerned about because of all the trend data 
that we have been seeing and we have provided to the 
Subcommittee, that trend is going in the wrong direction, it 
has been going in the wrong direction for a very long time. But 
of those deaths, there is 33,000 people, over 33,000 people 
that lost their lives.
    So we need to be stronger and more effective in impaired 
driving, we need to be stronger and more effective in belts, we 
need to be stronger and more effective in aggressive driving 
and in speed control. All of these issues play into the safety 
matrix that NHTSA deals with, and any policy that would help 
move the safety needle forward, we would be happy to have 
ongoing suggestions and conversations with this Subcommittee 
and with the rest of the Congress in doing that.

                           MOTORCYCLE SAFETY

    Mr. LaTourette. I would appreciate that very much. And just 
on the subject of motorcycles, I know you mentioned that 
helmets is the biggest cause in your mind of fatalities, but my 
observation as I drive down the road is that there are a lot of 
people driving motorcycles that have no business driving 
motorcycles, they have not had the education and the training. 
I mean I cannot ride a motorcycle, I would never ride a 
motorcycle just like I am not going to ride a horse, I do not 
know how to do it. Is that anywhere in the data that you have 
looked at? So you have got helmets number one, how about the 
fact that you have got people that do not know what they are 
doing?
    Mr. Strickland. The current grant programs deal with 
education, rider education and the education of drivers around 
them. In terms of the licensing, that is a state issue and we 
encourage the states to put together more fulsome licensing 
programs and training programs for riders. Even with proper 
training there is also human behavioral elements that are at 
play here. The one thing that the data has shown that the 
popularity of motorcycles has risen over the years, it is that 
the riders are getting older and their response times are 
slower, which is another factor that goes into the number of 
accidents and fatalities as well.
    So there is a combination of issues with motorcycles that 
we have to address, it is not simply wearing a helmet is the 
best thing that you can do to keep a person alive if they have 
an accident. Proper training is very much an element, and 
especially recognizing your own limitations in riding the 
motorcycle is an element as well, and I am sure there are 
several others. We will be happy to discuss those in more 
detail. My staff is very knowledgeable on this issue on 
motorcycles and all the data around it, we are happy to have 
ongoing discussions with your office about that.
    Mr. LaTourette. Thank you. Thank you, Mr. Chairman.
    Mr. Olver. Mr. LaTourette, I cannot help but comment, as 
you were starting your comments there I was seeing a fairly 
large gentleman with a fair amount of hair and imagining 
whether there might be body art if you wanted to show it to us. 
Mr. Berry, thank you for joining us today. You always bring 
color and substance to our hearings.
    Mr. Berry. You all have given enough material for a 30-
minute standup act. When Steve was talking about all the things 
he cannot ride, I am not going to list all the things that I 
cannot ride, but I can see a lot of opportunities for comments 
about that. And I appreciate the gentleman from Ohio's bringing 
that issue up because it seems like it has been around way too 
long now and we still do some things that are not very helpful. 
The thing that has always bothered me the most about applying 
the necessary safety protection in any kind of transportation 
is that people that get hurt are not the ones that pay the 
bill, it is usually the public that ends up taking care of 
those folks for the rest of their days many times if they did 
not use necessary safety equipment. And I really do not have 
anything to add, I thank you for being here this morning and 
doing this.
    Mr. Strickland. Thank you, sir.
    Mr. Berry. But I would just like to associate myself with 
the remarks that the Chairman made about the Native American 
reservations and the way they get treated by Transportation in 
general.
    Mr. Strickland. Yes, sir.
    Mr. Berry. And I would encourage you to do anything you can 
do to try to improve that.
    Mr. Strickland. Yes, sir, Mr. Berry. We will definitely be 
happy to talk to your office as well. We are seeing more lives 
lost and that is an upward trend that has to be a top level 
agenda item for this agency and it will be one.
    Mr. Berry. Thank you very much. I yield back, Mr. Chairman.
    Mr. Olver. On that point, we will make certain that all 
Members of the Subcommittee because there is interest on the 
part of several of the Members if not all, of whatever we 
might, whatever communication we might have on that issue.
    Mr. Strickland. Yes, sir.

                                STAFFING

    Mr. Olver. Mr. Strickland, I am very impressed by the fact 
that you are finding within your budget the places to do more, 
and finding places where more is not needed and you can 
actually take out a little bit and so forth, and move around to 
be able to accomplish what is needed. I was at first quite 
surprised that you were going to get 66 new positions. My first 
calculations said that would be more money just for the 
salaries. You know, what is a budget that is only $5 million, 
or less than $5 million, increased over the past year? Then I 
realized that it was 33 full time equivalents, and I take it 
that that means is assuming a half-year hiring essentially for 
this.
    Mr. Strickland. Yes, sir.
    Mr. Olver. On average some will come on more quickly and 
some will not during the fiscal year, so that is not 
unreasonable if you just put $100,000 down as the salary for 
the type of positions the personnel costs and such with doing 
that. But I am curious if you can give us an idea how you make 
the allocation as to what places those are going to be needed. 
Can you describe for us how that significant addition in 
staffing, which I believe you need, is going to go to the 
various programs?
    Mr. Strickland. Well, it actually will be across the entire 
agency, not only on the behavioral grants side, the traffic 
injury control side, but also the vehicle safety side as well 
and NHTSA's office there. In terms of there will be folks, I 
believe that we are looking at additions and enforcement 
generally which includes the Office of Defect Investigation, 
increases in our rule making office where we have several rules 
underway, we will need additional support not only from the 
engineering and analysis side but the legal support in getting 
those rules out.
    We also will need additional help and assistance in our 
Office of Chief Counsel where they support the entire mission 
on both sides of the house, the behavioral side and on the 
vehicle safety side as well. So in terms of the allocations, 
one thing that I have learned in my three months on the job is 
that NHTSA's priorities have to recognize what the risks and 
the efforts that are out there.
    So when we presented the President's budget to you, that 
was prior to what we now know about our ongoing work on the 
vehicle safety side with Toyota. So I believe that we 
originally were allocating eight or nine employees for that 
area, we may make a decision to allocate more people in that 
effort because of the long term research goals that we have in 
other areas, and we will definitely communicate with you those 
recommendations that we have and as we make those final 
decisions going forward.
    Mr. Olver. How many of those FTEs are necessary for the 
distracted driving program?
    Mr. Strickland. In the behavioral side of the house, there 
is approximately about 15 or 16 of those folks and they support 
several areas. They support not only distraction but impaired 
driving, the belt programs, and pedestrian and bicycling 
safety. They do a number of different tasks within traffic 
injury control. So there is not still going to be individuals 
specifically allocated for distraction, there will be folks 
that will be supporting the entire grant mission that we 
undertake.
    Mr. Olver. And how many do you think are going to be 
assigned to the office or maybe cubbyhole for Indian 
reservation consideration?
    Mr. Strickland. We will definitely take a look at that 
effort, we will be happy to talk to you about that.
    Mr. Olver. Okay, I will go back on a second round here. 
And, Mr. Carter, do you want to be?
    Mr. Carter. I think I had better listen, Mr. Chairman. I am 
sorry I am late.
    Mr. Olver. Well, it is good to have you. You always offer 
good things when you are here. So I will go back to Mr. 
LaTourette. We will go through one more round here and then let 
Mr. Strickland go back. With all the people here I do not know 
how many are from the agency but I am wondering if we have 
badly slowed down the good works that you can do by this 
hearing. Mr. LaTourette.

                           CASH FOR CLUNKERS

    Mr. LaTourette. Perhaps if they had worn helmets it would 
be different. Did NHTSA have a role in the Cash for Clunkers 
program?
    Mr. Strickland. NHTSA actually managed and ran the Cash for 
Clunkers program.
    Mr. LaTourette. That is what I thought. Just, any stories 
from that experience that would be a benefit? Good experience, 
not so good experience?
    Mr. Strickland. I have a very strong, experienced, and 
intelligent staff that if I were Administrator during that time 
period I think I probably would have fallen over half dead, but 
this same group of people that worked on Cash for Clunkers are 
the same folks that do all of the agency's missions and work, 
and they have handled Cash for Clunkers with incredible aplomb 
and great success, and I could not be more proud to be their 
Administrator.
    The lessons learned are many in terms of not only from 
NHTSA as an individual administration or the Department of 
Transportation as an entire department or the executive branch 
as a whole, that the ability to be incredibly flexible, to be 
able to leverage not only your own staff but the staff in the 
entire Department of Transportation to get a program like that 
off the ground from bedrock in 30 days is an achievement which 
I cannot think of in terms of from a rule making and a program 
implementation that we have probably seen in the Federal 
government in a very long time, if ever, possibly.
    There were 700,000 cars that were purchased, the fuel 
economy of cars was incredible. I know there was an expectation 
that a lot of those vehicles would have been exchanging older 
SUVs for newer SUVs, but the incentive of $4,500 got people out 
of larger more inefficient SUVs into passenger cars which are 
better on fuel. We are still trying to get all the data 
together but I will make an educated guess that we have 
probably greatly improved the safety as well, because we got 
older cars with lesser safety systems off the road and people 
buying new cars with airbags and other more advanced safety 
systems as well. It was a complete success on a lot of fronts, 
and the agency is very proud of that accomplishment.
    Mr. LaTourette. And I think you should be. There was some 
criticism from auto dealers that the forms were a little long, 
21 pages or some such thing, but, you know, I think you are to 
be commended or the Department is to be commended for the work 
that you did. I would just make mention of the fact that it was 
a $3 billion program and imagine if it was hundreds of billions 
and healthcare that we were talking about, getting that program 
up. That is a different day. I want to talk about pedestrian 
safety, which is important.
    Mr. Strickland. Yes, sir.
    Mr. LaTourette. And you have said in your testimony that, 
and I think that you are developing educational enforcement 
based programs to reduce the incidents of crashes involving 
impaired individuals, but just like I love people that ride 
bicycles I love pedestrians and encourage people to walk 
wherever they can. So what are you talking about doing and what 
are you doing? And just, there is a bill that I am aware of 
that is being pushed by several of the blind organizations that 
talk about minimum standards for the noise a car has to make 
and other things. So what types of things are you working on?

                        VEHICLE NOISE STANDARDS

    Mr. Strickland. There are several issues, Mr. LaTourette, 
that we are undertaking on pedestrian safety. And the reason 
for my particular focus on this issue is, as described by 
Secretary LaHood, the effort for level of communities where we 
are going to be encouraging more people to walk and to ride 
bicycles. Individual mobility is not going away. We are going 
to be having cars having to interact with increased pedestrian 
traffic and we need to find better ways to make sure that we do 
not create higher risks from this in this transition.
    We are talking about enforcement programs very similar to 
what we are doing in impaired driving where there is zero 
tolerance on the part of local police departments in terms of 
jaywalking and proper utilization of pathways to making drivers 
more aware, not blocking the box, all of the things which some 
police departments may think of as de minimis are actually can 
really move the needle in terms of safety for pedestrians.
    In addition to that, education programs for drivers and 
pedestrians very similar to the work that we undertake in 
impaired driving and in belts, and we are looking at 
integrating that in a system that we are working on in impaired 
driving that has proven to be very successful from an 
organizational standpoint. And to also to respond to your final 
point in terms of silent cars, the one thing that impacts not 
only pedestrian safety is the fuel economy standards that we 
will promulgate on April 1st and the continued electrification 
of the fleet.
    As you know, electric cars do not have anywhere close to 
the same type of sound signature that a regular internal 
combustion engine has, and we are seeing that already with the 
hybrid cars, the Priuses and the hybrids that are out on the 
fleet. It is not just those that are sight impaired, we have 
found in parking lots that folks are not aware of a hybrid car 
behind them and if the person driving the hybrid is not aware 
of everything around them we are also seeing impacts and issues 
there. So we are undertaking several research projects in 
dealing with this issue, hopefully to make us much smarter 
about those impacts, and if we are finding that there is an 
emerging risk that where we may need to undertake rule making 
there to deal with this sound issue, we will do so.
    Mr. LaTourette. Okay. Thanks so much. Thank you, Mr. 
Chairman.
    Mr. Olver. I assume the tires still squeal?
    Mr. Strickland. Actually, the interesting thing that we 
found in the data is the tire noise is probably one of the main 
signature sounds that once you get to a certain speed you hear 
not only the engine but the tire noise. But we have to try to 
find a voluntary set of standards that the industry is going to 
undertake or if it goes to a more permanent rule making 
posture, we do not want to overcorrect, because the one goal 
for the entire fleet has been to try to make cars quieter 
because we are having noise impact in densely populated urban 
areas and you do not want to end up exchanging one problem for 
the other. So we have to be very careful in trying to find the 
right balance there in the safer car issue.
    Mr. Olver. Thank you, you are ready with answers to 
anything, even if they were not intended. That was just a side 
comment, thank you. Mr. Berry.
    Mr. Berry. I have no further questions.
    Mr. Olver. No further questions. Mr. Carter, it comes round 
to you.
    Mr. Carter. Well, I did hear something I have had 
experience with; not by choice but by mandate. And it really is 
kind of a solution because they do not make any noise, and even 
the driver sometimes can forget that that car will go forward 
if you step on the gas, because it does not make any noise. And 
especially backing up in a parking lot at the grocery store, 
you could easily run over somebody, because they are walking 
behind your car and they are listening for that engine running, 
and you put that little electric motor in gear and it makes no 
noise at all. The question is going to be, I know that a friend 
of mine has got a Toyota pickup that has got a little voice 
that yells out, get out of the way we are backing up. Are we 
going to be going to that kind of thing? Because I think you 
may have to see that.
    Mr. Strickland. I know that for each manufacturer that 
produces hybrids and electric vehicles, they are looking at 
sound profiles to help give warnings. In the instance of larger 
trucks and delivery trucks, they have the backup beeping sound 
to help with that. And the question again, Mr. Carter, is 
trying to find the right warning, the right sound profile to 
assist not only pedestrians around the car, but to also make 
the driver, I mean it is also driver awareness.
    Also one rule underway at NHTSA is the Cameron Gulbransen 
Kids Traffic Safety Act, and one of the components of that is 
rearward visibility of the driver, trying to create performance 
standards to make sure that drivers can actually see what is in 
back of them when they are backing up, whether it is a camera 
or better mirrors. We are working toward that performance 
standard when we will get that rule out on time. But the 
question, Mr. Carter, I think is not only a valid one but it is 
very pertinent to how the fleet is evolving, how we can empower 
drivers to be better about what they see behind them, but how 
we can empower pedestrians to actually protect themselves.
    Mr. Carter. And I am not an advocate of the government 
intruding in people's lives, but if you have ever been to Great 
Britain, and you have all experienced stepping off the curb 
because the traffic is coming from the wrong direction, and we 
are, whether we like it or not, we are Pavlovian responses over 
our experiences in life and most people do not expect cars to 
back up when they are not making noise or go forward when they 
are not making noise. And so we are going to have to come up 
with a solution, just make a motor noise is probably just the 
easiest way to do it.
    Mr. Strickland. Yes, sir.
    Mr. Carter. Rather than some guy screaming, watch out I am 
backing up.
    Mr. Strickland. Yes, sir, Mr. Carter.
    Mr. Carter. Thank you.
    Mr. Olver. Maybe it just has to have something that beeps 
when it is backing up or something like that at very low speed. 
I am curious, Mr. Carter, you made the comment that you were 
driving a hybrid by mandate. Whose mandate was that?
    Mr. Carter. They--just gave me a hybrid. But the reality 
was I think the Speaker said we had to get that hybrid.
    Mr. Olver. The Speaker said?
    Mr. LaTourette. No, it was not the Speaker, it is the rules 
of the House.
    Mr. Olver. The rules of the House that if you are having a 
leased car it must be?
    Mr. Carter. It was recommended we buy a hybrid car.
    Mr. Olver. Okay.
    Mr. Carter. I got it by accident and my dealer said, well 
you know what, you are a Congressman. I got a really good deal 
on it.
    Mr. Olver. Well thank you for the clarification. I was 
imagining a different kind of a mandate. Let's see, I am just 
about prepared to close. Actually I have one question, and I 
will let you have a comment and then we will just have closing.
    Mr. LaTourette. Thanks.

                                  CAFE

    Mr. Olver. I just wanted to go back to the EPA standard 
issue for the CAFE standards issue. The EPA has the authority 
to deal with greenhouse gases, you have the authority to deal 
with fuel efficiency per se. And you have twice said that we 
are going to meet the 1st of April deadline, that rule is going 
to be promulgated at that time.
    Mr. Strickland. Yes, sir.
    Mr. Olver. So it is happening, and you have called it a 
joint rule.
    Mr. Strickland. Yes.
    Mr. Olver. So it is a joint rule under both of those, and I 
take it, what is the form of the joint rule, are there things 
that relate only to EPA or how does that look? How often, have 
you done joint rule making before?
    Mr. Strickland. This is the first time that we have done a 
joint fuel economy greenhouse gas rule making because up until 
this time there was no greenhouse gas authority.
    Mr. Olver. Has NHTSA done other joint rules?
    Mr. Strickland. Actually I do not know that, I would have 
to get back to you on that particular question. But in terms of 
the work between the Environmental Protection Agency and NHTSA 
in promulgating this rule, the rule is a good rule and it is 
going to be a very strong rule. Even though we are each 
fulfilling our legal obligations, ours is statutory and theirs 
is by a Supreme Court decision, there are actually areas that 
the Environmental Protection Agency can regulate and we have 
limitations that we cannot.
    For example, air conditioning systems, we can only regulate 
a system that impacts fuel economy, actually moving the car a 
certain distance using a certain amount of fuel. An air 
conditioner is parasitic, it definitely impacts usage of gas 
and fuel economy and increase to greenhouse gases, but it has 
nothing to do with moving the car. So CAFE can actually reach 
to regulate air conditioning systems, but since it is a 
greenhouse gas issue the Environmental Protection Agency can 
regulate air conditioning systems and will undertake regulating 
that in this rule. So that is one particular instance where the 
joint rule making not only covers the statutory mandates it 
actually makes it a stronger more effective rule on behalf of 
both NHTSA and EPA and overall greenhouse gas impact.
    Mr. Olver. Well I just happen to think that the breaking 
down of these silos can be nothing but a good thing. Every one 
of us I think can imagine places where the collaboration 
between agencies will lead to smoother workings rather than the 
kinds of difficulties that you run into when that is not done 
at all, as it has typically been done in the past, my 
impression at least. Mr. LaTourette, anything?
    Mr. LaTourette. Just one observation, and just a parochial 
thing. I have in my district something that most of the Members 
probably do not, I have a lot of Amish. So one of the big 
problems we have are motor vehicle buggy collisions. When we 
were running up to the reauthorization of SAFETEA-LU I had a 
guy come in and try to sell me on some proposal, you know, 
right now most of them just have that big reflector that you 
have on farm wagons on the back, but he was saying, boy could 
you get me a grant to do what Carter was talking about, you 
know, like, look out there is a buggy ahead. Is NHTSA working 
on anything, is that a big problem that is on your radar screen 
or is it just I have got to do something in Geauga County, 
Ohio?
    Mr. Strickland. Mr. LaTourette, we will be happy to talk to 
you about that. I guess that is probably similar to the 
pedestrian automobile interface issue that we just talked 
about. But I know not only in your community, but other 
communities in Pennsylvania have very similar problems and I 
definitely would like to have to come back and have an 
opportunity to talk to you about that.
    Mr. LaTourette. And I would love to talk to you, and I 
thank you, you did a great job this morning. And thank you, Mr. 
Chairman.
    Mr. Strickland. Thank you, sir, I appreciate that.
    Mr. Olver. Well if you want to you can even try in Ontario 
on the last point, there are a lot of Amish up in Ontario. So 
thank you very much, this has been a very good hearing, I have 
enjoyed it very much, and thank you very much for your 
testimony.
    Mr. Strickland. Mr. Olver, it is a pleasure, thank you.
    Mr. Olver. Good luck with your continuing activities.
    Mr. Strickland. Thank you very much.
    Mr. Olver. Thank you.

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]












                               I N D E X

                              ----------                              

                      DEPARTMENT OF TRANSPORTATION

                                                                   Page
Airline Drug and Alcohol Abuse Prevention........................    19
Airline Safety...................................................22, 23
Airports.........................................................    33
Environmental Issues.............................................20, 38
High Speed Rail..........................................21, 24, 26, 29
Highway Trust Fund...............................................14, 17
Infrastructure Fund..............................................30, 34
Livable Communities..............................................12, 34
Motor Carriers...................................................26, 39
New Starts Program...............................................    15
NextGen..........................................................    36
Opening Remarks, Chairman John W. Olver..........................     1
Opening Remarks, Hon. Ray LaHood, Secretary of Transportation....     4
Opening Remarks, Ranking Member Tom Latham.......................     3
Rail Safety......................................................17, 19
Reauthorization..................................................    31
Saint Lawrence Seaway............................................    28
TIGER Grants.................................................17, 23, 37
Toyota Recall Response...........................................    13
Transit..........................................................    39
Written Statement, Hon. Ray LaHood, Secretary of Transportation..     7

  STRENGTHENING INTERMODAL CONNECTIONS AND IMPROVING FREIGHT MOBILITY

CSX..............................................................   331
Freight Fund.....................................................   337
Fuel Costs.......................................................   327
Fuel Efficiency..................................................   327
Global Competition...............................................   325
Hazardous Materials..............................................   343
Highway Trust Fund.............................................323, 325
Infrastructure Maintenance.......................................   326
Intermodal Efforts.............................................328, 335
Intermodal vs. Multimodal........................................   328
Linking Rail and Ports...........................................   331
National Freight Policy........................................336, 339
National Transportation Strategy.................................   329
Opening Remarks, Chairman John W. Olver..........................   265
Opening Remarks, Ranking Member Tom Latham.......................   266
Opening Remarks, Mr. John Wolfe, Executive Director--Port of 
  Tacoma.........................................................   277
Opening Remarks, Mr. Richard Timmons, President--American Short 
  Line and Regional Railroad Association.........................   287
Opening Remarks, Mr. Timothy Lynch, Senior Vice President--
  American Trucking Association..................................   311
Opening Remarks, Mr. Wayne Johnson, Director of Logistics--
  American Gypsum................................................   298
Opening Remarks, Ms. Beverly Swaim-Staley, Secretary--MD 
  Department of Transportation...................................   267
Passenger Rail...................................................   341
Port Investments.................................................   332
TIGER Grants.....................................................   342
Trucking Weight Limits...........................................   324
Written Statement, Mr. John Wolfe, Executive Director--Port of 
  Tacoma.........................................................   279
Written Statement, Mr. Richard Timmons, President--American Short 
  Line and Regional Railroad Association.........................   290
Written Statement, Mr. Timothy Lynch, Senior Vice President--
  American Trucking Association..................................   313
Written Statement, Mr. Wayne Johnson, Director of Logistics--
  American Gypsum................................................   301
Written Statement, Ms. Beverly Swaim-Staley, Secretary--MD 
  Department of Transportation...................................   270

   STRENGTHENING INTERMODAL CONNECTIONS AND FISCAL YEAR 2011 BUDGET 
                                REQUESTS

Bicycle and Pedestrian Policy....................................   364
FMCSA Budget.....................................................   373
Freight..........................................................   368
Highway Trust Fund Reauthorization...............................   359
Light Rail.......................................................   363
MARAD............................................................   373
NAFTA............................................................   374
Opening Remarks, Chairman John W. Olver..........................   345
Opening Remarks, Hon. Roy Kienitz, Under Secretary for Policy, 
  Department of Transportation...................................   346
Opening Remarks, Ranking Member Tom Latham.......................   346
Rail Line Relocation.............................................   366
RIF Program......................................................   371
TIGER Grants....................................358, 361, 365, 367, 370
Written Testimony, Hon. Roy Kienitz, Under Secretary for Policy, 
  Department of Transportation...................................   350

        FEDERAL AVIATION ADMINISTRATION FISCAL YEAR 2011 BUDGET

Agency Budget Cuts...............................................   590
AIP Grants for Livable and Sustainable Projects..................   558
Airspace Redesign/Consolidations.................................   585
ARRA Job Creation................................................   589
Bilateral Agreements.............................................   590
Collective Bargaining Unit Employee Staffing Numbers.............   592
Controller Pay/Contract Efficiencies.............................   586
Controller Placement Issues......................................   587
Cyber-Security...................................................   557
En-route Modernization Program (ERAM)............................   554
Equipage Incentives for NextGen..................................   580
FAA Reauthorization..............................................   558
FedEx/UPS Labor Provision........................................   558
Foreign Repair Stations..........................................   584
Ground Based Augmentation System (GBAS)..........................   583
Labor Relations with Controllers.................................   581
Minority Hiring/ADS-B............................................   559
Minority Hiring Staffing Plan....................................   556
NextGen for Rural Airports.......................................   555
NextGen Implementation.........................................553, 582
NextGen Implementation/En Route Centers..........................   579
Opening Remarks, Chairman John W. Olver..........................   531
Opening Remarks, Hon. J. Randolph Babbitt, Administrator--Federal 
  Aviation Administration........................................   533
Opening Remarks, Ranking Member Tom Latham.......................   532
Safety...........................................................   591
Terminal Automation Modernization Replacement Program (TAMR).....   596
Written Statement, Hon. J. Randolph Babbitt, Administrator--
  Federal Aviation Administration................................   536

MAINTAINING A SAFE AND VIABLE AVIATION SYSTEM: PRIORITIES FROM AVIATION 
                              STAKEHOLDERS

ADS-B............................................................   662
Air Traffic Controllers........................................660, 666
ERAM.............................................................   655
Fixing Metroplex Areas...........................................   657
Ground Delays....................................................   663
NextGen........................................................653, 659
Opening Remarks, Chairman John W. Olver..........................   609
Opening Remarks, Mr. James May, President and Chief Executive 
  Officer--Air Transport Association.............................   634
Opening Remarks, Mr. Pete Bunce, President and Chief Executive 
  Officer--General Aviation and Manufacturers Association........   627
Opening Remarks, Ms. Gina Marie Lindsey, Executive Director--Los 
  Angeles World Airports.........................................   610
Opening Remarks, Ms. Margaret Jenny, President--RTCA.............   639
Opening Remarks, Ms. Patricia Gilbert, Executive Vice President--
  National Air Traffic Controllers Association...................   617
Opening Remarks, Ranking Member Tom Latham.......................   609
Task Force Five Report...........................................   652
Written Testimony, Mr. James May, President and Chief Executive 
  Officer--Air Transport Association.............................   636
Written Testimony, Mr. Pete Bunce, President and Chief Executive 
  Officer--General Aviation and Manufacturers Association........   629
Written Testimony, Ms. Gina Marie Lindsey, Executive Director--
  Los Angeles World Airports.....................................   613
Written Testimony, Ms. Margaret Jenny, President--RTCA...........   641
Written Testimony, Ms. Patricia Gilbert, Executive Vice 
  President--National Air Traffic Controllers Association........   619

           INTERCITY AND COMMUTER PASSENGER RAIL, AND AMTRAK

AMTRAK Budget Request............................................   700
Domestic Manufacturing...........................................   697
FTA Notice of Funding Availability...............................   710
Funding Transit Agencies.........................................   709
High-Speed Intercity Passenger Rail..............................   716
Livability.......................................................   711
New Starts Criteria..............................................   714
Opening Remarks, Chairman John W. Olver..........................   669
Opening Remarks, Mr. Peter Rogoff, Administrator--Federal Transit 
  Administration.................................................   671
Opening Remarks, Mr. Joseph Bordman, President and CEO of AMTRAK.   688
Opening Remarks, Mr. Joseph Szabo, Administrator--Federal 
  Railroad Administration........................................   682
Opening Remarks, Ranking Member Tom Latham.......................   670
Positive Train Control...........................................   699
Replacing Bus Fleets.............................................   712
Small Starts.....................................................   715
State of Good Repair.............................................   705
TIGER Grants.....................................................   714
Transit Safety...................................................   701
Written Testimony, Mr. Peter Rogoff, Administrator--Federal 
  Transit Administration.........................................   675
Written Testimony, Mr. Joseph Bordman, President and CEO of 
  AMTRAK.........................................................   691
Written Testimony, Mr. Joseph Szabo, Administrator--Federal 
  Railroad Administrator.........................................   684

             NATIONAL HIGHWAY TRAFFIC SAFETY ADMINISTRATION

Bike Lanes.......................................................   744
CAFE.............................................................   760
Carbon Pollution.................................................   745
Cash for Clunkers................................................   757
Distracted Driving...............................................   737
Fatality Rates...................................................   750
Indian Reservation Conditions....................................   752
Interlock........................................................   747
Motorcycle Safety..............................................741, 754
Opening Remarks, Chairman John W. Olver..........................   727
Opening Remarks, Mr. David Strickland, Administrator--National 
  Highway Traffic Safety Administration..........................   728
Opening Remarks, Ranking Member Tom Latham.......................   728
Reauthorization..................................................   744
Safety...........................................................   754
Safety Enforcement...............................................   749
Section 130......................................................   753
Staffing.........................................................   756
Toyota...........................................................   749
Written Testimony, Mr. David Strickland, Administrator--National 
  Highway Traffic Safety Administration..........................   731
Vehicle Noise Standards..........................................   758
Vehicle Safety...................................................   742
Voluntary Vehicle Recall.........................................   746

                                  <all>

</pre></body></html>
